<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-696]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 107-696, Pt. 2
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY 
    ACTIVITIES OF THE DEPARTMENT OF DEFENSE, TO PRESCRIBE MILITARY 
    PERSONNEL STRENGTHS FOR FISCAL YEAR 2003, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 2

                                SEAPOWER

                               ----------                              

                       MARCH 5, 19, APRIL 9, 2002


         Printed for the use of the Committee on Armed Services

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                         2003--Part 2  SEAPOWER

                                                 S. Hrg. 107-696, Pt. 2

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY 
    ACTIVITIES OF THE DEPARTMENT OF DEFENSE, TO PRESCRIBE MILITARY 
    PERSONNEL STRENGTHS FOR FISCAL YEAR 2003, AND FOR OTHER PURPOSES

                               __________

                                 PART 2

                                SEAPOWER

                               __________

                       MARCH 5, 19, APRIL 9, 2002


         Printed for the use of the Committee on Armed Services

?


                     U.S. GOVERNMENT PRINTING OFFICE
81-923 PDF                 WASHINGTON DC:  2002
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia,
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

              Judith A. Ansley, Republican Staff Director

                                 ______

                        Subcommittee on Seapower

               EDWARD M. KENNEDY, Massachusetts, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JEFF SESSIONS, Alabama
MAX CLELAND, Georgia                 JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          BOB SMITH, New Hampshire
JACK REED, Rhode Island              SUSAN COLLINS, Maine
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                  Marine Corps Modernization Programs
                             march 5, 2002

                                                                   Page

Jones, Gen. James L., Jr., USMC, Commandant, United States Marine 
  Corps; Accompanied by Lt. Gen. Robert Magnus, USMC, Deputy 
  Commandant of Programs and Resources...........................     4

Maximizing Fleet Presence Capability and Ship Procurement and Research 
                            and Development
                             march 19, 2002

Wachendorf, Rear Adm. Miles B., USN, Director, Strategy and 
  Policy Division, Office of the Chief of Naval Operations.......    61
Mullen, Vice Adm. Michael G., USN, Deputy Chief of Naval 
  Operations for Resources, Requirements, and Assessments........    83
Young, Hon. John J., Jr., Assistant Secretary of the Navy for 
  Research, Development, and Acquisition.........................    87

Navy Equipment Required for Fielding a 21st Century Capabilities-Based 
                                  Navy
                             april 9, 2002

Clark, Adm. Vernon E., USN, Chief of Naval Operations............   144
Whitlow, Maj. Gen. William A., USMC, Director, Expeditionary 
  Warfare Division, Office of the Deputy Chief of Naval 
  Operations for Warfare Requirements and Programs...............   165
Balisle, Rear Adm. Phillip M., USN, Director, Surface Warfare 
  Division, Department of the Navy...............................   172
Sullivan, Rear Adm. Paul F., USN, Director, Submarine Warfare 
  Division, Office of the Deputy Chief of Naval Operations, 
  Department of the Navy.........................................   199
McCabe, Rear Adm. Michael J., USN, Director, Air Warfare 
  Division, Department of the Navy...............................   208

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                         TUESDAY, MARCH 5, 2002

                               U.S. Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                  MARINE CORPS MODERNIZATION PROGRAMS

    The subcommittee met, pursuant to notice, at 3:30 p.m. in 
room SR-222, Russell Senate Office Building, Senator Edward M. 
Kennedy (chairman of the subcommittee) presiding.
    Committee members present: Senators Kennedy, Sessions, 
McCain, and Collins.
    Majority staff member present: Creighton Greene, 
professional staff member.
    Minority staff members present: Gary M. Hall, professional 
staff member; Ambrose R. Hock, professional staff member; and 
Thomas L. MacKenzie, professional staff member.
    Staff assistants present: Dara R. Alpert and Andrew Kent.
    Committee members' assistants present: Menda Fife and 
Christina L. Martin, assistants to Senator Kennedy; Marsall A. 
Hevron, assistant to Senator Landrieu; Christopher J. Paul, 
assistant to Senator McCain; Arch Galloway II, assistant to 
Senator Sessions; Kristine Fauser, assistant to Senator 
Collins; and Derek Maurer, assistant to Senator Bunning.

           OPENING STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Our chairman Senator Kennedy has asked me 
to start this hearing on time. He will join us shortly. He is 
chairing an important committee hearing on cloning and other 
issues as chairman of the Senate Health, Education, Labor, and 
Pensions Committee.
    So in the spirit of bipartisanship, which has really been 
exemplified on this subcommittee by Senator Kennedy's 
leadership, I want to welcome our subcommittee to the first 
seapower hearing of this budget review cycle. We are delighted 
to welcome the Commandant of the Marine Corps, General Jim 
Jones, to kick off our seapower hearings. It is my pleasure 
once again to serve as the ranking member on this subcommittee. 
I thank Senator Kennedy for his leadership. He has scheduled 
hearings that will explore the key issues facing us while 
exercising oversight of the many seapower procurement and 
research and development programs.
    It is prudent for us to begin our hearings by asking the 
big picture question: What is it that our military forces are 
supposed to be able to accomplish? The Secretary of Defense 
answered this in September 2001 in the Quadrennial Defense 
Review, which states the four defense policy goals as: assuring 
our allies and friends; dissuading future military competition; 
deterring threats and coercion against United States interests; 
and if deterrence fails, decisively defeat. The Navy and Marine 
Corps team are vital to carrying out all four of these policy 
goals.
    Seapower is another way to describe the capabilities the 
Navy and Marine Corps have to meet the challenge described in 
the QDR of ``projecting and sustaining U.S. forces in distant 
anti-access environments.'' The Secretary of the Navy has 
reaffirmed a commitment to remain forward-engaged while 
developing future capabilities.
    Forward presence enabled the regional commander to 
initiate, on relatively short notice, Operation Enduring 
Freedom using three aircraft carrier battle groups and two 
amphibious ready groups with an embarked Marine Corps brigade 
command element. The performance of our men and women in 
uniform and from our government agencies in Operation Enduring 
Freedom in fighting terrorism here at home has been superb.
    There are a number of issues that I look forward to 
exploring today with our witnesses, including the Marine 
Corps's role in fighting terrorism, organic and naval gunfire 
support, amphibious assault vehicles, and ships that provide 
tactical lift, command and control, and logistics. In addition, 
new Marine Corps concepts may require changes in equipment and 
operational capabilities.
    I remain committed to ensure the MV-22 Osprey program 
implements the recommendations of last year's review panel to 
incorporate safety, reliability, and maintainability fixes.
    I join our chairman in welcoming General Jones, the 
Commandant of the Marine Corps, and express my sincere 
appreciation to the Commandant for all the members of the 
Marine Corps, active duty, Reserve, civilian, and supporting 
family members for their sacrifices and continuing services to 
our great country.
    General Jones, thank you for being with us. This is the 
first of a series of important hearings we will be having on 
how we deal with seapower, of which the Marine Corps is a big 
part. But first, if you would tell me, what is the state of the 
Corps? How do you feel about the morale and readiness and just 
the general feel for the Corps at this point in time?
    [The prepared statement of Senator Sessions follows:]

              Prepared Statement by Senator Jeff Sessions

    It is my pleasure to serve, once again, as ranking member of the 
Seapower Subcommittee. I thank Senator Kennedy for his leadership of 
this subcommittee. He has scheduled hearings that will explore the key 
issues while exercising oversight of the many Seapower procurement and 
research and development programs.
    It is prudent for us to begin our hearings by asking the big 
picture question: What is it that our military forces are supposed to 
be able to accomplish?
    The Secretary of Defense answered this question in the September 
2001 Quadrennial Defense Review (QDR) which states the four defense 
policy goals are:

        1. Assuring allies and friends.
        2. Dissuading future military competition.
        3. Deterring threats and coercion against U.S. interests; and
        4. If deterrence fails, decisively defeat.

The Navy and Marine Corps team are vital to carrying out all four of 
these policy goals.
    The QDR also notes that ``access'' will be a key issue in the 
future and our ability to use land-basing of forces may be limited. The 
Commandant of the Marine Corps stated, ``Sea-basing affords us the 
flexibility of employing robust air and ground forces at a time and 
place of our choosing.'' The Commander in Chief of the Atlantic Fleet 
recently stated, ``We can fight here or over there, I'd rather fight 
them over there.''
    Seapower is another way to describe the capabilities the Navy and 
Marine Corps have to meet challenge described in the QDR of 
``projecting and sustaining U.S. forces in distant anti-access 
environments,'' in other words, fighting them over there. The Secretary 
of the Navy has reaffirmed a commitment to remain forward engaged while 
developing future capabilities.
    Forward presence enabled the regional commander to initiate, on 
relatively short notice, Operation Enduring Freedom using three 
aircraft carrier battle groups and two amphibious ready groups with an 
embarked Marine Corps brigade command element. It is noteworthy that 
the Marine Corps brigadier general who commanded the brigade command 
element, was the first Marine to command a naval task force, Task Force 
58. This accomplishment is a testament to the close cooperation of the 
Navy and Marine Corps leadership. The performance of our men and women 
in uniform and from our government agencies in Operation Enduring 
Freedom and fighting terrorism here at home has been superb.
    The U.S.S. Kitty Hawk's serving as a forward operating base for 
special operations forces and the ability of the Peleliu and Bataan 
Amphibious Ready Groups and 15th and 26th Marine Expeditionary Unit 
(Special Operations Capable) to use Marine Corps aircraft to lift sea 
based Marines 400 miles into Afghanistan are excellent examples of 
transformational forces and platforms.
    However, the QDR and Operation Enduring Freedom are not the end, 
they are the beginning. The Secretary of the Navy has been directed by 
the Secretary of Defense to develop new concepts of maritime pre-
positioning, high-speed sealift, and new amphibious capabilities for 
the Marine Corps. In addition, he has been tasked to shift some to the 
Marine Corps' afloat pre-positioned equipment from the Mediterranean 
toward the Indian Ocean and Arabian Gulf and to explore the feasibility 
of conducting Marine Corps training for littoral warfare in the Western 
Pacific. The Marine Corps has a memorandum of understanding with the 
Special Operations Command which will provide the framework for future 
development and strengthening of relations between the two 
organizations.
    There are a number of issues I look forward to exploring today with 
our witness including the Marine Corps' role in fighting terrorism, 
organic and naval gun fire support, amphibious assault vehicles, and 
ships that provide tactical lift, command and control, and logistics. 
In addition, new Marine Corps concepts may require changes in equipment 
and operational capabilities. The Marine Corps' warfighting lab has led 
the way in quickly evaluating methods and equipment to support 
expeditionary maneuver warfare. Integrated logistics, strategic 
agility, operational reach, and tactical flexibility issues are 
fundamental to understanding unique capabilities of the Marine Corps.
    I am well aware of the validated requirement for the MV-22 Osprey, 
and the improved capability it will deliver in speed, range, and 
payload. However, I remain committed to ensure the program implements 
the recommendations of last year's review panel to incorporate safety, 
reliability, and maintainability fixes.
    I look forward to exploring these issues with our witness today as 
we review Marine Corps requirements for equipment and force structure 
to meet today's and future challenges.
    I join our Chairman in welcoming General Jones, the Commandant of 
the Marine Corps, and I express my sincere appreciation to the 
Commandant for all members of the Marine Corps: active duty, Reserve, 
civilian, and supporting family members for their sacrifices and 
continuing service to our great country.

STATEMENT OF GEN. JAMES L. JONES, JR., USMC, COMMANDANT, UNITED 
  STATES MARINE CORPS; ACCOMPANIED BY LT. GEN. ROBERT MAGNUS, 
       USMC, DEPUTY COMMANDANT OF PROGRAMS AND RESOURCES

    General Jones. Thank you, Senator, very much for that kind 
welcome. To you and the chairman, I want to express my 
appreciation for the opportunity to be here today to talk about 
marines and their families and how we feel about ourselves. If 
you do not mind, I have a very short opening statement that 
will address that question and I will ask that it be entered 
for the record if that is okay with you.
    Senator Sessions. That would be wonderful.
    General Jones. Senator, in February some of the members of 
this subcommittee and I had the privilege of attending a 
conference on international security in Munich, Germany. I 
remembered a statement uttered by the Secretary General of NATO 
just before he gave his speech at this conference. He said: 
``Diplomacy is a nation's first line of defense, but it is a 
wise diplomat who pays attention to his nation's second line of 
defense in case the first line fails.'' What we represent today 
is the second line of defense and it is in that context that I 
address you.
    So I would like to talk a little bit about some of the 
great things that have happened as a result of the 2002 budget 
first and the actions of this subcommittee and the full 
committee in the Senate authorization process. It was the best 
readiness budget we have had in about 10 years and it really 
impacted significantly on the health and vitality of marines 
and their families.
    As a result, marines today are extremely secure in their 
identity, who they are and what they do. We see ourselves as a 
sea-based rotational expeditionary combined arms force. Those 
words are very important and each one of them has an awful lot 
behind them, but that is who we are and that is what we do. We 
are characterized by our association with our naval heritage 
and the power of our teamwork with the United States Navy. 
Together, we provide immediate response, a persistency of 
application, and a sustainability of effort that is, in my 
humble opinion, unmatched, unequalled in any other armed force 
in the world.
    The cornerstone of the Marine Corps's fighting capability 
is found in the Marine Corps expeditionary brigade. This is the 
central piece and central to our success in Operation Enduring 
Freedom that you referred to just a moment ago.
    Second, the Marine Corps is culturally stable, as proven 
not only by our success in recruiting, but astoundingly 
successful in retention for the professional portion of our 
Corps. As I have mentioned before the full committee before, 60 
percent of all marines are always on their first enlistment, 
which means that the average age of a United States Marine is 
always somewhere around 24 years old.
    The 2002 budget also supported our families, and supported 
our single marines. We have made great progress in revitalizing 
our housing, our health care, and our pay and allowances, which 
our troops and our civilians so well deserve.
    Point three about the 2002 budget, it has emphasized, I 
think, some unique characteristics that belong to the Marine 
Corps. We draw our strength from our partnership with the Navy. 
Operation Enduring Freedom dramatically highlighted the fact 
that we are no longer just an amphibious force in the classic 
World War II sense, but we are truly an expeditionary force 
that can project combined arms up to and beyond 600 miles 
inland in a landlocked country if necessary and sustain it for 
a considerable period of time.
    Operation Enduring Freedom answered the challenge to the 
specters of the past on the issue of sovereignty, which is 
going to be a difficult problem for us nationally in the future 
as we pursue this global war on terrorism. Access is important 
and naval platforms contribute to a solution to the access 
challenge, as demonstrated in Afghanistan, and this was a 
timely solution.
    We also saw that the ability of all of our forces to 
operate together is now a reality. Those who think that the 
services spend so much time squabbling with one another over 
resources that they do not get anything done in that context, 
they are simply misinformed. This was a seamless integration 
between Special Operations Forces, conventional forces, roles 
and missions of each service being brought to the fore, and 
partnership on the ground, that clearly resulted in strategic 
and tactical successes that we should all take great pride in, 
because it brought about enormously good results in a 
remarkably short period of time.
    The 2003 budget request for the Marine Corps is a budget 
that was carefully put together in partnership with the 
Secretary of the Navy and the CNO. It continues to take us down 
the path of emergence from the years of failure to recapitalize 
and modernize. It adds $1.3 billion to our military personnel 
account, $1.5 billion to our procurement and R&D account, and 
another $1.5 billion to operations and maintenance.
    It is reduced by about $98 million from the 2002 MILCON 
budget, but it is still better than the 2001 military 
construction account and years preceding that. As a matter of 
fact, we have been able to add 20 percent within our MILCON 
budget for family housing, which we are very excited about and 
will serve to modernize a lot of our housing throughout the 
Marine Corps.
    It also provides for a pay raise, a targeted pay raise, 
career prepaid enhancements, reduces out of pocket expenses for 
housing from 11.3 percent to 7.5 percent, with the goal of 
achieving zero by 2005, which would be a tremendous 
accomplishment for our sailors and marines. It provides for 25 
percent real program growth over 2001 baseline for operating 
forces, 11 percent real program growth over 2001 baseline for 
our bases and stations, and it provides for 90 percent of the 
Marine Corps' executable requirements for depot maintenance. So 
it is, in fact, a budget that not only sustains modernization, 
but also gets us to the transformation aspect of the Secretary 
of Defense's programs.
    So in summary, Senator, it is a great time, I think, to be 
a United States Marine. We very much appreciate this 
subcommittee's support and clear support that will enable the 
Marine Corps to do its share with regard to transformation, 
which I would be happy to talk about in some detail if you 
would like. Your support gives us a clear sense that marines 
are appreciated. It translates very clearly to a joyous 
homecoming such as we had in California yesterday with the 
return of the 15th Marine Expeditionary Unit, Special 
Operations Capable, that returned from its involvement in 
Afghanistan. We continue to feel that the Corps is on the move 
in the right direction and we are eagerly awaiting the future.
    Thank you.
    [The prepared statement of General Jones follows:]

          Prepared Statement by Gen. James L. Jones, Jr., USMC

    Chairman Kennedy, Senator Sessions, distinguished members of the 
subcommittee; it is my pleasure to report to you on the state of your 
Marine Corps. On behalf of all Marines and their families, I want to 
thank the subcommittee for your continued support. Your commitment to 
increasing the warfighting and crisis response capabilities of our 
Nation's Armed Forces and to improving the quality of life for our men 
and women in uniform is central to the strength of your Marine Corps. 
As a result, your Corps was ready when called upon on September 11, 
2001. We thank you for your effort in ensuring that Marines and their 
families were poised to respond to the Nation's call in the manner 
Americans expect of their Corps.
    The direction of the Corps is confident, clear, and unambiguous. 
The Corps understands its role as a force in readiness but also 
realizes that the world is changing. For 226 years, Marines have always 
been innovators in order to be ready for the next war. To assure 
success, we continually strive to be capable of rapidly adapting to new 
circumstances inasmuch as we recognize that the future is 
unpredictable.
    The President's Fiscal Year 2003 Budget enables the Navy-Marine 
Corps Team to fight today's war on terrorism and transform itself to be 
ready for future challenges. This budget funds our 4th Marine 
Expeditionary Brigade anti-terrorism efforts, includes pay raises and 
new combat uniforms for our marines and provides increased health care 
for our retirees. It also allows us to harness the new capabilities 
found in tilt-rotor technology and Short Take-Off and Vertical Landing 
aircraft. We have increased funding for our operating forces in day-to-
day operations, training, equipment maintenance, and force protection. 
Additionally, our bases and stations are sustained by the President's 
budget, which improves such critical areas as family housing and 
bachelor quarters. Furthermore, this budget's investments in ground 
equipment, ammunition and research and development will help us recover 
from prior year shortfalls.
    Marines have a vision for the future, and we are moving forward 
with the modernization and transformational efforts needed to make this 
vision a reality. We fully understand that our vision cannot be 
achieved independently of our sister Services. Each of us has our own 
critical role to play in providing for our collective security. It is 
important that each of our contributions be, simultaneously, both 
unique and complementary. In particular, the Corps stresses the 
importance of our key partnership with the Navy. The Navy-Marine Corps 
Team has never been stronger, nor more necessary for our country. In 
fact, the essence of our combined power is our teamwork.
    Americans have relied upon the Navy and Marine Corps Team to 
protect and promote the interests of the Nation since our creation by 
the Continental Congress in 1775. After helping to win American 
independence, Naval Services acted time and again to ensure our freedom 
and set in motion the ascendancy of our Nation as a global power under 
the banner of democracy and its potential. During the darkest hours of 
our history, the Navy and Marine Corps Team has remained the most 
useful and most frequently used expression of our Nation's interests in 
forward presence and crisis response. Those of us who are privileged to 
serve in the Naval Services today have inherited a legacy that we are 
dedicated to preserving. Together we will continue to flourish, due to 
steadfast appreciation of our heritage and a commitment to a tradition 
of continuous innovation and change.
    Teamwork is the bond that forever joins our Services and is the key 
to our enduring success. We have progressed from wooden ships of sail, 
with embarked Marines, to modern networked Naval expeditionary strike 
forces that are forward deployed and full spectrum capable. We are a 
combined-arms force capable of ensuring America's access, including 
sustainable forcible entry operations to distant inland areas and 
austere locations. Always moving forward, we are incorporating advanced 
technologies to increase our capabilities to include exploiting the 
tremendous potential of sea control and power projection. Our 
innovation is not limited to equipment and weapons systems but is also 
reflected in the development of new operational concepts and 
organizational evolution. When crises emerge, the Nation can depend on 
the Navy and Marine Corps Team.
    Today, I will describe the Marine Corps' relevance to the current 
security environment as well as our future role as America's sea-based, 
expeditionary, combined-arms force. I will also address the Marine 
Corps' role as the Nation's medium-weight expeditionary force, bridging 
the gap between America's Special Operations Forces and the Army's 
critical land war-winning capability. The preponderance of this 
statement will focus on the Marine Corps' transformation plans and our 
vision for the 21st century.
I. The Marine Corps' Relevance: Power Projection from the Sea-base
    For the United States to provide its citizens with security and 
prosperity at home and abroad it must continue to lead the effort in 
maintaining international stability. One only need consider the events 
of September 11, and the fact that 30 percent of the United States 
Gross Domestic Product is directly related to global trade, to realize 
that America's well-being is inextricably linked to the international 
order. America must continue to establish and lead efforts to maintain 
stability around the world. This challenge requires the integrated 
application of all elements of national power--economic, political, 
diplomatic, cultural, intellectual, technological, and military. 
Working in concert with the other components of national power, our 
Armed Forces perform a vital role in establishing and maintaining 
conditions that directly affect global stability and America's security 
and prosperity. History shows that our men and women in uniform play a 
pivotal role in our Nation's international credibility. It is not an 
exaggeration to claim that our Nation's most important gift to world 
order is found in the service of our young men and women in uniform. 
Before anything good happens in the world, they are there establishing 
the framework for peace and stability.
    Inasmuch as global stability is intrinsically tied to America's 
relationship with other nations in the world community, the United 
States benefits significantly from military to military relationships 
around the globe. However, as nations continue to raise issues of 
sovereignty, especially during a crisis, we must find new ways to 
conduct our Nation's necessary engagements and have the means to 
respond to crisis without being excessively restricted by geo-political 
issues. In the 21st century, we are likely to see a change in the 
number and type of large, quasi-permanent American bases around the 
world as defined by the post-Cold War era. We must begin to develop 
alternatives to ensure that we are able to maintain our peacetime 
presence and our crisis response capabilities. 21st century basing 
initiatives are issues that will have to be addressed in the near 
future.
    We cannot deter aggression, nor defeat future adversaries, solely 
with military capabilities based at home. Regional engagement requires 
presence, and there is no such thing as truly effective ``virtual 
presence.'' The inherent mobility and flexibility of Naval forces in 
providing off-shore basing options is an effective counter to 
increasing limitations to access and basing rights. America's 
stabilizing influence overseas is contingent upon our ability to 
deploy, employ, and sustain persistent military forces from the sea. 
Indeed, the Navy-Marine Corps Team's sea-based power projection 
capabilities are a cornerstone of our military's contribution to our 
enduring security and that of our allies.
    Sea-based capabilities provided by the Navy-Marine Corps Team are 
an important means for America to cultivate its relationship with the 
world, providing the advantage, both in peacetime and in crisis 
response operations, of being able to control the size of our 
``footprint'' ashore. Sea-basing also provides the operational 
advantages of force protection, operational maneuver space, and the 
sanctity of sovereign platforms from which we can engage adversaries.
    The Navy-Marine Corps Team's sea-based capabilities have been re-
validated over the past several months. In Afghanistan, sea-based Naval 
forces provided a significant portion of tactical air sorties and the 
initial deployment of major, sustained ground force presence, reaching 
over 600 miles inland. [See Figure 1]
    Operation Enduring Freedom has also proven the value of the Navy-
Marine Corps Team as an important element of a Joint Force.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                               [Figure 1]

    Important contributions were made through Marine integration with 
Special Operations Forces, the Army, and the Air Force in the areas of 
Intelligence, Surveillance, and Reconnaissance capabilities to long-
range strike and close air support capabilities. The Marine Corps has 
demonstrated that the Marine brigade--a flexible, medium-weight, 
combined arms, expeditionary force--is not only responsive, but also a 
full and effective partner in Joint and Coalition operations.
II. The Marine Corps' Role: A Scalable, Sustainable, Forcible Entry 
        Force
    The Marine Corps provides our Nation and its Joint Force Commanders 
the full scope of military capabilities required to respond to the 
broad spectrum of threats and potential missions that confront 
America's Armed Forces today and in the future. For 6 percent of the 
Department of Defense's budget, the Marine Corps provides 20 percent of 
our Nation's ground combat maneuver battalions, tactical fixed-wing 
aircraft squadrons, and attack helicopter squadrons, as well as one-
third of its active duty combat service support.
    If there is a lesson to be learned from ongoing operations in 
Afghanistan, it is that there is tremendous power and capability in the 
diversity of our Armed Forces today. Joint Force Commanders must have 
the fullest possible range of options and capabilities available in 
order to apply the desired effects, both lethal and non-lethal, in any 
given scenario. Indeed, the flexibility and robustness of America's 
Armed Forces is a product of the varied and unique capabilities each 
Service contributes to our Nation. Accordingly, our capabilities need 
to be complementary, not duplicative, if we are to provide the diverse 
and versatile capabilities needed to confront the uncertain threats of 
the future. Together, our Joint force forms a mosaic of integrated 
capabilities to defeat the myriad threats and challenges we may face 
today and tomorrow. Enhancing these capabilities across the force is in 
the national interest.
    Marine Air-Ground Task Forces have proven their utility in meeting 
challenges and exploiting opportunities. The versatility of the Marine 
Expeditionary Brigade is emblematic of the scalability of our Marine 
Air-Ground Task Forces. In size and capability, these brigades are 
midway between our ``light'' Marine Expeditionary Units and our 
``heavy'' Marine Expeditionary Forces. Furthermore, our Marine 
Expeditionary Brigades can either deploy on amphibious shipping or be 
airlifted into a theater of operations to link up with equipment and 
supplies aboard Maritime Prepositioning Ships.
    While the global war on terrorism has demonstrated the current 
capabilities of the Navy-Marine Corps Team, our continuous 
transformation and modernization promise even greater future 
capabilities for the Marine Corps. Transformation is an ongoing 
process, however, not an end-state. It spans decades of innovation and 
experimentation. It is also not limited to technology, but includes 
change in our organizational structure, operational concepts, and 
business practices.
    The Marine Corps has always been at the forefront of transformation 
and innovation. Throughout our history, the Marine Corps has changed 
and evolved--from ship security, to naval constabulary, to light 
infantry, to an amphibious assault force, to an air-ground 
expeditionary team. In the past, our development of close air support, 
amphibious warfare, vertical envelopment, Short Take-Off and Vertical 
Landing technology, and maritime prepositioning have benefited our 
Joint warfighting capability. Today, the Marine Corps remains true to 
its warrior culture and continues in a tradition of change. Drawing on 
our history of transformation, the Marine Corps is moving forward with 
new concepts, innovation, and exciting experimentation. Our focus is on 
the creation of new capabilities, which will yield the operational 
advantages we seek to have in dealing with future conflicts.
III. The Marine Corps' Transformation: Concepts, Technologies, and 
        Organizations
    Although many think of transformation primarily in terms of weapons 
systems, true transformation results from a synthesis of new 
technologies with strategic vision, revolutionary operational concepts, 
and agile, adaptive organizations. Clearly, we must harness the 
potential military benefits of rapid advances in technology. The V-22 
Osprey is but one example of the potential of proven transformational 
technology. The path to transformation involves a robust program of 
experimentation with new concepts, capabilities and operational 
prototypes while actively pursuing forward-looking science and 
technology efforts. As we experiment and introduce new capabilities, we 
will rapidly mainstream the changes into our ready forces. [See Figure 
2]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                               [Figure 2]

    A. Transformation of Operational Concepts and Better Business 
        Practices
    Technological innovation plays a paradoxical role in military 
transformation. With each problem it solves, technological innovation 
tends to introduce new challenges and opportunities. Operational 
concepts can offset these tensions by finding the means to capitalize 
on technological strengths and also guard against creating new 
weaknesses. In light of heightened fiscal awareness and the need to be 
effective with our resources, we must reform our business practices to 
maximize available resources and develop more expedient means of 
fielding programs and equipment. With this in mind, the Marine Corps is 
committed to transforming its operational concepts and business 
practices.
    The ongoing process of conceptual change is embodied in the recent 
publication of our overarching concept, Expeditionary Maneuver Warfare. 
It is the foundation for the way the Marine Corps will conduct 
operations in the 21st century. Expeditionary Maneuver Warfare is the 
union of our core competencies, maneuver warfare philosophy, 
expeditionary heritage, and the concepts by which we organize, deploy, 
and employ forces. It emphasizes the unique and proven capabilities the 
Marine Corps provides Joint Force Commanders and the synergy created 
when leveraged with the complementary capabilities of other Services 
and agencies. These capabilities translate into power projection 
designed to promote global security and reassure our allies and 
friends, while deterring and defeating adversaries and potential foes.
    Central to our conceptual transformation is the potential power 
represented in a future integrated sea-base. At-sea arrival and 
assembly, selective off-load, and at-sea reconstitution capabilities 
stand to revolutionize the way Naval forces project power and influence 
around the globe. Our evolving logistics concepts promise indefinite 
sustainment of Marine forces, both afloat and ashore. As well, Marine 
forces afloat typically rely upon the Command, Control, Communications, 
and Computer (C\4\) capabilities aboard amphibious shipping to provide 
critical reach-back connectivity to deployed elements of the Marine 
Air-Ground Task Force, and communications with Joint and multinational 
forces. These afloat C\4\ capabilities are crucial to the success of 
sea-basing and to achieving the full potential of Naval power 
projection.
    The Marine Corps' sea-basing strategy is yet another illustration 
of continued transformation in operational concepts. Recognizing the 
increasing limitations on future basing potential of American forces 
overseas and the simultaneous need for the United States to maintain a 
forward presence, the Navy and the Marine Corps are developing a 
forward presence strategy as an extension and augmentation of our 
concept of sea-basing. Sea-basing is the formation of Joint assets at 
sea to project and sustain combat power ashore, while reducing or 
eliminating our landward logistics footprint during combat operations. 
The sea-based presence strategy boosts forward engagement during 
peacetime by increasing the number of countries that we may visit 
without being permanently stationed at large fixed-bases in host 
nations. Marines can deploy from country to country and advance 
diplomatic and informational efforts through military-to-military 
relations, small unit training, liaison exchanges, and exercises. III 
Marine Expeditionary Force's annual Cooperation Afloat Readiness and 
Training in the Asia-Pacific region is an illustration of this concept.
    In addition to codifying overarching conceptual innovations, the 
Marine Corps is adjusting its tactics, techniques, and procedures to 
better support conceptual change. Marine Aviation Weapons and Tactics 
Squadron-1 is adapting tactics, techniques, and procedures for the 
employment of aviation operations in urban terrain--a vital, yet 
challenging environment today and in the future. Advancements have been 
made in target selection and tracking, weapon selection and employment, 
friendly unit position identification, command and control, and staff 
planning. Likewise, the Marine Corps is actively engaged in the 
development of the underlying concepts of Network Centric Warfare for 
Naval expeditionary forces. We are exploiting state-of-the-art 
information and networking technology to improve situational awareness 
and to integrate widely dispersed sensors, forces, and weapons. Network 
Centric Warfare will allow commanders to achieve mission objectives 
rapidly and decisively by concentrating the combined fire and maneuver 
of Naval forces afloat and ashore at decisive locations and times. 
Similarly, the Marine Corps led Joint Non-Lethal Weapons Directorate is 
forging the way for the development of non-lethal technologies, as well 
as the tactics, techniques, and procedures for effectively employing 
their effects. Congressional funding of the Non-Lethal Technology 
Innovation Center at the University of New Hampshire will continue to 
provide further stimulus for the experimentation and formulation of 
doctrine that guides the tactical use of these new weapons.
    Just as it is transforming its doctrine, the Marine Corps is also 
transforming its business practices. Our readiness is a reflection of 
balancing the demands of current requirements around the globe with the 
imperative to invest and be prepared for the future. This balance can--
over the long haul--be achieved only if resources are reallocated from 
overhead and support activities to our fighting forces. To accomplish 
this reallocation of resources, we are adopting better business 
practices to achieve greater cost-effectiveness. There are several 
different avenues that the Marine Corps is taking to make this happen. 
We are streamlining organizations to eliminate redundancy and maximize 
integration. We are also reducing excess support structures to free 
resources and focus on core competencies.
    To transform our business practices, the Marine Corps must 
increasingly rely on business intelligence and associated technologies 
promoting access to information. We consider information to be a 
strategic asset, and by assuring access to information, we will improve 
the operational agility of the Marine Corps. Our efforts to promote 
enterprise management of information technology confirm our need for a 
common infrastructure that includes a shared data environment, 
realignment and consolidation of many of our information systems, and 
the search for cost-effective strategies.
    Commercialization, privatization, and out-sourcing are among the 
methods the Marine Corps has used to reduce costs, but ultimately it is 
competition between public and private sources that has led to 
increased savings. The Marine Corps has initiated competition between 
government sources and private sector commercial sources for a broad 
number of activities, best seen in the Marine Corps' application of 
such competition vis-`-vis its bases and stations. To operate our 15 
major installations--essentially providing the range of support 
services typical of a municipality--a labor force of approximately 
20,000 marines and 14,000 civilians are employed. One of the processes 
we have used in these competitions to save money is Activity-Based 
Costing and Management. This process provided our installation 
commanders information that enabled them to save over $30 million last 
year by analytically measuring the costs of particular work and 
evaluating the performance of that work.
    Another example of turning to the private sector and using 
competition to bring down costs is the success of our new camouflage 
utility uniform. The uniform was created, tested, produced, and fielded 
by the Marine Corps--with the use of a new digital camouflage design 
technique--through a single source vendor, yielding a product that is 
superior in quality, comfort, and cost to that in existence today. We 
are extremely pleased with this innovative uniform that not only costs 
less in the long run, but is a product improvement benefiting our 
marines. All of this was achieved within a 1 year period.
    Just as the Marine Corps' new utility uniform is an example of both 
tactical and business innovation, so too the transformation of 
operational concepts and business practices are seen together in our 
Integrated Logistics Capability. The Integrated Logistics Capability is 
redefining and realigning our supply and maintenance process by 
providing our logisticians with greater awareness of equipment status, 
increasing their capacity to more rapidly and effectively respond to 
logistical requirements on the battlefield. The simple objective of our 
Integrated Logistics Capability is to avoid weighing down the 
warfighters with the requirement to haul, protect, and administer 
massive amounts of supply material. The foundation of this concept and 
business practice is a revolutionary change in military methodology: 
shifting from massive inventories to small inventories. With the use of 
new technologies and practices, proven in the private sector, the Corps 
will, in essence, create a ``new order'' for its logistics enterprise 
and undertake the revolutionary changes necessary to ensure that it 
continues to be the premier fighting force in the world. Second Force 
Service Support Group at Camp Lejeune, North Carolina, is currently 
testing many of these new processes in a year long ``proof of concept'' 
to validate the direction in which we are heading. These efforts will 
allow Marine logisticians to support the battlefield of the 21st 
century with a smaller logistical footprint in a more cost-effective 
manner.
    B. Transformation and Modernization Through Harnessing Technologies
    With the foundation of requirements drawn from its new concepts, 
the Marine Corps is transforming its weapons systems and assets 
throughout the five elements of our Marine Air-Ground Task Forces--our 
ground, aviation, logistics, and command elements, as well as our 
supporting establishment. The following examples are but a few of our 
transformational and modernization efforts. Many of our investments 
involve modernization of existing capabilities vital to effectively and 
efficiently fulfill our core competencies. A more comprehensive 
description of the Marine Corps' entire acquisition program can be 
found in the Marine Corps' Concepts & Issues: Forging the Future Marine 
Corps.
            Amphibious Shipping for Sea-basing
    We are a maritime nation and we must capitalize on this part of our 
national character to ensure that we are ready for the challenges that 
are over the horizon. The requirement for our amphibious shipping 
remains the linchpin of the Corps' ability to influence the 
international security landscape, project power, and protect the 
Nation's interests during peacetime and crises. While it has long been 
recognized that we require an amphibious ship force structure capable 
of simultaneously lifting the assault echelons of three Marine 
Expeditionary Brigades, today's amphibious lift can support only two-
thirds of this requirement in certain aspects of the lift footprint. I 
strongly recommend that we commit to redress this shortfall as a matter 
of urgent priority.
    We are grateful for your support in replacing four classes of older 
ships with the new LPD-17 San Antonio amphibious ship class. Delivery 
of these 12 ships to the fleet is currently planned to be complete in 
2015. However, we remain concerned about further schedule slippage in 
the LPD-17 program. Such delays compromise our ability to fulfill our 
global forward presence responsibilities and must be avoided. 
Similarly, we are concerned with replacing the LHA-1 Tarawa-class 
ships. Considering the extended time-frame for ship design, 
construction, and delivery, we need to ensure now that we are ready to 
replace the Tarawa-class when they reach the end of their 35 year 
service life starting in 2011. [See Figure 3]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                               [Figure 3]

    The leases of our current fleet of Maritime Prepositioning Ships 
(MPS) will expire in fiscal year 2009, fiscal year 2010, and fiscal 
year 2011. The development of advanced Maritime Prepositioning 
capabilities, High Speed Vessel platforms, and new lighterage vessels, 
will significantly increase the strength and flexibility of our sea-
based expeditionary operations. The marriage of a modern amphibious 
fleet with modern Maritime Prepositioning Shipping capable of hosting 
at-sea arrival and assembly of forces will minimize the requirement for 
access to secure ports and airfields, and give our Nation an unmatched 
asymmetrical advantage in projecting power.
            Tilt-Rotor Aircraft
    The V-22 Osprey remains the Corps' number one aviation acquisition 
priority. Recent actions in Central Asia have only reinforced the 
immediate need for this truly transformational capability. [See Figure 
4]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                               [Figure 4]

    Tilt-rotor technology holds the promise to revolutionize aviation--
we should not be afraid to embrace this promise. Both the Department of 
Defense's Panel to Review the V-22 Program and the National Aeronautics 
and Space Administration's Tiltrotor Aeromechanics Phenomena Assessment 
Panel concluded that tilt-rotor technology is sound and that mishaps 
have been the result of engineering deficiencies that can be solved. 
The V-22 will radically increase the Marine Corps and Special 
Operations Command's operational reach and tactical flexibility. The 
Osprey's superior range, speed, and payload will give Marines and 
Special Operations Forces the ability to accomplish combat missions and 
other operations from distances previously unattainable, with response 
times far faster than possible with other airframes. The battlespace of 
the future will demand capabilities that provide rapid and effective 
maneuver. Through the use of the V-22's increased speed and range, we 
not only improve our ability to influence the tempo of operations, but 
we provide our forces with greater survivability. These capabilities 
are the foundation for how we have planned to transform our operational 
concepts and intend to reorganize our force structure.
    We are aware of the challenges associated with the Osprey but are 
pleased that the Under Secretary of Defense for Acquisition, 
Technology, and Logistics has announced that a new comprehensive flight 
test program for the V-22 will start this Spring. This flight test 
effort will be ``event-driven,'' as opposed to being ``time-driven.'' 
Both the Secretary of the Navy and the Under Secretary of Defense for 
Acquisition, Technology, and Logistics will periodically review flight 
test results to assess progress.
            Short Take-Off and Vertical Landing Aircraft
    In late October 2001, the contract was awarded for the Joint Strike 
Fighter, signaling a new era in naval aviation. The advantages of a 
stealthy strike fighter capable of taking off from an expeditionary 
base on land or at sea, fly in supersonic cruise, accomplish its 
mission with advanced sensors and weapons, then return to its 
expeditionary site are dramatic. This aircraft will transform the very 
foundations of tactical air power. It will provide the reliability, 
survivability, and lethality that our forces will need in the years 
ahead. Moreover, the Short Take-Off and Vertical Landing Joint Strike 
Fighter variant provides operational access to more than three to five 
times the number of airfields available around the world that are 
currently capable of supporting our so-called ``legacy'' aircraft. The 
Short Take-Off and Vertical Landing Joint Strike Fighter can also 
operate from both conventional carriers and amphibious assault ship 
decks, effectively doubling the number of shipborne platforms available 
for operations. As these highly capable aircraft move from sea-based 
platforms to expeditionary airfields, they can effectively decrease 
response time for missions by 75 percent and increase time-on-station 
by 50 percent. These capabilities represent a significant increase in 
strategic agility, operational reach, and tactical flexibility over 
conventional aircraft.
            Fire Support Systems
    Of critical interest to our Marine Air-Ground Task Forces is the 
status of our fire support systems on land, at sea, and in the air. We 
currently have an acute shortage of fire support. It is vital for us to 
move ahead with existing programs to provide our marines with this 
important warfighting enhancement. Indeed, the funding, testing, and 
development of our systems are vital. The Lightweight 155 Howitzer is 
needed to replace our aging ``legacy'' field artillery weapons. The 
High Mobility Artillery Rocket System, moreover, promises to be rapidly 
deployable and will be a key part of our expeditionary operations, 
firing both precision and area munitions under all weather conditions, 
as well as extending our ground-based fire support umbrella to 60 
kilometers. In addition to these fire support systems, we need the 
Ground Weapon Locating Radar to protect our forces against our 
adversaries' counter-battery fires. We should also continue to invest 
in Naval Surface Fire Support. Remedying the fire support shortfall we 
have lived with for much of the last two decades is crucial.
            Advanced Amphibious Assault Vehicles
    The Advanced Amphibious Assault Vehicle program remains the Corps' 
highest ground acquisition priority and promises to allow high-speed 
surface maneuver from ship-to-shore as well as on land. This vehicle 
will be able to deploy to objectives from over the visual horizon, 25 
miles and beyond, and will allow our ships to remain beyond the range 
of many threat weapons and surveillance systems. It will help off-set 
an enemy's anti-access strategies and bolster expeditionary operations 
from the sea. Furthermore, the Bushmaster II 30mm cannon will give the 
vehicle a lethal direct fire capability. The Advanced Amphibious 
Assault Vehicle will be a decisive expeditionary warfare tool for 
operations in littoral areas world-wide.
            High Speed Vessel
    High-speed, intra-theater sealift, catamaran vessels provide 
phenomenal increases in speed and tactical flexibility for our Navy-
Marine Corps Team. Building on operational use of the Royal Australian 
Navy's HMS Jervis Bay, our Joint Venture High Speed Vessel promises to 
reap new developments that will lead to new capabilities. Additionally, 
leasing the 331-foot commercial catamaran Austal West Pac Express, III 
Marine Expeditionary Force has demonstrated the viability of such 
vessels, using it to transport marines and their equipment to training 
exercises through out Asia--lifting 950 marines and 550 tons of 
materiel per trip, the equivalent of 14 to 17 military cargo aircraft. 
The Navy-Marine Corps Team's current requirement is for a craft that 
can transport 400 tons of cargo, travel 1,200 miles without refueling, 
and achieve a speed greater than 40 knots. We are confident in the High 
Speed Vessels capacity to deliver these capabilities and transform our 
intra-theater mobility.
            Tactical Unmanned Aerial Vehicles
    Unmanned Aerial Vehicles have already seen extensive action in the 
war against terrorism and their use is expanding. This technology's 
potential, combined with its ability to conduct dangerous missions 
without the risk of personnel casualties, making this a truly 
transformational asset. The Navy and Marine Corps' Vertical Take-Off 
and Landing Unmanned Aerial Vehicle Engineering Development Model 
program is designed to test and evaluate various sensor packages and 
the Tactical Control System architecture for use in future Tactical 
Unmanned Aerial Vehicles. In the interim, Marine Corps Pioneer systems 
will be upgraded to perform Unmanned Aerial Vehicle functions 
(Reconnaissance, Surveillance, and Target Acquisition). Presently, 
Marine Corps Unmanned Aerial Vehicles are preparing to deploy to 
Central Command's area of responsibility.
            Aerial Refueling
    Replacement of our aging KC-130 Hercules fleet with KC-130J 
aircraft is necessary to ensure the viability and deployability of 
Marine Corps Tactical Aircraft Refueling and Assault Support well into 
the 21st century. The KC-130J's performance features include increased 
cruising airspeed, night vision compatible interior and exterior 
lighting, enhanced rapid ground refueling capability, digital avionics, 
and powerful propulsion systems. These strengths promise lower life-
cycle expenses and eliminate the need for costly KC-130F/R Service Life 
Extension Programs. In sum, the KC-130J gives us the aerial refueling 
capability required to meet our current and future tactical aerial 
refueling demands.
            Maritime Prepositioning Shipping Support Facility
    Supporting the Marine Corps' Maritime Prepositioning Shipping, the 
Blount Island facility in Jacksonville, Florida, is truly a national 
asset that must be secured for long-term use. Its peacetime mission to 
support the Maritime Prepositioning Force has been of exceptional value 
to the Corps, but its wartime capability of supporting massive 
logistics sustainment from the Continental United States gives it 
strategic significance. The purchase of Blount Island is planned for 
fiscal year 2004, when our current lease of the facility will expire.
            Command and Control
    Command and Control technologies being introduced into Marine 
operating forces are key to making Expeditionary Maneuver Warfare a 
reality. Marine forces once ashore will utilize the Lightweight Multi-
band Satellite Terminal, Tactical Data Network, and High Frequency 
Automatic Link Establishment Radios to link widely dispersed forces 
into the Network Centric environment. These technologies will result in 
capabilities that will greatly increase the operational agility of your 
Marine Corps.
    C. Transformation of Organizational Structure
    The transformation of our weapons systems and equipment as well as 
our operational concepts and business practices is a difficult task. 
Transforming how we organize ourselves is even more difficult. 
Nonetheless, building on its institutional legacy of adapting to match 
the threats and missions of a given time, the Marine Corps is 
reorganizing its structure. Furthermore, at the core of transforming 
our organization, is the optimizing of our greatest asset, our marines.
    One of our leading examples of transformational reorganization is 
the 4th Marine Expeditionary Brigade (Anti-Terrorism). The 4th MEB (AT) 
combined our Marine Security Guards stationed at America's embassies 
around the world, Fleet Anti-Terrorist Security Teams, and Chemical 
Biological Incident Response Force with an organic aviation component, 
combat service support element, and specialized anti-terrorism infantry 
battalion, as well as a command element with dedicated planners, 
coordinators, and liaison officers for anti-terrorism operations. The 
4th MEB (AT) has had an immediate impact, deploying to our re-opened 
embassy in Kabul, as well as supporting anthrax decontamination at the 
Capitol and security at the Olympics and the State-of-the-Union 
address. In the near future, all deployable units will deploy with an 
anti-terrorism capability.
    In addition to standing up the 4th MEB (AT), we are looking at 
other organizational transformation initiatives. We are looking at 
additional ways to optimize our forces by realigning outdated 
structures to reflect new realities. Now is the time to consider how to 
best organize our forces to meet the needs of this transformational 
era.
    Similar self-examination has led to successful change in our 
supporting establishment. Three illustrations of this are Marine Corps 
Combat Development Command, the Marine Corps Intelligence Activity in 
Quantico, Virginia, and Materiel Command in Albany, Georgia. By 
reorganizing the Marine Corps Combat Development Command, we have 
redefined its role in supporting Marine Operating Forces and the 
Service Headquarters. It has emerged as the Corps' home for long-range 
thinking and has taken on the role of coordinating requirements with 
the Navy as well as facilitating the Marine Corps' relationship with 
Joint Forces Command. The Marine Corps Intelligence Activity, likewise, 
has been highly successful in validating our intelligence reach-back 
concept. Exploiting both new command relationships and connectivity, 
the Marine Corps Intelligence Activity is providing timely, accurate 
intelligence to our globally deployed tactical forces. Similarly, by 
establishing Materiel Command, we have created a unity of effort and 
streamlined processes for the Marine Corps' acquisition and logistics 
support functions and ground weapons/equipment life cycle management 
processes. Material Command transformation initiatives for materiel 
readiness improvements and increased visibility of total ownership 
costs will achieve significant future cost avoidance and savings. This 
allows the Installations and Logistics Department at Headquarters 
Marine Corps to more effectively concentrate on policy decisions and 
support to the operating forces and the regional combatant commanders. 
In each of these reorganizations, optimizing efforts of the men and 
women who serve our Corps has been our primary intent.
            Our People
    Our highest priority remains unchanged: Marines, their families, 
and our civilian workforce. The most advanced aircraft, ship, or 
weapons system is of no value without highly motivated and well-trained 
people. People and leadership remain the real foundations of the Corps' 
capabilities.
    It is important to note that the Marine Corps operates as a Total 
Force, including elements of both Active and Reserve components. We 
continue to strengthen the exceptional bonds within our Total Force by 
further integrating the Marine Corps Reserve into ongoing operations 
and training. Both Marine Expeditionary Force Augmentation Command 
Elements, two infantry battalions, two heavy helicopter squadrons, two 
aerial refueler transport detachments, as well as other units have been 
mobilized to support Operation Enduring Freedom. Called to duty, over 
3,000 Marine Reservists are providing seamless support from operational 
tempo relief at Guantanamo Bay to augmentation at Camp Pendleton and 
Camp Lejeune.
    Because our people are our number one priority, safety in the 
Marine Corps is a critical concern. While it is essential to 
maintaining our readiness, it is also a vital element of the quality of 
life that we provide our marines and their families. I am pleased to 
report that 2001 was a banner year for safety in the Marine Corps. The 
Aviation community set a record, posting the lowest Class A mishap rate 
in the Corps' history. Through education, vigilance, and command 
involvement we reduced privately owned vehicle fatalities 39 percent 
last year. Overall, we had our second lowest mishap fatality rate in 14 
years. These are all very positive signs in our quest to safeguard our 
most precious assets, our marines.
    One factor contributing to our safety challenge is that we are a 
young force. The average age of our marines is 24, roughly 6 to 8 years 
younger than the average age of the members of the other services. This 
is part of the culture of the Corps as our unique force structure shows 
68 percent of our marines being on their first enlistment at any one 
time. The nature of our force structure requires us to annually recruit 
41,000 men and women into our enlisted ranks. To fill this tremendous 
demand, our recruiters work tirelessly and have consistently met our 
accession goals in quality and quantity for over 6\1/2\ years. The 
performance of our recruiters has been superb.
    Retention is just as important as recruiting. We are proud that we 
are meeting our retention goals across nearly all military occupational 
specialties. Intangibles--such as the desire to serve the Nation, to 
belong to a cohesive organization, and to experience leadership 
responsibilities through service in the Corps--are a large part of the 
reason we can retain the remarkable men and women who choose to stay on 
active duty. Concrete evidence of this phenomenon is seen in our 
deployed units, which continually record the highest reenlistment rates 
in the Corps. The Selective Reenlistment Bonus Program has been an 
additional, powerful tool to meet our retention goals. Increases for 
the Selective Reenlistment Bonus Program, as well as the targeted pay 
raise initiative, will go a long way toward meeting our retention goals 
and helping take care of our marines and their families.
    While we recruit marines, generally, we retain families. The 
effectiveness of our marines is dependent, in large measure, on the 
support they receive from their loved ones. Our families are therefore 
vital to our readiness. Increased pay, as well as improved housing and 
health care, directly influence our families' quality of life and, in 
turn, enhances the readiness of our units. Your support of our 
families' quality of life has greatly contributed to our retention 
success. We are extremely thankful for the enactment of much-needed 
improvements to the TRICARE system for our active duty personnel and 
for our retired veterans. Thank you, as well, for continuing to support 
increases in the Basic Allowance for Housing that help our marines meet 
the rising costs of rent and utilities within the limits of their 
housing allowances.
    This committee has provided considerable support to our marines and 
their families and the Marine Corps has also improved services to our 
families in hopes of further enhancing their quality of life. We have 
established Marine Corps Community Services aboard our installations to 
better provide for both our marine families as well as our single 
marines, who constitute nearly 60 percent of our total active force. We 
have also sought to recognize and support our marines and families with 
special needs and I am proud to say that both the Marine Corps' 
Exceptional Family Member Program and the Military Committee for 
Persons with Disabilities were the recipients of the 2001 S. Robert 
Cohen Annual Achievement Award for their commitment to facilitating and 
coordinating support and services to families with special needs.
    Similarly, seeking to be more responsive to our marines and to 
enhance their career opportunities, we have undertaken a number of 
manpower reforms to better manage the force. Through the personal 
involvement of commanders, career planners, and leaders throughout the 
chain of command, we have been able to meet our retention goals, 
stabilize our force, and reduce the burden on our recruiters. We are 
investing considerable resources to successfully recruit, develop, and 
retain the civilians who work alongside our marines. Our strategic plan 
in this regard is to develop civilian career programs that integrate 
and advance technical and leadership competencies.
    We are also investing in our marines by improving how we train and 
educate them. We believe the old adage, ``you fight the way you 
train.'' Because of this, our training exercises are becoming 
increasingly joint and combined to provide our marines with the 
experience that they will need when they are called upon to respond to 
crises that require them to work alongside our sister services and 
partners from other nations. Our ability to effectively operate in both 
joint and coalition environments was clearly evident in the experiences 
of the Marines of Task Force 58 in Afghanistan. However, we are 
increasingly finding that the training and mission effectiveness of our 
marines is degraded by the many forms of encroachment on our bases and 
stations. We need your continued support to ensure that the growing 
complexity and expense of encroachment issues do not curtail our 
efforts to conduct meaningful training. Encroachment issues will 
continue to be a 21st century problem.
    Experience, in tandem with education, is the best foundation for 
dealing with both difficulty and fortuity. Accordingly, we are not 
solely focused on training our marines, but on educating them as well. 
We have expanded our non-resident education programs to ensure that 
greater numbers of marines have the opportunity to better themselves. 
We are also adjusting our policies to better accommodate family 
realities--such as spouses with careers or children with exceptional 
needs--when selecting officers to attend various schools that require a 
change in duty station. We have instituted a ``National Fellows 
program'' for competitively selected junior officers and staff non-
commissioned officers to experience the corporate world, think tanks, 
non-governmental organizations, and the workings of Congress. The 
experiences they receive will broaden perspectives and provide valuable 
insights that will strengthen our capacity to innovate and adapt in the 
years to come.
    The Marine Corps' commitment to training and education, as well as 
our commitment to our ``warrior culture,'' is reinforced in our 
recently instituted martial arts program. We have developed a 
discipline unique to the Corps and we are in the process of training 
every marine in its martial skills. This program promotes both physical 
prowess and mental discipline. Successive levels of achievement are 
rewarded with different colored belts reflecting a combination of 
demonstrated character, judgment, and physical skill. This training 
will benefit marines in the complex missions we face; especially in 
peacekeeping and peacemaking operations where physical stamina and 
mental discipline are vital to success. At its heart, our martial arts 
training is fundamentally focused on mentoring our young men and women 
and helping them to understand that the keys to mission accomplishment 
are often a matter of combining intelligence, strength, and self-
control to influence circumstances, rather than simply resorting to the 
application of deadly force. The warrior ethos we instill in our 
marines, transforms them into intelligent and disciplined warriors, and 
mirrors the Marine Corps' own transformation in equipment, doctrine, 
and structure.
IV. Conclusion
    In summary, the Marine Corps' transformation is a synthesis of new 
operational concepts and better business practices, leap-ahead 
technologies, and realigned organizations. This transformation promises 
to exponentially increase the Corps' sea-based capabilities as 
America's medium-weight expeditionary force in the years ahead. Our 
capabilities, combined with those of our sister Services, form an 
integrated array that provides America with the diversity and 
versatility she needs to confront different threats and environments 
and accomplish disparate missions. In close partnership with the Navy, 
we are proud of what our Corps contributes as America's forward 
engagement and expeditionary combined-arms force. We are grateful to 
you for your leadership and for the unwavering support you provide to 
your Corps of Marines.

    Senator Sessions. Well, we think you are, too. The 
recruiting and retention does remain exemplary. I think that 
speaks well for the morale and sense of fulfillment that the 
men and women have who serve in the Marine Corps. You are to be 
congratulated for that. I know you have undertaken a number of 
changes in martial arts and other things that have worked well 
and I hear good things about.
    General Jones. Thank you, sir.
    Senator Sessions. I frequently sit on airplanes with 
marines and I learn a lot that way.
    General Jones. I will have to check the passenger 
manifests.
    Senator Sessions. It is very informative, and morale is 
good.
    General Jones. Thank you, sir.
    Senator Sessions. The quality is good.
    Just for example, I was with a young man who went to a 
superb college, had worked several years in the Atlanta real 
estate market, was a very capable young man, and decided that 
he wanted to go in the service and joined the marines and he 
wanted to be a pilot. It was very impressive.
    Also, I just would note that in the State of Alabama, we 
lost Marine Gunnery Sergeant Steven Bryson in the KC-130 crash, 
one of those crew members. His mother and the family were well-
supported by the marines with a memorial service in California. 
There was a lot to be done to accommodate the needs of that 
family and you once again demonstrated the kind of tight 
fellowship that you have in taking care of that family. I want 
to say thank you for that.
    General Jones. Thank you, sir.
    Senator Sessions. General Jones, we have received testimony 
that the preponderance of weapons used in Enduring Freedom have 
been precision guided. We have also noticed that the Marine 
Corps has asked for additional Hellfire missiles which now is 
an unfunded requirement. Can you comment on the present 
utilization and utility of precision guided weapons in the war 
on terrorism and particularly where we are with regard to the 
Hellfire missile?
    General Jones. Yes, sir. If you do not mind, I will keep my 
comments in the unclassified realm here. But in general, one of 
the transformational aspects of warfighting between the 20th 
and 21st century, frankly if you really want to be more 
precise, since Operation Desert Shield-Desert Storm, has been 
the enormous progress that the United States has made in being 
able to deliver precision guided munitions. When you think that 
you have B-52s now that are almost in a close air support role, 
you really do have some transformational aspects of warfighting 
that are ongoing. I think that that is to be celebrated. It is 
an asymmetric advantage that U.S. technology has permitted us 
to achieve. It enables us to commit smaller forces on the 
ground, for example, which will have the capability of 
achieving missions that would, in the 20th century, have been 
unthinkable.
    So with that kind of transformation both in the technology 
field and the application of that transformational capability 
in precision guided weapons, you have a capability that will 
save lives, American lives on the field and lives of our 
allies, and bring about a swift resolution to our stated 
objectives on the ground in any future conflict much earlier 
than before and at far less of a human cost. So I think that is 
certainly to be celebrated.
    With regard to the Marine Corps, we have obviously been 
involved in the air campaign and had the marines on the ground 
and we have expended our share of ordnance. In general terms, I 
would say that we have done those things that are required to 
recapitalize those accounts where we have had a serious 
expenditure of munitions. I think that those programs for 
recapitalization are well under way.
    Senator Sessions. But it does appear that the budget that 
has been submitted to us leaves some of your requirements 
unfunded for one of your more valuable precision weapons, like 
the Hellfire. Where are we on that and how significant is this 
unfunded mandate? Frankly, I am concerned because if we are in 
a much more prolonged engagement than we have been in 
Afghanistan and we have these very expensive platforms, very 
expensively trained and skilled pilots and crew, but we do not 
want them not to have the weaponry, the bullets to fire in the 
gun.
    General Jones. Exactly. We were asked to submit a list of 
unfunded priorities. Perhaps ``priorities'' is the wrong term. 
These are programs that had we had the resources available we 
would have submitted, but the line was drawn at a certain 
place. So they are unfunded programs. In the case of the 
Hellfire, it was $105 million and that would buy about 1500 
missiles. That stands as something we would like to have, but 
it did not make the cut in the request, so we will keep working 
on it.
    Senator Sessions. In your preparation of the budget 
request, I suppose you could have made a decision in favor of 
the weaponry. How do you make those decisions? I would just 
express to you my concern that throughout the precision weapons 
area that we may not be maintaining the numbers that we need in 
all branches of service. I know it would require some tough 
decisions but, frankly, maybe having enough rounds to fire is 
more important than how many guns you have.
    General Jones. Absolutely. We are always interested in 
replenishing our accounts, and as a member of the Joint Chiefs, 
we have talked about these expenditure rates across the 
inventory and I believe that we have addressed those with the 
industry and Congress. From a Marine Corps perspective, it has 
to do with how much is in your inventory and what is your 
sense, what is our sense really, of our future expenditure 
rates and do we have enough. So based on that, we submitted at 
the right level and the priority; if it were much more 
critical, my voice would have been much more animated.
    So is it something that we would like to do? Certainly. But 
did it reach the level of critical must-do? Based on our 
inventory and our estimate of our usage rate, we think we are 
probably okay.
    Senator Sessions. I think we got thinner than we should 
have been in the Afghanistan effort and, okay, we are 
restocking rapidly in a lot of our precision weapons. But I 
think it has been a lesson for us. Rather have too many than 
too little.
    General Jones. I think you make a good point. What happened 
I think in Afghanistan was that--for example, in Operation 
Desert Shield-Desert Storm, 10 percent of the weapons that we 
used were precision guided munitions. In Afghanistan, it was 90 
percent. We really crossed over the threshold of seeing what 
precision guided munitions can do.
    But our theology, if I can use that word, was to 
essentially use precision munitions in the first few days and 
use all of the stealthy equipment that we needed and take down 
all the air defenses and then get it into an environment where 
you could use less precision munitions. But because of the 
enormous success that we had, we kept on using the precision 
guided munitions. So as a result, across the board, we saw the 
attrition and we jumped in and we dealt with it as best we 
could.
    But it is an astounding reversal between two conflicts 
spaced by about 11 years.
    Senator Sessions. Well, it is. Would you say just in terms 
of economics, are you getting more impact on the enemy dollar 
per dollar with a precision weapon than with a dumb bomb? Even 
though they cost more each, you can put them----
    General Jones. In the aggregate, you are going to probably 
achieve your stated goals in a shorter period of time and you 
are going to make less mistakes. You are going to have less 
unintended consequences. For example, if you go back to the 
Vietnam conflict, I remember being a second lieutenant and 
watching B-52s deliver Arclights and the rule of thumb for an 
Arclight was that you did not want to be within 5,000 meters of 
wherever the Arclight was going and you could feel the ground 
shake as they delivered the bombs. Now that same B-52 is 
delivering ordnance where you can be within 1,000 meters and 
still think that you will be okay. It is an amazing 
transformation in terms of capability.
    I do think that our delivery systems are getting more and 
more accurate. Just since Kosovo, for example, we have had, 
what I think, one of the things that really dramatically 
highlighted the return of the infantryman, if you will, and the 
value of boots on the ground, apart from showing national 
commitment; but that soldier or sailor or airman or marine on 
the ground can really multiply the force capability because by 
giving strong eyes on target and guiding the precision weapons 
to their intended objective with a degree of clarity that is 
lacking if you are just doing it from the skies. That has 
clearly been a big change as opposed to Kosovo, where we had 
nobody on the ground and you were relying on everything that 
you could get from imagery and intelligence and so on and so 
forth.
    So I think we have celebrated the return, I think, of the 
infantryman and the value of having eyes on target, boots on 
the ground, and getting real human and real-time tactical 
intelligence that translates immediately to being able to 
deliver precise ordnance at the right place and at the right 
time.
    But it is more expensive. I think in the future we will get 
the price down, and I think that is the wave of the future.
    Senator Sessions. I think the price does not necessarily 
have to be too much more than conventional weapons.
    Let me ask you this. I know you have made a lot of changes. 
I know you have adjusted substantially to this change in 
technology that alters the face of the battlefield. But are you 
satisfied that you are at the level you need to be in terms of 
coordinating with Air Force or other services in coordinating 
marines on the ground with air? Is there more yet to be done?
    General Jones. I think one of the great things that I was 
happy to see was how well this idea of close air support has 
permeated throughout the United States military. It was 
developed long before Special Operations Command even became an 
entity, but it is clear that Special Operations Command has 
done some remarkable, remarkable things with being able to 
deliver close air and just basic bombing missions, so to speak.
    One of the things that I alluded to in my opening statement 
was that we should really celebrate how far the idea of joint 
interoperability at the fighting force level has come. This was 
really something that was very impressive and I think is one of 
the clear lessons learned or lessons observed, I should say, 
from how the U.S. forces performed.
    Whether it was a naval platform flying TACAIR missions or 
whether it was the Air Force bombing or whether it was Special 
Operations or marines or the Army on the ground, wherever we 
put troops together they seemed to be able to pick up 
immediately and interoperate and do very, very well.
    Senator Sessions. Well, I thought that, too. I guess I 
would just like to pursue it a little further. My thought is 
the further you get away from your Special Ops, your most 
highly trained units, in all the services--do you think we are 
where we need to be? Do we still need some more commitment to 
reaching the highest possible level of coordination, 
particularly using precision weapons?
    General Jones. The best way to fight and win on the 
battlefield is to practice the way you fight. In that regard, I 
am a supporter of the efforts that Joint Forces Command is 
doing towards bringing the forces together and achieving true 
interoperability.
    But Senator, I would say that one of the most valuable 
things that the services bring to the joint war-fight is our 
service cultures. We have to be careful that we do not try to 
make everybody become too much the same. In peacetime, we bring 
different things to the table, different viewpoints, and it is 
the melding of all those capabilities that transforms the force 
and makes it even more exponentially viable on the battlefield.
    So I think we should be very pleased with the progress of 
how the services get each of their forces to the joint, what I 
call the joint line of departure, because once they cross that 
line of departure and are actually into a real world situation; 
this is not time for practice, this is time for putting into 
practice what you have been doing in peacetime. I think we have 
done extraordinarily well.
    Now, there is certainly more improvement we can make. For 
example, how we do logistics has got to be transformed in a 
way. We can do things better than stockpiling big ammunition 
dumps and supply dumps like we used to do in the 20th century. 
All the services are working, but not in isolation. We are 
sharing good ideas. What works in one service is being shared 
with another.
    That is why we are seeing a situation where you can put 
small amounts of people on the ground and have them survive, 
because of that tremendous reach-back capability, whether it is 
to reach up to an overhead platform, reach back for 
intelligence, reach back for logistics. The command element of 
the brigade headquarters that led two marine expeditionary 
units into Afghanistan was 56 people. That would have been 356 
people 15 years ago, but because of the reach-back capability 
and the technology and the changes that we have made to how you 
command and control forces on the ground, we are now putting 
fewer people at risk with greater protection and able to do it 
over tremendously long distances. I think that is to be 
celebrated.
    Senator Sessions. I think it is, too. We should celebrate 
the transforming commitment of our military. Militaries have 
been considered to be very conservative and slow to change in 
the history of the world and that is pretty much true. But I am 
not sure any military in peacetime or quasi-peacetime has been 
as rigorous in change and innovation as ours. I am sure there 
has been none. Certainly it appears that no other military in 
the world is modernizing itself, taking advantage of new 
capabilities as rapidly as we are. That is why we were able to 
wreak a lot of damage on our enemies with a relatively small 
amount of loss to ourselves. So I salute you for that.
    I am delighted that Senator Collins has joined us. She has 
shown great interest and fidelity to this subcommittee, has 
mastered the intricacies of it, and we would be glad to have 
you ask any questions or have any opening statement that you 
might have. Senator Kennedy will join us as soon as he is free.

               STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you very much, Senator Sessions. I 
very much appreciate your being here today and carrying the 
burden for all of us who are committed to this subcommittee. 
There are a lot of different hearings going on today that we 
are trying to cover and I have just come from one that Senator 
Kennedy is chairing.
    General Jones, your testimony highlights the acute 
shortfall of fire support and the need to continue to invest in 
naval surface fire support. I believe that the Advanced Gun 
System and the Extended Range Guided Munition technologies 
which are scheduled to be incorporated into the DDX will make 
significant advancements toward addressing this shortfall. 
Would you please comment on these two specific technologies and 
the capabilities that they will provide to the Marine Corps?
    General Jones. Senator, thank you very much for raising 
what has been a consistent worry of mine since I have taken 
office. Both on land and at sea, we have a shortfall in terms 
of fire support capability. The Marine Corps, in partnership 
with the Navy, has long depended upon naval fire support for 
successful amphibious operations of the 20th century. In fact, 
our history is scattered with loads of battles that have been 
won with the combination of the Navy and Marine Corps team, 
with strong fires coming from the sea and marines projecting 
ashore to secure an objective.
    What has happened since World War II is essentially a 
capabilities transformation. I talk about the Marine Corps now 
not in terms of necessarily an amphibious force, but as a sea-
based force that is expeditionary in nature. That expeditionary 
quality and the ensuring technologies that have developed have 
allowed us now to project that force over much longer 
distances.
    It is important that the fire support systems, both on land 
and at sea, accompany that capability. We currently have a 
shortfall in both sea-based and land-based capability. So in 
partnership with the CNO, who also recognizes this shortfall, 
we are anxious to be proceeding with the development of 
precision weaponry over extremely long distances that can, in 
fact, correct that shortfall.
    I might add parenthetically that, on land, the Lightweight 
155 is at a pivotal moment in its program life. This year, we 
should, in my opinion, commit to fully supporting the 
acquisition of that particular program.
    The naval programs are a little bit more complex and a 
little bit more transformational, because of the precision that 
goes into it. But we fully support the program. We fully 
support the advanced systems that we hope will be resident in 
our future surface platforms. We are working assiduously with 
the Navy to bring this about.
    Senator Collins. Would you please comment on the challenges 
that the Navy and the Marine Corps face in operating in the 
challenging littoral environment and how the DDX and its family 
of ships would help you better address those challenges?
    General Jones. Yes, ma'am. The value of the naval 
expeditionary force is that you are not as encumbered with 
access as you are if you are moving the landward piece of our 
national capability. In fact, in an operation like Enduring 
Freedom, the overwhelming majority of the TACAIR was delivered 
from naval platforms. Two marine expeditionary units were 
delivered over 400 miles in a landlocked country and 
maintained. Not only were they maintained, but when they 
arrived, they operated, ready to fight.
    In the future, the CNO and I are very, very interested in 
developing advanced sea-basing concepts with the DDG, with the 
future family of amphibious ships, and with our experiments 
with high-speed vessels. We believe that, particularly in the 
global war on terrorism, most of the potential areas that we 
would operate in are in and around the littorals. That 
capability of that naval expeditionary force, which will look 
differently in the future, will be accompanied by DDGs, and 
will have amphibious ships and a carrier that is committed to 
the support of the operation, which will result in greater 
integration of Naval and Marine Corps aviation. This is a 
capability that is a national treasure and should be carefully 
invested in over the years to come.
    Senator Collins. I was surprised that your written 
statement did not address the DDX and its family of ships. So 
just for the record, are the Marine Corps and are you still in 
strong support of proceeding with the DDX shipbuilding program?
    General Jones. I am in complete support with the CNO's 
program. The Marine Corps and the Navy budgets are combined to 
form the Department of Defense's budget. Generally in my 
statement, you would not necessarily see a shipbuilding 
characterization because that is usually done elsewhere. But I 
can assure you that I am a vocal supporter of the Navy 
programs. I believe that I am on record as saying that we need 
to recapitalize our shipbuilding accounts to start turning our 
Navy around so that we can build more ships in the future.
    The Secretary of Defense has said publicly that he regrets 
that we were not able to do as much as we wanted to this year, 
but it is certainly something that is on his calendar. He is 
very aware of it and within the limitations of our budgetary 
process we did what we could to invest what we needed to this 
year. But it is not a subject that is lost on us in terms of 
its importance.
    Senator Collins. General, section 211 of the Fiscal Year 
2002 National Defense Authorization Act conference report 
requires the Secretary of Defense to carry out an assessment of 
the requirements for naval surface fire support of ground 
troops operating in the littoral environment. That report is 
due at the end of this month. Could you tell us what the status 
of the report is and could you provide us with any insights on 
its conclusions?
    General Jones. If I could provide that for the record, I 
would appreciate that. I am not exactly sure as to what the 
exact status is at this point. I will be happy to do that.
    [The information referred to follows:]

    The report is being reviewed within Plans, Policies, and Operations 
(PP&O) of Headquarters, U.S. Marine Corps and will be returned to my 
office around the beginning of June. The report concludes that the 
combination of near- and far-term programs described therein will 
collectively provide the required range, lethality, accuracy and 
responsiveness to meet Marine Corps requirements for Naval Surface 
Fires.
    I concur with the report's conclusion that these programs can meet 
the requirements of the Marine Corps, but only if procured in 
sufficient quantities to provide sustained fire support to forces 
operating in the littorals. Obviously, fielding a capability (achieving 
an Initial Operational Capability) does not mean that a requirement has 
been met; that capability must be sufficiently proliferated to meet the 
needs of the supported force. The report does not address the 
quantities of munitions or weapon systems that will be procured through 
this plan, and I am concerned that these quantities will fall short of 
meeting the requirement to provide sustained, all-weather fire support 
from the sea.

    Senator Collins. Thank you, Senator Sessions. Thank you, 
Mr. Chairman.

             STATEMENT OF SENATOR EDWARD M. KENNEDY

    Senator Kennedy [presiding]. Thank you very much, Senator 
Collins. I just turned around and I saw you at the same hearing 
we were at, and here you got ahead of me once again.
    I want to thank my friend Senator Sessions for opening this 
hearing. Senator Collins and I were both at a very important 
hearing with a witness, Christopher Reeve, who is challenged 
physically from being paralyzed from the neck down. So that 
hearing, although it was supposed to be in the morning, 
necessitated a change to the afternoon. He has a particularly 
pressing schedule. So I apologize to Senator Sessions. I thank 
him very much for opening the hearing.
    I want to thank you, General Jones, for being here. I think 
anyone that is meeting with the leaders, let alone the members, 
of the armed services today, in any day in recent times, has to 
extend their extraordinary condolence through you to the 
others, not just in the Marine Corps, but in the Special Ops. 
Certainly the marines have been out there at the cutting edge 
in Afghanistan, and all of us are very mindful of the loss of 
those lives, particularly in the last 36 hours. So I am sure 
you have a keen appreciation for the very strong admiration and 
respect that all of us have for the marines and for others who 
are facing a very challenging and difficult task and performing 
extraordinarily well and suffering the casualties. Since you 
are the representative here today, we hope that you will 
understand that that is the way that we feel and that we are 
grateful, obviously, to you for all of your service.
    General Jones. Thank you, Mr. Chairman.
    Senator Kennedy. In the hearing today, the subcommittee has 
worked diligently with the Marine Corps and the Department of 
the Navy to address some important problems involving: the fire 
support capability, including the organic Marine Corps fire 
support and Navy shore support; enhancing the tactical mobility 
of the Marine Corps; and augmenting the mine countermeasures. I 
will note for the record that this subcommittee has taken the 
lead in Congress in ensuring the Navy and Marines improve the 
existing capability in these areas, in many cases over the 
objections of senior Defense and Navy Department officials.
    Unfortunately, we have seen early signs that the Navy 
Department may be lapsing into previous unacceptable behavior. 
Some of the instances that may be forming a pattern are the 
cancelling of the Land Attack Destroyer, the DD 21, program 
that was intended to be a multi-mission ship, but was primarily 
aimed at meeting the Navy surface fire support requirements of 
the Marine Corps. DD 21 was to have been the first ship in a 
class of 32 ships with delivery starting 2010. Marine Corps 
officials have previously testified that nothing short of the 
capability of the planned DD 21 with two 155-millimeter guns 
would meet their fire support requirements.
    With the new DDX program, there is no firm commitment in 
near the Future Years Defense Program (FYDP) to build anything 
other than a demonstration ship using R&D funding. It is not 
clear when, if ever, the FYDP would lead to meeting Marine 
Corps fire support needs. That is number one.
    Second, the terminating of the fire support missile 
program, Land Attack Standard Missile (LASM). The LASM was a 
program designed to use old surface-to-air missiles to provide 
some fire support capability, particularly at longer ranges. It 
was intended to be an interim system that would have been 
replaced by the new system, the ALAM.
    Last year, it appeared the Navy was canceling the ALAM. 
However, we could not tell for sure since the budget request 
did not give any information about fiscal years after 2002. 
This year, it is clear that the Navy is canceling both 
programs.
    Third, cancellation of the shallow water minefield 
breaching system. The Navy decided last year to terminate the 
Shallow Water Assault Breaching System (SABRE) and Distributed 
Explosive Technology (DET) shallow water mine clearance 
systems. In part, they based their decision on the fact that 
the systems are too bulky to be carried continuously aboard 
ship, and that the lanes cleared through the minefields would 
not be wide enough.
    The Navy made this cancellation decision in spite of the 
fact the Navy has no near-term alternative to provide the 
capability. It is hard to understand why having no capability 
in this area would be better than at least having some 
capability, whatever the shortcomings.
    Then they have the retiring of the U.S.S. Inchon mine 
command and control ship. Several years ago, with significant 
pressure from this subcommittee, the Navy decided they needed 
to have a large aviation-capable ship that would be dedicated 
to mine countermeasures support. They converted an older 
amphibious ship, the U.S.S. Inchon, to the duty. While the ship 
served the purpose for which it was intended, the fact it was 
an older ship and was probably not the highest on the Navy's 
maintenance priority list caused an erosion in material 
condition.
    Within the last year, the crew experienced a fire in the 
ship with one person killed. Because the Navy has decided that 
fixing the ship would be too expensive, they are retiring the 
ship with no immediate replacement. Navy officials have said 
that, in the interim, they would use one of the amphibious 
ships in the regular fleet in case they need to conduct 
dedicated minesweeping operations. This was the position we 
were in before this subcommittee began pressing the Navy to 
make significant mine warfare improvements in the early 1990s.
    Unfortunately, there are other examples that I can cite, 
but in the interest of time, I will not. Each of these actions 
taken individually may have an explanation. However, taken as a 
whole, I fear they are part of a pattern of the Navy 
Department's walking away from their funding of the very 
capabilities that make the Navy and Marine Corps team so 
relevant to today's world.
    If there is a new military strategy that is charting a new 
course for the Navy-Marine team, we need to hear about and 
understand it. If there is not, then we need to ensure that the 
Department of the Navy does not march down a path of 
incrementally divesting its capability without a thorough 
understanding of where these actions will take us.
    So I would hope that perhaps, General Jones, you would give 
us your reaction to this set of circumstances.
    General Jones. Thank you, Mr. Chairman. In 1995 I was 
privileged to serve for a year as the director of expeditionary 
naval warfare on the staff of the CNO and one of my 
responsibilities during that time was appearing before this 
subcommittee to testify on mine countermeasures and the 
direction of the mine warfare program.
    The commitment that was made at that time was to try to 
leave our legacy systems, which were developed, in theory, 
many, many years ago during the Cold War, when the United 
States structured itself to have a home port breakout 
capability. The fear was that enemy mines could be placed 
around our ports so that we could not actually put our ships at 
sea. We had structured ourselves to do that.
    While I was the director of expeditionary warfare, we, I 
think, made some progress towards transitioning from this 
legacy system to an organic capability. The thinking started to 
emerge that the naval expeditionary force of the future must 
have an embarked organic capability in order to deal with the 
mine threat, not at our home ports, but in the littorals or in 
the areas of operation that we were interested in around the 
world.
    We have invested a significant amount of money in bringing 
some capabilities to the fleet, albeit not completely done. But 
the idea was to try to get away from the fleet being dependent 
on the arrival of the Inchon, which would be home ported back 
in the continental United States, and, without knowing exactly 
where the problem would be they have to, basically, go to full 
stop waiting for the mine warfare community to arrive on-
station because there was no organic capability.
    So we have taken the leadership of this subcommittee 
seriously, because I remember how serious it was during that 
period. We recognize that during that time we had not 
sufficiently paid attention to the intent of Congress in this 
matter, and we fashioned some budget requests that were 
inviolate for the following 3 or 4 years in terms of mine 
warfare. In other words, mine warfare was fenced in the United 
States Navy for several years.
    As a result, they were able to make some exciting changes 
in trying to get to that organic capability. The shallow water 
mine countermeasures program, affectionately known as SABRE and 
DET, was not something that we walked away from without 
considerable experimentation and observation. It is a 
capability that gives you some utility, but it is very slow, it 
is extremely heavy, and it is not what I would consider an 
expeditionary program that we want to peg our future on.
    We have a target date, an IOC of 2005, to arrive at organic 
mine countermeasure capability within the carrier battle 
groups, and I believe that it is going to be exciting to get 
there. Now, in the mean time, are we going to have to accept 
some risk? Yes. But are we going to save some money by rolling 
up some legacy programs in order to get to where we want to go? 
Clearly.
    I would also say that one of the things that we should 
remember about mine warfare, particularly with the amazing 
technologies we have this year, is that, by virtue of our air 
cushion landing craft, some of our high-speed landing craft, 
and the range that technologies such as tilt rotor technology 
will bring to the expeditionary forces, we are not channelized 
nearly as much as we were in the 20th century to coming across 
a certain beach at a certain time simply because that is the 
only place we can land.
    We have access now to 85 percent of the world's landing 
beaches. We do not go up in the face of the enemy. 
Expeditionary maneuver warfare takes us to do just the 
opposite. So in many cases, finding out where the mines are is 
the first half of the puzzle, because we can go so many places 
where the mines are not.
    Now, clearly in-stride breaching is something that we want 
to bring into the United States Navy. No battle group should be 
held up because there is a floating mine that is detected in 
the water. We should be able to neutralize that mine.
    In that context, I would also offer that the progress in 
naval mine warfare outstrips the progress that we have made in 
land mine warfare considerably at this point. So not perfect, 
but certainly getting there.
    Senator Kennedy. Well, let me just remind--you do not need 
any reminder. I remember during the Iraq War being over in the 
Gulf and seeing those helicopters dragging the big chains in 
front of American resupply ships that were going three knots. 
We had American ships that were hitting those mines. Some of 
those mines were World War I mines. World War I mines! Now, we 
have been after this subcommittee, Senator Cohen and I, to talk 
about how we were going to get some help.
    Last year, I asked Admiral Fallon, what we were doing about 
it. Remember the difficulties. I mentioned the problems of mine 
warfare. We apparently believe that mines continue to present a 
threat to the Navy and the Marine force. So Admiral Fallon went 
on to say, ``We have a program in place that we are working in 
the area of new technology and, frankly, we are waiting to see 
how these things deliver.''
    I went on: ``I was interested in why the Navy was altering 
or redirecting funding on the SABRE shallow mine breaching 
system when it has no near-term alternative to field. I 
understand that it was done because they have testing problems. 
Do you want to explain?''
    He gave a long explanation: ``The recommendation is to 
pursue other technologies to try and do the job.''
    I want to know the assessment when he said we have new 
technology and we are waiting to see how things deliver. Well, 
we are a year later. I want to know how they are delivering. We 
are a continuing body and I am not satisfied with answers that 
come up every year: ``well, we are looking at this and we are 
looking at new technologies.'' Here we have the Admiral saying 
we have new technologies and we are going to assess them. Now, 
I guess we will ask the Admiral when he comes in here 
specifically. This is what they said a year ago and we want to 
know what they have been doing on it.
    I mean, that is the only way we are going to get any 
accountability. It is not as though we are all starting over 
every single year. That is what it always seems to be every 
single year. We are starting over and that is not acceptable. I 
would think you are the ones that would be the people that 
would be the most concerned about this priority in terms of 
what it is going to mean for your people. It was a matter of 
enormous concern to marines when I was out there. LaBootie, who 
you know well, has talked about this, about the limitations in 
terms of how the Americans were going to be able to deal with 
the limitations and how the marines were going to be able to 
land and perform in shallow waters on this.
    This is something that goes on every single year. I think 
that this is something that we have got to try and find out. 
Maybe we will go talk to the Navy about it, but it is something 
that is a matter of concern.
    Let me just go back to what I was talking about in terms of 
the firepower. We had heard testimony over the past the only 
solution to meeting the Marine Corps' surface fire would be the 
introduction of the capability that was going to be available 
in the DD 21, the two, as I mentioned, gun batteries. Now, Navy 
has outlined the DDX program and that will be 2005.
    So, has the Marine Corps changed its longstanding 
requirement for naval surface fire support?
    General Jones. Sir, we have not, and that is an 
identifiable shortfall that I identified in 1999 in my 
confirmation hearing. Not only is there a shortfall at sea, 
there is a shortfall on land. On land, which are the programs 
that I have the most facility to affect, we will bring, 
hopefully, on line within a very short period of time the 
Lightweight 155 and, finally, a replacement mortar, the 120-
millimeter mortar, that will significantly help remedy the 
paucity of fire support that is critical to the operation of 
our land forces.
    At sea, we are further away from a capability that will 
reach out over the distances that we can now project forces. 
But nonetheless, it is a commitment that we must bring to bear 
and bring into the inventory as quickly as possible.
    Senator Kennedy. Well, this is an important issue and you 
have been eloquent on it. You wonder whether there is any 
prospect the Navy will be able to meet your fire support 
requirements during the current and future years in the defense 
program. I mean, that is a serious question. Given the actions 
that the Navy has taken, it is still very much up in the air.
    Now, let me indicate where this leads. If we are not really 
serious about the creditable forcible entry capability, we have 
a limited ability in fire support now, and the actions taken in 
the last year give little hope the Navy will be able to meet 
the Marine Corps fire support requirements in the foreseeable 
future. So, if we are not really serious about maintaining or 
improving the capability, it raises more questions about 
whether we need the traditional amphibious shipping or other 
Marine Corps systems.
    I mean, why should the subcommittee conclude the Department 
is really serious about maintaining and improving the forcible 
entry capability in view of the various programmatic decisions 
that appear to be eroding that capability over time?
    General Jones. Mr. Chairman, I want to emphasize that the 
naval gunfire support has been historically important to us and 
it will be important to us in the future. But I would be remiss 
if I left the subcommittee with the impression that that is the 
only thing that gives us a forcible entry capability. The 
current range of the 5-inch 54 is about 14 nautical miles. The 
Advanced Gun System has a threshold of 60-plus nautical miles 
and the Objective Gun is over 100 nautical miles, and that is 
transformational capability.
    Some years ago, the Marine Corps, recognizing that 
battleships were disappearing and naval gunfire systems were 
attriting and not being replaced, committed to remedying that 
shortfall through heavy investment in its air-delivered 
ordnance systems. We have invested heavily in close air support 
and the Marine Corps has pioneered it as far as I am concerned.
    So the utility of forcible entry with the combined arms 
force of the Marine Corps, I maintain, still is very important 
to the operational flexibility of the national command 
authority. Naval platforms give you an access capability that, 
as we saw in Operation Enduring Freedom, countries that do not 
wish for you to use their bases or put a price tag that is so 
high that you cannot ever operate from there because you do not 
want to invent a Marshall Plan all over the world. It gives you 
the access capability and the forcible entry capability that we 
need.
    Clearly, naval surface fires need to be addressed. I 
believe that is recognized. Is it going fast enough? Probably 
not as fast as we would have liked, but it is a recognized 
requirement and shortfall. The good news is on the ground side; 
we are remedying it. We need to do more on naval guns and we 
will work with the Navy to do that. I think it is recognized.
    Senator Kennedy. Let me move along. We want to give focus 
in both of these areas and follow closely and we will continue 
to do so. We want to work with you on this in terms of the 
priorities of the committee because of the reasons you have 
expressed very eloquently.
    Let me go to the V-22 program. The subcommittee was 
notified recently that the Navy is paying the contract team to 
store 19 of the V-22 aircraft already built while the fixes are 
identified and tested. So, as I understand it, we have, I 
guess, it will be 30. Is that right, 30?
    General Jones. Yes, sir, about 30, 32.
    Senator Kennedy. I think at the outset, we want to get it 
right. Here is someone who wants to get it right. We do not 
want the marines, not that you would, cutting corners to try 
and--I recognize you have the backlog and the pressures on 
this. I think we want you and the marines and the Defense 
Department to get this thing right and take the time to get it 
right. That is the basic point that I want to make.
    Now, having said that, what can you tell us about this 
fact? We are getting all of these now--we have 30. All are 
going to have to be adjusted and changed now to deal with 
whatever kinds of changes that are going to be necessary. We 
want to try and keep the line on track, obviously, in terms of 
production. We have these realities that are coming up and we 
want to hear from you about how you see this current situation 
and what you can tell the committee.
    General Jones. Thank you, Mr. Chairman. The V-22 has 
survived because of the support of this Congress over the 
years. It has been--I believe, I continue to believe it to be 
truly a transformational capability. It was thoroughly looked 
at by the defense panel and NASA, two independent bodies that 
rendered the judgment that the problems with the program were 
not due to technology being immature, but due to engineering 
changes that had to be effected in the aircraft.
    For most of the past year, we have been working on making 
those corrections, the engineering corrections. We have been 
consulting on a daily basis with the experts in industry, with 
the best minds that we can put against this problem. We have 
essentially done a major rework of the hydraulic system to 
eliminate the chafing problems that have been discovered in the 
previous V-22's that were built, and we have rectified the 
software problems that caused the flight control anomalies in 
the last crash.
    We are now to the point where probably some time in April 
we can resume testing. This is an event-driven scenario, not 
time line-driven. I have stated for the record, along with the 
Commander-in-Chief of Special Operations Command, that had we 
been able to use this technology in Afghanistan, we probably 
would have not had a considerable number of helicopter 
accidents that we have had, simply because of the range, the 
capability, the altitudes, the speed that this technology 
offers.
    Let me be very clear that I think that this is so 
transformational in terms of military capabilities that it is 
really the departure point for helicopters, who are struggling 
in Afghanistan at the heights that we are asking them to 
perform and causing us to be very creative in how we get our 
helicopters to the area of operations from the standpoint of 
fuel, maintenance, etcetera.
    So where we are is we are about to return to a testing 
mode. We will do that carefully. I would like--with your 
permission, I have just two charts that I would just like to 
show you.
    Senator Kennedy. Sure.
    General Jones. If I could have the first one, please.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Just from a sense of perspective--and this is only for 
naval aviation--this chart shows is naval aviation mishap 
rates, which is calculated based on 100,000 flying hours. You 
can see--and hopefully you have a copy before you--that in 
1954, as a result of a very high mishap rate, in naval aviation 
776 aircraft were destroyed as a result of mishaps in 1954. In 
2001 the number was 15.
    So, this basically shows what tremendous progress we have 
made over the years in terms of flying more safely, recognizing 
that, sadly, it is never zero, but it certainly has gotten 
better.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The second chart, though, shows you by type the accident 
rates for production aircraft within the first 5 years non-
combat-related, starting with the F-8 on the left and all the 
way over to the V-22. I want to say these are production 
aircraft class A mishaps, not testing and evaluation. You see 
that historically speaking the V-22 is generally in the same 
envelope of performance, if not slightly better than, most of 
the other aircraft.
    This is just to simply say that aviation is still dangerous 
and, despite the progress of science, we still will make 
mistakes. But I think that we are going to be within a very 
acceptable envelope, recognizing that zero is our target.
    So we are anxious to try to bring this capability aboard. 
We have a plan with industry to retrofit the production 
aircraft that have already come off the line with the changes. 
I have personally visited Amarillo. Just recently, I have 
talked to the leaders of Bell and Boeing. I have talked to the 
program manager. The Secretary of the Navy is very involved. 
Mr. Aldridge, the Under Secretary of Defense for Acquisition, 
Technology, and Logistics, has given us his support to resume 
test flights and we are excited about the prospect of bringing 
this capability into our National inventory.
    Senator Kennedy. So, obviously, it is going to have to be 
tested and then, if it sort of works, they make the assessment 
about how the changes will be made in terms of the current 
production lines and how you retrofit the past.
    General Jones. The test aircraft will have all the changes 
in it.
    Senator Kennedy. We hope that you have a continuing 
invitation to keep our subcommittee advised as to where it is 
moving.
    General Jones. Thank you, sir. I will do so.
    Senator Kennedy. On the LHD stability issue that you are 
familiar with, the subcommittee has been informed there will be 
a ship stability issue on the LHD-1-class ships if the marines 
choose to replace the current air group with one-for-one 
replacements, the MV-22s, and Joint Strike Fighters, replacing 
the helicopters and AV-8B. Is this one of the reasons for the 
continuing discussion about the details for the LHA 
replacement?
    General Jones. Yes, sir. The LHAs are reaching the end of 
their service life and need to be replaced. So, as we do, that 
problem will certainly take care of itself over time.
    Senator Kennedy. Well, as I understand, it they will be 
replaced over the next decade or two.
    General Jones. Yes, sir.
    Senator Kennedy. The LHD-8 would presumably replace one of 
them. I understand the Department of the Navy has not come to a 
decision on the requirements for the rest of the replacement 
programs. The reports indicate that the size of the replacement 
ships range from 40,000 tons to as large as 75,000 tons. Why is 
there such a difference in the displacement among the options?
    General Jones. Well, the LHD is a significantly more 
capable ship from the standpoint of being able to accept new 
aircraft. Of course, the Joint Strike Fighter STOVL version and 
the V-22 figure in our transformational objectives. The 
Department remains committed to a 12 amphibious ready group 
capability as a floor and we, the Secretary, the CNO, and I, 
are very supportive of the follow-on programs to replace the 
LHD.
    Now, there is some discussion currently ongoing about the 
right size for the LHD of the future in order to make sure that 
we can accommodate all of the things that we want that ship to 
do. But fundamentally, it will still be an LHD.
    Senator Kennedy. Well, given the uncertainty, does it make 
a lot of sense to have advance procurement funding for the LHD-
9 when we have not decided that configuration?
    General Jones. I think I should defer to the shipbuilding 
community with regard to whether that is a wise course of 
action. I think that the fundamental design of the ship will 
not change. What is at issue here is whether there will be a 
plug in it to make it a little longer or a little bit wider.
    Senator Kennedy. You mean the difference between 40,000 and 
75,000 tons----
    General Jones. I am not sure what the spectrum of 
difference is, but I would be surprised----
    Senator Kennedy. Well, the only point is if we are going 
for--I would think we would want to get the final decision on 
the size of it before we do much advanced procurement funding.
    General Jones. I have General Magnus here, sir, who is more 
deeply involved in the specifics.
    General Magnus. Mr. Chairman, it is a pleasure to answer 
the question for you. First off, the amount of money that you 
were referring to, Senator, was a small amount of RDT&E 
funding. This summer, approximately the June-July time frame, 
we are going to report out on the analysis of alternatives 
which covers the range of ship hull forms that you talked 
about, ranging from about a 45,000 ton ship to about a 73,000 
ton ships.
    Clearly, we have to do the cost effectiveness trades to 
determine at that range of effectiveness and wide range of 
capabilities. Until the analysis of alternatives report is out, 
we believe that, basically, we have a place-holder with a small 
amount of RDT&E. If, in fact, it is simply an LHD-8 type hull 
with a 100-odd foot plug in it, there would be less amount of 
development required. If it is a new hull form, such as a twin 
hull 70,000 ton displacement ship, a significant amount more 
development would take place.
    These ships are not only required to replace the LHA-1 
class, which the first ship would normally retire about 2011, 
but, in fact, the CNO was on board Bella Wood just a few weeks 
ago, a 24-year-old ship, and he was quite surprised in a 
negative sense about the material condition of the ship. So, we 
would prefer not to have to wait until these ships have to be 
retired. We want to get under way with a decision on the 
development, sir.
    Senator Kennedy. That is good. I think you have it about 
getting the decision on the development so that it will move 
along. I just have some concerns about putting out a good deal 
of additional funds now without the final judgment and 
decision.
    I just had a couple. My colleague has been extremely kind 
and patient here. I have just really two more areas that I 
would like to mention. One is the new prepositioning ship 
program and the modernization of the prepositioning force 
ships. We all know about the importance of those prepositioned 
ships. I understand there has been continuing discussions in 
the Navy and DOD about the set of requirements on that. If 
there is anything that you want to----
    General Jones. Sir, thank you very much.
    Senator Kennedy. I just heard the concept is something 
else. About how long is that ship going to be anchored? It is 
unbelievable. I will not take a lot of time here, but it is 
something else; what you are planning?
    General Jones. Yes, sir. The MPS program, which was funded 
some years ago as a concept, has turned out to be 
extraordinarily useful to the marines and to the joint force in 
terms of not only projecting but maintaining the combat power. 
Just to give you a perspective, it would take 2,000 C-17 
equivalent lifts to bring to bear the same amount of equipment 
that the ships of amphibious squadron, MPS squadron, bring to 
the fight.
    It is a tremendous capability. The three squadrons are 
located strategically around the globe. They are bought and 
paid for. It is a leasing program actually, and the leases run 
out as I recall, between 2009 and 2011. So the reason we are 
discussing the follow-on family of ships is that around that 
time we will have to have come up with the solution for how to 
do the MPS of the future.
    One of the fundamental requirements of the program is a 
basing function or a basing capability. We have such a 
capability in a place called Blount Island in Florida right 
now. Blount Island has been the home port for all of our 
amphibious squadrons, our prepositioned squadrons.
    The thing I want to stress about this capability is that it 
is available to the warfighter immediately on arrival. Not only 
is it available on arrival, it is loaded in such a way that the 
warfighter can say, I need a certain capability, let us say 200 
light armed vehicles. Those ships are so well-constructed that 
inside it we can roll off 200 light armored vehicles fully 
manned, operational, ready, gassed up, ready to go and without 
having to offload the entire ship.
    We also have an in-stream offloading capability. We have 
added a hospital capability. We also have a capability of 
building expeditionary airfields--all contained, all paid for. 
There is not any warfighting commander in chief who is 
contemplating using marines that does not want to bring the 
maritime prepositioned ships into the fight.
    So this is a very important program for us. It will need to 
be addressed in the years ahead. As I said, the leases run out 
on these ships starting in 2009.
    Senator Kennedy. Do they still use that cosmolene? Do they 
still wrap those old weapons in cosmolene that takes hours to 
try and get off?
    General Jones. I do not think, not on our ships. Whatever 
is on those ships is ready to go.
    Senator Kennedy. Just finally, General. This is on the LST 
retirement: this committee intervened in 1994 to keep the Navy 
Department from selling or leasing all of the tank landing 
ships, the LSTs. Otherwise the Navy's overall amphibious lift 
capability would drop below the ability to carry the 2.5 MEBs. 
Although we have been technically maintaining 2.5 MEB lift, not 
all of the ships will be immediately available.
    The LPD-17 class of ships is intended to eliminate the 
problem. This year the Navy plans to get rid of one or more of 
the Navy's LSTs, which would mean losing the vehicle-carrying 
capability an LST represents. I remember Admiral Boorda felt 
strongly about this.
    Was the Marine Corps consulted in this decision?
    General Jones. Yes, sir. We have one LST left and it is 
scheduled to be retired this year. We have, with some concern 
in the aggregate, a stated requirement of being able to lift 
the amphibious echelon of three marine expeditionary brigades. 
The fiscally constrained reality is that we have been for the 
last 8 to 10 years, I would imagine, at about 2.5 marine 
expeditionary brigades assault echelon lift capability and 
sliding a little bit below that.
    So in the aggregate, that is a concern. But the CNO and the 
Secretary are faced with the serious situation that shows that 
the ships and the airplanes of the Navy, of the Navy 
Department, are aging at the same time, but aging in an 
accelerated way. Of the two, the aircraft in the Navy are 
significantly older than the ships are. So because we neglected 
to recapitalize and modernize for so long, all of the principal 
end items are becoming obsolete at the same time or aging at 
the same time.
    So what we have tried to do is stop the bleeding, to use a 
medical term. By that is to rid our inventories of legacy 
systems. There are some LPD-4 class ships, for example. I have 
a son who is a second lieutenant in the Marine Corps and he 
will sail on the U.S.S. Denver. I sailed on the U.S.S. Denver 
when I was a captain in 1975. So we still have some legacy 
amphibious ships that simply have to be let go before we can 
recapitalize.
    The cost of maintenance on old airplanes and old equipment 
is going through the roof and we simply cannot afford it. The 
longer we hang onto them, the longer we delay being able to 
turn around and do something.
    Senator Kennedy. But we want to work with you on that 
issue. We will be in touch with you.
    General Jones. Thank you, sir.
    Senator Kennedy. I want to thank again my friend and my 
colleague, Senator Sessions. I am very grateful to him for 
chairing the hearing.
    General Jones. Thank you, sir.
    Senator Sessions. We have a $48 billion increase in defense 
spending this year, which is the largest we have had in 15, 20 
years, I suppose. But we committed a lot of that for salary and 
health and other things. Do you know what that leaves us 
fundamentally for procurement and new systems after Congress 
has mandated the pay raises and the other things that we felt 
we needed to do? How much actual new money you got to spend for 
procurement?
    General Jones. In procurement for the Marine Corps, it is 
about $465 million.
    Senator Sessions. You did better than your fellow services 
in terms of procurement budget, I believe; did you not?
    General Jones. I do not have the comparison in front of me, 
but this from fiscal year 2002 to 2003 it is a significant 
increase for us.
    Senator Sessions. Well, I do not think we got an overall 
net increase in procurement. If it did, it was not much. It was 
just because we made a lot of other commitments and we have 
some increase in research and development, but, overall, we are 
not where we need to be. The marines have done I think the best 
in those categories, but you are small compared to the other 
services also, much smaller. You are beginning at a point much 
below the others.
    General Jones. Yes, sir.
    Senator Sessions. Let me ask briefly before I close up. The 
Quadrennial Defense Review directed the Secretary of the Navy 
to develop new concepts of maritime prepositioning and high 
speed sealift and amphibious capabilities for the Marine Corps. 
What are you taking with these new concepts? Are you satisfied 
where we are going, and what are your hopes for the future?
    General Jones. Senator, I am very excited about this 
concept. I think it is wrapped up in some discussions that I am 
looking forward to having with members of the committee and the 
staff and also in partnership with the Navy. It is wrapped 
around what I think is going to be a 21st century issue around 
sea-basing and how the United States is going to have to come 
to grips with this issue.
    Simply put, it is my feeling that our access to large land 
bases in the 21st century is liable to be less than it has been 
in the 20th century in the way we have traditionally done it. 
We have seen the rise of sovereignty issues around the globe, 
nations that jealously guard their national sovereignty, and 
sometimes make it very difficult for us to position our forces 
and, if we do position our forces, use our forces in the way we 
would want to.
    Sea-basing gives you a mobility and a sustainability piece 
that, if done right, will offset those sovereignty issues that 
are in the land-based side of the house. It will go beyond the 
current configuration of the fleet. It will include a family, I 
believe, of high-speed vessels. Currently we are experimenting, 
as an example, with a high-speed vessel in Okinawa. Instead of 
waiting for strategic airlift, which is very short and very 
expensive and in great demand, as you might imagine, we can 
now, as a result of a leased ship that we obtained from 
Australia, take an entire marine battalion and all of its 
equipment, put it on a high-speed vessel, and, at a speed of 50 
knots, be in the mainland of Japan the next morning, or we can 
be in Guam a day later than that, at a significantly lower 
cost.
    So looking at this concept of sea-basing and looking at 
some of the things that were discussed in the mid-1990s, put 
aside the opportunity to build perhaps mobile offshore bases 
when you have a culture that is expeditionary like the Navy and 
the Marine Corps, where a 6-month rotation is the standard for 
our culture. If we had sea bases to go to and project our 
influence and our sovereignty around the world, I think you can 
have an exponentially different way of doing business.
    So I am very excited about the whole concept of sea-basing.
    Senator Sessions. I think that has great potential and the 
high speed movement by ship has great potential. Also, our 
subcommittee deals with airlift, too, and we know how tight 
that can be. To me, if we could supplement it significantly in 
this fashion we would be making a step forward.
    General Jones. Absolutely.
    Senator Sessions [presiding]. Senator McCain, I think I am 
acting chairman here again. So I am glad to recognize you. I 
have finished up. It is all yours.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Senator Sessions.
    Thank you, General Jones, for being here. Thank you for 
your leadership of the Marine Corps and thank you for the 
changes that you are making in the Marine Corps to help meet 
these new and very difficult challenges that I think we just 
learned in the last day or so are still quite significant.
    General Jones, could I ask you about the issue of the 
aircraft carriers. I and eight other members of the Senate went 
on a trip to Central Asia a month or so ago, including 
Afghanistan and several other countries. But, on the way back, 
we took the opportunity to go out on board the Theodore 
Roosevelt. The Theodore Roosevelt at that time was one of four 
aircraft carriers that were in the region. They were on their 
113th day of deployment without having been into port and they 
were going to have some more weeks of deployment.
    That is a very long time to be at sea. It is something that 
the officers and enlisted men and women were very enthusiastic 
about because they clearly thought they were making an 
important contribution to freedom and combatting the war on 
terrorism. But I do not think you can do that very long and 
very often and maintain men and women in the all volunteer 
force.
    As I mentioned, there were four aircraft carriers. My 
understanding is there are 11 operational aircraft carriers and 
one training carrier. Four of the 11 were on station at that 
time.
    Do you not think it would be very difficult to maintain 
that kind of OPTEMPO over an extended period of time?
    General Jones. Senator, I think the CNO and I have talked 
about those things and that is clearly a difficult, very 
challenging, and very stressful thing to do. In addition to the 
carriers, there were six amphibs that have been out there for a 
considerable period of time. I know the CNO has taken that into 
consideration and meeting General Franks' request for the 
support and the presence.
    Interestingly enough, the preponderance of TACAIR that was 
delivered and still continues to fly over the skies of 
Afghanistan are coming from those naval platforms, simply 
because of the difficulty to project TACAIR over those 
distances. But your point is well taken. It is something that 
as a percentage of our total fleet, and if you examine the 
potential requirements of the global war on terrorism and the 
role that the naval expeditionary force will play in 
prosecuting that war, then we have to make sure that we do not 
break either the capability of the ships or the capability of 
the force to sustain those operations.
    That is why we are working very hard to make sure that 
those ships get rotated in a timely manner, so that it is not 
an indefinite deployment, recognizing that 6 months straight is 
an awfully long time.
    Senator McCain. It just seems to me that perhaps we are not 
looking at the requirement for additional aircraft carriers--I 
am talking about big carriers--if that indeed is the case, 
which I think that statistics prove that it is carrier-based 
air that is carrying the majority of the load. It always seems 
to at the initial phases of conflict, until the land bases are 
established. I know we will, working with Kyrgystan, 
Uzbekhistan, etcetera, build bases that land-based air can 
operate from.
    But it seems to me that we need to consider what the 
threats are and whether we have sufficient carrier capability 
in light of the requirement for carriers to undergo 
maintenance, training, etcetera. As proud as those men and 
women are of serving, I do not think you can send them too many 
times on 6-month deployments and maintain the reenlistment 
rates. Would you agree with that?
    General Jones. Over time, committing that percentage of the 
force for that length of mission will probably cause 
difficulties in the services. But for now, because of the fact 
that we are at war, we are, in fact, dependent on them to 
provide that force from those platforms. There is not really 
any good other alternative. So I think we, recognizing the 
challenges and the stresses that places on the force, also 
celebrate the courage and dedication of those crews that are 
just doing astoundingly good work.
    But your point is well taken, that how we go on in the 
future; it just cannot be assumed that we can operate at that 
tempo forever. That is why we really have been working hard to 
make sure that we just do not do indefinite deployments, 
either, 8, 9, 10 months. That is not supportable.
    Senator McCain. Obviously and unfortunately, some of that 
is dictated by the nature of the threat as opposed to planning.
    General Jones. I mentioned earlier, Senator, that the 15th 
MEUSOC, for example, which just completed almost a 7-month 
deployment, was the first marine unit to go into Camp Rhino and 
just returned home yesterday at San Diego, and we celebrate 
that return and their great contribution. But it is time for 
those ships and the equipment on those ships to get some tender 
loving care and maintenance, and it is time to get the next 
unit ready to go out. That is what we are about.
    Senator McCain. There was an article January 28th entitled 
``Responding to Lott, DOD Starts Funding LHD-9 and One More 
DDG-51,'' by Chris Castelli, in a publication ``Inside the 
Navy.'' The article states: ``At the urging of Senate Minority 
Leader Trent Lott, the Pentagon has made last-minute 
adjustments to the Navy shipbuilding plan in the Bush 
administration's fiscal year 2003 budget. The Pentagon put $74 
million more towards a third DDG-51 destroyer and allocated $10 
million to advanced procurement for a ninth amphibious ship, 
LHD-9, that was not previously in the budget.''
    General Jones, was a ninth LHD-9 in the Navy's budget, in 
the Navy's PBD, do you know?
    General Jones. I am sorry, Senator?
    Senator McCain. Was an LHD-9 in the Navy's PBD?
    General Jones. The advanced procurement of it was.
    Senator McCain. Was it in the Navy's PBD? I think I have a 
document here that shows that it was not.
    General Jones. It was not.
    Senator McCain. It is interesting. According to the article 
this decision was made by the comptroller, which I do not 
expect you to comment, it is just bizarre. I have never heard 
of the comptroller making these kinds of decisions. It makes 
one wonder what kind of decision-making process is taking place 
over there, particularly in light of other decisions, such as 
the procurement of--not procurement, certainly not 
procurement--leasing of Boeing aircraft without even the 
Secretary of Defense knowing that that decision was being made.
    Are you aware of an effort going on by the Department of 
the Navy to look at an analysis of alternatives to replace the 
current LHA with an LHA-R, and are you aware that the OSD 
Comptroller's Office deleted the funding for the study on the 
AoA, cutting $16 million from the RDT&E effort for the LHA 
replacement?
    General Jones. We have supported the advanced procurement 
of the LHD-9. I think that is something that we need to do. We 
can accommodate any changes for the design recommendations as 
they come about. This is an ongoing discussion and we will have 
to see where it takes us.
    Senator McCain. Well, thank you, but my question was are 
you aware that there was an analysis of alternatives that was 
cut from the RDT&E effort?
    General Jones. I am not aware of that, Senator.
    Senator McCain. Finally, tell me about the Osprey, please, 
and what your vision is, what it is going to cost, what needs 
to be done, and what is your degree of optimism is? Just give 
me a 2-minute blurb on the Osprey, please.
    General Jones. Two major independent panels, NASA being one 
and the Secretary of Defense's independent panel, concluded 
that the problems associated with the V-22 had more to do with 
engineering than mature technology. So, the technology was 
validated as being sound. Since that time we have been working 
very closely with industry to fix the engineering problems and 
re-engineer, for example, the hydraulic system, eliminate the 
chafing that was taking place within the titanium fuel lines, 
and to fix the software deficiencies that contributed to the 
anomalies that caused the last accident. We have received the 
support of the Under Secretary of the Defense for the 
Acquisition.
    Senator McCain. How about the comptroller? Have you got his 
support?
    General Jones. The funding line is satisfactory. We expect 
to resume test flying some time in April.
    Senator McCain. So you are optimistic?
    General Jones. I am optimistic that the technology is 
sound. To the extent that an infantry officer can understand 
the aeronautics and the physics of tilt-rotor technology, I 
have spent a lot of time with industry. I have walked the 
assembly plant and I have talked to the squadron. I have talked 
to the senior leadership in both Bell and Boeing who are 
partnering in this project.
    I am personally convinced that the recommendations of the 
two independent panels were persuasive, and the Secretary of 
the Navy has also been persuaded and we are planning a return 
to flight that is event-driven, not timeline-driven. Despite 
the operational need for this, what I think is a 
transformational capability that will, initially, be given to 
the Marine Corps and the Special Operations Command, I think 
that we have the potential of bringing something into our 
combat capability that will in the case of another Afghanistan 
completely transform the way we do business. Had we had it this 
time, and it is clear that we would not have had the number of 
mishaps that were caused by altitude and very, very demanding 
flight profiles that our helicopters are simply not well 
equipped to do.
    Senator McCain. What happens to the capabilities of the 
Marine Corps if the Osprey program were cancelled?
    General Jones. Then we very clearly are returning to a 
dependence on rotary wing, and we do have a general plan for 
that eventuality if it should happen. But it will clearly mean 
a step backward in terms of the potential of transformation. It 
will be essentially a modernization of existing capabilities 
that will have generally limited reach, range, and payload 
capability. But that is what we will have to do.
    Senator McCain. Is your rotary capability aging?
    General Jones. It is beyond aging in the CH-46 capability, 
which preceded my time in the service in terms of when it came 
into the inventory. So the CH-46 capability must be replaced in 
any eventuality. The 53-Echoes are a little bit--are 
considerably younger, but we definitely have to address the 
workhorse of the fleet, the CH-46, which has an average age of 
33 years as we speak. They last for a service life of 30 years, 
roughly.
    Senator McCain. So, if the Osprey were cancelled, you would 
have to make some very difficult decisions?
    General Jones. The solution that we would have to go to 
would be a rotary wing solution, yes, sir.
    Senator McCain. With a fleet that would have to be 
modernized?
    General Jones. Certainly, yes, sir.
    Senator McCain. Well, I thank you, General Jones. I hope 
that you will see your way clear to stop out at the Marine 
Corps Air Station Yuma before the weather gets too warm. You 
are welcome. You are always welcome out there. Even non-
aviators are welcome.
    General Jones. Sir, I appreciate that. I was there 2 weeks 
ago and I talked to all the commanders, the XOs, and the 
sergeants major on the subject of safety.
    Senator McCain. I hope that you talked to them about the 
quality--do not talk to them about the quality of their 
representatives in Washington in the United States Senate.
    I thank you, General Jones, for appearing before us and I 
thank you for the job that you continue to do.
    Thank you, Senator Sessions.
    Senator Sessions. Thank you.
    If there is nothing else, we are adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                        UPDATING TRANSPORTATION

    1. Senator McCain. General Jones, you know that I traveled to 
Afghanistan with other members of this committee. While there, I heard 
from several Navy and Marine Corps officers that the number one concern 
for replacing the LHA is safety because of a stability problem or high 
center of gravity issue, especially with deployed aircraft. Their 
concern was that even with some minor fixes with fuel compensation 
systems, the problem will be exacerbated when the Service deploys 
larger aircraft, such as the Osprey (MV-22) and the Joint Strike 
Fighter (JSF) which are replacements for the CH-46 and AV-8B 
respectively. I am told that the MV-22 is twice the weight of the CH-46 
and that the JSF is believed to be about twice the weight of the AV-8B.
    With this in mind, would you agree that the problem could be 
exacerbated with the planned future aircraft and vehicles envisioned 
for the Marine Corps?
    General Jones. In discussions with the Navy, the Fuel Oil 
Compensation Ship Alteration significantly improves LHA-1 class damaged 
stability. With this alteration, the LHA can accommodate MV-22 
integration, with aggressive control of future weight growth. The 
capability of these ships to handle JSF and associated support has not 
been determined. The LHD-1 class has improved stability characteristics 
due to design differences relative to LHA-1 class. LHD-1 class can also 
accommodate MV-22 integration with aggressive weight control measures. 
The Fuel Oil Compensation Ship Alteration is necessary in early 
numbered ships of the LHD ship class to accommodate JSF integration. 
LHD-7 has already received the Fuel Oil Compensation Ship Alteration in 
new construction and has the growth allowance available from a 
stability standpoint to accommodate MV-22 and JSF integration.

    2. Senator McCain. General Jones, is the LHD a transformational 
replacement for the LHA class of ships, considering that the ship does 
not meet the requirement in planned future vehicles and aircraft for 
the Marine Corps or our special operations community and considering 
the amphibious lift requirement of 2.5/3.0 MEB?
    General Jones. The ongoing LHA Replacement Analysis of Alternatives 
is addressing whether the LHD is a good replacement for the LHA class. 
Continuing to build LHDs, as well as ship design modifications to 
enhance the capability to operate with the new generation amphibious 
systems such as the Joint Strike Fighter, MV-22 Osprey, Advanced 
Amphibious Assault Vehicle and Medium Tactical Vehicle Replacement are 
currently being examined. The Analysis of Alternatives is also 
investigating the optimum way to reach the fiscally constrained 
amphibious lift capability of 2.5 Marine Expeditionary Brigades. It has 
long been recognized that the Marine Corps requires an amphibious ship 
force structure capable of simultaneously lifting the assault echelons 
of three Marine Expeditionary Brigades (MEB AE). The Analysis of 
Alternatives is expected to report out later this year and will present 
its conclusions at that time.

    3. Senator McCain. General Jones, it seems to me that the LHD is 
not a very transformational program, especially considering that it is 
the exact same hull of the current LHA class that is based on a 1950s 
design. It seems to me that if the LHA(R) class ship is built to have a 
life span of 50 years with no further research and development (R&D) 
invested, then LHD-9 will be a 100-year-old design when it is 
decommissioned in the 2050 time frame. Are you concerned with the level 
of R&D funding in the fiscal year 2003 budget for a major amphibious 
ship like LHA(R)?
    General Jones. In discussions with the Navy, there were programmed 
research and development funds for LHA Replacement to address new 
hullforms and other transformational issues in the fiscal year 2002 and 
2003 budgets. Subsequently, fiscal year 2003 and 2004 research and 
development funding was deleted. The Navy is addressing the fiscal year 
2004 funding issue as part of the ongoing budget process. Additionally, 
the Navy will need to increase the research and development funding 
line for LHA(R) if the results of the Analysis of Alternatives support 
a ship with more capabilities than the current LHD class.
    The LHD hull is actually a modified version of the LHA hullform. 
Although the hull structure is similar, there have been improvements 
made in the LHD hull over the LHA. Additional transformational 
improvements have been made throughout the construction of the LHD 
class. The original hullform of the LHA and LHD classes were 
constrained by a requirement to transit the Panama Canal. That 
requirement was removed in 1996 and could permit significant hull 
improvements to be made in the planned LHA(R) class. The planned life 
of the LHA(R) class, like the LHD class, will be 40 years.

                         SHORT TAKE-OFF TACTICS

    4. Senator McCain. General Jones, you have stated that a JSF 
capable of flying from an expeditionary airfield will transform the 
very foundation of tactical air power. How important is a Short Take-
Off and Vertical Landing (STOVL) version of the JSF to the Marine 
Corps? Could marine tactical aviation continue to thrive without the 
STOVL JSF?
    General Jones. Marine tactical aviation would continue to 
accomplish its mission without the STOVL JSF but only at a 1980s 
technology level. STOVL JSF is critical to the transformation of marine 
aviation and provides the Marine Corps the only option to affordably 
reconstitute the bulk of our tactical aircraft, while providing the 
survivability, lethality, flexibility and supportability necessary to 
deal with the threat of 2010 and beyond. STOVL JSF's capability will 
provide marine aviation the tool to support the Marine Air-Ground Task 
Force in the execution of Expeditionary Maneuver Warfare. Without the 
STOVL JSF the Marine Corps and the Nation will suffer a tremendous loss 
of capability.
Why Short Takeoff Vertical Landing (STOVL)?
    Transformation
    In 1957, General Randolph Pate, the 21st Commandant of the Marine 
Corps, committed us to the vision of becoming an all STOVL force. Such 
a revolutionary transformation will provide the Corps with unparalleled 
flexibility and enhanced operational capability. Beginning in the early 
1980s, the USMC embarked upon a neck-down strategy of reducing the 
number of type, model, and series of our fixed wing and rotary wing 
aircraft. The strategy reduces our fixed wing strike aircraft from 
seven types to one in the 2020 timeframe. Over the next decade, General 
Pate's vision will become reality as the Corps fields the STOVL Joint 
Strike Fighter (JSF), culminating our efforts to neck-down our fixed 
wing strike aircraft and to complement our MV-22 Osprey tilt-rotor 
aircraft. Today, the USMC is committed to an All-STOVL force and has 
foregone the purchase of a follow-on legacy aircraft to invest in the 
next generation of tactical fighter aircraft.
    Expeditionary Ethos
    Expeditionary Maneuver Warfare (EMW), the Marine Corps' capstone 
concept for the 21st century is built on our core competencies and 
prepares the Marine Corps, as a total force, to meet the challenges and 
opportunities of a rapidly changing world. EMW is the union of our 
maneuver warfare philosophy, expeditionary heritage, and the concepts 
by which we organize, deploy, and employ forces. Expeditionary forces 
must be adaptable, with the capacity to commit to a specific mission, 
while remaining ready to rapidly shift to an entirely different one. 
They must also be capable of rapidly increasing or decreasing the 
combat power available in an area of operations. Without a STOVL 
capability, Marine Expeditionary Forces cannot fully exploit the 
advantages of our EMW concept. The STOVL JSF represents the future of 
the Aviation Combat Element (ACE) in Marine Expeditionary Forces. Our 
long-term strategy is to replace our Harriers and F/A-18 Hornets with 
the STOVL JSF. The performance characteristics of the JSF will enable 
it to operate from the decks of both amphibious ships and aircraft 
carriers, as well as from expeditionary airfields located well forward-
close to the ground troops it will support. Most recently, we proved 
the validity of STOVL aircraft in a tactical role with the AV-8B 
Harrier's forward deployment into Kandahar, Afghanistan. Our Harriers 
launched from Amphibious Readiness Group (ARG) shipping and forward 
based at Kandahar to provide close air support to coalition ground 
forces.
    Spectrum of Conflict
    Since 1990, Naval forces have averaged one contingency response 
every 5 weeks. These crises have ranged across the entire spectrum of 
operations, from peacekeeping and disaster relief to regional conflict. 
With STOVL JSF deployed with our Navy/Marine Corps team, we stand ready 
to respond across the full spectrum of conflict from humanitarian 
operations to major theater war. Because the hardware and software 
architectures of our current TACAIR platforms are over a decade old, 
they have a very limited ability to integrate new technology being 
developed to deal with emerging threats. While threat systems 
capabilities increase, the combination of stealth, advanced 
countermeasures, and improved pilot situational awareness provide the 
JSF the ability to fight and survive against the rapidly emerging 
Surface-to-Air Missile (SAM) threat. Specifically, as the SAM threat 
continues to evolve and proliferate, stealth will become important to 
aircraft survivability.
    Affordability
    The purpose of the JSF Program is to affordably develop the next 
generation strike fighter weapons system to meet an advanced threat 
(2010 and beyond). A 1980 Naval Air Engineering Center Sea-Based Air 
Master Study concluded that STOVL aircraft require 30 percent less deck 
space for operations. Additionally, the study reported that an Air Wing 
equipped with STOVL aircraft would generate 30 percent more sorties for 
targets out to 300nm and 15 percent more sorties for targets out to 
700nm. These findings have direct implications on affordable future 
ship design for the CVN and LHA replacement classes. The Cost and 
Operational Performance Trade Studies used in requirement development 
and the independently conducted Analysis of Alternatives have shown 
that JSF has struck the right balance between performance and 
affordability. Commonality across the family of JSF variants is the key 
to affordability. All of the variants will share a common avionics 
architecture, a common airframe, and a common core propulsion system--
greatly reducing the manufacturing/procurement costs. JSF will replace 
almost 3,000 aircraft within the USAF, USN, and USMC and is the 
affordable solution to the TACAIR inventory obsolescence problem that 
we currently face.
    Conclusion
    The STOVL JSF incorporates leap ahead technology with developing 
concepts such as Joint Vision 2020 and our overarching concept of 
Expeditionary Maneuver Warfare to establish a truly CINC-relevant 
aircraft of choice. STOVL JSF is critical to the success of the Marine 
Corps in the 21st century, as it will solve the significant problems of 
age and attrition currently facing Marine TACAIR. The STOVL JSF will 
provide the Marine Corps with a stealthy, state-of-the-art, high 
performance, multi-role jet aircraft that can operate within the 
expeditionary environment. The Marine Corps begins receiving JSFs in 
2008 with a fully operational, deployable squadron scheduled for stand 
up in 2010. The combination of stealth, basing flexibility, and 
superior performance will revolutionize air warfare and Naval Aviation 
well into the 21st century.

                         TRAINING RESTRICTIONS

    5. Senator McCain. General Jones, the Marine Corps success in 
Operation Enduring Freedom has shown the importance of proper training 
for the air/ground team, especially close air support. With serious 
encroachment issues facing many military training ranges today, 
including land, airspace, and bandwidth, and restrictions being placed 
on training such as on Vieques Range, how has the relevance in air and 
ground combat training for Navy and Marine Corps aircrews been affected 
at the Barry M. Goldwater Range (BMGR)? What prospects do you see for 
even greater use of the BMGR in the future?
    General Jones. My most important responsibility as Commandant of 
the Marine Corps is to ensure that our marines and sailors are well 
trained and ready for the dangerous missions we routinely ask them to 
perform. This is not an abstract requirement. For the Atlantic Fleet 
Navy and Second Marine Expeditionary Force (II MEF) units, the most 
rigorous, realistic training that allows us to certify our forces as 
combat ready is provided at the training range on and around the island 
of Vieques, Puerto Rico.
    Recently, marines and sailors from the 2,200 strong 26th Marine 
Expeditionary Unit Special Operations Capable (MEU SOC) played an 
integral role in air and ground combat operations during Operation 
Enduring Freedom in Afghanistan. For these units, Vieques provided 
vital predeployment training such as naval gunfire shore fire control 
party training and other supporting arms coordination exercises. In 
addition to performing other mission essential tasks, this training 
routes aircraft from a holding position to a marine infantry unit on 
the ground that needs close air support fires. To provide this service 
requires detailed coordination. In Vieques, marine air support elements 
are truly able to master their skills. From communications with 
numerous Navy ships to controlling and directing dozens of aircraft 
into an objective area and safely out again, marines gain immeasurable 
experience and confidence in their abilities.
    If the training opportunities at Vieques are lost permanently, the 
Navy can still conduct naval gunfire training using the IMPASS system, 
an array of sonobuoys at sea. Unfortunately, this system does not 
provide the opportunity to train naval gunfire control parties, as this 
is an acoustically cued correction system vice a visually cued 
correction system. In combat, naval gunfire observers make adjustments 
onto a target using direct visual impact observations. This degradation 
of combined arms training due to encroachment will have a deleterious 
effect on our marines' combat readiness.
    The western portion of the Barry M. Goldwater Range is part of the 
Yuma Training Range Complex (YTRC), which also includes the Chocolate 
Mountains Aerial Gunnery Range (CMGR), and approximately 10,000 square 
miles of associated Special Use Airspace in Southwest Arizona and 
Southeast California. The BMGR supports intermediate and advanced level 
training in all six functions of marine aviation: assault support, 
control of aircraft and missiles, offensive air support, electronic 
warfare, tactical air reconnaissance, and anti-air warfare. Training 
conducted at BMGR provides tactical employment of MEF units and 
individual combat skills training in a high-stress, simulated high-
threat, realistic environment. Other services also train on the range 
to include Navy, Air Force and National Guard units.
    Current capabilities of the BMGR West allow for: (1) accurate 
scoring of inert ordnance delivery on a circular raked range, unscored 
inert ordnance delivery on a realistic target complex, and simulated 
ordnance deliveries in realistic target complexes; (2) sufficient 
maneuver airspace for fixed wing and rotary wing aircraft to conduct 
tactical maneuvering; (3) response to third generation threat emitter 
systems (Fourth generation EW emitters are only available for students 
during WTI courses. The emitters are rented at high cost.); (4) 
tracking events on Tactical Air Combat Training System (TACTS) from 
medium altitude (5,000 feet above ground level) to high altitude 
(80,000 feet above ground level); and (5) limited debrief capability of 
aircrew counter-threat response effectiveness.
    Desired future capabilities for the BMGR include: (1) integration 
of BMGR East (Air Force) and West (Marine Corps) aircraft tracking 
systems; (2) tracking aircraft to the surface and vehicles; (3) fourth 
generation threat emitters; (4) target systems with multi-spectral 
cuing; and (5) use of advanced weapons systems such as Joint Strike 
Fighter, MV-22 Osprey, Joint Direct Attack Munitions (JDAM) and Joint 
Stand Off Weapons (JSOW). Intrinsic to these future capabilities are 
myriad unfunded upgrades, such as secure communications, high capacity 
fiber optics, communications and data relays, etc.
    The nearby Chocolate Mountains Aerial Gunnery Range in California 
supports live fire integration of aviation and supporting arms. The 
Marine Air Ground Task Force Training Command (MAGTFTC) in Twenty-nine 
Palms, California closely integrates the full compliment of 
capabilities for aviation and ground combat units in a live fire 
combined arms training environment. As at Vieques, San Clemente Island 
off the coast of Southern California provides for naval gunfire support 
training.
    Although the relevance of aircrew training in the BMGR will 
increase as a result of lost training opportunities at Vieques, 
prospects for greater use of the BMGR in the future are limited due to 
the effects of encroachment. Encroachment upon Marine Corps properties 
is principally due to regulatory requirements that place the burden of 
compliance/action on military installations and environmental groups/
commercial interests. They want the government to either accept 
environmental mitigation on our land or preserve existing on-base 
conditions to the detriment of current and future mission capability.
    BMGR currently provides habitat for two species listed under the 
Endangered Species Act--the Sonoran Pronghorn antelope (designated) and 
the Flat-tailed horned lizard (proposed). The presence of these 
protected species places significant restrictions on approximately 
320,000 acres (46 percent) of the BMGR West. Similarly the Sonoran 
Pronghorn occupies 445,000 acres (42 percent) of the BMGR East, which 
is under U.S. Air Force control but is also used by fleet marine units 
and Marine Aviation Weapons and Tactics Squadron One (MAWTS-1). 
Although civilian recreational use and the two protected species have 
not prevented required training mission accomplishment, they limit use 
of certain portions of the range. For example, when Pronghorn antelope 
are present in a target area, fighters laden with ordnance and fuel 
must loiter until the antelope leave, or, cancel the sortie without 
completing their assigned mission.
    Marine Corps installations manage training areas and ranges such as 
the BMGR, and provide logistical support for all levels of the Marine 
Corps organization from the individual rifleman/aviator, all the way to 
the MAGTF. Additionally, other services deploy to our installations and 
train on Marine Corps ranges. The ability to ``train as we fight'' in 
the air, on land and sea has continually diminished since the post-
World War II era as a result of encroachment. During the post war 
period, the complexity, range, and destructive force of weapons and 
weapons delivery systems increased exponentially. This difficulty is 
further compounded by the fact that our World War II installations and 
training areas generally did not expand as weapons increased in range, 
destructive force and lethality.
    Encroachment issues are many, complex, and involve multiple 
Federal, state and local agencies, as well as Congress and the public. 
The impact of encroachment is also broad--affecting our ability to 
execute realistic air, ground, and amphibious training across the 
Nation, as well as beyond its borders. In spite of the many 
encroachment pressures facing our ranges, we are dealing with the 
situation in order to support the current aviation training 
requirements in the BMGR. This is in no small part due to overwhelming 
support from the community, state and local government who have taken 
affirmative action, within their means, to protect DOD installations in 
Arizona from encroachment.
    The cumulative impacts of encroachment, however, cause operational 
and training restrictions. These restrictions result in less realistic 
training, which in turn degrades combat readiness. All forms of 
encroachment that restrict land, airspace, and bandwidth use degrade 
combat readiness.

                       NAVAL SURFACE-FIRE SUPPORT

    6. Senator McCain. General Jones, with the cancellations of the 
Land Attack Standard Missile (LASM) program and the Navy's DD 21 land 
attack destroyer program, what are your concerns for the future of 
naval surface fire support?
    General Jones. My concerns regarding the near-term Naval Surface 
Fire Support enhancements are two-fold. First, there is no current 
program of record that adequately addresses the Marine Corps' 
intermediate range fire support requirements. The LASM was the system 
being developed to address this requirement. The Tactical Tomahawk 
(TACTOM) missile, although technically capable of at least partially 
meeting this requirement, is foremost a strike weapon system and is 
likely to be employed in a fire support role only in extreme 
situations.
    I am also concerned that the planned procurement of Extended Range 
Guided Munition (ERGM) projectiles will be insufficient to provide 
sustained fire support for the Nation's expeditionary maneuver forces. 
At the current planned procurement rate, there will exist less than two 
ship fills of this munition per ERGM-capable ship delivered in the 
FYDP.
    My principle concern for the far-term is that DD(X) will be fielded 
with less capability and in fewer numbers than previously planned in 
the DD 21 program. Just as DD 21 was to be the key element in fully 
meeting our Naval Surface Fire Support requirements, so now is DD(X) 
and its associated weapons systems a vital element in realizing the 
full potential of Expeditionary Maneuver Warfare. The Advanced Gun 
System (AGS), with a family of extended-range 155mm projectiles, and 
the Advanced Land Attack Missile (ALAM) are essential elements of the 
fire support system that will provide responsive, all-weather fire 
support ``from the sea'' in support of forces operating throughout the 
depth of the littoral battlespace.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith

                    EQUIPMENT OPTICS AND DESIGNATION

    7. Senator Smith. General Jones, in the Marine Corps Times on 
February 18, 2002, there was an article by Christian Lowe about the 
Corps' Combat Assessment Team. I want to applaud you and the Corps 
about your efforts to critique quickly and accurately, and improve your 
own performance in the war on terrorism. Candid and unfettered 
introspection is important to get good ``lessons learned'' from combat. 
This introspection, followed by progress in fixing the problems, is 
even more impressive. The article highlighted some immediate fixes your 
assessment team may have facilitated to better support your marines in 
the field.
    One issue I do have a concern with is the marines' continued 
ability to locate, designate, and hand off targets for attack 
aircraft--a subject mentioned in the article--and the growing 
importance of night vision devices and laser target designators for the 
individual ``trigger pullers'' who are on the line each and every day. 
I understand you are actively working to better improve your ties with, 
and coordination with, Special Operations Forces, who have definitely 
``earned their pay'' in Afghanistan by working in these areas and with 
this type of equipment. I would expect that to work with these forces, 
you, too, need comparable equipping of your marines.
    Can you please explain the Corps' plan to improve these two 
battlefield functional areas?
    General Jones. The war against terrorism highlighted the 
complementary capabilities of crisis response forces, the Marine Corps, 
and forces assigned to the United States Special Operations Command 
(SOF). Restraints imposed by today's environment magnify their 
contribution because they are unencumbered by the requirements for 
extensive regional infrastructure. Moreover, as demonstrated during the 
recent campaign, the surgical precision of SOF coupled with the 
combined arms punch of forward deployed amphibious-based Marine Air-
Ground Task Forces prove not only their individual utility, but 
illustrate the synergy in overcoming specific challenges such as:

        <bullet> the remote and austere nature of the battlefields 
        where forces prosecute our Nation's campaign against terrorism.
        <bullet> host nation concerns regarding the presence of 
        American forces within their borders.
        <bullet> the need to conduct strike operations while 
        maintaining increased operational security.

    The recent events highlighted the need to establish service-level 
links between SOCOM directorates and their counterparts within the 
Marine Corps to develop detailed areas of mutual interest spanning the 
entire continuum of service level concerns. We believe this will 
enhance the mutual support our two organizations can provide one 
another. Through a recently signed Memorandum of Understanding (MOU) 
between the USMC and SOCOM, the focus of effort will be to:

        <bullet> examine current capabilities and missions in order to 
        leverage the unique capabilities of each organization, thus 
        enhancing interoperability.
        <bullet> establish and continue the interface between CONUS-
        based and theater-based SOF and deploying Marine Air-Ground 
        Task Forces.
        <bullet> synchronize USSOCOM and USMC warfighting developments, 
        as well as material research and procurement initiatives.

    We believe the USSOCOM-USMC Board is a forum for Special Operations 
Forces (SOF) and the Marine Corps to interface and coordinate with 
regard to common mission areas and similar procurement initiatives.
    How will we continue to improve target identification and 
designation using night vision devices and laser target designators? 
There is one program of record: Target Location, Designation, and Hand-
off System (TLDHS). TLDHS is a Modular Universal Laser Equipment (MULE) 
replacement with an IOC of 4th Quarter, fiscal year 2004. TLDHS can 
both target locate and designate and has night thermal capability. The 
Marine Corps Systems Command (MCSC) is looking at an interim Laser 
target location fix through a commercial off-the-shelf (COTS) solution 
that could make a binocular type device available this summer. An 
interim designator COTS solution would take 11 months manufacturers 
lead time to produce.
    As a result of 15th MEU Aviation Command Element (ACE) Operation 
Enduring Freedom lessons learned and back briefs from the Marine Corps 
Combat Action Team, the Commanding General, Marine Corps Combat 
Development Command, signed a Statement of Need (SON) for the immediate 
procurement of 180 precision targeting systems. Presently, the Marine 
Corps employs the AN/GVS-5 Laser Observation Set to assist fire support 
observers in determining distance to a target. The AN/GVS-5 does not 
determine azimuth or inclination, which are critical in determining an 
accurate target location (target grid coordinate generation). It does 
not possess a data interface capability. Operating force feedback and 
experimentation have identified the deficiencies of this legacy system. 
MCSC has a funded program called the Advanced Eye-Safe Laser 
Rangefinder (AEROS), which addresses the same requirement; however, 
programmatics dictate a system will not be fielded until fiscal year 
2005. Through market research, MCSC has identified a COTS solution 
(Leica Vector/Viper II) to meet the SON (also being used presently by 
SOCOM in response to their Combat Mission Needs Statement). While this 
solution does not completely meet the requirements spelled out for 
AEROS, it is immediately available in mass quantities and does meet the 
requirements of the SON. MCSC evaluated this system the week of 25 
March 2002. If funding could be identified and a production decision 
reached, the Leica Vector could be available to the operating forces as 
early as June 2002. The PTS-180 program will also serve as a test bed 
for the AEROS program, providing feedback on current capabilities and 
impacting future operational requirements. AEROS is not a redundant 
program to TLDHS. AEROS is a separate program meant to compliment TLDHS 
capabilities.

             EQUIPMENT AND EQUIPPING--INDIVIDUAL PERSONNEL

    8. Senator Smith. General Jones, one aspect of your testimony that 
I find heartening is your stated ``highest priority''--your marines, 
their families, and civilian workforce. The ``people vs. equipment'' 
balance is one of the Marine Corps hallmarks: take care of the marines, 
and the marines will take care of the mission. In this view, I would 
like to know if the current proposed budget meets the needs for some of 
the basic items--initial equipment issues, individual gear 
improvements, cold weather clothing, special use items, and so on--that 
will improve the quality of life for the marines in the field and thus 
further improve their performances.
    General Jones. The proposed budget for fiscal year 2003 meets the 
currently identified needs of the Marine Corps in the area of initial 
equipment issues over the course of the FYDP. As a result of the 
balancing required-to-fund competing requirements across all of the 
Marine Corps appropriations, many items will not be fully fielded until 
fiscal year 2008 or later, thus, additional funding would accelerate 
acquisition of the initial issue items. With new and improved gear, 
marines will gain a significant advantage in terms of their lethality, 
survivability, and mobility. Funding these equipment requirements will 
ensure that marines will maintain a competitive advantage over the 
enemy by being more mobile, lethal, comfortable, rested, and ready to 
fight.

    9. Senator Smith. General Jones, I have seen several press accounts 
indicating that we may not have had sufficient numbers of linguists 
trained in the languages spoken in Afghanistan, such as Dari and 
Pashto, to communicate with the locals as quickly as we would have 
liked. As a force provider who works for and with the regional CINCs, 
and in preparing expeditionary units ready to respond around the world, 
do you have enough foreign language speakers in the appropriate 
language skills to provide the essential link between your forces and 
the native populations? Would you have liked to have more, and do we 
need more language training programs?
    General Jones. In 1996, Headquarters Marine Corps established the 
8611 Additional Military Occupational Specialty (AMOS) to identify 
marines with critical heritage foreign language skills to serve as 
interpreter/translators. In 1999, Headquarters Marine Corps initiated 
an aggressive effort to more accurately screen and identify all 
heritage foreign language speakers as they entered our ranks. The early 
identification of heritage speakers in ``less-commonly taught'' 
languages such as Dari, Urdu, and Pashto and the assignment of these 
heritage language speakers as translators were essential in allowing 
the Marine Corps to meet emerging contingency foreign language 
requirements.
    Under the Marine Corps' Language Identification Program (LIP), 
marines are screened during the recruiting process. Those determined to 
have heritage foreign language skills then have their language 
proficiency validated for potential future assignment. The success of 
this effort over the last 2 years has been demonstrated by the 
identification of thousands of native speakers who can be temporarily 
assigned additional duty as translators/interpreters, thereby ensuring 
that foreign language skilled marines in Intelligence billets can 
remain focused on their assigned primary mission.
    During 1998, in an effort to stabilize manning of the Intelligence 
Occupational Field, Headquarters Marine Corps temporarily doubled the 
number of basic language seats at the Defense Language Institute (DLI). 
As a result, the Marine Corps currently has approximately 320 Modern 
Standard Arabic (MSA) speakers in the active Force. MSA is a common 
language linking the myriad extremist groups targeted in support of 
Operation Enduring Freedom (OEF). This robust inventory of Marine MSA 
speakers is a considerable asset that can be leveraged in response to 
emerging OEF foreign language requirements.
    The Marine Corps continues to search for more efficient ways to 
identify, screen and train Marines with foreign language skills to 
support operational and intelligence requirements. The Marine Corps' 
foreign language requirements are identified by the Marine Operating 
Forces in response to planning guidance via the assignment of 
appropriate Military Occupational Specialty (MOS) billets on unit 
Tables of Organization (T/O). Given the constraints of authorized 
Marine Corps end-strength and the large set of languages required to 
meet projected military missions, the Marine Corps has traditionally 
focused its foreign language training program on those core languages 
spoken in areas where large-scale military action is either planned or 
anticipated. The small population of marines with heritage foreign 
language skills in the ``less-commonly taught'' languages such as Dari, 
Urdu, and Pashto has been augmented through the Headquarters Marine 
Corps directed action of selectively cross-training existing linguists 
at the DLI, and through the conduct of un-programmed contract language 
courses in a subsequent language. Additionally, as requirements are 
validated, marines are selectively recruited and cross-trained in these 
``less-commonly taught'' languages during lateral moves into a new MOS 
or during reenlistments.
    During 1999, Headquarters Marine Corps initiated a comprehensive 
review of the Marine Corps' foreign language requirements. As a result 
of this review, the Marine Operating Forces were directed to determine 
their existing and anticipated foreign language requirements in an 
effort to better identify and project both the number of speakers and 
the variety of languages they require. In March 2001, the Director of 
Intelligence (DIRINT) approved a plan to restructure the Intelligence 
occupational field to meet the increase in requirements for speakers in 
``less-commonly taught'' languages. Implementation of the plan in 
February 2002 resulted in the Headquarters Marine Corps directed 
modification of unit T/Os, leading to the addition of 122 intelligence 
linguist billets in a variety of ``less-commonly taught'' languages. 
The Marine Corps is now executing a 5-year plan to recruit and train a 
sufficient number of marines to fill thesenewly identified billets.
    Following the September 11 terrorist attacks on the United States, 
the Secretary of Defense tasked the Services to identify emerging 
language training requirements to support the OEF campaign. 
Headquarters Marine Corps compiled a list of projected language 
requirements and, in cooperation with the DLI, implemented a training 
plan in December 2001 to satisfy the identified training shortfalls. 
The aggressive assignment of heritage language speakers as translators, 
combined with the quick response of DLI in setting up language training 
courses to meet the Marine Corps' contingency training requirements, 
has allowed the Marine Corps to successfully meet its current 
operational language requirements.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins

                       WEAPONS--GRENADE LAUNCHER

    10. Senator Collins. General Jones, the Marine Corps Warfighting 
Lab has been a great asset to introduce and prove out innovative 
technologies for the Corps and our Armed Forces. I am familiar with the 
Advanced Lightweight Grenade Launcher/Striker program (MK47Mod 0), 
which is currently being tested at the Warfighting Lab. What can you 
tell me about the Marine Corps' desire to deploy this launcher?
    General Jones. The final configuration of the MK47 has just been 
baselined this month and the Marine Corps Warfighting Lab (MCWL) took 
delivery of its first two fully capable prototype MK47 ``Striker'' 
grenade launchers on 5 April 2002. These guns are of the same 
configuration as those scheduled for Operational Assessment (OA) by 
USSOCOM forces at Aberdeen Proving Grounds in May 2002.
    The Marine Corps, via MCWL, will experiment with our two weapons 
and monitor the USSOCOM OA in order to collect the data needed to 
adequately assess and evaluate the MK47's potential to increase the 
combat power of marine units.
    The decision on whether we will deploy the MK47 in the Marine Corps 
will be influenced by: (1) the performance of the MK47 during USSOCOM's 
OA; (2) U.S. Marine infantry units' operational assessment of the MK47s 
during 4th quarter fiscal year 2002 and 1st quarter fiscal year 2003; 
(3) successful development of the air-burst capability for the 40mm 
ammunition for the MK47; and (4) the level of support for the weapon 
from the Marine Corps Infantry Operational Advisory Group.
    The role MCWL plays in the Expeditionary Force Development System 
(EFDS) is to find technology that appears to have potential for 
increasing combat capabilities, then prove through experimentation, 
whether or not that technology is worth pursuing. Once experimentation 
and assessment determines the MK47's potential, the decision will be 
made on whether the weapon is a candidate for acquisition and 
deployment.

     [Whereupon, at 5:11 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                        TUESDAY, MARCH 19, 2002

                               U.S. Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

MAXIMIZING FLEET PRESENCE CAPABILITY AND SHIP PROCUREMENT AND RESEARCH 
                            AND DEVELOPMENT

    The committee met, pursuant to notice, at 2:39 p.m., in 
room SR-222, Russell Senate Office Building, Senator Edward M. 
Kennedy (chairman of the subcommittee) presiding.
    Committee members present: Senators Kennedy, Landrieu, 
Reed, Warner, Sessions, and Collins.
    Majority staff member present: Creighton Greene, 
professional staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Gary M. Hall, professional staff 
member; Ambrose R. Hock, professional staff member; Thomas L. 
MacKenzie, professional staff member; and Carmen Leslie Stone, 
special assistant.
    Staff assistants present: Daniel K. Goldsmith and Andrew 
Kent.
    Committee members' assistants present: Brady King and 
Christina L. Martin, assistants to Senator Kennedy; Frederick 
M. Downey, assistant to Senator Lieberman; Marshall A. Hevron, 
assistant to Senator Landrieu; Elizabeth King, assistant to 
Senator Reed; Benjamin L. Cassidy, assistant to Senator Warner; 
Arch Galloway II, assistant to Senator Sessions; Kristine 
Fauser, assistant to Senator Collins; and Derek Maurer, 
assistant to Senator Bunning.

    OPENING STATEMENT OF SENATOR EDWARD M. KENNEDY, CHAIRMAN

    Senator Kennedy. The subcommittee meets this afternoon to 
discuss Navy shipbuilding programs intended to meet Navy and 
Marine Corps future operational requirements.
    We will also discuss actions that the Navy might take to 
maximize fleet presence capability in support of theater combat 
command requirements to have naval forces on station and 
operating in the areas of responsibility.
    We will hear from two panels of witnesses today. Rear 
Admiral Miles B. Wachendorf, Director of the Strategy and 
Policy Division in the Office of the Chief of Naval Operations 
will discuss the options for increasing forward presence on the 
first panel.
    On the second panel, we will hear from two witnesses about 
Navy shipbuilding and research and development (R&D) programs: 
The Hon. John Young, Assistant Secretary of the Navy for 
Research, Development, and Acquisition, and Vice Adm. Michael 
Mullen, Deputy Chief of Naval Operations for Resources, 
Requirements, and Assessments.
    While some may put the primary emphasis on the shipbuilding 
portion of today's hearing, you should give due attention to 
the important matters of ways to provide the forward deployed 
forces that our area combat commanders need to support their 
operations.
    For the shipbuilding portion of the hearing, the focus will 
be on the modernization of the Navy fleet. I believe that the 
fundamental problem that we must deal with in this subcommittee 
is achieving the proper level of modernization to support 
tomorrow's readiness.
    Without adequate modernization, we could be faced with a 
situation of having forces without necessary capabilities, or 
we could even be in a position of trying to support theater 
combat commander requirements with forces that are too small to 
meet their requirements.
    We all know that our men and women in the Armed Forces will 
respond admirably in any crisis, just as they are doing to 
support the operations in Afghanistan. However, over the long-
term, we cannot count on making up for inadequate shipbuilding 
investment by asking our troops to stay on much longer 
deployments. They are spending less time at home with their 
families between deployments.
    This leads the subcommittee to the desire of ensuring that 
we are getting the most forward presence capability from our 
fleet, whatever the number of ships in the fleet. We owe it to 
our sailors and marines to ensure that we are doing all we can 
to avoid resorting only to longer deployments or reduced at-
home time when we are trying to meet forward presence 
requirements.
    We also owe it to the taxpayers to ensure that they are 
getting the maximum presence capability for every dollar 
invested in the Navy. To that end, Senator Sessions and I sent 
a letter to the Secretary of the Navy and the Chief of Naval 
Operations asking them to review the question of whether 
additional operational days could be made available to the 
regional commanders in chief without increasing the number of 
ships and without increasing the length of 6-month deployments. 
Without objection, we will include a copy of that letter in the 
record of the hearing.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Kennedy. We will look forward to hearing first from 
Admiral Wachendorf on our range of options that we might 
consider for increasing the level of forward presence for a 
given fleet size.
    On the second panel, we will hear from John Young and Vice 
Admiral Mullen on the shipbuilding construction and development 
program's fiscal year 2003 budget request.
    Everyone can agree that we will continue to need strong 
naval forces to protect our interests in many areas overseas. 
We may have to change our approaches in some areas, but we will 
still need to ensure that we do not lose the very real 
advantages that our Navy and Marine Corps so skillfully 
provide.
    Within that context, there are a number of issues, 
programs, and areas that we should discuss with the witnesses 
today including: attack submarine programs and force levels, 
including the option of converting the Trident ballistic 
missile submarines to submarines that carry the cruise 
missiles; aircraft carrier modernization efforts, including the 
Navy's evolutionary development of new capabilities and 
technologies to increase future capability and reduce demands 
on our personnel and a planned delay of the CVN(X) program; 
surface combatants, including the DDG-51 Aegis destroyer and 
the Navy's program to field the next generation of combatants 
and DD(X) program; amphibious ships, including the delays and 
cost increases in the LPD-17 amphibious transport dock program; 
and the budget request to continue the incremental funding for 
the LHD-8 amphibious assault ship.
    These are all important issues, and we will look forward to 
hearing your testimony today and working with you as we work 
our way through them.
    Before I recognize the witnesses, I would like to recognize 
Senator Sessions.
    Also, it is a great pleasure to welcome the Ranking Member 
of the full committee, Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Senator Kennedy. Whenever a Navy flag goes up, John Warner 
is present. Any of us who think we have any authority or power 
around here are always reminded that John Warner was the 
Secretary of the Navy. [Laughter.]
    As good a job as he does in making sure we have a strong 
national security defense, we always know that he tips a little 
toward the United States Navy. We are always glad to have him 
here.
    Senator Warner. I am thankful for the very generous remarks 
of my Chairman. [Laughter.]
    You and I have jockeyed in the position of Chairman and 
Ranking Member of this subcommittee for many years.
    Senator Kennedy. Right.
    Senator Warner. I miss it. But I am here today to follow 
this with great interest, and I thank you for the introduction.
    Senator Kennedy. Thank you.
    Senator Warner. We are delighted to have our friend here, 
Senator Sessions.
    Senator Sessions. Thank you.
    Senator Kennedy. I welcome the chance to work with you on 
this subcommittee and enjoy the chance to work with Senator 
Sessions on this subcommittee, as well as Senator Collins, who 
is a fellow New Englander.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Senator Kennedy, thank you for your 
leadership. We are, indeed, sharing some basic insights from 
this side of the table about ``How can we improve the Navy?'' I 
think it can be boiled down to this. We are going to need to 
increase the number of ships that we are building. We simply 
cannot maintain the level we are at over any extended period 
without substantially reducing our Navy.
    At the same time, hopefully today, we will have some 
questions answered. I believe we can expect to have some ideas 
that we could utilize more efficiently with the ships that we 
have.
    We all know that it is critical that the United States be 
able to project its power around the world. We have not been 
able to do that at any time within recent years without the 
Navy's power helping us to do that, or really being the 
cornerstone of it.
    I believe it is an investment we need to make. I will just 
note that the 2001 QDR states that the baseline force was 
assessed across several combinations of scenarios on the basis 
of a new defense strategy. The capabilities of this force were 
judged as presenting moderate operational risk, although 
certain combinations of warfighting and smaller-scale 
contingency scenarios present high risk.
    The 2001 QDR, of course, which carries with it that 
moderate or high risk includes the following ships: 12 aircraft 
carriers, 12 amphibious ready groups, 55 attack submarines, and 
108 surface combatants. I hope that the witnesses today can 
reveal the additional risk incurred by proposing a Navy ship 
force in this budget which is lower than the moderate to high 
risk included in the QDR.
    [The prepared statement of Senator Sessions follows:]
              Prepared Statement by Senator Jeff Sessions
    I thank our Chairman, Senator Kennedy, for scheduling today's 
hearing to explore Navy and Marine Corps ship requirements, research 
and development, procurement, and improving the operational days 
underway for the ships in service.
    The September 2001 Quadrennial Defense Review (QDR) states that the 
baseline force ``was assessed across several combinations of scenarios 
on the basis of the new defense strategy and force sizing construct, 
and the capabilities of this force were judged as presenting moderate 
operational risk, although certain combinations of warfighting and 
smaller-scale contingency scenarios present high risk.'' The 2001 QDR 
force which carries with it that moderate to high risk includes the 
following ships:

        12 Aircraft Carriers
        12 Amphibious Ready Groups
        55 Attack Submarines
        108 Active Surface Combatants
        8 Reserve Surface Combatants

    However, the fiscal year 2003 budget request and accompanying 
Future Years Defense Program (FYDP) would not build sufficient ships to 
recapitalize the QDR force level both in the near- and long-terms. The 
Congressional Research Service (CRS) calculations indicate that the 
average number of ships required to be procured to maintain the QDR 
force of about 300 ships will rise to 11.2 per year starting in 2008 if 
the proposed number of ships in the FYDP are procured. That average 
would increase from the present benchmark of 8.9 ships per year. This 
vividly points out that instead of progressing toward recapitalizing 
the fleet, the proposed budget request has the opposite effect. I hope 
our witnesses today can reveal the additional risk incurred by 
proposing a Navy ship force which is lower than the moderate- to high-
risk force included in the QDR.
    Navy witnesses have testified before the full committee that 
because the average age of ships is about 19 years, ship 
recapitalization is not the highest Navy recapitalization priority. 
Aircraft recapitalization is the highest Navy recapitalization priority 
and recapitalization of both aircraft and ships is a lower priority 
than readiness. It should be considered that using average age to make 
investment decisions may not be prudent because problem areas may be 
masked. For instance, there are ships in the Navy being used past their 
projected service life while others are retired well before the end of 
their projected service life. The average age calculation does not 
include shortfalls such as the fact that the Navy has fewer ships than 
required by the QDR.
    Given the budget request for new ship construction and a general 
agreement that the proposed funding is not adequate to recapitalize the 
fleet, we should look for ways to maximize future investments while 
ensuring we get the most out of investments already made. Senator 
Kennedy and I sent a letter to the Secretary of the Navy and the Chief 
of Naval Operations asking them to explore ways to increase the number 
of days that ships can operate. We suggested that, at a minimum, the 
Navy should explore the following four focus areas to determine if 
additional operational days could be provided to the regional 
Commanders in Chief:

        <bullet> Assign additional ships and submarines to homeports 
        closer to their areas of operation. This is sometimes referred 
        to as forward homeporting.
        <bullet> Assign a ship to remain in a forward area of 
        operations and rotate crews. This is sometimes referred to as 
        dual crewing, such as occurs with ``blue'' and ``gold'' crews 
        on ballistic missile nuclear powered submarines (SSBN).
        <bullet> Retain ships to the end of their full service life. 
        This could support a Navy that is a capability and presence-
        based force rather than a threat and presence based force.
        <bullet> Preposition additional ships in a forward operating 
        areas.

    Mr. Chairman, if there is no objection, I would like our letter of 
March 1, 2002 entered into the record of this hearing.
    In addition to maximizing operational days for ships in the fleet, 
we should look for ways to maximize the impact of investments in this 
budget request. There are eight specific issues that we should evaluate 
as possibilities for maximizing the investment impacts.
    First, decommissioning ships which still have combat capability 10 
years prior to the end of their service life generates a requirement to 
build about eight more ships than are included in the CRS calculations 
for ship construction requirements. Therefore, we should consider the 
possibility of retaining these ships to the end of their service lives.
    Second, although Congress put in place a law that authorizes the 
Navy to save taxpayer dollars by buying submarine components in 
economic order quantity, this request does not propose such savings 
measures. Therefore, we should explore possible problems with the 
enacted legislation and additional possible legislation to maximize the 
Navy's buying power.
    Third, this request delays procurement of CVN(X) resulting in a 1 
year slip and a higher cost of the ship. Therefore, given the recent 
reminder of how valuable these ships are, and to save taxpayers 
dollars, we should explore a funding profile to save dollars and 
restore the 2013 delivery of the ship.
    Fourth, it is questionable whether or not the destroyer industrial 
base, including second and third tier vendors, can be maintained with 
the proposed destroyer construction included in this request. 
Therefore, we should review the requirement to maintain the industrial 
base and, if required, consider action to ensure its viability with a 
thorough understanding of implications for the cost of DDG-51 ships and 
future destroyers.
    Fifth, this FYDP misses an opportunity to take advantage of a 
construction option for a required auxiliary ship. This missed 
opportunity could lead to higher costs and/or stretched-out delivery 
dates. Therefore, we should explore possible fiscal year 2003 action 
that would ensure the Navy exercises the option if taxpayer dollars 
would be saved.
    Sixth, the proposal for a construction start for a new class of 
command and control ships does not appear to take advantage of 
established ship production lines of similar ships. Therefore, the 
subcommittee should determine what funding is required in fiscal year 
2003 to ensure the Navy has the information required to adjust the 
construction to a schedule most advantageous to the taxpayers while 
providing the ship at the required time.
    Seventh, it is not clear whether or not taxpayers are paying twice 
for technology efforts for future ships that are funded out of separate 
ship programs. Therefore, we should explore ways to remove restrictions 
that may exist and/or provide the means to ensure information on like 
efforts is shared between programs.
    Eighth, the delay in DD 21/DD(X) further delays providing required 
fire support for the Marine Corps. Therefore, the subcommittee should 
explore alternatives for rapidly fielding the 155 millimeter shipboard 
gun.
    Transformation is a continuous effort which is inherent in the 
research and development for future platforms and equipment, how 
equipment is used, the approach to training, and the mind-set of 
personnel. Although there are specific programs that can be described 
as transformational, this type of description is only applicable for a 
given point in time. Therefore, while being aware of transformation 
aspects of programs, our overarching focus should be on how the 
programs will contribute to carrying out the defense policy goals of:

        <bullet> Assuring allies and friends;
        <bullet> Dissuading future military competition;
        <bullet> Deterring threats and coercion against U.S. interests; 
        and
        <bullet> If deterrence fails, a decisive defeat.

    The Navy and Marine Corps team are vital to carrying out all four 
of these policy goals and ships are the means by which the Navy and 
Marine Corps meet the challenge described in the QDR of ``projecting 
and sustaining U.S. forces in distant anti-access environments.''
    The performance of our men and women in the war on terrorism across 
the globe and their dedication to do what it takes to complete their 
mission is inspiring and we owe them, each day, our continuing 
gratitude and full support.
    I welcome our witnesses today and look forward to their testimony.

    Thank you, Mr. Chairman, for your leadership.
    To follow my statement, I ask that Senator Collins' 
statement be inserted into the record.
    [The prepared statement of Senator Collins follows:]

              Prepared Statement by Senator Susan Collins

    Thank you Mr. Chairman. Seapower is among the most essential 
components of our national security posture and an important part of 
ensuring the U.S. meets its global commitments. Currently, our naval 
forces are providing immediate access and forward deployed combat power 
24/7 in support of Operation Enduring Freedom. Further, our naval 
forces are the United States' only sovereign global warfighting 
capability. As Admiral Clark so eloquently stated, ``Our naval forces 
do not need a permission slip to operate worldwide.''
    These capabilities, and the fact that two-thirds of the world's 
surface is covered by ocean, make a compelling case for robust naval 
forces. Forward presence, however, requires that the ships are 
available and ready to deter, fight, and win.
    The facts are clear--the U.S. Navy has shrunk from a fleet of 594 
ships in 1987, to approximately 318 ships today. During this same 
period, ship deployments have increased more than 300 percent. Navy 
officials have repeatedly warned that the fleet is stretched perilously 
thin and needs to be increased to at least 360 ships to meet its 
present mission requirements. The CNO has candidly testified that there 
is a strong and justifiable cause to increase our naval force structure 
to around 375 ships.
    These factors coupled with the global war on terrorism and 
defending America's national security, demand that we recapitalize our 
Navy today. President Bush and his administration have identified this 
global war on terrorism and homeland security as our highest 
priorities. As we in Congress work with the Bush administration to 
defend freedom, I will continue to encourage the replenishment of our 
naval fleet as the cornerstone of this global defense.
    The fiscal year 2003 budget provides $48 billion in overall defense 
increases, yet the Navy's budget provides for the procurement of fewer 
ships than last year. The SCN procurement numbers speak for 
themselves--$11.96 billion in fiscal year 2001, $9.5 billion in fiscal 
year 2002, and $8.19 billion in fiscal year 2003. The CNO's written 
statement before the full committee clearly states the problem, 
``Current aircraft and ship procurement rates will, if continued, 
result in a Navy numerically smaller than today's, and significantly 
smaller than that needed to sustain the war. Such a fleet would be an 
invitation to greater operational risk and international instability.''
    The Congressional Research Service (CRS) warns us that at the 
present rate of procurement, we are facing a 47 ship-deficit and we 
will not be able to sustain the QDR critical force levels. The fact is 
that we must procure 8.9 Navy ships per year to maintain, not grow, a 
310 ship-Navy. Uneconomic procurement rates, including only two DDG-51s 
in the fiscal year 2003 budget, increase costs to the Navy and 
jeopardize our industrial base and its skilled workforce. If we are not 
committed to reversing the decline in shipbuilding rates this year, in 
a year of a $48 billion increase, then when?
    We cannot continue to defer this investment year after year. We are 
just slipping deeper and deeper into a procurement hole, and that is 
why I have proposed to look at all of the resources available in the 
Department of the Defense's budget, including the Defense Emergency 
Response Fund (DERF), or contingency fund, to begin to address this 
egregious shortfall.
    As I have stated before, numbers do matter. The number of new 
construction ships under contract 10 years ago was 110, while only 36 
ships are under construction today--this is a 66 percent decline in 
ship construction. Furthermore, while the number of ships authorized to 
be built 10 years ago was 15, today the budget request before us 
authorizes a mere 5 ships, a continued decline over the last 4 years.
    In recent years, we have been consistently under funding the naval 
shipbuilding and research and development accounts--the future force is 
at risk. Therefore, I am convinced there will be a need for even 
greater reliance on our naval forces as joint operations emerge to 
provide sovereignty to our fighting forces. Proof is in our current 
operations in Afghanistan. For these reasons and many others, I share 
the view of many of my colleagues that we must recapitalize our fleet 
to ensure that America retains her maritime power in the 21st century.
    I look forward to working with each of you in the weeks and months 
ahead to bring the procurement rate to an adequate number that will 
meet the needs of our Nation's security and provide more stability for 
our critical but increasingly fragile naval shipbuilding industrial 
base. I welcome any thoughts or comments you would care to offer the 
subcommittee on these complex issues. Thank you, Mr. Chairman.

    Senator Kennedy. Thank you.
    Admiral, we will be glad to hear from you.

  STATEMENT OF REAR ADM. MILES B. WACHENDORF, USN, DIRECTOR, 
  STRATEGY AND POLICY DIVISION, OFFICE OF THE CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Wachendorf. Thank you, Chairman Kennedy, Senator 
Sessions, Senator Collins, Senator Warner, and members of your 
staff. It is a pleasure to be here.
    My name is Admiral Ben Wachendorf. I am the Director of 
Strategy and Policy on the CNO staff. I'm here to discuss with 
you some alternatives, some of which are already being 
implemented, to increase the presence of Navy combatant ships 
in forward areas, and to discuss other issues that are being 
studied.
    I have submitted a written statement for your review and, 
subject to your approval, I would like it to be a part of the 
record. It includes some answers to questions that were asked 
in my invitation to testimony.
    It also includes some information concerning some manning 
initiatives we are doing. Those were included because some of 
the ways to get more ships into forward areas longer is to 
increase the manning. We want to do that as a zero sum gain 
without asking for end strength increases. So we are trying to 
be smarter about the way we use our sailors.
    I would also like to just thank you and the committee 
personally for your support of the men and women of the United 
States Navy. The support Congress has given our most valuable 
asset, our people, is heard loud and clear on the deck plates 
of the United States Navy. I am very grateful for it.
    Subject to any other questions you have, I will be happy to 
answer any questions you have for me.
    Senator Kennedy. Thank you very much.
    [The prepared statement of Rear Admiral Wachendorf 
follows:]

        Prepared Statement by Rear Adm. Miles B. Wachendorf, USN

    Chairman Kennedy, Senator Sessions, and distinguished members of 
this sub-committee, thank you for the opportunity to testify today. It 
is a privilege to report to you on the status of several initiatives 
the Navy is either undertaking or exploring to increase our forward 
naval presence, and we appreciate your continuing support.
    Today, over 32 percent of our naval force is deployed in support of 
Operation Enduring Freedom (OEF) as well as normal deployments to 
maintain our global presence. Our sailors and marines continue to 
reflect the best of what America has to offer, and we are extremely 
proud of their efforts. Today more than ever we need to explore 
potential alternatives for enhancing our ability to fulfill 
requirements placed on our naval service. Earlier this month the Vice 
Chief of Naval Operations, Adm. William J. Fallon, discussed several 
initiatives the Navy is exploring to alleviate the strain on our 
current OPTEMPO. OPTEMPO has an important impact on current readiness. 
U.S.S. John C. Stennis deployed weeks early in order to support 
maritime operations in the Arabian Sea and U.S.S. Theodore Roosevelt, 
recently spent 160 consecutive days at sea without a port visit. This 
increased OPTEMPO is a concern because over time it could yield 
negative effects on retention, as well as increased wear and tear on 
equipment. While our commitment to limiting deployments to 6 months in 
peacetime remains firm, we recognize that we are in a war of 
indeterminate duration. Therefore, we currently are exploring plans to 
ameliorate the effects of this increased OPTEMPO by a variety of means. 
My goal today is to provide background information on several 
deployment posture and manning initiatives. While some are in the early 
stage of development and others have been studied at length, we are 
encouraged that several initiatives have the potential to improve not 
only OPTEMPO, but also our ability to provide additional forward 
presence with the current force:

Issues addressed:

    1. Assign additional ships and submarines to homeports closer to 
their areas of operations. This is sometime referred to as forward 
homeporting.

    Not a new alternative, but one that must be considered is the 
homeporting of naval forces overseas. The largest example of this is 
our forward deployed naval force (FDNF) homeported in Japan. The Kitty 
Hawk battle group, with her embarked airwing and support ships along 
with the Essex amphibious ready group (ARG) are designed to provide a 
nearly continuous presence in the Western Pacific capable of executing 
missions across the entire spectrum of conflict from peacetime presence 
to major war. Over the past few years, there have been numerous studies 
completed that have looked at other potential ports within WESTPAC, the 
Indian Ocean and Arabian Gulf to homeport naval forces. The results of 
these studies are all similar; there are numerous ports throughout the 
region that have the capability and infrastructure to conduct port 
calls, but the required infrastructure to support the permanent 
homeporting is not available and would require substantial investment 
by the U.S. and the host nation. The studies also reflect zero 
potential to increase the size of the force that is forward deployed to 
Japan. Additionally, required training facilities and formal schools 
are not available overseas to meet all the requirements. The workup 
training opportunities such as fleet exercises with an aircraft carrier 
and battle group would be greatly diminished by homeporting away from 
the majority of the fleet. Exercises are the backbone for preparing 
ships and crews to conduct required operational missions. Finally, the 
loss of stateside quality of life would be significant for those 
families, both civilian and military who would be required to relocate. 
This could have an adverse impact on retention.
    However, the U.S. territory of Guam offers a near-term potential to 
increase our forward presence in the Western Pacific. Beginning in 
September 2002, the first of three refueled 688-class submarines will 
be homeported in Guam. This will provide approximately 90 additional in 
theater mission ship days per year over what could be provided by three 
submarines homeported in the Eastern Pacific. Ship and maintenance 
support is in place with the submarine tender currently homeported in 
Guam. Pier facilities and weapons support facilities are adequate. The 
housing and family support facilities on Guam will quickly support the 
first homeported SSN, and will require minor upgrading in addition to 
the current renovation plans to support all three newly assigned 
submarines.
    Personnel/training requirements will result in flying portions of 
each crew to Pearl Harbor or to Yokosuka for schools and team trainers 
at a cost of about $300,000 annually per submarine. Crew maximum tour 
length is set at 3 years and is within existing overseas assignment 
guidelines. Submarines will need to shoot exercise torpedoes about 
every 15 months to maintain proficiency. This may be accomplished by 
transit back to Pacific Missile Range Facility, Hawaii (cost is about 
15 days of operations and engagement) and by scheduled exercises in 
Seventh Fleet. Additional transits to Hawaii maybe required for nuclear 
maintenance or dry-docking. Currently, the U.S.S. Frank Cable transits 
to Japan in support of Seventh Fleet ships three times per year for a 
period of about 1 month each time. With Frank Cable's current manning 
she cannot continue this level of support outside the submarine force 
and take on the support of homeported submarines in Guam. In order for 
her to support her current Seventh Fleet level of effort, Frank Cable's 
repair and weapons department manning will be increased to meet the 
additional requirements resulting from the additional three SSNs. 
Current naval forces stationed in Guam include:

        <bullet> Three SSNs to be completed by calendar year 2004.
        <bullet> One tender (U.S.S. Frank Cable).
        <bullet> Four Military Sealift Command (MSC) ships.
        <bullet> Helicopter Combat Support Squadron FIVE (HC-5).
        <bullet> Explosive Ordnance Detachment (EOD) One.
        <bullet> Naval Special Warfare (NSW) Group One.
        <bullet> Five pre-positioning ships off Saipan

    2. Assign a ship to remain in a forward area of operations and 
rotate crews. Although not typically rotated in forward areas, the dual 
crewing or ``blue/gold'' crews on SSBN are an example.

    Crew rotation (sometimes referred to as ``Sea Swap''): Extending 
ship deployment length while swapping crews in mid-deployment appears 
to offer significant potential for improving on-station time without 
increasing either OPTEMPO, PERSTEMPO, or to a great extent, ship wear 
and tear. Rotational crewing/sea swap is a variation on the multi-
crewing themes referred to as ``Horizon'' suggested by the CNO 
Strategic Studies Group, Center for Naval Analyses (CNA), and others. 
The primary difference is that where most multi-crewing options involve 
more crews than ships; for example: 3 for 2 (CNA), 5 for 4 (Horizon), 2 
for 1 (SSBN) (``Blue/Gold''), or several for 2 (MCM-1), the basic unit 
of crew rotation (1 for 1) is two or more similarly configured ships 
with an equal number of similarly trained crews.
    The crew rotation scheme would extend individual ship deployments 
from 6 months to a nominal 11.5 months or longer while holding crew 
deployments at 6 months. At the 5.5-month point in the cruise, a relief 
crew from a sister ship is flown into theater to man the deployed ship. 
After turnover, the relieved crew is flown back to CONUS where it mans 
the non-deployed unit of the operational pair. The deployed unit 
remains deployed for a total of 11.5 months or longer before being 
relieved on station in traditional fashion. Essentially, sea-swapping 
crews reduces ship transit--using instead airlift to replace the crew. 
The 6-month PERSTEMPO limit is not exceeded for any crew.
    In the case of deployments from the West Coast to the Arabian Gulf, 
eliminating every other transit provides an additional 2 to 2.5 months 
of on-station time for each pair of ships without necessarily changing 
turnaround ratio or OPTEMPO for either crew or ship. Three pairs of 
ships in sea swap can create up to 20 additional on station ship months 
over 4 years when compared to the current deployment methods. The 
advantages of this concept are:

        <bullet> Significantly improved efficiency in meeting CINC 
        requirements for forward deployed units;
        <bullet> No crew is without a ship and no ship is without a 
        crew. This should improve training opportunities and 
        contingency surge capability;
        <bullet> Crews stay with the same ship for approximately 2 
        years and with same operational pair throughout their sea tour, 
        providing an improved sense of ownership compared with other 
        rotational crewing plans;
        <bullet> Ships return to CONUS often enough to reduce or 
        eliminate the need to do major maintenance overseas;
        <bullet> The capability to do major maintenance and upgrades 
        (without disrupting deployment schedules) improves because 
        ships enjoy longer periods in CONUS between cruises;
        <bullet> Turnaround ratio--Ship 2.91:1/Crew 2.75:1; Deployment 
        time--Ship 11.5 months/Crew 6 months; and
        <bullet> Additional ship months generate opportunities for 
        multi-ship action groups to meet emerging challenges or 
        additional ship availability for employment opportunities to 
        support Homeland Security/Defense.

    The Navy is currently developing a pilot program to employ the 
``crew swap'' concept in an effort to determine the true costs and 
potential savings, while developing lessons learned to provide a firm 
analytical basis for recommendations to either expand the concept or 
look for other alternatives. In maintaining the focus on the fleet and 
the impacts that a shift in deployment methods may have, Commander, 
Surface Forces Pacific has been designated the lead for development and 
implementation of the pilot program. The current plan will employ 
Spruance-class destroyers beginning this summer with the deployment of 
the Lincoln CVBG and then expand to Arleigh Burke-class guided missile 
destroyers later this fall with the deployment of the Constellation 
CVBG. Both plans have the potential to gain an additional 100 days on-
station for a net gain of 200 days. This will reduce total transits to 
four for six ships which cover four battle group deployment cycles. It 
is from these two experiments that we will be able to determine 
recommendations.

    3. Retain ships to the end of their full service life by investing 
in the support funding needed to keep them serviceable. For example, we 
might decide that keeping DD-963s in active service might make sense 
for the capabilities they provide (such as presence and ASW 
capability), rather than retiring them because they are not adequate to 
meet certain threats (because they do not have the very latest anti-air 
warfare systems).
Force Structure
    The Navy must balance between transforming and building the future 
Navy to meet emergent warfighting requirements and operating the 
current force to meet existing missions, while remaining within the 
President's budget. While new ship procurement decisions dominate force 
structure recapitalization, the retention or decommissioning of ships 
has the greatest near-term impact on force structure size and 
composition. The key element in decisions to extend or contract the 
service life of a ship class is affordability versus capability.
Service Life Considerations
    The service life of our warships has a significant impact on force 
structure. Extending service life by delaying decommissionings can 
maintain or increase force structure and, correspondingly, accelerating 
decommissioning can reduce force structure. The decision to extend or 
accelerate decommissioning of a class of ships is based on a cost/
benefit analysis that focuses on the affordability of the platform and 
what warfighting capabilities it brings to the joint commander's tool 
box. In some cases, such as Ticonderoga (CG-47)-class cruisers and 
Perry (FFG-7)-class frigates, it is considered prudent to invest in 
conversion and modernization of ships to extend their service life. In 
other cases, such as Spruance (DD-963)-class destroyers, it makes more 
sense to decommission the ships.
Historical Service Life vs. Estimated Service Life
    Sophisticated combat systems must keep pace with advancing threat 
technology. As the combat systems and the hull, mechanical and 
electrical (HM&E) systems of a platform age both must be maintained and 
upgraded, but the combat systems upgrades tend to be more extensive and 
expensive. Additionally, as ships age, the cost of operating and 
maintaining the ships can increase depending on the overall condition 
of the vessel. For example, if a ship has had a number of maintenance 
actions deferred over the course of its operating life, and it has 
experienced high OPTEMPO, the cumulative effects on the ship can lead 
to higher operating and maintenance costs. This must be considered in 
investment decisions. In making service life decisions, warfighting 
capability gained from an upgrade is compared to the cost of the 
upgrade and the operations and maintenance cost of the ship. Unless 
modernized, a surface combatant class' historical service life (HSL) is 
shorter than the estimated service life (ESL) established via 
instruction. For destroyers, HSL is 20 years compared to an ESL of 35 
years. In the case of frigates, HSL is 20 to 22 years compared to an 
ESL of 30 years.
Cruiser Conversion
    The Navy has made the commitment, through the conversion program 
for Ticonderoga (CG-47)-class cruisers. The program will upgrade the 
Aegis combat systems and install warfighting improvements including 
area air defense commander (AADC) capability, and upgrades to the Aegis 
baseline to accept sea based ballistic missile defense capability 
(pending Missile Defense Agency (MDA) approval and funding of 
development), land attack, and force protection. Additionally, service 
life extension work including smart ship upgrades all electric 
alteration, weight and moment adjustments, and distributive systems 
improvements. Modernizing these ships will make them more capable to 
project theater-wide offense and defense while providing an additional 
20 years of service life beyond the HSL.
Frigate HM&E and Self-Defense Upgrades
    In the fiscal year 2003 budget submission, Perry-class frigates 
will receive HM&E upgrades to reduce their operating costs and extend 
their service life. Additionally, the combat systems will be upgraded 
with selected ship self-defense technology. These ships with their 
relatively small crew size and low operating costs provide affordable 
warfighting capability.
Destroyer Decommissionings
    DD-963 class is expensive to maintain because of its large crew 
size, age, and provides only marginal warfighting capability due to the 
ship's older and more focused mission combat system. These ships had an 
earlier modernization with the introduction of the vertical launch 
system (VLS), which extended the combat system relevant life beyond the 
historical 20 years. However, while the ships still provide some 
warfighting capability with two 5,,/54 guns and an anti-submarine 
warfare (ASW) suite, the higher manning requirements and operational 
costs do not justify additional funds for further modification or 
extended service life. New DDG-51 class ships being introduced to the 
fleet provide substantially more capability and an ample number of VLS 
tubes to support current Tomahawk inventory. It is not cost effective 
to keep the DD-963 class in the inventory. The currently structured 
decommissioning schedule will save the Navy about $1.25 billion over 
the Future Years Defense Program (FYDP) that can be applied to 
transformational efforts such as electric drive, advanced networks and 
stealth technology which will bring new warfighting capabilities to the 
fleet.
    However, we are funding the LPD-4 extended sustainment program. 
This program was developed to improve the dependability of HM&E systems 
and living conditions for the sailors and embarked marines. 
Additionally, it is expected that LHAs will be required to serve a 
median 42 years, significantly beyond their ESL of 35 years, before 
being replaced by the LHA(R) ships currently being studied.
    The requirement for amphibious ships is driven by two factors, 
amphibious ready group (ARG) deployment cycle and Marine Corps lift 
requirements. Today's 12 ARGs are the minimum required to meet presence 
requirements and each ARG consists of an LHA/LHD, LPD, and LSD. Overall 
lift is currently below the 2.5 Marine expeditionary brigade (MEB) lift 
programmatic goal and full requirement of 3.0 MEB lift. LPD-4s (Austin-
class) will be required to serve an average of 41.5 years, well beyond 
their original ESL of 30 years, in order to meet amphibious 
requirements until the LPD-17 class ships deliver.

    4. Preposition additional ships in forward operating areas that 
would be maintained by very small crews during normal circumstances. 
This concept would be analogous to the manner in which certain Ready 
Reserve Force (RRF) ships are kept ready to begin operations in just a 
few days.

    The current Ready Reserve Force is maintained in a 10-20 day 
activation status, with no caretakers on board. The ships undergo a sea 
worthiness inspection by USCG every 2 years. The ships in a Reduced 
Operating State (ROS) have 4-5 day windows, as well as 30-45-90 windows 
for underway; the 4-5 day ships are manned with civilian mariners to 
maintain the ships propulsion system. The role of these ships is to 
support U.S. Transportation Command (TRANSCOM) and sealift for current 
OPLANS. The ROS and RRF ships do not have complex C\4\ISR systems or 
weapon systems that are maintained. The time required to develop 
minimum standards of crew proficiency for combat operations will take 
longer than the transit time saved.

    5. Other Studies and Initiatives:
Manning Initiatives
    The ability to optimize the manning of our ships also will provide 
efficiencies. Within OPNAV and the fleet we are in the process of 
exploring several alternatives that will enhance our ability to man our 
ships and squadrons at optimum levels during the inter-deployment 
training cycle (IDTC) and scheduled deployment. These efforts involve 
or will involve the units within two CVBGs/ARGs and six other ships 
affecting additional CVBGs. The number of sailors directly involved or 
temporarily moved by these initiatives will exceed 2000 as manning 
levels for each are adjusted to the requirements for their respective 
initiative. These initiatives will span timelines from 15 months to 36 
months as the concepts are formulated, execution strategies developed, 
plans executed, and final data analysis is complete. The fleets are 
aggressively exploring these manning alternatives to address such 
issues as requirements determination, retention and personnel 
development, and increased operational flexibility. These efforts 
highlight the transformational research that the fleets are doing to 
help identify the true requirement.
    Fleet Manning Experiment (FME) led by Commander, Atlantic Fleet 
        (CLF) and Commander, Pacific Fleet (CPF)
    The CLF/CPF FME is a bottom-up fleet review of manpower 
requirements, which identifies the true manning requirement in today's 
infrastructure and warfighting environments. The FME is not an exercise 
in shipboard manning reduction. The period of this effort is from July 
2001 to July 2003. FME test units are contained within the U.S.S. 
George Washington CVBG and Nassau ARG. These units (and the CVBG/ARG as 
a whole) will be evaluated during their IDTC, deployment and post 
deployment maintenance periods for the effects of these changes. 
Manning adjustment began in January 2002. In order to achieve the FME 
levels for rating/Navy enlisted classification (NEC) and pay grade on 
the test units, about 570 sailors are being moved within the CVBG, 
where possible. As an example of the cooperation and success of these 
efforts, general detailed (GENDET) manning for the three players 
requiring the majority of additional non-designated personnel will be 
met in May of this year. This has been an exceptional effort to 
identify the true requirements by all involved and will have 
significant impact on the way we determine manpower requirements for 
our sea units in the future.
    Optimal Manning Project (OMP) led by Commander, Naval Surface Force 
        Pacific (CNSP)
    The CNSP OMP is a bottom-up review of the billets authorized (BA) 
on a DDG and smart CG in an effort to develop, from the fleet 
perspective, the ship class manning requirements for the future 
including minimal manning concepts. Reductions will be based upon 
policy and procedural changes (internal and external), technology 
insertions and shore infrastructure changes. Although most of its 
assumptions are the same as the FME, it explores a number of potential 
shore infrastructure changes that can be used to reduce overall at sea 
manning requirements. The most significant changes involve the current 
day functions and workloads associated with maintenance and personnel 
administration. The period of this effort is roughly the same as the 
FME. The OMP test units will also be evaluated during their IDTC, 
deployment and post deployment maintenance periods for the effects of 
these changes as in the FME. OMP manning reduction resulted in a 
decrease of 95 billets. Manning reductions to the OMP levels began in 
November 2001.
    Mobile Bay (CG-53) and Milius (DDG-69) are on track in the IDTC and 
have operated successfully at sea. An ashore maintenance detachment, 
which was established in October 2001 using consolidated OMP-BA excess, 
is supporting additional ship maintenance periods other than their 
parent commands. An administrative detachment using consolidated OMP-BA 
excess is conducting pay and personnel issues from ashore.
    Accelerated Sailor Achievement Program Pilot (ASAP) led by 
        Commander, Atlantic Fleet and Chief of Naval Personnel (CNP)
    ASAP is directed at improving GENDET attrition and retention by: 
(1) by starting the sailor mentorship process early in the recruiting 
phase and continuing it through the sailors first sea tour and; (2) 
providing an absolute advanced school opportunity following a 24 month 
initial sea tour. Early association of the new sailors to a final 
parent command will begin as they are recruited for a specific CVBG/
ARG, assigned earlier in the process to units within that CVBG/ARG and 
personally and professionally developed during their at-sea time for 
successful application to an advanced training school of their choice. 
We believe that this early incorporation of the young sailor into his 
first at-sea team with a very tangible reward at its completion will 
provide significant gain in this area as well as exercise our covenant 
leadership responsibilities to them. The time period for this effort 
will extend for about 36 months. The ASAP test units are tentatively 
within the Truman CVBG.
    a. Initial manning analysis indicates that 300-350 young sailors 
will participate in this pilot.
    b. This pilot holds great promise in getting at the heart of GENDET 
losses: early mentoring, command concern for the individual's well 
being and personal and professional development. It addresses near-term 
and long-term readiness by investing in our people at a point where 
career decisions are made. Although too early to tell whether this 
pilot will be a success, from a leadership perspective, this seems like 
a winner. In the final assessment, our determination of return on 
investment (ROI) should not be limited to a straightforward cost 
analysis.
Long Deployment Initiative
    This concept involves deploying a unit for 9 months while rotating 
a contingent (about a quarter of the crew) back stateside every 2\1/4\ 
months so that we can maintain our forward commitments while not 
bearing the entire burden on the backs of our sailors. This concept 
requires an increase in assigned personnel of 25 percent. The time 
period for this effort will extend for about 15 months. This concept 
has the potential to define the way ahead in sailor employment. By 
manning sea-going units to 125 percent of current levels, we keep 
sailors at sea while providing the ship with the excess capacity to 
allow their sailors the time to pursue their personal and professional 
development. At the current level of 160,000 sailors at sea in combat 
units, 40,000 billets would need to be realigned from other activities. 
We could increase sea tours for our sailors without adversely affecting 
their quality of life (QOL) or careers. Longer sea tours would increase 
unit readiness through crew stability, increased experience level, 
surge capacity, and increase skill sets onboard through shore side 
training opportunities, etc. QOL for these sailors would improve with 
additional manpower to address shipboard duties, additional opportunity 
to fully participate in the transformation envisioned by the Navy's 
Task Force Excel, training opportunities to improve shipboard skills 
with temporary additional duty (TAD) assignments to base security 
units, ship intermediate maintenance activities (SIMA), personnel 
support detachments (PSD), clinics, etc.
    I hope the background information provided today on several 
deployment posture and manning initiatives was helpful. Some 
initiatives are in the early stages of development and others have been 
studied at length. I remain optimistic that the initiatives presented 
will improve OPTEMPO and our ability to provide additional forward 
presence with the current force.

    Senator Kennedy. Admiral, the Navy has said it has to have 
these 7.6 aircraft carriers in the active fleet in order to 
support one carrier on-station full-time in the Northern 
Arabian Sea. This reflects assumptions of keeping the CNO-
mandated operational tempo goals for down times, among others.
    The Navy also indicates that having the carrier homeported 
in Japan allows the Navy to have only 1.7 carriers in the 
active fleet providing a continuous presence of one carrier in 
the Western Pacific.
    So in your discussion of forward homeporting options, you 
discussed a number of vessels such as submarines and other 
support ships in Guam. However, you made no mention of 
relooking at options to homeporting carrier battle groups in 
locations other than the current group in Japan. I would say 
there are numerous ports throughout the region that have that 
capability and infrastructure. You have ports of call, but 
required infrastructure to support current and homeports, if 
unavailable, would require substantial investments by the U.S. 
and the host nation.
    Could you give us some idea what the estimates are and what 
the costs would be required to establish the appropriate 
infrastructure?
    Admiral Wachendorf. Sir, I'll take that to give you the 
exact numbers for the record, if I may.
    [The information referred to follows:]

    The Navy has conducted some preliminary studies to determine the 
infrastructure support required to homeport a carrier battle group 
(CVBG) in locations other than Japan. These studies estimate that the 
range of construction costs are from $3 to $6 billion, requiring 
between 7 and 10 years to complete the necessary environmental studies 
and subsequent construction. Upgrades to existing civil infrastructure 
such as roads, power, water, and waste disposal to support the 
approximately 25,000 military sailors, civilian personnel, and 
dependents could add billions more. These estimates did not account for 
the cost of land acquisition, so the availability of land was a 
constraining factor in some locations.
    The annual recurring costs to operate and support the CVBG would 
also be significant. The Navy has not entered into any formal 
discussions with potential host nations so the political feasibility of 
alternate sites cannot be determined yet.

    In general, the infrastructure required to support a 
carrier is much larger than for the submarines. In the case of 
Guam, we do presently have sufficient infrastructure with the 
submarine tender there that is capable of also supporting 
surface combatants, to accommodate three nuclear attack 
submarines: the first of which will arrive in September of this 
year, the second in October, the third to be decided, but soon 
after.
    I have discussed this with Admiral Fargo, Commander of the 
Pacific Fleet, as recently as last week. He is of the opinion 
that no further infrastructure would be needed to accommodate 
those and perhaps a few more submarines and a squadron of 
surface combatants, perhaps with missile defense capabilities, 
as those issues come online.
    For the aircraft carrier, however, there is a lot more 
infrastructure and dredging that would be required. We 
certainly could do that, but it is our intention right now to 
substitute with modern ships, whether they be aircraft carriers 
or amphibious or cruiser/destroyer force ships, in Japan with 
the latest technology, but to maintain in Japan the same number 
of ships we have there.
    A pure, very extensive support facility was built in 
Singapore, and we are now using that as a good place for ships 
to resupply. For some of the manning concepts to increase 
presence, we are considering crew swapping alternatives. It is 
our opinion that we would not need to locate a lot of intensive 
industrial support or maintenance facilities in places like 
Singapore or other locations, but we could change out the crews 
there if the ships could stay longer. That would have the 
increased presence.
    Senator Kennedy. Coming back to the aircraft carriers, you 
gave me a good survey answer about the issue. But let us just 
take the aircraft carriers now. In terms of looking at other 
kinds of ports, this is not a new issue.
    Admiral Wachendorf. No, sir.
    Senator Kennedy. Looking at decisions back in 1993, we had 
the Defense Department doing studies at that time. They were 
non-responsive to these kinds of things. We have additional 
pressures now, particularly with this budget and with this 
administration.
    So I am interested in what the costs are in terms of the 
forward part. What are we looking at? There are a number of the 
old options. We looked at Rota, which was around for a number 
of years. Crete was there, along with Perth, Australia. These 
are all harbors or ports that we had talked about at other 
times.
    I am just wondering if you are looking at this, the options 
of forward porting and, if so, what are the cost 
considerations? If not, why not? How is this balanced against 
the development of the battle carrier group? It is around $20 
billion.
    What are the kinds of thinking that is going on? How would 
you evaluate it? When was the last time you did evaluate it? 
What are the costs out there? Is it the instability in those 
regions? Is it a greater kind of danger, or is it just cost? 
What are the factors when we have the extraordinary figures in 
Japan of 1.7 carriers versus 7.6 we are keeping in the Northern 
Arabian Sea.
    Admiral Wachendorf. Yes, sir. Your numbers are exactly 
correct, sir. I would point out that we have maintained a 2.0 
carrier presence, at times 3.0 including the carrier from 
Japan, in the war on terrorism off of Afghanistan. We have 
plans to surge more carriers. To answer your question more 
specifically, there are some regional stability concerns.
    Japan has no more room for additional carriers in their 
infrastructure.
    Senator Kennedy. I understand that.
    Admiral Wachendorf. So we would have to look at places like 
Guam. It was the fleet commander's assessment that they are not 
ready to accommodate something the size of a carrier itself, 
but they could accommodate the surface combatant squadron and 
the squadron of submarines.
    The next leading contender would probably be Australia, 
because we could leverage some of their naval bases, which have 
existing facilities. We would still have to expand on them to 
accommodate our nuclear carriers, which Australia does not 
have. But they have expressed a willingness to do so.
    Senator Kennedy. Well, I know that Perth was at least one 
of the options.
    Admiral Wachendorf. Yes, sir.
    Senator Kennedy. But what I am looking for or asking is 
whether we have done a review or whether this is an ongoing and 
timely review.
    Admiral Wachendorf. Yes, sir. It is the----
    Senator Kennedy. It would seem to me that you would want 
both the review in terms of the costs in this versus what are 
going to be the costs outside of it.
    I would think you are also looking at whether you need the 
length of time in these particular regions. Do you know what it 
costs in terms of keeping the aircraft battle group in the 
Indian Ocean for 12 months? Why 12? Should it be nine?
    What are the capabilities in those regions? Do you need all 
the battle group, or some or less? Do you need all the 
personnel on those aircraft carriers with the particular 
challenges they are facing, or somewhat less?
    What I am interested in, sir, is what kind of thinking is 
going on in the Navy as we are looking at these budgets so that 
it is not just a bottom line, which we are already conscious 
of, in terms of what is happening in shipbuilding, but also 
these other kinds of alternatives as well.
    I am wondering whether the Navy is looking at these kinds 
of factors and how they are evaluating them to see if they are 
even sure there are good reasons.
    Some may be good reasons to do it, other reasons why they 
should not be done; what I am most of all looking at is to see 
whether that kind of process has been moving----
    Admiral Wachendorf. Yes, sir.
    Senator Kennedy.--ahead. I am somewhat troubled that I am 
not sure that it has been.
    Admiral Wachendorf. Two comments on that, Senator.
    Senator Kennedy. Yes.
    Admiral Wachendorf. The Center for Naval Analyses did some 
exact studies with those costs, and I will make sure they are 
available to you for homeporting options and the costs that 
would be incurred for different locations and the 
infrastructure required. I do not have that information in 
front of me.
    [The information referred to follows:]

    The following costs are provided for homeporting a four ship 
surface action group in Guam. These cost are the very lowest estimate. 
Due to Guam being a territory and infrastructure is already established 
it is the least expensive of the western pacific ports. Costing data 
for other areas in the Western Pacific are not currently available and 
are assumed to be much greater than the below Guam costs.

                        [In millions of dollars]
Family Housing............................  109 (100 percent renovation)
Bachelor Quarters.........................                            90
Ship Repair Facilities....................  0 (Ship repairs in Japan/HI/
                                                                  CONUS)
Wharf Upgrade.............................                            10
Utilities.................................                             4
Dredging..................................                            20
Supply....................................                            16
Ordnance..................................                            18
Morale Welfare and Recreation.............                             5
Schools...................................                            17
                                           -----------------------------
  Total...................................                    374 to 375


    The following is a breakdown of cost areas.

        <bullet> Family Housing (FH) (625 Units)

                <bullet> Renovation cost = $175,000 per unit <greek-e> 
                625 = $109 million (includes infrastructure upgrades)

        <bullet> Bachelor Quarters (BQ) (625 PN = 6-100 Personnel BQs) 
        $144,000 per space <greek-e> 625 PN = $90 million

        <bullet> Ship Repair Facility (SRF) (Renovation required = 
        Assume 50 percent of Plant Replacement Value (PRV) of existing 
        building. No new construction required)

                <bullet> -50 percent of PRV $289 million = $145 million 
                (does not include drydock; wharf & utilities upgrades 
                addressed separately)

        <bullet> Wharf Upgrades (Romeo, Sierra, Tango)

                <bullet> From Regional Shore Infrastructure Plan (RSIP) 
                Waterfront Study, P-433 Bilge Oil Water Treatment 
                System, Steam, fiber optics, (Romeo/Sierra): $7.1 
                million
                <bullet> Underwater Inspection Report (1998) identified 
                $1.2 million for structural repairs; factor for new 
                finds, deterioration, escalation (100 percent): $2.4 
                million

        <bullet> Utilities

                <bullet> Electrical--Sierra & Romeo piers renovated in 
                1999. Tango pier damaged by earthquake and has no 
                electrical. Electrical power, lighting, communications 
                as follows: Romeo $0.2 million, Sierra $0.6 million, 
                Tango $1.7 million. Total = $2.5 million
                <bullet> Water/sewer: $1.0 million

        <bullet> Supply

                <bullet> Cold storage--Increase 1700 sm: $7.7 million
                <bullet> Warehouse--Increase 2700 sm: $7.8 million
                <bullet> Fuels--Assume ok

        <bullet> Ordnance

                <bullet> -3 new missile magazines @ $6 million: $18 
                million

        <bullet> Morale Welfare and Recreation

                <bullet> Increase 20 percent (club, Child Development 
                Center (CDC), gym, theater, bowling alley)
                <bullet> Assume 1 new CDC for 94 children = $2 million
                <bullet> Assume 20 percent expansion of gym = $3 
                million

        <bullet> Schools

                <bullet> Increase 20 percent of MCON for High School 
                (HS) and Elementary/Middle School (ES/MS),
                <bullet> HS: Current MCON is $35 million <greek-e> 20 
                percent = $7 million
                <bullet> ES/MS: Current MCON is $50 million <greek-e> 
                20 percent = $10 million
                <bullet> Total = $17 million

    Another piece, sir, you mentioned it in your comment about 
longer deployments, one of the concepts we are looking at looks 
very attractive in theory. In practice, there are some 
challenges to overcome.
    If we were to take the traditional deployment length, which 
your numbers of 7.6 assume for 6 months, it takes about a month 
for a West Coast ship, surface, submarine or aircraft carrier, 
to get to the Strait of Hormuz if that is the area of interest, 
and it certainly is one of them.
    Then it takes a month to get it back. So that leaves 4 
months of operating time in a 6-month deployment, because 2 
months are spent in transit. If we were to increase the length 
of that deployment to 9 months and spend the same transit time 
over and the same transit time back, the on-station time would 
be increased from 4 to 7 months. That is a 75 percent increase 
in on-station time.
    One of the concepts that I discussed in my statement is to 
increase the manning of the ship by 25 percent and every 
quarter of a 9-month cycle, about every 10 weeks, rotate a 
quarter of the crew through, so that the concerns that you 
mention in your opening statement could be addressed with 
respect to family separation and others.
    That would allow a 75 percent increase in on-station time 
for a 25 percent manpower increase. That would make that very 
attractive.
    There are some problems here, because of the training that 
has to be done--the specialized equipment that these sailors 
and officers have to operate--but that experiment is going to 
be initiated this fall, sir.
    Senator Kennedy. My time is up, but I will be coming back 
to the Horizon Program, the----
    Admiral Wachendorf. Sir, that came out of the Horizon 
study, which was conducted by the War College, sir.
    Senator Kennedy. OK.
    Admiral Wachendorf. The Horizon concept is a little 
different. There it involves an extra crew for a given number 
of ships. We are looking at implementing that in the mine 
countermeasures force, because the crew sizes for those ships 
are smaller, sir, and we will get better data as we rotate 
those around.
    Senator Kennedy. I am going to come back to this later on.
    If you could then, let us know what you are thinking and 
what you see as the advantages and disadvantages of these. If 
you have Blue/Gold or Horizon, whatever suggestions you do 
have. I understand there are a number of other kinds of 
options, which are also being looked at. We would like to know 
what your thinking is.
    Is it cost-related? Are we going to balance off these costs 
versus the OPTEMPO in terms of the personnel? At the 
grassroots, we want to be able to make some judgments on these 
as well.
    Maybe it would be best if either Senator Sessions and I 
were to try and frame this in the form of a letter so you have 
a more precise inquiry and we could get as good information as 
we can get.
    But the point I just want to mention is that I think it is 
important for us to know what these various options are, what 
is your own evaluation of them, and what these costs are 
entailing.
    We are always mindful, obviously, of the amount of time 
personnel are away from home. They obviously need the training 
and they need it to be efficient, but we would be very 
interested in that.
    Have you considered the length of time that you leave these 
carrier battle groups on station? Is there some greater 
advantage in having 12 months, or 9 months, or is this 
difficult because of both strategic and tactical defense kinds 
of issues?
    Do you need the same ships in each of the battle groups 
when they go to the different places in the world? I mean, 
there is obviously different threats that come from Iran and 
Iraq, and missiles that come from them and capabilities than 
you might have from other places.
    Do you look at those when they actually assign these battle 
groups? Is that a consideration of it? If so, why? If not so, 
why not? Maybe I can define that a little bit as well. If you 
want to make a brief comment, then I will yield to the next 
Senator.
    Admiral Wachendorf. Yes, sir. I will make a short answer to 
that. You are correct, sir. One of the challenges we must 
overcome here is the diversity of within the surface combatants 
and other ships of the Navy. For example, there are 22 
different baselines of weapon systems on surface combatants in 
the Navy today.
    So as we rotate ships around and modernize that ship in 
Japan right now, the Kitty Hawk, it is 47 years old. It is one 
of the oldest ships in the Navy, but it has state of the art, 
what we call, C\4\ISR electronics, so it would allow it do the 
work that it did during the war on the whole setting up of 
Kandahar and that SOF mission there. She is getting ready to go 
back again with the airwing embarked instead of the rotary wing 
SOF forces that operated out there just a couple of months ago.
    So those ships that go, we try to make sure to have the 
best we can, the same common architecture of electronics. But 
we have too many different ones. It costs us too much overhead 
in the systems commands to maintain those.
    One of the things as we go toward the future--and Admiral 
Mullen can tell you more about this--is striving for open 
architecture, where the human interfaces, the displays, and the 
button pushing are more or less constant. It is the software, 
as technology grows, because we want to harvest our strategic 
advantage in information superiority, that is what changes. 
That will allow more interoperability.
    One other comment, sir. The traditional view was when a 
battle groups goes, they stay together and we do not change out 
components. One of the initiatives that we are going to be 
starting this summer does exactly that. It breaks that paradigm 
by taking three 963 destroyers, leaving one, the U.S.S. 
Fletcher, forward deployed for 18 months, and then taking two 
other crews, not extra crews, from two other like ships with 
the same capabilities, and rotating them through at 6 month 
intervals.
    When we do that over an 18 month period, we change, let's 
say, four of those transits, each a month long or 122 days of 
presence time over 18 months. There are some cultural things, 
that traditionally a crew thinks their ship is the best in the 
whole Navy. That is what we train them to do, and that is a 
good thing. So they are going to have to get used to thinking 
this other ship is a pretty good one, too, because there are 
other challenges.
    But we are trying to break that up to get more efficiency 
out of the force we have, sir. I will be glad to take for 
action, as you discussed, a more detailed response.
    [The information referred to follows:]

    The carrier battle group (CVBG) is a combat formation of ships and 
aircraft, which comprises a principal element of our national power 
projection capability. It is the essential foundation of our ability to 
conduct operations as envisioned in the most recent edition of our 
strategic concept. It includes capabilities sufficient to accomplish a 
variety of situations short of war. Simply put, our mission in 
peacetime is to conduct forward presence operations to help shape the 
strategic environment by deterring conflict, building interoperability, 
and by responding, as necessary, to fast breaking crises with the 
demonstration and application of credible combat power.
    Tasks which are critical to the success of initial crisis response 
missions are assumed to be undertaken in non-permissive environments 
characterized by multiple threats including, but not limited to, 
advanced anti-ship missiles, third/fourth generation fighter/attack 
aircraft, advanced electromagnetic sensors and jammers, modem cruise 
missile-equipped surface combatants, and attack submarines (both 
nuclear and diesel types). The CVBG is intended to be a flexible naval 
force that can operate in shallow, and narrow, waters or in the open 
ocean, during day and night, in all weather conditions, and under 
restricted emission control.
    The primary objective in defining the CVBG capabilities and 
composition is to provide the combatant commanders with adequately 
balanced capabilities to deal with a variety of present and future 
threats. The objective is to train and equip forward deploying forces 
which are balanced, sustainable, flexible, and, most importantly, 
responsive to the requirements of the supported commanders and able to 
carry out tasking from the Secretary of Defense.
    Most CVBGs are constructed nearly identical to ensure the right 
mixes of capabilities to respond to any threat, regardless of the 
geographical location. Training focuses on the most likely areas where 
the ships will be operating, but the skill sets ensure all are flexible 
enough to operate anywhere in the world on short notice when so tasked 
by the Secretary of Defense or President.

    Senator Kennedy. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you.
    Admiral Wachendorf, did I correctly interpret what you are 
saying, that the Navy is, in fact, giving increased emphasis on 
these kinds of potential savings that this is something 
unusual, other than just a normal routine constant evaluation 
that I know you do?
    Admiral Wachendorf. Yes, sir. Once before, I believe about 
5, 6 years ago, we tried a variation of the Horizon concept 
that Senator Kennedy referred to. It did not work out very 
well. I attribute that to faulty leadership. It was not the 
sailors on the crews. It just was not managed well. We had 
those left behind, those forward deployed, there was too much 
segregation, and other management problems. We are learning 
from those experiments, and we are moving forward with this DD 
experiment in the fall and a similar one with the Arleigh 
Burke-class later in the year, sir. So in my 30 years of 
uniformed service to the country, I have never seen that 
before.
    Senator Sessions. I have no doubt it will get a lot of 
complications. I just believe that in the modern world we are 
in, at the level our private sector's sophistication, they 
achieve and utilize the resources that are given to them. If 
you work at it as you will, we can gain some advantage, whether 
it is 5 percent, 10 percent, in the number of actual ships out 
there available in an emergency, ready for action in the areas 
of the globe that we need to be in with the current structure. 
Then that still does not keep us up where we need to be in 
terms of the total number of ships. One of the things that is 
interesting is your testimony indicating that a cost benefit 
analysis has led the Navy to the conclusion that Spruance-class 
destroyers should be decommissioned prior to their reaching 35 
years of service life as they were projected to serve. Yet 
decommissioning those ships brings the Navy below the 116 
surface combatants which the QDR states are needed to provide 
moderate to high-risk national security.
    My question is: would you provide the subcommittee by the 
end of this month, if possible, the cost/benefit analysis 
regarding the Spruance-class destroyers, the Ticonderoga-class 
cruisers, and the Oliver Hazard Perry-class, too.
    Second, I am concerned that the Navy is not maintaining the 
QDR base force structure while it decommissions these ships 
that do still have life. This generation will have a 
requirement to build additional ships.
    Did your cost/benefit analysis determine the additional 
risk to the national security associated with dropping to 108 
surface combatants?
    Admiral Wachendorf. Sir, for your first action, we will 
have all of it to you by the end of the month, sir. We have 
done that, as you may know.
    [The information referred to follows:]

    The cost-benefit analysis regarding Spruance-class destroyers, the 
Ticonderoga-class cruisers and Oliver Hazard Perry-class frigates based 
on annual programming costs for ships operations and support follows: 
CG $34.8 million; DD $28.3 million; FFG $20.5 million. Therefore, it 
costs approximately $8 million per year more to operate a DD over an 
FFG.
    The decision to reduce the service life of the DD-963 class was 
based on affordability in the context of today's threat environment. 
DD-963 class ships are significantly less capable than the more modern 
and more survivable, Aegis-equipped DDG-51 class ships. The higher 
manning requirements and operational costs are a main driver in the 
decision process. The current average age of the DD-963 class is over 
20 years and the DDG-51 average age is 6 years. The DD-963 is more 
costly to maintain from a purely maintenance perspective, not to 
mention combat system modernization costs to make the class effective 
against today's threats. The decision to drop below to 116 was a short-
term reduction to allow for the development and construction of more 
capable ships. Although in the short term we drop below the QDR force 
level of 116 we emerge with a more capable force beginning in fiscal 
year 2010.

    The cruisers and the FFG-7 class are being extended to the 
maximum life. You are also correct that the cost benefit 
analysis indicated in the case of the 963s that it was not 
affordable to do so. We will put that in writing to you. A 
brief summary of that has to do with the operating costs of 
those ships.
    They have 50 percent more crew than the FFG-7 Oliver Hazard 
Perry-class does. They also have five feet more draft. What we 
found is that the FFG-7 class is very valuable to us for 
tailored missions like maritime interdiction operations that we 
are doing in the northern part of the Gulf where the water is 
quite shallow. They also have helicopter capability, which is a 
valuable asset and their fuel costs are lower.
    One of the liabilities of both those ships is that they do 
not have a volume search radar like the cruisers do. So we want 
to take as much money as we can afford to invest--and Admiral 
Mullen will correct anything I say improperly--but to have a 
strategic plan that looks towards the future where we can have 
reduced manning ships, or crews of a smaller size.
    The DD(X) has approximately one-quarter of the crew size of 
the current 963 ship. We need to get there and get to the 
common architecture of combat systems that I mentioned before.
    Another factor is stealth. We need to bring the enemy that 
we know is going to come after us in close where our defensive 
systems can be most effective. To do that, we have to minimize 
the acoustic, the radar, the electromagnetic, and other 
signatures that these ships put out. It would be cost 
prohibitive to do that to the 963 class.
    We are using the FFG-7 class as a tailored mission ship 
until the littoral combatant ship comes online, and DD(X). We 
are using the cruisers for air defense and air radars. But we 
will go into more detail for you as you requested, sir.
    Senator Sessions. Well, have you analyzed the most 
effective way to stay with the QDR number of 116 ships? Are you 
sure you have made the best analysis to try to meet that 
requirement? If we cannot get enough new ships, why are we 
decommissioning the serviceable ships?
    We saw one, the O'Brien, that served ably in the Persian 
Gulf, that is set to be decommissioned soon.
    Admiral Wachendorf. Senator, you are exactly correct. These 
are hard choices to make. One point that comes in and weighs 
this investment balance of today versus tomorrow is the life-
cycle cost of these ships.
    When the Coast Guard was doing an in-depth study of the 
deep water project, looking for their future, they determined, 
and Navy data supported, that on almost all warships, 60 
percent of the life-cycle cost is manpower, historically.
    We are trying to reduce the cost of operating our Navy by 
going towards smart ship technologies and reduced manning 
initiatives, as I discussed in my testimony, to bring that cost 
down, so that we can make a better investment on our available 
resources. To do that, that is part of this analysis, but we 
will put that all in writing for you, sir.
    [The information referred to follows:]

    Smart ship is the introduction of commercial technologies for 
reduced ship manning. The results of implementing seven smart ship 
technologies has led to the reduction of 21 personnel with an annual 
cost savings of $1.01 million per ship. Currently there are six Aegis 
cruisers that have smart ship integrated ship control consists of 
integrated bridge system, damage control quarters, machinery control 
system, wireless internal communications system, fuel control system, 
integrated condition assessment system, fiber optic local area network 
and on board trainer for engineering, damage control, and voyage 
management.

    Senator Sessions. Thank you. I do not know the answer to 
that. It may be that you are correct, that celebrating the 
transition to the more modern ships is worth the decline in the 
short-term of our combatants on the sea. But I think it is a 
question we have to ask.
    Admiral Wachendorf. Yes, sir.
    Senator Sessions. I mean, we are looking at a rather 
substantial reduction in life expectancy of those ships we are 
running now.
    Thank you, Mr. Chairman.
    Senator Kennedy. Senator Landrieu.

             STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. Thank you very 
much for calling this hearing and I appreciate having this 
opportunity. I have a full statement for the record, but I 
would like to excerpt a few things, just for comments, and then 
I have a couple of questions.
    With 32 percent of our naval force deployed in support of 
Operation Enduring Freedom and deployments to maintain our 
global presence, it is evident to me and to many Senators, 
actually, Senator Collins has spoken about this before many 
times, that we need to maintain a more robust shipbuilding 
program.
    The Navy has given the U.S. the ability to project forces 
in the most inhospitable lands, and that is only going to 
continue. It is the duty of this subcommittee, under the able 
leadership of our Chairman and Ranking Member, to equip our 
sailors and marines with a modern fleet to conduct this war.
    It is crucial that the Navy increase its ship procurement 
program to bring it in line with the minimum needed to maintain 
a fleet of 300 ships or more. But it seems to this Senator that 
no matter who is in the White House, when the Navy comes before 
Congress, they state that the Navy plans to address the 
shortfall in ship procurement the next year or the year after. 
Unfortunately, it seems like the outyears never quite come.
    I know that there are budget constraints, but I am going to 
submit this, Mr. Chairman, to the record in hopes that we can 
continue with your leadership to push on this shipbuilding 
program, because it is very important for us even as the 
threats change and emerge. It becomes almost more important to 
be able to operate in inhospitable areas, as well as to deploy 
pretty quickly.
    [The prepared statement of Senator Landrieu follows:]
             Prepared Statement by Senator Mary L. Landrieu
    I would like to thank the Chair for holding this hearing today on 
such an important topic. I would also like to thank the panel for 
taking the time to come here today and testify.
    Thousands of years ago, when the Greeks were facing an imminent war 
with the Persians, they were advised to build a wall of wood to protect 
the city of Athens. The walls of wood were not walls surrounding a 
city, but the wooden navy of Athens. The Greeks embarked on a robust 
shipbuilding program, and soon had a Navy that was superior to the 
Persians. Their victory over the Persians ultimately came at sea, with 
the Greek navy forming an invincible wall of wood around the Greek 
homeland.
    Today, we find ourselves like the Greeks did so many years ago. 
Instead of a wall of wood, America depends upon a wall of steel to 
protect her from her enemies. This wall of steel is the United States 
Navy. Time and again, it has been the Navy and the Marine Corps that 
has erected an unbreakable wall around us. But defense is only half of 
the Navy/Marine Corps equation. The Navy projects American power to far 
away and inhospitable lands. If we do not embark on a robust 
shipbuilding program, gaps will develop in our wall of steel. As we 
increase the operational tempo of our Navy, we are decreasing the 
amount of funds allocated for ship procurement. This creates a great 
danger to America as it executes a long and difficult war on terrorism. 
No nation on Earth can equal our Navy, and it is the duty of this 
subcommittee to keep it that way.
    Current funding for the Navy's shipbuilding program is creating a 
growing gap in that wall of steel, which will threaten our ability to 
project sea power in future years. For the past few years, the Navy has 
not met its own goal of procuring 8 to 10 ships per year. In the last 
fiscal year, the Navy only procured 6 ships, and in fiscal year 2003 
the Navy is only procuring 5 ships. This is half the number of ships 
required to sustain our present force levels and is $5 billion below 
the Clinton administration's 2001 request of $11 billion for 8 ships. 
According to current projections, this gap in our defenses will not be 
effectively plugged until fiscal year 2007, when the Navy is projected 
to procure 11 ships.
    With over 32 percent of our Naval force deployed in support of 
Operation Enduring Freedom and deployments to maintain our global 
presence, it is evident that we need to maintain a robust shipbuilding 
program. The Navy has given the U.S. the ability to project forces in 
the most inhospitable lands. It is the duty of this subcommittee to 
equip our sailors and marines with a modern fleet to conduct this war. 
It is crucial that the Navy increase its ship procurement program to 
bring it in line with the minimum needed to maintain a fleet of 300 
ships. Each year, it seems that no matter who is in the White House, 
the Navy comes before Congress to state that the Navy plans to address 
the shortfall in ship procurement next year, or the year after. 
Unfortunately the outyears never come.
    I would like to close by simply pointing out that our current 
procurement levels create a gap in our wall of steel. Because it is 
difficult for our enemies to confront us conventionally, they must look 
for weaknesses in our defense. No doubt they will identify this gap in 
our naval wall, and they will exploit it. We must embark on a robust 
shipbuilding program to ensure that these gaps do not occur, and to 
maintain a modern naval fleet.

    Senator Landrieu. I have one or two questions. I wanted to 
follow up on your crew swapping pilot----
    Admiral Wachendorf. Yes, ma'am.
    Senator Landrieu.--and just to lend my support for that 
concept.
    I know that all change is difficult, and there are cultural 
changes associated, but on the Readiness and Management Support 
Subcommittee and on some other subcommittees, Mr. Chairman, we 
have really tried to focus on maximizing our deployments while 
giving people enough time at home, enough time resting, which 
is really a quality-of-life issue, as our marines and sailors 
struggle to find time with their families and to have some real 
down time with the increased operations.
    I want to say that I really encourage that kind of 
creativity in terms of ways that we can get our guys and gals 
home and give them a little more time with their families and 
some down time. If that would work, I would encourage you to 
continue it.
    In addition, I want to commend you for your comments about 
trying to, and I may be paraphrasing here, but standardizing 
your hardware----
    Admiral Wachendorf. Yes.
    Senator Landrieu.--so that we can continue to take the best 
of our research and development and take some things off-the-
shelf. But if our hardware stays the same, it cuts down on our 
training and really makes our whole operation more efficient. 
We are seeing those efforts made across the board, and I really 
do commend you for that.
    I would just ask a question, given the new thrust of our 
efforts in terms of really facing this new and emerging threat, 
different than the threats that we faced in the past, because 
fighting this war on terrorism requires new strategies, new 
equipment.
    How did the Navy argue to the administration, or how did 
you help to frame the debate about what the Navy needs to, 
basically, position itself to be a real tool in our arsenal to 
fight terrorists? What were the arguments that you are making 
either to us or to the administration or to the general public? 
Because I would like, for one, to hear some more about that.
    Admiral Wachendorf. Yes, ma'am. Thank you for your kind 
words. I think the short answer to your question is that we are 
no longer in the threat-based environment. We argue for a 
capabilities-base. Our strategy is such that we do not know 
exactly where we are going to fight. We do not know what the 
rules of engagement are.
    I am struck by a classmate of mine from the Naval Academy 
who is an admiral. Who would have thought that on Labor Day a 
year ago, this admiral would be riding horseback with 800 
people, 700 miles inland, going up against fixed machine guns 
and rocket propelled grenades? He is the SOF commander for 
CENTCOM. Thank goodness that he had four F-14s right in front 
of him mowing the grass in a cavalry charge that prevailed in 
Mazar-e Sharif.
    Senator Kennedy. Well expressed.
    Admiral Wachendorf. We cannot predict that kind of thing. 
But we want to make sure that we have combat credible forces as 
we did 24 hours after the planes hit the Pentagon and the World 
Trade Center. We had two carrier battle groups, and we had a 
classified number, but an impressive number, of Tomahawk 
missiles, and an amphibious readiness group on-station ready to 
strike. So that is the kind of capability we want to go after.
    One other comment, Senator, about the common combat systems 
and why that is important not only for crew swapping and 
interchangeable kind of things, but in reducing the overhead I 
spoke of in our systems command and training commands and 
elsewhere, it facilitates the use of simulators. The Navy is 
going to be world class in simulators so that we can still 
maintain the quality of life as best we can for our sailors who 
spend long times away from home.
    But when they come back to their homeports, and this is 
part of the infrastructure question which related to Senator 
Kennedy's question, we want to have the facilities. There is no 
substitute for going to sea. I do not want to leave you with 
that point.
    But we could do a lot better job at training our sailors on 
the state-of-the-art skills they need to go into harm's way 
right in their own home port without taking the whole carrier 
battle group underway. That is part of this crew swapping and 
the Horizon concepts.
    Senator Landrieu. My time is up, but I do want to tell the 
Chairman that I have heard a lot of this discussion about 
switching from threat-based to capability-based. I really think 
we need to be really clear about what that means, and if we can 
actually afford what we are talking about. I am just very 
interested in pursuing that.
    I have heard this now on several subcommittees. We have 
always based our budgets on what we perceive the threats to be, 
because we have to be careful and focused with our resources--
--
    Admiral Wachendorf. Yes, ma'am.
    Senator Landrieu.--ready to defend in whatever ways we can, 
but focused based on good intelligence and good information and 
using your brain about where the threat might come from, so our 
resources are there. It is a little worrisome that I hear about 
this capability-base, because I do not know if we are trying to 
budget to be capable to fight anything, anywhere, anytime, 
terrorists, two theater wars at the same time. So I just want 
to say that.
    Also I would like an update on Vieques when we can get to 
it, but I will come back on the second round.
    Senator Warner. Mr. Chairman, if I might interrupt, that is 
an important question. Why does he not put in the record 
exactly what that definition means from the shipbuilding 
perspective?
    Senator Landrieu. What the difference is when we ask, 
because this is facing us in all of the committees.
    Senator Warner. Sure.
    Senator Landrieu. I mean, we are either building a Navy to 
address the threats as we perceive them, or we are building a 
Navy based on this new term I keep hearing, ``capabilities.''
    But I have always thought we need to build a Navy based on 
the threat that we perceive, and that threat changes and grows. 
We are seeing that before our eyes, and in order for us to make 
you as strong as possible, we have to agree on what that threat 
is. Then I would just like to ask you that, for the record.
    Admiral Wachendorf. Yes, ma'am. Both Senators raise 
excellent points, and I will take that for action. We will 
staff through a better answer.
    But a short one to your question about the capabilities 
that I could give you now is, the Navy has a program, global 
naval force presence policy (GNFPP), which specifies exactly 
what kind of presence quantitatively in surface combatants, in 
amphibious readiness groups, in carrier presence, in Tomahawk 
strike capability, these come in different flavors, what the 
commanders in chief, the warfighters need on-station, and that 
is the capability that we are assigning up to execute.
    When I suggested that we were going away from a threat 
base, I did not mean to suggest that we were being amorphous, 
or just everything everywhere all the time. We could not do 
that.
    But what we do want to do is support the CINCs, and they do 
describe what their requirements are. That is what we are 
meeting, and we can address that more fully in an answer for 
the record, ma'am.
    [The information referred to follows:]

    The 2001 Quadrennial Defense Review Report outlined a new defense 
strategy that is built around the concept of shifting to a 
``capabilities-based'' approach to defense. That concept reflects the 
fact that the United States cannot know with confidence what nation, 
combination of nations, or non-state actors will pose threats to vital 
U.S. interests or those of our allies and friends decades from now. It 
is possible, however, to anticipate the capabilities that an adversary 
might employ to coerce its neighbors, deter the United States from 
acting in defense of its allies and friends, or directly attacking the 
United States or its deployed forces. Moving to a capability-based 
force requires the United States to focus on emerging opportunities 
that certain capabilities can confer on the U.S. military over time.
    This applies to shipbuilding, as well. We must focus our ship 
development programs on realizing a transformed maneuver and 
expeditionary force able to overcome anti-access and area denial 
threats.
    The Unified Commanders in Chief (CINCs) influence both the 
requirements and programming process. They propose mission need 
statements, which identify deficiencies requiring material solutions to 
resolve and review every requirement--document for adequacy during 
document staffing prior to approval. The Joint Requirements Board and 
Joint Requirements Oversight Council routinely visit the CINCs 
providing an opportunity for direct CINC input into warfighting 
requirements issues. Additionally, each CINC submits issues for 
consideration into the Chairman's annual program assessment and 
recommendations, as well as provides an annual integrated priority list 
requiring response and consideration in each Service's respective 
budget submission.

    Senator Landrieu. Thank you.
    Senator Kennedy. Could the Senators give me their attention 
for a moment--the purpose of our next hearing, which is on 
April 9 at 2:30, is to receive testimony on Navy equipment 
required for fielding a 21st century capabilities-based Navy in 
review of the Defense Authorization Request. So that is going 
to be the subject of that hearing on April 9 at 2:30.
    Senator Collins.
    Senator Collins. Thank you very much, Mr. Chairman.
    Admiral, I want to follow up on the first question raised 
by my friend from Louisiana. The proposed Navy budget would 
take our surface combatants, the amphibious warships, the 
combat logistics ships, and the mine countermeasures warfare 
ships below the QDR critical force structure levels.
    This leaves the Navy's regional commanders short on 
available naval assets, increases the OPTEMPO, and results in 
even further strain on our already-stretched fleet. Now, the 
CNO has very candidly testified that the naval force structure 
ideally should be in the neighborhood of 375 ships, and today 
instead we are at about, I think it is 318 ships.
    This leads me to the conclusion that the Navy is going to 
have difficulty in meeting the CINC's current commitments. You 
said in your testimony that you are exploring several 
initiatives to alleviate the strain on our current OPTEMPO. You 
are looking at different manning requirements, different 
configurations.
    But in the final analysis, the real problem is that we do 
not have enough ships. In the final analysis, the fact is that 
numbers matter. I guess I would ask you, as much as I admire 
what you are doing to try to deal with the problems that are 
created by past and current and future budgets, what are we 
going to do to ensure that our naval forces can reach our 
recapitalization goal of eight to ten ships per year by the end 
of the Future Years Defense Program?
    Admiral Wachendorf. Well, ma'am, you are exactly right. We 
do not have enough ships. I do not want to leave you with the 
impression that these manning alternatives are going to solve 
the problem and that we can live with the shipbuilding rate 
that we are at right now and get to 375 or get a Navy that has 
the same fighting punch as 375 ships. Vice Admiral Mullen will 
follow me and give you more information on that.
    We want to be right up front and clear that these manning 
things get improvements and efficiencies. I mentioned 4 months 
out of 18, 10, 15, 20 percent improvements. We want to do that 
regardless of the number of ships in the Navy, because that is 
our job to be good stewards to public trust and get the most 
bang for the buck we can.
    We also have to be considering the surge requirements, 
because it is not just what we rotate through 365 days a year. 
If we execute a major operation, that number of aircraft 
carriers as we have in the past could be expected to increase 
significantly, more than double.
    We are ready to do that. It was just last week at the all-
flag officer conference, Admiral Natter, the commander of the 
Fleet Forces Command in Norfolk, mentioned that the investment 
that the Navy has made in readiness, both aircraft and ships, 
to eliminate the degradation that ships and planes experience 
coming back from deployment, has allowed us to make that surge 
right now.
    We are ready; it is a classified number which we could pass 
to you separately, but to greatly increases our Navy presence, 
because those ships are maintained and ready to go.
    Tough choices were made, which Admiral Mullen can give you 
a better answer on than I. But that is one of the factors that 
went into this shipbuilding decision that we are at right now, 
because we knew we had to fix our readiness problem.
    Admiral Clark has gone on record as saying for a large 
number of years, the Navy has deliberately understated 
requirements and then deliberately underfunded understated 
requirements for readiness accounts, and we have fixed that.
    Senator Collins. I understand those tough choices, but what 
I am worried about is, until we tackle the underlying problem 
that we are not building enough ships, it does not matter how 
creative we are with the manning requirements.
    I mean, it is encouraging that on the horizon with the 
DD(X) program, that we are looking at potentially greatly 
reduced manning requirements that are going to be helpful. But 
let me go on to another issue.
    There is great concern in the community that while the 
morale of our sailors and airmen is now very high among all the 
Armed Forces, that sustained deployments with increased OPTEMPO 
is ultimately going to yield a negative effect on retention, as 
well as increased wear and tear on equipment.
    You mentioned, in your written statement, the U.S.S. 
Theodore Roosevelt, which recently spent 160 consecutive days 
at sea without a port visit. Senator Reed and I visited this 
aircraft carrier in January as part of our trip to Central 
Asia. At that point, the carrier had been at sea for 113 
consecutive days.
    One of the naval officers came up to me, and I thought he 
put it very well. He said, ``We are proud and we are happy to 
break the record this time, but we cannot do it over and over 
and over again.''
    As dedicated and patriotic as our sailors are, there is a 
limit to what we can ask of them. I would ask you, what change 
do you foresee as the most promising of the ones that you have 
looked at to ensure that increased operational days are 
available to the CINCs, and yet we are not ultimately affecting 
the quality of life for our sailors to the point where we are 
going to see recruitment and retention problems once again?
    Admiral Wachendorf. Senator, you are exactly correct. I 
agree with everything you say.
    There was a young lieutenant that just checked into my 
office who came off the Enterprise. She was one of the carriers 
that was on station when this war started. The Enterprise 
stayed out there for 7 months. They were headed home, and then 
went right back on station.
    This young lieutenant is a female graduate of the Naval 
Academy and was the Tomahawk strike planning officer for the 
airwing. She put 84 rounds right on target. Every one of them 
hit. She is better than I ever was as a lieutenant.
    I do not know where we find these people. They are great, 
let me tell you that. When she came back off of deployment, she 
normally would be allowed some stand down or R & R time. 
Because my office in the Pentagon lost 28 people out of the 42 
Navy dead, we were hurting for replacements, and she gave all 
that up just to come in and work with us and helped prepare for 
this brief, as a matter of fact.
    So that is not a direct answer to your question, but I 
wanted you to know that. When I say that people are our 
greatest asset, they really are, better than they ever were. We 
better take care of them.
    I think a more direct answer to your question, Senator, 
refers to the use of simulators. In the past, when we would go 
through this readiness degrade coming back from these long 
deployments, we would take engines out of airplanes so they 
could not fly. We would not give the ships the steaming hours 
they needed to practice their skills, and there would be a 
normal rotation of people.
    We train as a team, not individuals. So to get the team 
together, we would have to get the aircraft carrier, the 
destroyers, and every submarine, everybody to scene, to rehone 
their skills.
    The use of simulators in network-centric warfare where we 
can link up--actually in port, the U.S.S. Coronado is doing 
this in fleet battle experiments right now, using joint 
services--is not unique to the Navy. With integrating overhead 
sensors and other classified programs, we can get great 
training value and we can do it in an 8-hour working day. Then 
they can come home, so they do not have to spend so much time 
away from home. I think that is the key to the future.
    The DD(X) with the standard combat and advanced network-
centric warfare concepts, littoral combat ship (LCS), the new 
attack submarines, CVNX and LPD-17 are all leveraging this 
technology as best we can. It is very important to the quality 
of life of our sailors.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Senator Kennedy. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. I have just one 
question on Admiral Wachendorf's testimony.
    Could you summarize the one or two major points that have 
already emerged from your review of the current operations and 
how it impacts on the fleet presence in the future?
    Admiral Wachendorf. The war on terrorism, sir?
    Senator Reed. Yes.
    Admiral Wachendorf. Yes, sir. We are still studying those. 
As a matter of fact, we have a meeting tomorrow with the CNO 
and with Admiral Mullen and the leadership of the Pentagon. It 
might be a little premature for me to say these are the final 
lists. There are certainly many, and we continue to study them.
    One of them is the importance of combat credible forward 
based naval forces. Sir, I saw you just come in, but we had two 
carriers, expanded to three, an amphibious readiness group, a 
large strike force, and Tomahawk-capable platforms on station 
that were not used. I am sure there is a lot of reasons as to 
political decisions to engage were made, but they were ready 24 
hours after the tragic events of September 11.
    They were not tied to a host nation's port, or flying over 
countries or the need to operate off of air bases. That can be 
a problem as we look at different scenarios here. So that is 
one of the lessons.
    Sovereign combat-credible naval forces are something that 
are a value in this war, and as we look to the future in the 
war on terrorism, that will continue to be the case.
    The other, perhaps less--and this is my personal opinion, 
sir, which will be refined by my chain of command, I am sure--
is the readiness bathtub. Part of that bathtub of readiness is 
we underfunded the ordnance accounts. Precision-guided 
munitions were 75 percent of all the munitions dropped in this 
engagement. That was the right thing to do. But we do not have 
enough of them. We need to buy more. There are all types.
    The good news is this is a joint ordnance thing, so we can 
get some economic order quantity procurement advantages with 
the Air Force and the Marines. That would be my second one, 
sir.
    Senator Reed. Thank you very much, Admiral.
    Thank you, Mr. Chairman.
    Senator Kennedy. John, do you want to----
    Senator Warner. Oh, thank you, Mr. Chairman. I would like 
to go ahead and hear the next panel.
    Senator Kennedy. Thank you very much, Admiral.
    Admiral Wachendorf. Thank you, sir.
    Senator Kennedy. You will be hearing from us and we will 
appreciate your responses.
    Admiral Wachendorf. My pleasure, sir.
    Senator Kennedy. Secretary Young, Admiral Mullen, we will 
be glad to hear from you at this time.
    Admiral Mullen, if you want to proceed.
    Admiral Mullen. Yes, sir.

STATEMENT OF VICE ADM. MICHAEL G. MULLEN, USN, DEPUTY CHIEF OF 
  NAVAL OPERATIONS FOR RESOURCES, REQUIREMENTS AND ASSESSMENTS

    Admiral Mullen. Senator Kennedy, Senator Sessions, Senator 
Warner, Senator Landrieu, Senator Reed, and the supporting 
staff, I greatly appreciate the opportunity today to appear 
before you and to discuss the extremely important subject of 
shipbuilding.
    Secretary Young and I have prepared a joint statement and 
would ask that it be submitted for the record. I would thank 
you for the opportunity for a brief set of opening remarks.
    As I sit here today, I could not be prouder to be in the 
uniform of our Nation's Navy. I consider it a privilege to 
still be able to serve and do so at such a critical time for 
our country and, indeed, in many respects, the world.
    The performance of our young men and women from all of the 
services has been truly spectacular. In particular, the sailors 
and marines of our modern naval forces have truly made a 
difference in the global war on terrorism and will continue to 
do so.
    As naval forces always are, we were ready on day one and 
provided the winning combat power from the sovereign decks of 
our ships that enabled initial and continuing success in the 
war in Afghanistan.
    The mobility, flexibility, and striking power of our 
carrier battle groups and amphibious ready groups were war-
winning capabilities without which this country could not 
prosecute this war. As has been the case since ships went to 
sea, we did not have to ask permission from anyone. No visa was 
required.
    Let me elaborate with a few key statistics. As of 
yesterday, carrier-based naval aviation, Navy and Marine Corps, 
have flown 6,399 sorties over Afghanistan, over 77 percent of 
all the sorties flown. Most of these sorties were possible only 
through Air Force tanker support. These strike sorties have 
been as long as 10 hours and have averaged up to 7 hours, the 
equivalent of taking off in Washington, striking targets in St. 
Louis, and flying back.
    About 84 percent of these sorties that delivered ordnance 
hit a target; and about 87 percent of the ordnance delivered 
from the Navy was precision-guided, which is a complete 
reversal of where we were in Operation Desert Storm.
    Something like 80 percent of the Navy sorties delivering 
ordnance did it against targets unknown to the pilots when they 
launched. Naval aviation, combined with Army special forces 
ground forward air controllers, proved an unbeatable 
combination against real-time targets.
    Naval aviation provided 24/7 strike sortie coverage for our 
troops on the ground. Marines at Kandahar, one of the most 
remote cities in a landlocked country far away, were never 
without Navy top cover.
    Had I been in the position to testify before you last year, 
and had I predicted our Navy strikers would be on missions up 
to 10 hours long, flying over 1,200 miles round trip, and our 
Marines would be taking objectives over 400 miles inland from 
our ships at sea, I suspect my testimony, let us just say, 
could have possibly have had some healthy skepticism.
    But this is just another example of what I have learned in 
my 33-plus years of service. Give sailors and marines clear 
goals and good robust tools and they will move mountains. In 
Afghanistan, moving mountains has been the order of the day.
    Our ability to execute this mission is eloquent testimony 
to the long-standing support provided by you and this 
Committee, for which I, on behalf of our sailors and marines, 
are very grateful.
    Likewise, our execution is testimony to the vision of 
Secretary England and Admiral Clark. In this budget, they have 
continued to tackle the immediate priorities of manpower and 
current readiness. As a direct result, sailors are reenlisting 
at record rates, and our naval forces are operating in full 
support of the joint campaign with our Air Force and Army 
counterparts with truly awe-inspiring combat prowess.
    Committing the Navy to these priorities required tough 
choices, which were not painless. A long-term war on terrorism 
will certainly pose additional fiscal challenges, which you are 
just beginning to grasp now. Increased munitions usage, 
increased flying hours and steaming days, increased 
materialization rates are being factored into our programming 
efforts, and this budget begins to do just that.
    More to the point today, manpower and current readiness 
priorities have, in part, prevented us from investing in our 
future accounts, including both aircraft and shipbuilding 
procurement. Almost 80 percent of our topline increase was 
budgeted in these two accounts.
    Our goal has been to pay for the Navy we have today in 
order that we can fight and win today. It is doing so now. When 
Admiral Clark testified before the full committee on March 7, 
he indicated that the total acquisition funding stream was 
about $23 billion short, and that it needed to be about $33 
billion in order to recapitalize the entire fleet, aircraft, 
ships, submarines, at a rate that will maintain the Navy the 
Nation needs. It will not surprise you when I say that Admiral 
Clark is correct in his estimate.
    Admiral Clark also testified to a Navy that requires about 
375 ships. As we look to a future fleet of about this size, it 
reflects a transformed Navy with a universal situational 
awareness in a fully netted environment, a Navy with 
persistence as a byword for all of our capability from 
surveillance to strike, a Navy characterized by cycle times 
reduced by an order of magnitude in acquisition, in speed of 
command, and in strike.
    It is a Navy with fast, lethal, dispersed, netted force 
components, which can bring deadly combat capability to bear 
within seconds of contact, a Navy which will offer increased 
global presence and engagement around the world, and a Navy 
with what it takes to win.
    Such a Navy will include an expeditionary strike force 
concept that provides additional fire support and striking 
power organic to our amphibious ready groups in the form of 
surface ship and submarine escorts with 155 millimeter guns and 
Tomahawk missiles; the introduction of squadrons of littoral 
combat ships to tackle the difficult missions of mine warfare, 
anti-submarine warfare, and surface warfare; surface action 
groups with ballistic missile defense capability available 
early in the conflict; and SSGNs capable of strike and special 
operating forces campaigns.
    Meeting the requirement and finding that extra $10 billion 
for this kind of Navy is my clear charter along with the rest 
of the Navy leadership.
    I am in the midst of deliberations for the fiscal year 2004 
budget right now, and I am committed to find a large chunk of 
that money and use it to recapitalize our Navy, particularly in 
the area of shipbuilding.
    While the future is always very difficult to predict, as 
you pointed out, Senator Landrieu, I will do all in my power to 
ensure we will build more than five ships next year.
    Our current budget sets a firm foundation for the future 
that I am confident we can build on. We continue building the 
excellent Arleigh Burke-class DDGs. The wide-ranging utility of 
this platform is being validated daily. We have achieved 
production line maturity even as we have built more capability 
into later flights of the class.
    Our global war on terrorism campaign analysis and 
transformational concept of operations for the future that it 
requires indicates a solid need for more DDGs. This is also a 
platform that will potentially embed the important capability 
of area ballistic missile defense. This was a program cancelled 
in this budget.
    The warfighting requirement as stated last August by the 
Chairman of the Joint Chiefs of Staff is still a critical 
capability, which we need to restore as soon as possible.
    This budget will get the DD(X) program on track, building 
on a solid research and development base with an executable 
plan to transition seamlessly to ship procurement with a spiral 
development strategy, which keeps these ships ahead of the 
technology, capability and cost curves at the same time.
    The DD(X) spiral technology development enables the most 
efficient insertion of high payoff technologies into the future 
and in service ships with the least amount of risks. CG(X), the 
follow-on cruiser, will share a common hull form and propulsion 
plan architecture with DD(X) and will use many of the same 
innovative technologies to reduce crew size, increase joint 
command and control connectivity, and reduce operating and 
support costs.
    The littoral combat ship will benefit from DD(X) technology 
development by taking advantage of advanced automation 
technologies, high-density propulsion plans, and increased 
nodal and plants C\4\I connectivity.
    In-service surface combatants will receive technology 
upgrades to be modernized that will extend their combat 
capabilities and their service life and keep them at the 
leading edge of combat effectiveness.
    Together, the family of ships, DD(X), CG(X), and LCS, along 
with in-service Aegis ships, will extend the Navy's combat 
reach to from the upper limits of the Earth's atmosphere to the 
clutter, confusing and treacherous shoals of the littoral.
    Both of these programs speak to the ongoing transformation 
of the Navy. Transformation issues we propose investing in are 
wide-ranging, driven by our strategy of projecting sovereign 
combat power forward and have clear objectives in terms of 
delivering capability to our warfighters. Building our network-
centric operations, our expeditionary posture and culture, and 
our technological prowess, they promise to deliver a revolution 
in warfare from the sea.
    To sum up, I want to thank you again for your continuing 
support of our Nation's Navy. I look forward to tackling the 
challenges ahead, confident in the ability of sailors and 
marines to overcome any obstacle, to move any mountain, given 
the right tools. I look forward to your questions.
    Senator Kennedy. Secretary Young.

 STATEMENT OF HON. JOHN J. YOUNG, JR., ASSISTANT SECRETARY OF 
       THE NAVY FOR RESEARCH, DEVELOPMENT AND ACQUISITION

    Secretary Young. Chairman Kennedy, Senator Warner, Senator 
Landrieu, Senator Reed, and my colleagues on the staff, thank 
you. Thank you very much for the opportunity to testify on 
shipbuilding programs for fiscal year 2003 and the Navy's 
budget request.
    In 2001, the Navy and Marine Corps team represented U.S. 
interests and provided a presence throughout the world. In 
September of last year, that presence became an immediately 
available response capability. You all know well the central 
role played by naval forces in Operation Enduring Freedom by 
carriers, amphibious ready groups, sea-based aviation, and 
Marine ground forces. The people and their equipment have 
performed magnificently, delivering combat power from the sea 
against our enemies in a landlocked nation.
    The fiscal year 2003 budget preserves this demonstrated 
capability, placing first priority on sailors and marines, 
their training and the readiness of their equipment.
    Next, the budget addresses the current readiness of our 
Navy and Marine forces through investment in spare parts and 
repair activities for current systems, modernization of 
existing platforms, and procurement of new weapons, aircraft, 
and ships.
    Finally, the Navy increased the research, development, 
test, and evaluation account to make investments in new systems 
in technologies for our naval forces of the future. Within the 
available dollars, the fiscal year 2003 budget strikes a good 
balance among many competing demands. Your Navy and Marine 
Corps team are working hard to make sure that every acquisition 
dollar buys the maximum amount of capability.
    A number of key principles are guiding our efforts to 
improve and change how the Navy and Marine Corps buys advanced 
technology for weapons and platforms. First, we must improve 
and leverage the equipment that we now have and will use for 
years to come. Improving sensors, installing data links and 
networking the command and control systems on these ships 
allows our current assets to fight more effectively.
    Secretary England has testified before this committee about 
the quantum improvements in warfighting effectiveness that come 
by coupling evolutionary improvements and existing systems to 
new operational concepts and tactics.
    Second, we are working to properly fund and carefully 
manage the ongoing modernization programs. To enable the 
transition to new capabilities, we must first have a solid, 
stable funding foundation for our ongoing programs as well as a 
more business-like approach to acquisition.
    These same principles are also guiding our shipbuilding 
strategy. First, we are improving and leveraging the equipment 
that we now have and will use for years to come. Installing 
systems such as cooperative engagement capability and naval 
fires network will dramatically enhance the performance of our 
current ships.
    Second, we are working to properly fund and carefully 
manage the ongoing shipbuilding programs. As we transition to 
new capabilities, we will have this solid foundation beneath 
our programs.
    Our first priority within the shipbuilding program has been 
to control cost growth and eliminate the costs of prior year 
bills on ships. Many factors have contributed to the cost 
growth: continual configuration changes; unanticipated 
engineering challenges with lead ships; unforeseen growth in 
shipyard labor rates, cost increases for material and 
equipment; inflation and fiscal constraints; budget reductions 
or rescissions; and over-aggressive budgeting to optimistic 
targets.
    In the fiscal year 2003 budget we have taken several steps 
to forcefully address these issues. We have fully funded 
shipbuilding programs to the current CAIG, Cost Analysis 
Improvement Group, estimate or the program manager estimate.
    We have taken a round turn on change orders. Once we 
baseline a ship, any subsequent changes will be thoroughly 
reviewed for cost and schedule impacts. This applies to both 
shipbuilding programs and programs for the equipment that goes 
into these ships. We will not add changes until there is full 
concurrence with funding and justification.
    In conjunction with industry, we are reevaluating the 
efficiency of procuring small ship classes from multiple yards. 
We have also worked hard to stabilize the DDG-51 shipbuilding 
profile to allow smooth transition to DD(X) and CG(X).
    Finally, we are placing greater emphasis on understanding 
the potential for technology or requirements changes to grow 
the costs of our existing acquisition programs. Spiral 
development and backfitting of technologies may be the best 
approaches to ensure that we avoid cost growth and make the 
proper trades between competing current investment priorities.
    All of these steps are critical to our ability to build a 
ship within the planned budget. Cost growth on ship 
construction contracts has reduced the confidence of the Office 
of the Secretary of Defense and Congress in our ability to 
manage these capital programs and eroded our sound business 
foundation.
    The Navy is committed to restoring that confidence and 
building stable programs to ensure force structure requirements 
are sustained. Looking ahead, the Navy continues to focus on 
building new and transformational ships to meet our future 
needs. Our fiscal year 2003 budget request calls for 
construction of five ships, two DDG-51 class destroyers, one 
Virginia-class submarine, one San Antonio-class LPD-17 
amphibious transport ship, and one Lewis & Clark T-AKE 
auxiliary cargo and ammunition ship, plus incremental funding 
for the fiscal year 2002 LHD-8 and two SSGN conversions.
    There are 36 ships presently under contract. We also 
requested advanced procurement funding for the sixth and 
seventh Virginia-class submarines, advanced procurement for the 
CVN-70 refueling complex overhaul, the service life extension 
of three LCAC, landing craft air cushion, and one Los Angeles-
class submarine engineered refueling overhaul, ERO.
    The budget request also fully commits the Navy to the 
conversion of all four Ohio-class SSBNs into SSGNs, by 
providing the necessary ERO funding and conversion funds for 
the four-ship program. Finally, the budget funds the 
development of the DD(X) family of ships.
    In the fiscal year 2002 budget, Congress played a critical 
role in providing the budget resources necessary to keep this 
stable foundation under our current programs, and the 
Department is grateful for your support.
    The fiscal year 2003 budget builds on that foundation and 
these principles to prepare the Navy and Marine Corps for the 
future. Today, the forces of the Navy and Marine Corps remain 
forward deployed and are protecting America's strategic 
interests near and far as an essential part of our Nation's 
joint force. We have the finest naval force in the world.
    While we face a number of challenges, such as 
recapitalizing an aging infrastructure and combatting both 
symmetrical and asymmetrical threats, we are clear of purpose 
and focus on the future.
    Thank you again for allowing me to testify, and I look 
forward to your questions.
    Senator Kennedy. Thank you very much. Without objection, 
your joint statements will be placed in the record.
    [The prepared joint statement of Vice Admiral Mullen and 
Assistant Secretary Young follows:]

 Prepared Joint Statement by John J. Young, Jr. and Vice Adm. Michael 
                              Mullen, USN

    Mr. Chairman, distinguished members of the Subcommittee, thank you 
for this opportunity to appear before you to discuss the Department of 
the Navy's fiscal year 2003 ship programs budget. The United States has 
always been a maritime nation, and our mastery of the seas, sustained 
by forward-deployed U.S. naval forces, ensures our access to our 
economic, political, and security interests overseas. Our economic 
prosperity, now more than ever before, is inextricably tied to the 
global economy--a global economy that is totally reliant upon maritime 
trade to sustain its growth. The oceans are, therefore, the ``great 
commons'' of this economy: with public access to all, and so used by 
all. The United States Navy and Marine Corps ultimately guarantee this 
freedom.
    The need for continuing our mastery of the seas was revalidated by 
the events of September 11, 2001. The United States Navy provided the 
sovereign soil to project power and protect our national interests when 
nations could not support hosting our land-based military. During 
Operation Enduring Freedom, carrier-based Navy and Marine aircraft have 
provided the preponderance of combat sorties, while Tomahawk cruise 
missiles fired from surface ships and submarines struck communications 
and air defense sites. Marines from amphibious ships provided the first 
large U.S. ground presence in Afghanistan and were supported ashore by 
naval construction battalions which restored runways and enhanced the 
conditions of forward operating bases far inland.
    Command of the seas, provided by U.S. sovereign power deployed 
forward, provides a tangible demonstration of our commitment to shared 
interests, and underwrites our political alliances and friendships 
across the globe. It is important to say that we will be there when 
needed to maintain the freedom of these shared global commons, deal 
effectively with shared problems and to respond quickly to acts of 
aggression . . . but, it means even more to be there beforehand.
    Finally, the success of future joint combat operations will require 
us to have immediate and sustained military access wherever and 
whenever it is needed. Command of the seas--which are fully two-thirds 
of the world's surface--provide that global access, which is a 
priceless strategic advantage for our Nation.
    We are building upon our tradition of expeditionary operations as 
we transform into ``network-centric''and ``knowledge-superior'' 
services. Knowledge superiority is the achievement of a real-time, 
shared understanding of the battlespace by warriors at all levels of 
command. This in turn, will facilitate our ability to remain forward by 
providing the means for timely and informed decisions inside any 
adversary's sensor and engagement timelines.
    To support this strategy and our forces, the President's fiscal 
year 2003 budget request increases the amount of research, development, 
and overall procurement investment critical to maintaining our Navy and 
Marine Corps team as the pre-eminent combat force in the world. We seek 
an agile, flexible force, that can counter both the known and the 
unforeseeable threats to our national security.

                                STRATEGY

    After years of under funding, the fiscal year 2003 budget request 
represents a significant improvement for the Department of the Navy 
(DoN). Although the DoN still had to make difficult priority decisions, 
the final request represents the best mix possible among competing 
priorities. The highest priority items are directed at our most 
valuable asset, our people. The Navy and Marine Corps are committed to 
our people and their training as well as the readiness of their 
equipment. As the next priority, we have funded systems such as 
cooperative engagement capability (CEC) and the naval fires network 
(NFN) to enhance the performance of the current warfighting systems. 
Finally, we have sought to fully fund our ship and aircraft production 
programs while adding funds to develop new capabilities such as the 
family of surface combatants led by DD(X), the Joint Strike Fighter 
(JSF) and SSGN.
    I believe current combat capability is healthy and the fiscal year 
2003 budget request provides a stable foundation from which the Marine 
Corps and Navy will continue to work with the other military services 
to determine the best path to transformation and the best aggregate 
warfighting capabilities for our country.
Completion of Prior Year Shipbuilding Contracts
    A key component of our effort to build a stable foundation has been 
a strong emphasis on adequately estimating and managing program costs. 
During the past year, no other single issue has received more 
management attention by the top levels of the DoN than the completion 
of prior year shipbuilding account. Cost growth on ship construction 
contracts has eroded the confidence of the Defense Department and 
Congress in our estimating, budgeting, and execution process for 
current and future procurements. The Navy is committed to restoring the 
confidence of Congress and building stable programs to ensure force 
structure requirements are sustained.
    Many factors have contributed to the cost growth of current ships 
under contract, including:

        <bullet> Configuration changes;
        <bullet> Unanticipated challenges with the design and 
        production of lead ships;
        <bullet> Unanticipated growth in shipyard labor rates;
        <bullet> Low rate procurement of vendor material and government 
        furnished equipment;
        <bullet> Inflation and fiscal constraints; and
        <bullet> Budget reductions/rescissions.

    All of these factors, but particularly fiscal constraints, resulted 
in programs being aggressively budgeted. Congress provided over $700 
million in fiscal year 2002 to address those ships contracted in 1995 
to 2001 in order to deliver ships with relevant capability to the 
fleet. The fiscal year 2003 budget requests $645 million to address 
similar shortfalls in order to deliver ships appropriated in 1996 to 
2001. Also visible in the Navy's budget request are the known 
requirements through the Future Years Defense Program (FYDP) to address 
similar issues for ships appropriated through 2001. The Department will 
soon be submitting a formal report to Congress on this issue, but I 
will briefly outline the management actions taken to mitigate the 
existing condition and to prevent a reoccurrence of the situation for 
ships requested in fiscal year 2003 and future budget submissions. To 
prevent further increases to the prior-year-completion funding 
shortfall, the Navy has instituted the following corrective actions:

        <bullet> In fiscal year 2003 and beyond, shipbuilding programs 
        have been budgeted to the Cost Analysis Improvement Group 
        (CAIG) or program manager (PM) estimate.
        <bullet> Change order budgeting levels have been established to 
        reflect maturity of respective programs.
        <bullet> Shipbuilding and government furnished equipment (GFE) 
        program managers have been directed to limit changes to a small 
        number of critical safety issues.
        <bullet> The Department has reestablished the Ship 
        Configuration Improvement Panel (SCIP) to ensure required 
        changes are validated and fully funded.
        <bullet> The Department further motivated industry cost 
        performance through incentives in fiscal year 2002 contracts.
        <bullet> Prior decisions regarding workload splits among 
        multiple yards have been reevaluated in light of the increased 
        cost of having multiple ``lead'' ships.

    If costs continue to rise in spite of these management efforts, the 
Department is prepared to descope or delay capability to maintain a 
funded, executable program.
Shipbuilding Plan
    Recapitalization of the naval force structure demands 
implementation of a shipbuilding strategy that is robust with respect 
to the capabilities of the ships and warfare systems fielded, 
innovative with respect to design, technology, funding mechanisms and 
industry participation, and stable with respect to the annual 
investment and the essential industrial base. This shipbuilding 
strategy must produce a recapitalization plan that is not just a plan 
for the next year, but a plan that is supportable and executable across 
the FYDP and sustainable into the foreseeable future. What has been 
done too often in the past, using the recapitalization funds for battle 
force ships as a surge tank to attempt to balance a wide array of Navy 
programs, can not continue.
    Our fiscal year 2003 budget request calls for construction of five 
ships and the conversion of two submarines in fiscal year 2003: two 
DDG-51 class destroyers; one Virginia-class submarine; one San Antonio 
(LPD-17)-class amphibious transport dock ship; one Lewis & Clark (T-
AKE) auxiliary cargo & ammunition ship; and incremental funding for the 
fiscal year 2002 LHD-8, resulting in 36 new construction ships under 
contract. In addition, we have requested funding for advance 
procurement of the sixth and seventh Virginia-class submarines, advance 
procurement for the CVN-70 refueling complex overhaul, the service life 
extension for three landing craft air cushion (LCAC) craft, and one Los 
Angeles-class submarine engineering refueling overhaul (ERO). The 
budget request fully commits the Navy to the conversion of four Ohio-
class SSBNs into SSGNs by providing the necessary funding for the ERO 
and conversion needed to execute the four-ship program. When the four 
conversions are completed, these submarines will provide 
transformational warfighting capability, carrying up to 154 Tomahawk 
cruise missiles, support sustained deployed special operating forces, 
and sustain our submarine force structure. As we move forward, there 
are four key elements to our shipbuilding strategy.
    Establish Core SCN (Shipbuilding and Conversion, Navy) Program--
First, is the need to properly price and fund the systematic 
recapitalization of primary battle force ships. This can best be 
accomplished by using full funding in each year with a stable 
investment for quantities of known needed ships. The mix of ships must 
provide the minimum essential force structure to meet warfighting 
requirements and the minimum essential industrial base workload to 
sustain needed capacity. This systematic recapitalization forms the 
core of the shipbuilding and conversion strategy, a core that does not 
change with every budget cycle, a core that is not used as a bill payer 
for shortfalls in other appropriations. The core may be added to in any 
given year in order to build-up force structure numbers, but the core 
investment must not decrease.
    Leverage Creative Funding Methods--Second, ships need to be bought 
smartly and, where appropriate, creatively, allowing exploration and 
leveraging of the use of funding mechanisms which produce industrial 
effectiveness and efficiency. There are several such mechanisms that 
when applied judiciously will allow stabilized investment and reduce 
the periodic funding spikes and cost overruns that plague efforts to 
maintain a balanced, stable industry workforce and material acquisition 
strategy. Specifically, advanced construction in conjunction with 
advanced procurement may prove to be advantageous in smoothing out the 
periodic spikes associated with high cost capital ships, the big deck 
ships, that serve to disrupt the systematic recapitalization of other 
battle force ships and the efficient level loading of the industrial 
base. The use of research, development, test, and evaluation (RDT&E) 
appropriations for the lead ship of a class at each shipbuilder can aid 
in stabilizing a new construction program through better management of 
the inherently higher risk and capitalizing on the opportunity for 
industry collaboration. Furthermore, yearly review of RDT&E budgets 
will improve the fidelity in the execution year budget requirement and 
allow flexibility to adjust outyear budgets if critical technologies 
are delayed or require additional maturation. In an era of teaming with 
industry, leveraging of the opportunity provided by these developmental 
efforts and investments must be pursued.
    Another area that we need to look at closely is our process of 
budgeting for ships, particularly their electronic systems. The Navy is 
currently building the fiscal year 2004 budget request. Thus, the Navy 
is now estimating the cost of ships that will be authorized and 
appropriated about 18 months from now. Those ships will take 4 to 7 
years to build. So today, program managers have to select and estimate 
the cost of electronic systems that will not be installed for 2 to 4 
years. We are baselining information-technology systems for a ship 2 to 
4 years before the need for these systems. Baselining the electronics 
in a ship in year one almost guarantees that those systems will change 
over the course of the ship's construction.
    The program manager is faced with two choices. Buy the systems that 
were budgeted, building early obsolescence and capability limits into 
the ship or alternately, budget a greater amount for changes to allow 
the ship's information technology (IT) systems to be changed to pace 
technology. However, the system resists budgeting adequate funds for 
changes or management reserve.
    We are working to find more efficient ways to proceed. We cannot 
let contracts and the fear of losing money drive us to make bad 
procurement decisions. I hope to urge a review of budgeting practices 
to allow phasing of money to be more consistent with when the funds are 
required.
    Implement Cost Saving Measures. Third, it is essential to pursue 
those actions that will reduce the cost of ships. The factors that will 
achieve cost savings, or simply provide more capability per dollar, are 
understood within the industry and need to be applied by the Navy with 
discipline. Stability in design and production with reasonable cost 
targets are the most important aspects of reducing ship cost. Prior 
year shipbuilding cost increases are severely jeopardizing the ability 
to recapitalize battle force ships. The Navy and industry need to work 
together to achieve cost savings where possible and ensure that the 
cost of ship procurements are properly estimated and budgeted, and then 
executed within the established budget.
    Insert Key Ship System Technology. Fourth, implementation of 
processes that provide for the modular insertion of rapidly evolving 
technology, so that warships remain capable in the face of emergent 
threats, is needed for key ship systems. These processes must provide 
the ability to insert new technologies into ship classes at planned 
points without disrupting shipyard production or increasing cost. Such 
planned spiral development, that exponentially increases capability 
through periodic upgrades, requires the efficient and expeditious 
transition from rapid prototype to production systems. Controlling cost 
while decreasing the cycle time for technology insertion will require 
the use of open architectures, module interface standards, commercial 
processors, etc. in conjunction with strict configuration control. 
Shortening this cycle time will require simultaneous acceleration of 
requirements and acquisition processes and changes to how programs and 
budgets are developed for these systems.
    In combination, these elements of the shipbuilding strategy will 
provide for needed capability increases in the warfighting force and 
stability in the industry that is the key to the future 
recapitalization of the naval force structure. Such combat capability 
and shipbuilding stability can only come from a Navy commitment to 
define and stay the course.
    Our fiscal year 2003 shipbuilding plan provides the best available 
balance between the Department's requirements and available resources. 
The innovative teaming strategy approved by Congress for the 
construction of Virginia-class submarines, advance procurement for 
future Virginia-class submarines, and the next DDG-51 multiyear 
procurement contract all highlight acquisition strategies aimed at 
lowering costs, reducing disruptions from hiring and layoff cycles, 
while level loading employment, and encouraging capital investments. 
Our shipbuilding plan maintains the LPD-17 program and the auxiliary 
cargo & ammunition ship (T-AKE) program that will help the auxiliary 
vessel manufacturers capitalize on past and current program 
efficiencies.
    In addition, the Department's fiscal year 2003 budget plan adds six 
DDG-51 class destroyers across the FYDP to the procurement profile to 
sustain the industrial base and future surface combatant force 
structure during the transition to DD(X) production. These actions 
constitute the Navy's near-term effort to ensure the long-term ability 
of the shipbuilding industry to support our future construction 
programs.
Submarine Force Structure
    The fiscal year 2003 budget requests $360 million for the refueling 
of U.S.S. Norfolk (SSN 714) at Portsmouth Naval Shipyard and for 
advance planning funding for future Los Angeles- and Ohio-class 
refueling overhauls and Trident D5 backfits. This refueling overhaul 
will provide important near-term attack submarine force structure. Los 
Angeles-class submarine refuelings provides the quickest and most 
affordable means of fulfilling submarine mission requirements met by 
fast attack submarines. The Navy's budget submission provides a 
submarine refueling plan for all but two of the Los Angeles-class 
submarines. Refueling Los Angeles-class submarines uses the nominal 
remaining 15 years in hull life on those submarines that do not have 
life-of-hull reactors. The Navy is continuing to identify options, 
which will support refueling the two remaining hulls.
    The Navy is equally committed to the conversion of four Ohio-class 
submarines into strike warfare and Special Operational Forces support 
platforms as transformational SSGN submarines envisioned by the 2001 
Quadrennial Defense Review (QDR). When refueled, these ballistic 
missile submarines will each provide an additional 21 to 23 years of 
service. When converted to guided missile submarines (SSGNs), these 
submarines will fulfill Tomahawk land attack missile and Special 
Operations Forces mission requirements. The fiscal year 2003 budget 
request also funds the ERO planning for U.S.S. Michigan (SSBN 727) and 
U.S.S. Georgia (SSBN 729) to be conducted in fiscal year 2004.

                                PROGRAMS

Arleigh Burke (DDG-51)-Class Destroyer
    The DDG-51 class guided missile destroyer program remains the 
Navy's largest surface ship program. The fiscal year 2003 budget 
request includes $2.37 billion for the procurement of two DDG-51-class 
destroyers. The request adds six additional destroyers to the 
procurement profile, two additional ships per year in fiscal year 2005 
through fiscal year 2007. The addition of the six DDGs addresses three 
issues: mitigates the industrial base gap between DDG-51 production and 
DD(X) construction from prior budgets; better stabilizes the surface 
combatant build rate as we transition to DD(X); and stabilizes future 
surface combatant force structure by 2012. A new 4 year, fiscal year 
2002 through fiscal year 2005, multiyear procurement contract 
solicitation was recently released. I anticipate a contract will be 
awarded for these eight ships, plus options, this summer.
    The two Arleigh Burke-class destroyers procured in fiscal year 2003 
will be Flight IIA ships configured with the Baseline 7 Phase I Aegis 
combat system, which we introduced on the third ship in fiscal year 
1998. This baseline incorporates new integrated mission capability and 
makes these ships more capable in the littoral than any other combatant 
in the world. The upgrades include the SPY-1D(V) radar system, 
cooperative engagement capability, the 5,,/62 gun and a remote mine 
hunting system capability. Additionally, the DDG-51 destroyers of the 
fiscal year 2002 multiyear procurement will be forward fit with 
Baseline 7 of the Mk 41 vertical launching system, the tactical 
tomahawk weapons control system and the ability to accommodate the MH-
60R helicopter variant.
U.S.S. Ronald Reagan (CVN-76)
    The delivery of the ninth ship of the Nimitz-class, Ronald Reagan 
(CVN-76), is planned for 2003 at Northrop Grumman--Newport News.
Nuclear-Powered Aircraft Carrier--CVN-77
    The CVN-77, the tenth and final ship of the Nimitz-class, has a 
contract delivery date of March 31, 2008, to replace the U.S.S. Kitty 
Hawk (CV 63). CVN-77 remains the future carriers' transition ship to 
CVN(X). CVN-77 will include a flexible island design that will 
facilitate warfare system upgrades as needed during the ship's service 
life. Propulsion plant improvements include centralized electric plant 
controls and integrated propulsion plant controls. The fiscal year 2003 
budget request includes Research, Development, Test, and Evaluation, 
Navy (RDT&E, N) funding of $92 million to continue the development of 
the integrated warfare system, incorporating critical transition 
technologies into CVN-77. Technology demonstration for this effort will 
be conducted in the new Virginia Advanced Shipbuilding and Carrier 
Integration Center at Northrop Grumman--Newport News to prove new 
technologies before installation in the ship.
San Antonio-Class Amphibious Transport Dock Ship--LPD-17
    The San Antonio-class of amphibious transport dock ships represents 
a critical element of the Navy and Marine Corps future in amphibious 
warfare, and is a cornerstone in the Department's strategic plan. The 
12 ships of the San Antonio-class will functionally replace four 
classes of amphibious ships. This plan will not only modernize our 
amphibious forces, but will also result in significant manpower and 
life cycle cost savings. Despite the challenges confronted in program 
execution, the Navy remains committed to the vital role the LPD-17 
class will play in the 21st century.
    The fiscal year 2003 budget request includes $604 million to fully 
fund the construction of the fifth ship of the class when coupled with 
advance procurement funds provided in fiscal year 2001 and fiscal year 
2002. Only one LPD-17 class ship is requested in the fiscal year 2003 
budget, compared to previous plans for two ships. Appropriation 
requests for the final three ships of the 12-ship class are planned 
beyond the FYDP. Cost growth and schedule delays caused the Navy to 
revise the procurement plan to one per year. Current metrics indicate 
the LPD-17 program team is now performing in a predictable and 
disciplined manner.
    Detail design of the lead ship is completing and fabrication has 
started on over two-thirds of the lead-ship construction units. LPD-18 
construction began in February 2002 and LPD-19 construction commenced 
last summer.
    Last fall, the Navy formally adjusted the contract delivery date 
for LPD-17 by 14 months (for a total delay of 24 months) to November 
2004 and adjusted the contract delivery dates for the other three ships 
under contract accordingly. Production progress in fabrication, 
assembly and erection of LPD-17 construction units supports the revised 
schedule.
    We are currently reviewing the efficiency of constructing this 
relatively small quantity of a single class of ships in two separate 
yards, essentially supporting two lead ships. In conjunction with our 
industry partners, we are evaluating whether there are better ways to 
load our shipyards across the entire spectrum of our shipbuilding 
efforts to provide greater efficiencies and lower costs.
Amphibious Assault Ship--LHD-8
    LHD-8 is a gas turbine powered amphibious assault ship based on the 
successful LHD-1 class. The gas turbine propulsion with all electric 
auxiliary systems being included in LHD-8 will result in an estimated 
total ownership cost savings of $350 million--$420 million for this 
ship over its 40-year estimated service life. The Navy awarded a 
contract for detail design of the propulsion plant in July 2000. 
Procurement of long lead material and advance construction of 
components as authorized by Congress was awarded in May 2001. The 
contract for LHD-8 construction is in negotiation for a fiscal year 
2002 award. The fiscal year 2003 request includes incremental funding 
of $253 million toward the total projected LHD-8 program costs of $1.9 
billion.
Auxiliary Cargo & Ammunition Ship (T-AKE)
    We are replacing the aging ammunition and dry stores ships (T-AEs 
and T-AFSs) with the T-AKE auxiliary cargo & ammunition ships. The 
ships that T-AKE will replace are already over 30 years old. The fiscal 
year 2003 budget request includes $389 million for the fourth ship of 
this 12-ship class. Last fall, the Navy awarded a contract for T-AKE 
lead ship detail design and construction. Lead ship delivery is 
scheduled in fiscal year 2005.
Virginia (SSN-774)-class Attack Submarines
    Construction on the Virginia, Texas, Hawaii, and North Carolina is 
progressing on schedule. The fiscal year 2003 budget request includes 
$2.2 billion for the fifth ship and advance procurement for the sixth 
and seventh ships of the Virginia-class. The fifth and follow-on ships 
will continue to be built under the unique construction-teaming plan 
approved by Congress in 1998. The teaming plan remains unaltered by the 
merger of Newport News and Northrop Grumman. This teaming approach 
provides a cost effective low rate production while maintaining two 
capable nuclear submarine shipbuilders. The teaming arrangement also 
helps both shipbuilders achieve level manning and more economic 
material buys.
    The fifth ship is the first of the new contract the Navy is 
preparing for the next five Virginia-class submarines. The Department 
considered various contracting strategies such as the multiyear 
procurement and block buy with economic order quantity (EOQ) material 
purchases, but they were considered unaffordable because of the large, 
front-loaded budget requirements. The Department continues to assess 
contracting strategies and may revisit these alternative approaches in 
future budget submissions.
    During the past year, the Department has raised its management 
focus on three critical issues for Virginia-class program execution: 
identifying the causes for cost growth for submarines under contract, 
mitigating the effects of these unforeseen cost factors, and ensuring 
that the fiscal year 2003 budget request fully accounts for all known 
factors. The execution funding shortfall is primarily the result of the 
effects of low rate ship production on the shipbuilder and submarine 
vendor base which was inaccurately budgeted, and were fully realized as 
the shipbuilders took delivery on much of the ship equipment and 
material. The cost of these contractor furnished equipment items was 
much higher than procurement inflation indices and other cost 
estimating techniques that the Department used to budget for these 
submarines in 1997. Unbudgeted effects of labor disputes, which 
occurred after the lead ship was appropriated, contributed to the 
execution shortfall. Other significant factors included design 
performance, government furnished equipment cost growth, overhead, and 
rates. Our fiscal year 2003 budget lays out a funding plan to address 
the shortfall across the FYDP and covers the immediate funding 
requirements for the first three submarines. The cost of the fourth 
ship was addressed in the fiscal year 2002 appropriation.
    The Virginia program continues to incorporate warfare improvements 
as a result of past and on-going R&D investments as budget allows. The 
fiscal year 2003 submarine incorporates shipboard local area network 
(LAN) improvements, which will improve quality of work and advanced 
processor builds for the combat system, which will improve warfighting 
performance and reliability.
U.S.S. Jimmy Carter (SSN-23)
    The Seawolf-class submarine program has delivered two of her three 
submarines. The U.S.S. Seawolf and U.S.S. Connecticut have completed 
deployments to the Arctic, the North Atlantic and the Mediterranean. 
The third and final Seawolf-class submarine, Pre-Commissioning Unit 
Jimmy Carter (SSN-23), is being modified with additional volume to 
accommodate advanced technology for naval special warfare, tactical 
surveillance, and mine warfare operations. The design modification is 
nearly complete and construction of the new module is on schedule. 
Overall ship construction is more than 70 percent complete, and 
delivery is targeted for 2004.
Strategic Sealift
    The strategic sealift program is providing 19 large, medium-speed, 
self-sustaining, roll-on/roll-off ships. These ships provide for 
strategic sealift of Army unit equipment and supplies from the U.S. 
mainland for pre-positioning in the vicinity of potential objective 
areas throughout the world. Two of the three remaining ships of this 
class will deliver in fiscal year 2002, with the final ship delivering 
in mid-2003.
Joint Command and Control Ship--JCC(X)
    JCC(X) will be the first new afloat command and control capability 
in over 30 years directly supporting the joint command and control 
elements of both the operational goals and transformational pillars of 
the 2001 QDR. It will be built around a robust, advanced C\4\ISR 
mission system that can be tailored to meet specific mission 
requirements and can rapidly and affordably incorporate new technology 
necessary to meet the demands of sustained operations at sea. The 
program entered concept exploration and definition in November 1999. 
The Navy is evaluating the best course of action based on the analysis 
presented.
Experimental Destroyer--DD(X)
    DD(X), with its transformational technologies, will be the 
cornerstone for a family of next-generation surface combatants. These 
combatants must be affordable to produce and less costly to operate. 
They must be designed from the keel up to enable dramatic, 50-70 
percent, manpower reductions. Automated damage control systems will 
help, as will improved human interfaces and a total-ship computing 
environment.
    Equally important, the next-generation of surface combatants will 
be designed to reduce signatures across the full spectrum--radio 
frequency/radar, magnetic, acoustic, and infrared. This reduced 
signature will have implications for tactics, systems, and self-defense 
requirements.
    As for transformation, no Navy ship currently employs electric 
drive, though it is becoming common in the commercial world. Electric 
drive propulsion greatly improves design flexibility--the engine 
compartments are no longer tied to a mechanical shaft. We can disburse 
the turbines throughout the ship, improving redundancy, reliability, 
and survivability. We can also improve efficiency by allowing the crew 
to match power generation to power consumption. Finally, an integrated 
power system will enable a new generation of advanced weapons systems 
and sensors by increasing the amount of power available at any one 
time.
    Many of these technologies were intended to be incorporated into 
the DD 21 program. However, the DD 21 program allowed very little 
technical risk reduction though many of the technologies are quite 
transformational. With DD 21, we were taking a single step to full 
capability. There was a success-oriented assumption that everything 
would proceed on schedule and cost. There were limited opportunities 
for prototyping and no room for error. In the end, these factors 
resulted in a program at risk of significant cost growth. Thus, DD(X) 
was formulated to employ a broad range of strategies to make our entire 
family of next-generation surface combatants more affordable.
    To mitigate the high technical risk; the restructured DD(X) program 
adds several land-based and sea-based prototypes for the key 
technologies. This provides an excellent means of reducing risk within 
each area. The Navy will see potential problems earlier in the process, 
providing us a better chance to solve them. This strategy improves the 
chances of delivering a functional destroyer within cost and schedule.
    Additionally, the Navy plans to produce the lead ship using RDT&E 
funds. The program manager will be required to demonstrate progress on 
an annual basis to defend his budget. The Navy can react to problems 
without the risk of resorting to prior-year completion funding. The 
program manager can focus on establishing an efficient process for 
manufacturing the DD(X) class and avoid trading away producibility 
initiatives when costs increase. Being able to adjust the RDT&E budget 
for the lead ship provides the best chance to control costs and define 
a production process that allows the Navy to affordably build the 
entire class of these next-generation surface combatants.
    As you all recognize, construction of the lead ship in RDT&E is a 
significant change in the Navy's approach to shipbuilding, which the 
Navy hopes the committee will support.
    Using a spiral development approach will allow technologies to be 
fielded when they are ready through a flight approach, forged to 
capture cutting edge initiatives. As DD(X) drives the development of 
technology in many areas, we will look for opportunities to backfit 
advancements on existing platforms. Carefully focused upgrade and 
conversion programs will ensure the existing core of surface combatants 
maintain the capability for battle space dominance.
Littoral Combat Ship
    Included in the family of multi-mission surface combatants is the 
development of a littoral combat ship (LCS). LCS will provide focused-
mission warfighting capabilities. We are actively investigating many 
innovative hull designs that provide both the stability and speed 
necessary to enable an LCS to be effective in the littorals. LCS will 
be outfitted with network-centric capabilities, like the multi-mission 
combatants, to make this ship a combat multiplier. LCS' modular design 
will provide significant flexibility in both displacement and combat 
capability. These qualities may make it a good candidate for 
coordination with the Coast Guard's Deepwater program.
Nuclear-Powered Aircraft Carrier--CVN(X)
    CVN(X) 1 is the next step in the evolution of improved aircraft 
carriers following CVN-77. Specifically, CVN(X) 1 will build on the 
CVN-77 design and incorporate an improved nuclear propulsion plant, 
nearly tripling electrical power generation capacity to replace 
manpower intensive steam auxiliary systems. The combination of a highly 
automated nuclear plant and the elimination of steam auxiliaries will 
reduce the manpower and lifecycle costs. Equally important to reducing 
lifecycle costs are the lower manning and maintenance requirements for 
the electro-magnetic launching system (EMALS), which will also reduce 
lifecycle costs on carrier aircraft due to reduced wear and tear.
    The next step in this spiral development effort will be CVN(X) 2, 
which will provide further improvements in flight deck performance, 
survivability enhancements, service life allowance, and continued 
reduction in total ownership costs.
    In order to support other Navy funding needs and to allow for 
further technology maturation of CVN(X) systems, the fiscal year 2003 
budget submission delays CVN(X) detailed design, construction start, 
and delivery by 1 year and split funds CVN(X) 1 construction between 
fiscal year 2007 and fiscal year 2008. The decision to delay the 
program is not attributable to program execution performance issues.
    Following Milestone I, the Navy awarded the first increment of 
CVN(X) 1 design development work. The fiscal year 2003 budget request 
provides funding required to support future CVN(X) construction in 
fiscal year 2007.
Guided Missile Submarine--SSGN
    The Navy is committed to the conversion of four Ohio-class 
submarines into strike warfare and Special Operations Forces support 
platforms as transformational SSGN submarines envisioned by the 2001 
QDR. The fiscal year 2003 budget includes over $1 billion in 
procurement and R&D funding to start the engineering refueling 
overhauls (EROs) of the first two Ohio-class submarines in preparation 
for their conversion to SSGNs. This also funds attack weapons system 
design and begins procurement of long lead-time material for all four 
submarines. We are balancing rapid delivery of this capability with a 
fiscally responsible, business-like approach and exploring 
opportunities for public-private partnering.
Amphibious Assault Ship Replacement--LHA(R)
    LHA(R) is planned as the next generation large deck amphibious 
assault ship to replace the aging LHAs. The mission need statement was 
validated in March 2001 and Milestone A decision reached in July 2001. 
The analysis of alternatives (AoA) is still in progress and should 
complete this summer: Options being considered are a repeat LHD, a 
modified LHD (slightly longer and wider) as well as a totally new 
design. Following completion of the AoA, Navy will select a preferred 
alternative and proceed through the acquisition process.
    The first LHA will be replaced in approximately fiscal year 2007 by 
LHD-8. We anticipate replacing the remaining LHAs by 2024. Average age 
for the 5 ships of the Tarawa-class will be 39.2 years at 
decommissioning (4.2 years average past estimated service life (ESL)).
Ship Modernization and Technology Insertion
    While building new platforms for the future is a prime priority, 
maintaining and modernizing our current platforms enables them to 
continue to be valuable warfighting assets in the years ahead while 
concurrently trying to mitigate escalating support costs of aging 
equipment. As technological cycle times are now shorter than platform 
service life, it is fiscally prudent and operationally imperative to 
modernize the force through timely upgrades and technology insertion. 
In support of this priority, we plan to modernize the Ticonderoga-class 
cruisers, conduct planned maintenance and refueling of our Nimitz-class 
aircraft carriers and extend the service life of our air cushion 
landing craft. Our technology insertion efforts include the Smartship 
initiatives and a spectrum of new capabilities for both existing and 
in-development submarines.
    Ticonderoga (CG-47) Cruiser Conversion Plan--The Navy plans to add 
new mission capabilities and extend the combat system service life of 
the Ticonderoga-class cruisers. The fiscal year 2003 budget request 
includes $104 million in all procurement accounts to continue the 
engineering efforts and to procure systems for the first installation 
in fiscal year 2006. The upgrade of these ships will add new, and 
enhance existing, combat system capabilities for land attack, 
cooperative engagement capability, and area air defense commander 
missions. These new mission capabilities will dramatically improve the 
ability of these warships to operate in joint and coalition warfare 
environments. The program is essential to maintaining a mission-
relevant force surface combatants.
    Aegis Open Architecture--While not quite DD(X) or LCS, one step 
that sets the stage for the Aegis fleet in the future is the upgrade of 
the Aegis weapon system into a fully open architecture. Key features of 
this Baseline upgrade will be:

        <bullet> Improvements to reduce operator workload and manning;
        <bullet> Upgraded radar processing; and
        <bullet> A software architecture that allows for rapid and cost 
        effective commercial off-the-shelf (COTS) technology insertions 
        needed to pace the threat.

    This new Aegis baseline will reduce the punitive costs of 
maintaining multiple baselines across the fleet. The result will be a 
common Aegis baseline that will carry the Aegis-equipped fleet well 
into the 21st century.
    Landing Craft Air Cushion Service Life Extension (LCAC SLEP) 
Program--LCAC SLEP continues in fiscal year 2003 through the award of 
options on the second production contract. The Navy plans to award a 
second production contract this year with options for up to nine craft 
over the next 3 fiscal years. LCAC SLEP combines major structural 
improvements with command, control, communications, computer, and 
navigation upgrades, while adding 10 years to the service life, 
extending it to at least 30 years. In fiscal year 2003, LCAC SLEP is 
funded at $68 million and will extend the service life of three craft. 
The SLEP is planned for 74 craft.
    SUBTECH--The Navy continues to pursue a strategy of increasing the 
capabilities of the Virginia-class submarine force through the 
insertion of advanced technology into new construction and follow-on 
ships. The fiscal year 2003 budget request includes $107 million in 
RDT&E funding for advanced submarine technology development emphasizing 
capability improvements in sonar and major electrical/mechanical 
systems. Additionally, the Navy is pursuing R&D in other areas of 
submarine technology that address a spectrum of new capabilities for 
existing submarines, planned construction, and future submarine 
classes. The eighth Virginia-class submarine (fiscal year 2006) is 
targeted to receive a new composite advanced sail, which will provide 
space and volume for payloads and sensors. Separate efforts are 
advancing both payloads and sensors under development by two industry 
consortia for bringing revolutionary and new capabilities to the 
submarine force for battleforce access, sharing knowledge, projecting 
stealthy power from the littoral. As these technologies mature and 
prove value for submarine enhancement, they will be added to Virginia-
class submarines.
    Both submarine shipbuilders are playing important roles by 
assisting the Department's efforts to identify additional technologies 
for insertion opportunities and by identifying design changes that 
bring a life cycle cost avoidance benefit. Last year the shipbuilders 
submitted seventeen design improvements for consideration of which 
eight were approved for further development and evaluation. Forty new 
technologies are being developed by the submarine community to provide 
these new capabilities. Two industry consortia, representing over 50 
industry partners, are currently working under a Navy agreement to 
pursue specific areas of future advanced submarine research and 
development. These efforts are a result of the 1998 Defense Science 
Board study recommending revolutionary capability advances to the 
submarine force by harnessing future technologies. In fiscal year 2001, 
these consortia began working on actual prototype demonstrations of 
selected technological concepts in an effort to mature the most 
promising advances for insertion into the submarine force. Fiscal year 
2003 should see a continuation and expansion of these demonstrations to 
further develop technologies needed to provide additional capabilities 
to the submarine fleet by 2020.
Research & Development (R&D)
    Identifying future capabilities for naval forces will require 
robust experimentation involving systems, platforms, organizations, and 
tactics. The Department must continually examine and question how we 
operate in various strategic environments and what the future might 
entail. Extensive use of simulations, modeling, joint test facilities, 
and actual forces is necessary to maintain our technical advantage and 
continual command of the seas. Technology will never substitute for 
presence; rather, it should always address a mission requirement of 
making naval forces more effective.
    Twenty-first century technology offers enormous opportunities to 
enhance our warfighting abilities. Emerging technologies must be 
embraced, both to mitigate risk and to take advantage of new 
possibilities. Seizing these opportunities at a reasonable cost 
requires efficient organizational alignment, resolution of difficult 
interoperability and integration problems, systematic innovation using 
improved business practices, and the steady pursuit of promising 
scientific and technological initiatives.
    Electric Power for Ships--Specifically, the Department will fund 
development and at-sea demonstrations of: innovative superconducting 
and permanent magnet motor technologies for podded propulsors; advanced 
prime power, including high speed superconducting generators and fuel 
cells; and electrical auxiliaries such as electromagnetic aircraft 
launch system for CVN(X).
    Littoral Support Craft (LSC(X))--The Navy and Marine Corps will 
research advanced hull forms, cutting edge propulsion, and material and 
modular payload technologies for use in a littoral support role. 
Demonstration efforts are underway on several different vessels, 
predominantly catamaran designs. The Navy needs to expand this work and 
look at additional hull designs in order to support our future 
decisions on LCS.
    Future Naval Capabilities (FNCs)--The Navy's science and technology 
efforts are focused on FNCs, which address many aspects of future 
shipbuilding. In the areas of sensors, weapons, communications and 
radar, the Navy continues to make progress transitioning methods and 
equipment that allow leap-ahead technologies to better fight our ships 
while protecting our sailors and marines. The Navy is also pursuing 
many human systems technologies to make the man/machine interface more 
efficient in order to reduce manning on future ships. To better address 
the network-centric aspects of future warfighting, the Navy has 
combined two FNCs to bring hardware and software communities together 
in a more integrated approach. The most important leap-ahead technology 
for the future of naval warfare will be electric warship. The Navy is 
standing up a new FNC to address all aspects of electric warship to 
include the propulsion, sensors, auxiliaries and weapons.
    The Navy's science and technology (S&T) program is focused on 12 
FNCs:

    1. Autonomous Operations
    2. Capable Manpower
    3. Electric Ships and Combat Vehicles
    4. Knowledge Superiority and Assurance
    5. Littoral Anti-submarine Warfare (ASW)
    6. Littoral Combat and Power Projection
    7. Missile Defense
    8. Organic Mine Countermeasures (MCM)
    9. Platform Protection
    10. Time Critical Strike
    11. Total Ownership Cost Reduction
    12. Warfighter Protection

    The largest near-term beneficiaries of the Navy's S&T program are 
the DD(X) and CVN(X) programs. S&T investments in electric drive and 
integrated electric architecture provide the basis for similar 
``electric ship'' technology insertions in future ship programs. Other 
examples of technology insertions that will benefit future warships 
include alternative hull forms for high-speed combatants and 
incorporation of integrated and federated apertures for improved C\4\I 
and signatures performance. The benefits for the 21st century sailor 
range from improved automation to improved quality of life. The 
benefits for the 21st century Navy are improved life-cycle costs to 
improved combat performance.
National Shipbuilding Research Program Advanced Shipbuilding Enterprise 
        (NSRP ASE)
    The Navy's NSRP ASE continues in fiscal year 2003, building on 
previous efforts initiated under DARPA's MARITECH program (1993-1998). 
Productivity improvements achieved under MARITECH have helped stimulate 
commercial business opportunities such as construction of crude 
carriers, cruise ships, and trailer ships at three U.S. shipyards. NSRP 
ASE is an innovative approach in public/private cooperation involving 
11 companies associated with the Navy shipbuilding and repair industry 
to jointly fund R&D for technologies critical to the Navy's ability to 
reduce shipbuilding, ship repair, and total ownership costs.
Naval Surface Fires Support
    We are executing a two-phase plan to develop new weapons systems, 
advanced munitions and a naval fires control system to provide improved 
naval surface fire support (NSFS) capability. These new developments 
will provide long-range, time critical, accurate, and lethal fires in 
support of ground forces in amphibious and littoral operations through 
a combination of advanced guns, precision gun ammunition and precision 
land attack missiles.
    In the first phase, the Navy developed a 5,,/62-caliber gun and is 
currently developing the associated extended range guided munitions 
(ERGM) to engage targets between 41 and 63 nautical miles. These 
weapons and the naval fires control system will be installed on 28 new 
Arleigh Burke (DDG-51)-class destroyers and on Baseline 1 and 4 
Ticonderoga-class cruisers scheduled for modernization beginning in 
fiscal year 2006.
    The Navy was developing the land attack standard missile (LASM) to 
provide a NSFS capability out to 150 nautical miles. However, LASM 
development was terminated in the fiscal year 2003 budget request. Even 
though LASM was on track to meet all its stated program requirements, 
it would not have provided a lethal capability against all target 
types, including mobile and hardened targets.
    The second phase, to be introduced to the fleet with the DD(X) in 
fiscal year 2011, is intended to fully meet Marine Corps naval surface 
gunfire support requirements for range, accuracy, and lethality. It 
includes developing a longer range, higher volume, larger caliber 
advanced gun system (AGS), the associated increased lethality long-
range land attack projectile (LRLAP) and a long-range, increased 
lethality advanced land attack missile (ALAM). The AGS and associated 
magazine will be fully automated and be able to deliver 12 precision-
guided LRLAP munitions per minute to ranges up to 100 nautical miles. 
Congressional support for the DD(X) program is critical to development 
of the AGS and the LRLAP munition to lower the risk to our ground 
forces operating inland from the beachhead. Although the Navy's fiscal 
year 2003 request has no funding for the ALAM program, it provides the 
last, long-range piece to the NSFS plan. ALAM is intended to deliver 
various tactical payloads to counter mobile and armored targets at 
ranges of over 200 nautical miles. The Navy intends to fund the ALAM 
program in its fiscal year 2004 request. These ``second-phase'' weapons 
programs will fully satisfy all Marine Corps fire support requirements 
for operational maneuver from the sea/ship to objective maneuver.

                                SUMMARY

    We are institutionalizing reforms that make acquisition success a 
common occurrence. We continue to communicate fully and openly with 
Congress, industry, our warfighters, and our acquisition professionals, 
and are doing everything it takes to make sure our sailors and marines 
are provided with the safest, most dependable, and highest performance 
equipment available within fiscal constraints. We appreciate the 
support provided by Congress and look forward to working together with 
this committee toward a secure future for our Nation. Mr. Chairman, the 
Navy and Marine Corps acquisition team is continuing to work very hard 
to build the best shipbuilding acquisition programs that maximize our 
current benefits while buying smart for the future.

    Senator Kennedy. Now, this is directed toward both of you. 
I believe the official requirement for the DDG-51 program is to 
build a total of 59 ships. In the current shipbuilding plan, 
you find a total of 64 DDG-51 destroyers or 5 more ships.
    This is presumably related to the desire to keep a 
destroyer industrial base until the DD(X) or some other such 
ships starts production. The Navy's own destroyer industrial 
base analysis indicates the industrial base would be at severe 
risk of production level of two ships per year without 
substantial additional work.
    Based on the lack of prospects for substantial additional 
work in the two shipyards, it would not appear that the Navy's 
program could be executed. Further, there is no explicit 
commitment to build more than the one DD(X) in this budget, 
nor, indeed, in the Future Years Defense Program.
    So this raises several questions. Since the plan would 
appear to fall short in support of the industrial base, why are 
we building more DDG-51 destroyers than the requirement?
    Then there seems there is no commitment to a continuing 
DD(X) program. Then what is the bridge on industrial base, and 
how do we expect to be purchasing these things?
    Admiral Mullen. Sir, I will address the requirement piece 
specifically. What we have seen in the last 2 to 3 years of 
warfighting analysis is in just about every war game, there is 
an increased need for ballistic missile defense-capable ships. 
Having them there available early is key, and that, to some 
degree, ties back to the overseas homeport that you were 
talking about with the previous witness.
    Each time we looked at that, the requirement comes in at 
about 64 DDGs. Now it is in combination with the cruiser 
conversion program, which is also in the budget; and the need 
to clearly restore the missile defense program that was 
cancelled this year, but that warfighting requirement is very 
real. We see from the standpoint of the overall DDG 
requirements to have 64 to be about right.
    In a previous life, I was the sponsor for DD 21 and what 
has now evolved to DD(X). There has been over time, a very 
concerted effort to try to look at how we fare our way both out 
of DDGs and into the new ship, meeting the new ship 
requirements, which DD(X) now represents.
    In that regard, clearly there have been long-term concerns 
with respect to the industrial base, and I will actually ask 
Secretary Young to take the industrial base aspect of this 
particular question.
    Secretary Young. Mr. Chairman, I appreciate the chance to 
comment on this issue. When I came to the Pentagon, what we had 
was a program that had DDG purchases through fiscal year 2004, 
one DD 21 in fiscal year 2005, and three DD 21s in fiscal year 
2007.
    I would submit to you there is no way the industrial base 
would survive that profile. The budget has been built and 
submitted to you in fiscal year 2003 includes two DDGs per year 
in fiscal years 2005, 2006, and 2007.
    I think some of the previous industrial base studies do not 
consider factors that are ongoing in our industrial base. One 
factor is the companies have recognized that there may be a 
period of low rate procurement, and they are working to size 
their yards for that low rate procurement. So I think those 
studies are flawed in an element of assuming that the yards 
have to stay at the same size, and therefore they have to build 
a certain amount of product to that size.
    Senator Kennedy. That may be true, but I want to see what 
your studies are, that they show that that is not the case.
    Secretary Young. OK. I have familiarized myself with one of 
the previous studies, it assumes no LPD work is done at 
Ingalls, and presently, under the Northrop Grumman acquisition 
of Avondale and Ingalls, LPD work is being done at Ingalls. 
This is good news, in my view, because Ingalls is bringing 
skills and manpower to an LPD program that is adding confidence 
in our ability to deliver that ship.
    So I believe the industrial base, that our current 
shipbuilding profile has the ability to provide enough work to 
get the yards through this period as we transition to new 
ships.
    Senator Kennedy. Now, you have studies that show that 
obviously, and you are going to make those available to us?
    Secretary Young. I will make whatever analysis available to 
the committee.
    Senator Kennedy. You have studies that deal with it, or you 
would not have done it. I mean, you have something that 
counters the earlier industrial base studies. Maybe not, but 
that is just what your earlier answers indicated that those 
were not----
    Secretary Young. I am saying the earlier studies do not 
countenance the way industry is doing business right now, as 
well as how----
    Senator Kennedy. OK. So you have other studies that show 
that the industrial base is not going to be reduced?
    Secretary Young. I can--I did not----
    Senator Kennedy. Do you have studies or not? You can just 
say, ``No, we do not, Senator. That is my conclusion.'' Then we 
can go on to----
    Secretary Young. Senator, I do not have a current study 
that looks at the industrial base.
    Senator Kennedy. So you do not have studies that override 
the other studies that have been provided to our committee with 
regard to what is necessary in terms of industrial base for 
that? You do not have those. You do not have other kind of 
studies that sustain your position that you are telling us, 
but----
    Secretary Young. I do not have----
    Senator Kennedy.--you believe that to be the case, but you 
do not have that.
    Secretary Young. I do not have new studies, but I 
definitely have assumptions, and the original studies have 
changed the way we are doing business now, sir.
    Senator Kennedy. Yes. But you can provide that, any 
information on this. We are very concerned about the industrial 
base. This decision and the DDG is going to be the best ship in 
terms of the missile defense; that decision has been made or--
--
    Admiral Mullen. Sir, the program that was cancelled, the 
area theater ballistic missile defense program, which was 
cancelled prior to this budget cycle, is a capability that--
again, the warfighting requirement remains out there.
    The plan at that time, at the time of cancellation, was to 
embed this in the DDGs, which is what I spoke to in my opening 
remarks, that that warfighting requirement is still there, and 
as Admiral Blair testified last week, needs to be met.
    If I could, Senator, I would like to address the DD(X) 
issue, if I may?
    Senator Kennedy. Admiral, please.
    Admiral Mullen. As the resource individual in the Navy, one 
of the things we did in this budget was we put an additional 
six DDGs in the last 3 years of the future program, 
specifically to reserve the option of DD(X) maturing and then 
moving that money from DDGs into the DD(X) as it matures.
    From a long-term warfighting requirement, the DD(X) program 
is a very important one to us, not just specifically for that 
platform, but also for the littoral combat ship and for 
incepting the technology evolution to the follow-on cruiser.
    Secretary Young. Could I add to that, Senator? I was going 
to comment----
    Senator Kennedy. When would you expect to be replicating 
your building after that? The DD(X) will be completed then--
when?
    Admiral Mullen. It is due to hit the waves in fiscal year 
2011. It is currently a 2005 ship. So certainly my expectation 
would be that between that time frame, we would be turning to 
the production of additional ships, and actually Secretary 
Young can speak on that.
    Senator Kennedy. How many years, between 5 and 11?
    Secretary Young. Senator, the understanding I----
    Senator Kennedy. I am just trying to find out what your 
plans are with regard to industrial base now and also with 
regards to the whole issue of the extended range guided 
munition that is so important to the Marines. That has been a 
surface fire support program that has slipped with this 
decision on the DD(X). So that has slipped as well. So we just 
want to get a good idea as to what is being planned out there. 
I will send you a more precise, entire question and more 
specifics, because I am getting around the edges here, I think. 
I want to make sure we have a complete answer.
    Secretary Young. Yes, sir.
    Senator Kennedy. Senator Reed. Or John, do you want to----
    Senator Warner. No, I think I will follow the regular 
order.
    Senator Kennedy. All right.
    Senator Warner. Thank you very much, though, for the offer.
    Senator Kennedy. All right.
    Senator Warner. I will follow you, Senator.
    Senator Reed. Thank you.
    Mr. Secretary, Admiral Mullen, thank you.
    As I understand it, the Navy plans for an accelerated 
development of the Navy's unmanned underwater vehicle program, 
specifically the Navy plans to accelerate the multi-mission 
reconfigurable UUV and upgrade the AN/BLQ-11 long-term mine 
reconnaissance system.
    Can you elaborate in some details about these plans, 
because they are, I think, very important for the future in 
terms of employing more and more unmanned undersea vehicles.
    Admiral Mullen. Certainly, the future of warfighting is we 
view as a very critical piece to us is the entire spectrum of 
unmanned and autonomous remote vehicles, in the air, on the 
surface, and under the sea.
    I am not intimately familiar with this program. I know it 
has been in development for some time, and there is a very 
strong Navy commitment to this program. As far as the details 
of acceleration, I would have to take that for the record and 
get back to you specifically. But I want to strongly state the 
Navy's commitment to this kind of capability in the future.
    [The information referred to follows:]

    The Navy has plans to upgrade the baseline AN/BLQ-11 long-term mine 
reconnaissance system (LMRS) with improvements to the forward-looking 
sonar and the side-looking sonar. The improvements to these sensors are 
currently under development and will be transitioned to LMRS upon 
successful demonstration.
    The 21,, variant of the mission reconfigurable UUV (MRUUV) is the 
next generation, fully autonomous UUV. Current funding dictates an 
initial operational capability (IOC) in fiscal year 2009. Both the 
Office of Naval Research and industry are conducting UUV research and 
development efforts that can be leveraged to delivery MRUUV prior to 
fiscal year 2009. The milestone is being evaluated against other 
priorities within the Navy as part of POM04.

    Senator Reed. Are you aware of any collaboration with the 
Coast Guard in homeland defense in terms of using unmanned 
underwater vehicles for port surveillance and port security? Is 
that something that you would be considering also, Admiral?
    Admiral Mullen. I am not aware of that, Senator Reed, at 
this point. But one of the things that happened September 11th, 
Admiral Loy is fond of saying, the second call he got was from 
Admiral Clark. It has really energized both services in working 
together to support the future and the changing mission of 
homeland security and homeland defense.
    So we are paying a lot of attention to the Coast Guard 
developments. One possibility is to look at the development for 
the littoral combat ship and the Coast Guard deepwater program 
and how they will work together.
    Certainly, initiatives like you are talking about would be 
ones that, if they have applicability, and certainly it sounds 
like they do, we would want to try to participate in it.
    Secretary Young. Senator, we are working on a memorandum of 
understanding between, particularly, the LCS, DD(X), CG(X) 
programs and the deepwater, and as the Admiral said, the LCS is 
one of the first potential opportunities for cooperation, 
depending on whether it has a place in deepwater.
    Then we are looking to expand that into exactly what you 
said, both not only underwater vehicles, but also 
communications and sharing data, tracking ships, and other 
factors.
    Senator Reed. Thank you, Mr. Secretary. Mr. Secretary, it 
is my understanding that the first step in converting the SSGNs 
is for refueling, and this work will be done in public yards at 
Puget Sound and Norfolk.
    Has a decision been made on whether conversions will also 
take place at--well, let me ask it this way. After the 
refueling is completed, will these ships be moved to other 
positions for the construction and the renovation, if that is 
the right term?
    Secretary Young. There has been extensive discussion in the 
Department about that. The current plan and the program of 
record would be to refuel two submarines at Puget and convert 
those submarines there and refuel two submarines at Norfolk.
    We have staggered the two submarines at Norfolk and 
preserved an opportunity to discuss where those submarines are 
converted, whether there might be a public or private 
competition for that and other factors.
    There is also a strategy to try to take Electric Boat tiger 
teams and assign them to the submarines. The staggering is an 
approach to let that tiger team move between each conversion 
and give ourselves a chance to have some learning curve benefit 
and to control, to the maximum extent possible, the costs on 
the SSGN conversions.
    Senator Reed. Thank you Mr. Secretary, this also raises the 
question that is asked every year. We have been struggling to 
meet the requirements of the warfighters, to have a 
sufficiently sized submarine fleet, and that ultimately 
requires going to two-submarines-a-year production.
    Can you comment about whether the horizon is within sight, 
that we will get to two submarines a year?
    Secretary Young. Senator, you are well aware, in the fiscal 
year 2003 budget, the Navy made an effort to add 688 refuelings 
to try to sustain forces at the 55 submarine requirement.
    The President's budget supports the potential for three 
submarines in 2008. Those programs are continually under review 
again with my comments about ``What is the business-smart way 
to do that?''
    But there is a goal to get to two submarines per year, and 
people would like to get there as quickly as possible if 
resources and the business plans allow that.
    Senator Reed. Mr. Secretary, if I may ask one question. In 
your statement, you talk about the ways you are going to try to 
more accurately project and control costs in fulfilling the 
program, and then you have a line that says, ``If costs 
continue to rise in spite of these management efforts, the 
Department is prepared to de-scope or delay capability to 
maintain a funded executable program.''
    Can you elaborate in more detail about what precisely that 
means?
    Secretary Young. OK. The prior completion account has 
grown. This year, the request is $646 million. That is critical 
to the Navy. If we are not provided those funds, we will have 
to take scope out of other programs. It will not necessarily 
have to be in shipbuilding. It relates to the comment I made in 
my opening statement about making trades with the whole of the 
picture in mind.
    So if a ship cost grows, and if there is a change option 
and we do not have a way to pay for it, I think we will try to 
resist making that change until a future point when we have the 
funds and know what capability we would put on board.
    I think a perfect example of that is CVN-77. There was an 
option: MFR and VSR. The VSR became a high-risk, if not 
impossible, option for CVN-77. The next option down was 
potentially to put a SPY-1 radar on the carrier. There were 
estimates that said the cost of that were over $300 million, 
and that would have been a prior year completion bill for that 
carrier.
    Right now, we are going to put the legacy radars on that 
carrier, design the island in a smart flexible forward-looking 
manner so that in a future availability, or a next opportunity, 
we can install MFR and VSR on that carrier. But we cannot 
afford either the costs or the risks to put that on right now. 
So some would argue that is a good business decision, and some 
would argue that is de-scoped capability.
    Senator Reed. Thank you, Mr. Secretary.
    Thank you, Admiral.
    Secretary Young. Thank you.
    Senator Kennedy. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Gentlemen, welcome.
    Admiral Mullen. Good to see you, sir.
    Senator Warner. I am fascinated to hear you talk about your 
respective responsibilities with such enthusiasm. Not much has 
changed since I had the same challenge that you have.
    Managing the shipbuilding account for the United States 
Navy is one of the most difficult jobs. We are fortunate, Mr. 
Young, that you bring an institutional memory of this 
institution as we go through our deliberations here. I think 
you have a profound respect for the old adage that the 
President proposes and Congress disposes and I am going to come 
to that momentarily.
    Admiral Mullen, I judge that your career is owing to three 
things: hard work, solid family, good luck--and maybe the 
fourth one is Joe Lopez, is that correct, Admiral Lopez? 
[Laughter.]
    Admiral Mullen. Well, he does stay in touch. [Laughter.]
    Senator Warner. He is a wonderful man.
    Admiral Mullen. Yes, sir.
    Senator Warner. This morning, our committee was briefed by 
the Director of the Central Intelligence Agency. I think by any 
objective viewpoint, this country is heading into some very 
uncertain waters in the years ahead. As I reflect on the 
threats that our previous witness talked about with respect to 
a capability versus threat-based environment, some of us old-
timers are still very conscious of this threat and have to 
determine what you mean by ``capability-based.''
    Nevertheless, one capability that we have relied on, I 
think, more heavily than ever before is the carrier force. We 
saw that in the Afghanistan operations, where you actually 
loaned out one of your carriers to the Army as an airfield, 
which served very well in its mission.
    As you look to the future and at the uncertainties of the 
future, I frankly can see absolutely no basis for anyone to say 
that the carrier is not going to remain, if not increase, in 
its importance in terms of not only protecting our forces, but 
also deterring conflict.
    Of course, this brings me to the decision on the CVN(X). I 
am going to read from your testimony. You say, ``In order to 
support other Navy funding needs and to allow for further 
technology maturation of CVN(X) systems, the fiscal year 2003 
budget submission delays CVN(X) detailed design, construction 
start, and delivery by 1 year and split funds CVN(X)-1 
construction between fiscal year 2007 and fiscal year 2008. The 
decision to delay the program is not attributable to program 
execution performance issues.''
    Now, with all due respect, I am seriously reviewing, 
initially with this subcommittee and then to the full 
committee, a restoration of funds so that that program can be 
restored to its original posture in previous FYDPs.
    I am going to frankly ask you if Congress were to authorize 
and approve a dollar amount, and we could possibly discuss 
that, such that you could then execute, which is the will of 
Congress; can you do it, and how would it be done?
    We will start with you, Mr. Young.
    Secretary Young. Yes, sir.
    Senator Warner. You are quite familiar with the process 
here.
    Secretary Young. Yes, sir. I appreciate your kind comments, 
Senator, and on this one, I think I can answer you fairly 
specifically.
    The current program in fiscal year 2002 assumed that we 
would hire approximately 50 designers and engineers a month, 
starting in January and do so each month thereafter and 
maintain that engineering work force as we built up to be able 
to accomplish the design of CVN(X).
    When the fiscal year 2003 budget decision was made, the 
budget before you, is for a year and decreases some of the 
engineering of the R&D funds for the design of that carrier. 
The program office looked at what they had in fiscal year 2003 
and recognized that if they ramped up as planned, they would 
potentially, with the fiscal year 2002 funding, have to ramp 
down.
    Senator Warner. Well, presumably Congress would find the 
dollars.
    Secretary Young. Yes, sir.
    Senator Warner. So I ask you to start with the assumption 
that it is not a dollar issue, because Congress would add those 
funds from wherever we so desire.
    Secretary Young. It is----
    Senator Warner. So then take it back again to what you can 
do if you have been authorized those funds.
    Secretary Young. I probably would have to seek a middle 
ground. I can tell you that there is a number that, if 
additional funds were authorized and appropriated in fiscal 
year 2003----
    Senator Warner. For this purpose.
    Secretary Young.--for this purpose, the carrier, they could 
attempt to recover----
    Senator Warner. Who is ``they''?
    Secretary Young. The program office. Admiral Knapp and the 
program office.
    Senator Warner. All right. I want to be specific.
    Secretary Young. Yes, sir. They could try to recover some 
of the lost schedule in the program. I am told there is an 
estimate that says the carrier right now would deliver under 
the program of record, with the budget as submitted, in 
September 2014 and that could be pulled back to March, with the 
addition of funds in fiscal year 2003 and each following year.
    Whether that carrier could be pulled back a little further, 
if people assumed additional funds authorized and appropriated, 
there might be even more acceleration potential.
    But right now the program office is taking a business-like 
approach. I think you can understand. They do not want to hire 
people and then, if no additional funds are authorized and 
appropriated, have to lay those people off. That is a spike 
they do not want to manage.
    They are managing to the assumption that there may be only 
the President's budget level of fiscal year 2003 funds; if 
there are additional funds in fiscal year 2003 provided, there 
is that potential to pull the carrier back.
    Senator Warner. Now, let us go to the phrase ``maturation 
of systems,'' which means maturity as they come along and can 
be integrated contemporaneous with the maturing of that system. 
Address that issue, because I think somehow we can work the 
labor force issue, or the hiring, and the money, but I want to 
talk about that aspect of it.
    Secretary Young. Sir, the reactor components have already 
been advance appropriated. Therefore, there is a certain level 
of maturity, in the propulsion system of the carrier. We do 
need work on the EMALS, the electromagnetic aircraft launch 
system, and other technologies. But that is affected by this 
desire not to spike and then layoff people; I think it is, as 
much as anything, a money-driven process.
    Time will help us with that maturity and it will put less 
risk in the program, because we would like to see EMALS launch 
a plane today and you cannot do that. So adding funds and 
pulling it back will put back some risk in the program, but I 
cannot tell you it is an unacceptable level of risk.
    Senator Warner. From a technical standpoint?
    Secretary Young. Yes, sir.
    Senator Warner. Thank you.
    Admiral, your views on this and particularly, as a future 
fleet commander, or whatever the case may be in the years to 
come, suddenly you are short a carrier out in this time frame 
of when this was to be delivered. We saw this with the Kennedy.
    Admiral Mullen. Yes, sir, Senator Warner.
    Senator Warner. It was for reasons other than this, but the 
carrier schedule is just as precise as any schedule there is 
that exists in the Pentagon.
    Admiral Mullen. Actually, I would say it is probably more 
so than schedules that exist in the Pentagon, from the 
standpoint that carrier schedules really drive everything else 
in the Navy and have for many years. Certainly, this choice, as 
has been testified to by Admiral Clark, was an affordability 
issue more than anything else.
    Senator Warner. I examined Clark in detail.
    Admiral Mullen. Yes, sir.
    Senator Warner. What I am asking you is, on the assumption 
that Congress does restore funds to enable the Navy to go back 
to try and recoup some of this time and also, a subsidiary 
question, the work force, can you do it and will you do it?
    Admiral Mullen. In terms of if it can be executed, we 
certainly would accept the carrier back in 2013 rather than 
2014. We seem to be at, as well as we can predict, March 2014 
right now. It is that other 6 months that gets it back to its 
original schedule that Secretary Young was speaking about 
specifically.
    The value of the carriers. My last job was down in Norfolk 
as the fleet commander. Certainly from there as I watched the 
debate last year about the value of carriers. It was fairly 
vocal on both sides, but has certainly gone away, as it should 
have in my view, because of the value of these particular 
platforms.
    It is clearly something we will watch very carefully and 
want to manage and have as much of that capability as we 
possibly can.
    The other option we have on the front end of this--given 
the time between now and that the CVN(X) is basically supposed 
to replace the Enterprise--is to carefully manage her nuclear 
fuel. Basically, the driver for her is the nuclear fuel that 
she has.
    We cannot always do that because of the needs and she may 
have to go faster than we anticipated at certain times. But we 
have the opportunity to manage that on the front end, as well 
as to try to make this work.
    Senator Warner. Now, she has four reactors, by the way?
    Admiral Mullen. Yes, sir.
    Senator Warner. That is quite a program.
    Admiral Mullen. Yes, sir.
    Senator Warner. Mr. Chairman, if I could just add one other 
point here.
    Senator Kennedy. Yes.
    Senator Warner. I was fascinated with how you worked out a 
sharing of the labor force with Newport News and the Norfolk 
Naval Shipyard because of workload in the Newport News Shipyard 
you took the carrier, and put it into Portsmouth under an 
arrangement where that work force could work on it. Yet it is 
still, let us say, under the command of Newport News 
Shipbuilding. Now, that is quite an interesting innovation to 
balance that work force.
    Is that something we will likely see in the future, and is 
it working to your satisfaction?
    Secretary Young. Do you want me to comment?
    Senator Warner. Either one.
    Secretary Young. Go on.
    Admiral Mullen. Yes, sir. I think from the standpoint of 
the critical requirement to have that capability within our 
country and in particular, the specific skills tied to the 
nuclear industry, that kind of innovation and work-sharing 
piece is a very important part of both our current capability 
and our ability to maintain that capability in the future. Yes, 
sir.
    Secretary Young. If I could, sir, we would like to take 
advantage of that at every opportunity possible. As you well 
know better than I, Norfolk Naval Shipyard has some very unique 
facilities.
    Senator Warner. Indeed it does.
    Secretary Young. We are able to let the private sector come 
in and perform work on ships within dry docks that nobody else 
has in the world. At every opportunity where it makes sense 
from a labor cost and an overall cost to the project point of 
view, we are trying to take advantage of those opportunities.
    Senator Warner. I think it is, and perhaps it even lends 
itself to the creation of more jobs between the two yards, 
given that.
    By the way, the record should reflect port, starboard, 
fore, aft, four reactors. Fore, aft, port, starboard, eight 
total, correct?
    Admiral Mullen. Yes, sir.
    Senator Warner. Thank you.
    Thank you, Mr. Chairman.
    Senator Kennedy. I am glad we got that straightened out.
    Senator Warner. Yes, sir, I am too. [Laughter.]
    Particularly when it comes to the Navy and their terms. 
[Laughter.]
    Admiral Mullen. I knew what you meant, Senator. [Laughter.]
    Senator Kennedy. To my friend and colleague, Senator 
Sessions, if I may.
    Senator Sessions. Of course.
    Senator Kennedy. In February, during the posture hearing, 
Secretary Rumsfeld talked about the naval forces study. Could 
you give us an idea of when that is going to be ready?
    I do not know whether that this is out of the blue, and you 
did not know you were going to get asked that. So if you want 
to, you can provide it for the record. But if you can let us 
know either way.
    Secretary Young. Secretary Aldridge was asked this question 
at a previous hearing, and he has indicated within the next 
couple of months they will try to provide the results of that 
study.
    Admiral Mullen. We, in the Navy, are participating in that.
    Senator Kennedy. Is this going to be before we mark up the 
authorization bill? It would be worthwhile to have that prior 
to the time of the authorization, it seems to me, just in terms 
of our own information.
    I know, as the Chairman, if we can get that in a timely 
way, I think it would be very helpful at least for our 
committee. Hopefully, we can.
    Admiral Mullen. Yes, sir.
    Senator Kennedy. Senator Sessions. Thank you.
    Senator Sessions [presiding]. Secretary Young, can you tell 
us what the answer is to the $48 billion increase in spending 
for defense, and how it is that the Navy shipbuilding is 
sliding? What are the factors?
    I know some of them, but just for the record, what would 
you tell an American citizen who might ask that question?
    Secretary Young. Can I take a couple of minutes to do that, 
sir?
    Senator Sessions. Please.
    Secretary Young. From the start, I would tell you, the 
Secretary likes to say, we went through with the monies that 
were made available and filled up the pots, and the pots that 
were placed in order were----
    Senator Sessions. First, let me ask you: The Navy budget, 
how much did it go up?
    Secretary Young. I understand it went up about $9 billion, 
$9 billion of the $48 billion.
    So the Secretary talks about filling up the pots and they 
were in priority order, the manpower pot to pay our people, the 
readiness pot to train people, provide spares for them and have 
the equipment ready to perform. We had health bills that we had 
to pay.
    In fact, I could be fairly specific. There was $4 billion 
of the increase that went to the Navy that was asked for 
military personnel salary, health, sea pay, housing allowances; 
$3.4 billion went into steaming hours, flying hours and spares; 
$1 billion went into munitions; and then, about $1.1 billion 
went into RDT&E, which would include increases for programs 
like the joint strike fighter and DD(X).
    So when we filled all those pots with the monies were given 
us, we did everything we could with the monies that were 
available, and we certainly could have used more. So then the 
question becomes, ``Okay. Why did you not buy ships?'' The 
answer is, ``We certainly would have liked to have bought 
ships.''
    But let me add some detail to that, and I am going to start 
back a little on the history here. A couple of years ago, two 
LPDs were requested and they were taken out, because the 
program was not mature enough in people's view to fully fund 
the program.
    Last year, fortunately, we did get full appropriation for 
our T-AKE, but there was a chance we would lose a T-AKE. The 
picture I am painting to you is: we have to think about what 
can be authorized and appropriated in Congress and we can 
reasonably request.
    We have four LPDs fully funded right now and advanced 
procurement for two more. We have four Virginia-class 
submarines fully funded in advanced procurement. We have three 
T-AKEs funded.
    Each of these, Senator, are new classes of ships. So we are 
transitioning from older production to new production classes, 
and we are struggling, as I said in the beginning, to try to 
build our confidence and your confidence in our ability to 
deliver those ships.
    In each of those cases, I think it would be premature to 
have made the first priority to increase the rates in those 
programs in fiscal year 2003. That is not the case in fiscal 
year 2004 and out. As Admiral Mullen testified, we will be 
working aggressively in the fiscal year 2004 program budget 
development process with the programs that we now have more 
confidence in and can come to you and tell you we can deliver, 
to look at increasing those quantities.
    But it seemed incumbent on us to build your confidence in 
the programs we have now. We do have ships in the pipeline in 
these new programs, and we just have to deliver them to you.
    But in fiscal year 2004 and out, I hope we will be 
testifying that we have great confidence in LPD, Virginia-
class, and T-AKE, and I hope we will bring you a program that 
has additional ships.
    Senator Sessions. When you look at about 300 or so 
requests, you wanted to do 8.9 a year. That is the QDR number, 
right?
    Secretary Young. Yes, sir.
    Senator Sessions. So we were at six last year; six this 
year; five, 2003; five, 2004; seven, 2005; seven, 2006. Is that 
about right?
    Secretary Young. Yes, sir.
    Senator Sessions. So, Admiral Mullen, I guess you have had 
to deal with balancing these issues, too. Do you have any 
thoughts about where we are? Are we making the right decisions 
on this budget? If you were given more money, in your view, 
should it go to increasing the number of the ships, or do you 
have other readiness or research and development issues that 
would still take priority over ships?
    Admiral Mullen. I would like to take just a second to 
commend Secretaries England and Young. I have been working with 
both now for the last half year. I have been in and out the 
shipbuilding business, coming out of the building since 1995, 
and I really do applaud the business approach that Secretary 
Young and Secretary England have taken to try to get this 
right, because we have sometimes bit off more than we can chew.
    We need the ships. There is no question about that. The 
indication, as I specifically testified, is I am working very 
hard in the 2004 budget right now to find a way to come over 
here with more ships.
    That said, both the Secretary and the CNO have stated that 
their first dollar would both go to aircraft or airplanes; and 
the next dollar after that would go to ships.
    I do not want to draw too thick a line through those two, 
because both of those are required for us to recapitalize the 
Navy. So the efforts that are ongoing right now are to find 
funds to commit to both of those procurement accounts, so that 
we can get well above what we are right now.
    Senator Landrieu stated earlier that things always seem to 
be brighter in the outyears, and so I do understand that. I do 
not want to be Pollyannaish about what is available to us in 
the outyears. I just want to restate my commitment to work very 
hard in the 2004 budget to make sure that we have the direction 
headed that we are going up, and then we do not show up over 
here a year from now talking to you about five ships.
    Senator Sessions. Secretary Young, I believe the CNO 
indicated at a previous hearing that he was having to pay down 
some carryover expenses, such as air time and training time 
that were not made part of the fiscal year budget that should 
have been. Therefore, it was behind and there were other 
factors. Is that something that you are going to? Does this 
budget end that?
    Are we going to be able to pay, in this year's time frame, 
our training and other obligations and not to carry that over 
as an obligation in the future? If we were paying that off, I 
believe he said in the next 2 years, will that not free up some 
money for our budget as intended?
    Secretary Young. I think Secretary England has shared the 
CNO's view, and I think Admiral Mullen would like to comment on 
this.
    The thing I would tell you is, once you agree to sustain a 
force at a level, and you have decided it requires a certain 
amount of funds in terms of personnel, pay, flying hours, 
training hours, and spares that you do not buy it and then take 
a holiday on that.
    We are undertaking a review of our programs and processes, 
and I have asked all the SYSCOMs to take a hard look at what we 
are doing now that maybe we do not need to do. How can we do 
business more smartly? I think we need to find ways to save 
money within our resources and within our programs to try to 
enable what Admiral Mullen is talking about, which is buy 
airplanes and ships.
    I do not know what we will find, but we will look for 
savings in the training budget and other segments of the budget 
to try to do things smarter everywhere, not just in 
acquisition.
    Senator Sessions. Well, the simulators have some potential 
for saving, do they not----
    Admiral Mullen. Yes, sir.
    Senator Sessions. --both in ships and aircraft?
    Admiral Mullen. Correct.
    Senator Sessions. Secretary Young, there appears to be 
ships ready to buy. Your unfunded priority list indicates there 
are ship programs to buy, a DDG-51, plus Virginia-class advance 
procurement, and you delayed the CVN(X) due to funding. So do 
you not have ships that do require more funding for 2003?
    Secretary Young. Yes, sir. Secretary England has testified 
that one of his high priorities, if additional funds were made 
available, would be to buy an additional DDG. We have worked 
hard to put at least some advanced procurement with the 
advanced procurement that Congress provided in fiscal year 2002 
towards a third DDG in 2003, if you will. So that is his 
highest priority.
    Then likewise as I mentioned to you, I think our confidence 
in LPD-17 and in Virginia-class is going up substantially. 
Could those programs--I cannot tell you--I can just tell you 
that our confidence is getting to the level that they will be 
part of our discussion in the fiscal year 2004 budget bill, 
whether we need to go back and look at two a year, particularly 
in LPD-17, which replaces ships that are 35-plus years old.
    Senator Sessions. Let me just ask and see if your answer to 
this is yes and if you have a figure, that would be fine. If we 
were to contract, with absolute brilliance and good foresight, 
and knew what we wanted to buy and set about to buy that, and 
we bought it and bid it, over our sustained building program, 
could we get more ships for less money? Could we get more bang 
for our buck than we are? Or are we still losing money because 
of up and down spending, delayed contracts, not following 
through on things, and those kinds of things?
    Secretary Young. I think there are a couple of cases where 
that is true, and we are working to change some of that.
    Senator Sessions. Would you say that it has cost us more as 
a result of delays?
    Secretary Young. There is no question LPD-17 would have to 
lead the list, sir. I regret that your colleagues are not here, 
but in that case, it has been discussed in the media and we are 
talking to the companies. If everybody can agree, we will work 
hard to create a situation where we build all the LPDs at 
Avondale and Ingalls; and in exchange for the four LPDs: two 
that are known right now, i.e, within the current program that 
move south, if you will, two DDGs will move north.
    We will still have both yards, Ingalls and Bath, build 
DDGs, but we will offset the loss of LPD work at Bath with DDG 
work. I think it is more efficient to build 12 ships when you 
have a small class at a single yard.
    Right now, we are in the process, because of the delays in 
LPD-17, of essentially building two lead ships, LPD-17 in the 
south and LPD-19 in the north, if you will.
    There are significant inefficiencies in that class of 
ships, and if the companies can agree this is a reasonable 
business proposition for them, I hope we will reach this 
agreement.
    Senator Sessions. Well, ideally we should be able to plan 
those things out and get a kind of quantity order that can get 
us the cheapest buy on the product possible. Let me mention one 
more thing, and that is our precision-guided munitions.
    I believe we have learned one thing and that is the older 
platform with a superior munition is probably superior to a 
more modern platform with an old outdated munition. Would you 
agree with that?
    Secretary Young. Absolutely.
    Admiral Mullen. Yes, sir.
    Senator Sessions. The fact that you got $1 billion extra 
for precision-guided munitions gives me some comfort, but is 
that enough to keep you where you think you need to be in 
precision-guided munitions?
    We do not want to be in an Afghanistan-type conflict that 
is more sustained and has more targets; they do not even have 
targets in Afghanistan. We really need a lot of precision, and 
we do not have enough. To what extent is the Navy responsible 
for purchasing in your budget? Whose budget supplies most of 
these?
    Admiral Mullen. We recognize this as a serious deficiency 
in the previous budgets, and we have taken a significant round 
turn in that investment with respect to the future. We have 
been well-supported by you and your colleagues here on the Hill 
with respect to the emergency funds, with respect to the war.
    It is known fairly widely and publicly that we did not have 
all the munitions we wanted when this started. We have 
committed in the budget--and it is back to the very painful 
choices we had to make that included the current readiness, in 
which we have actually purchased a significant increased 
quantity of precision munitions, in particular laser guided 
bombs and JDAMs, as well as Tomahawks, which are the three 
leading munitions right now that we need to make sure our 
magazines are full.
    That includes ramp-ups at the contractors, investments to 
do that, to get to a maximum production capability, that tied 
to your shipbuilding question earlier, will get us the best 
price for each one of those units. We are on the other end of 
that spectrum.
    Senator Sessions. Let me just ask you. These older ships 
are properly equipped and can project our forces exceedingly 
well. Would that not be a cost effective way to help get our 
numbers up, through using the most sophisticated weaponry even 
if we have to use an older platform?
    Admiral Mullen. Yes sir, and I think this speaks to the 
decision in this budget to decommission the 963s, and you had 
talked about your time on O'Brien, which you were impressed, 
and rightfully so.
    Clearly, that was a trade we made to take some near-term 
risk in terms of being able to garner about $1.5 billion in the 
DD-963 program, people and program, and invest that in the 
future, in the kinds of future ships that we need to invest. 
That was an internal decision to accept risk there. The 
specific capability----
    Senator Sessions. Sure, but was that an attempt to do what 
the President suggested, leap a generation? Are you taking a 
chance to leap forward?
    Admiral Mullen. Clearly, into the----
    Senator Sessions. But is it a good risk?
    Admiral Mullen. I think it is a good risk, yes, sir, into 
not just DD(X), but also the littoral combat ship and the 
technology and the real warfighting mission needs we have in 
anti-submarine warfare, mine warfare, and surface warfare that 
that ship will provide.
    Additionally, the precision capability that the 963s can 
also be provided by many other ships. The trade, very 
specifically, is about the same number of vertical launch cells 
or Tomahawk cells for the SSGN investment as we bring those 
online towards the end of FYDP, and the Spruances are retired. 
But the Spruances have become a very expensive platform for us 
to operate.
    Senator Sessions. I have some questions along those lines 
that I would like to submit to you.
    Admiral Mullen. Sure.
    Senator Sessions. We thank you very much for your candid 
and thoughtful comments. There are no easy answers; there is no 
free lunch.
    Any initiative you take when you have a limited number of 
dollars means some other initiative did not get advanced like 
perhaps its defenders would like.
    We are trying to ask, Senator Kennedy and I are, two 
things: can we build more ships, and how can we find the money 
to do so? Can we avoid inclining our numbers to at least some 
degree through forward deployment, through keeping all the 
ships? Maybe there is a skeletal troop situation on the forward 
deployed ships that we could have people back home with their 
families, but if a crisis occurred, they could be immediately 
moved out to move forward.
    I just think you are apparently making some rather historic 
efforts to evaluate those kinds of possibilities, which I would 
support, and, I believe, Senator Kennedy supports.
    So thank you for your service. Thank you for the effective 
way you have helped us be successful in Afghanistan.
    Do you have anything that you would like to add for the 
record or otherwise at this point?
    Admiral Mullen. No, sir.
    Secretary Young. No, sir.
    Senator Sessions. All right. There are no other questions 
and no other members here, so we are adjourned.
    Admiral Mullen. Thank you, sir.
    Secretary Young. Thank you very much.
    Senator Sessions. Thank you.
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Edward M. Kennedy

                          CARRIER HOMEPORTING

    1. Senator Kennedy. Admiral Wachendorf, the Navy has said that the 
Navy has to have 7.6 aircraft carriers in the active fleet in order to 
support one carrier on station full-time in the Northern Arabian Sea. 
This reflects assumptions about keeping the CNO-mandated operational 
tempo goals and maintenance down times, among others. The Navy also 
indicates that having the carrier homeported in Japan allows the Navy 
to have only 1.7 carriers in the active fleet provide a continuous 
presence of one carrier in the Western Pacific.
    In your discussion of the forward homeporting options, you 
discussed a number of vessels such as submarines and other support 
ships in Guam. However, you made no mention of re-looking at options to 
homeporting carrier battle groups in locations other than the current 
group in Japan, other than to say, ``There are numerous ports 
throughout the region that have the capability/infrastructure to 
conduct port calls, but the required infrastructure to support the 
permanent homeporting is not available and would require substantial 
investment by the U.S. and the host nation.'' Could you give us some 
estimates of the costs that would be required to establish the 
appropriate infrastructure?
    Admiral Wachendorf. Initial estimates for building the required 
port facilities and supporting infrastructure to homeport a CVBG, with 
an air wing assigned, in Guam would cost approximately $3 billion.

    2. Senator Kennedy. Admiral Wachendorf, how recent are these 
estimates?
    Admiral Wachendorf. These estimates were developed in September 
2001.

    3. Senator Kennedy. Admiral Wachendorf, how would these costs 
compare with the costs of the number of carrier battle groups that 
would have to be maintained in the inventory to provide equivalent 
forward presence?
    Admiral Wachendorf. It would take three to five times the number of 
carrier battle groups based on the west coast and Hawaii to provide the 
same presence and crisis response capability as is currently provided 
by the forward deployed naval forces (FNDF) in Japan. The procurement 
cost of one CVN alone exceeds the initial cost estimates for 
homeporting a CVBG and air wing in Guam.

              DD-963 WARFIGHTING CAPABILITY AND RETIREMENT

    4. Senator Kennedy. Admiral Wachendorf, your statement would appear 
to minimize the contribution of the DD-963. You said in the prepared 
statement that the DD-963 ``provides only marginal warfighting 
capability due to the ship's older and more focused mission combat 
system.'' These destroyers have been providing a significant 
contribution to the Navy's ability to maintain the required number of 
Tomahawk missiles in theaters to support requirements of the theater 
commanders in chief under the global naval force presence policy 
(GNFPP). In fact, I believe that several DD-963s just returned from 
operations in the Afghanistan operations, having fired a number of 
Tomahawk missiles against priority targets. Since there is no chance 
that the Navy will have additional Tomahawk missile carrying capability 
in the near-term, isn't this action going to complicate the Navy's 
ability to maintain the required number of Tomahawk missiles in 
theaters to support requirements of the theater commanders in chief 
under the Global Naval Force Presence Policy?
    Admiral Wachendorf. The DD-963 class destroyers are contributors to 
both our current operations and the GNFPP. DD-963 class ships do not 
have the flexibility that the newer Arleiqh Burke-class DDGs have, but 
DD-963 class ships will continue to deploy, carry Tomahawk missiles and 
be counted in the GNFPP. The DD-963 class ships will continue to be 
major contributors to our operations until decommissioned. With the 
decommissioning of the DD-963-class ships, the Tomahawk missile 
requirements in the GNFPP will be carried out, by the more flexible and 
newer Burke-class DDGs as well as cruisers and submarines. The Navy 
will be able to maintain requisite quantities of Tomahawk missiles in 
theater to support the requirements of the theater commanders in chief 
under the GNFPP, given the current DD-963 decommissioning schedule. The 
Navy is commissioning new DDG-51 class destroyers through the FYDP. 
These ships have launcher capacities of 96 Tomahawk-capable, vertical 
launch cells, as opposed to the 61-cell capacity of the DD-963 class 
ships. The current DDG-51 program of record commissions five ships in 
fiscal year 2003, three in fiscal year 2004, four in fiscal year 2005, 
and two in fiscal year 2006, for a net gain of 1,344 launcher cells by 
the end of 2006. This schedule produces a yearly net increase of 
launcher cells, and an overall net gain of 185 Tomahawk-capable, 
vertical launch cells by the end of DD-963 class service.

    5. Senator Kennedy. Admiral Mullen, Admiral Wachendorf raised the 
issue of the early retirement of the DD-963 destroyers. These 
destroyers have been providing a significant contribution to the Navy's 
ability to maintain the required number of Tomahawk missiles in 
theaters to support requirements of the theater commanders in chief 
under the GNFPP. What steps is the Navy going to have to take to make 
up for the loss of the missile launchers in trying to meet the GNFPP 
requirements?
    Admiral Mullen. Due to the continual commissioning of DDG-51 class 
destroyers as replacements for the DD-963 class destroyers, Navy incurs 
no net decrease in missile launcher cells under the program of record 
(PB 03). Navy will experience a minimal, 1-year launcher cell loss 
under a worst-case accelerated decommissioning-schedule, but will 
continue to be able to meet the GNFPP requirement. If all DD-963 class 
ships are  decommissioned by the end of 2004, there will be a net 
launcher cell loss of 391 cells which will be recovered, through DDG-51 
commissionings by the end of 2005.
    Navy currently maintains a reserve capacity in the launchers of 
most deploying DD, DDG, and CG class ships. Increasing the TLAM loads 
on the remaining deployers will maintain theater GNFPP levels until the 
net launcher cell loss is recovered without negatively impacting other 
weapons loads.

                ``BLUE/GOLD'' CREWS--``HORIZON'' CONCEPT

    6. Senator Kennedy. Admiral Wachendorf, in your statement you 
mentioned the Horizon concept, which is similar to Blue/Gold manning on 
Trident ballistic missile submarines where there are two crews for one 
submarine. However, you did not appear to give the Horizon concept much 
consideration as a viable alternative for crew manning to support 
presence requirements. While I am not ready to recommend the Horizon 
concept as THE answer, I am concerned that, if we try to meet our 
national security requirements with a smaller fleet that is implied by 
the current shipbuilding plan, or even try to meet increased 
requirements associated with the war on terrorism with our current 
force, we may be trying to do this at the expense of our sailors and 
marines.
    I know that our men and women in the services will make sacrifices 
in defense of the country, but I do not believe that we should base our 
plans on the expectation that they should continue to make such 
extraordinary sacrifices for the foreseeable future. Is there a firm 
Navy plan for fleshing out these analyses that would provide more 
thorough reviews of such approaches as the horizon concept and other 
options for increasing forward naval presence?
    Admiral Wachendorf. Yes, the Navy is fleshing out these theories by 
conducting two pilot programs in the Pacific Fleet employing the 
deployment of Spruance-class destroyers beginning with the Abraham 
Lincoln battle group and Arleigh Burke-class guided missile destroyers 
beginning with the Constellation  battle group. Both groups of ships 
will swap crews at approximately 5.5 months deployed. The crews will 
again swap once more at the 10.5 month deployed point. At the end of 
these pilots, various factors concerning crew morale, welfare, and 
effectiveness as well as ship performance and maintenance, will be 
evaluated to ensure that our attempt to relieve OPTEMPO stress on our 
sailors ship is, in fact, accomplished. If we find our pilot did not 
meet our expectations, we will discontinue this initiative.

                   DE-SCOPING TO REMAIN WITHIN BUDGET

    7. Senator Kennedy. Admiral Mullen, your prepared statement on page 
three says that the Navy is prepared to live within the budget for a 
ship program by de-scoping or delaying capability to maintain the 
funded, executable program. How is this statement consistent with 
statements by the Chief of Naval Operations that we need to build the 
correct numbers of ships, but we also need to ensure that they have the 
right capabilities as well?
    Admiral Mullen. I am in complete agreement with the Chief of Naval 
Operations when he stated that we must build the correct number of 
ships with the right capabilities. However, both the CNO and I also 
recognize that until we have fully institutionalized plans to control 
cost growth and achieve stability in our shipbuilding programs, we may 
have to resort to descoping or delaying capability to deliver our 
ships. We are taking appropriate management actions such as funding 
shipbuilding programs to realistic, independent cost estimates, 
properly budgeting change orders and working closely with industry to 
mitigate the growth of costs in our shipbuilding programs and to 
prevent a recurrence of the creation of prior year bills for ships, 
requested in fiscal year 2003 and future budget submissions. If costs 
continue to rise in spite of these management efforts, the Department 
is prepared to descope or delay capability to maintain an executable 
program within budget constraints.

                          DDG-51 REQUIREMENTS

    8. Senator Kennedy. Admiral Mullen, you indicated that the 
requirement for buying DDG-51 destroyers had been raised to meet a 
requirement for providing missile defense capability. Is there an 
official requirements document that has been vetted through the Navy 
Requirements Oversight Council or the Joint Requirements Oversight 
Council to validate this requirement?
    Admiral Mullen. The additional requirement for DDG-51s stems from 3 
years of OPNAV warfare analysis. This analysis was driven, in part by 
the requirement (as stated in the 2003 Defense Planning Guidance (DPG)) 
for Navy to study the forward basing of ballistic missile defense (BMD) 
(formerly theater ballistic missile defense) capable surface 
combatants. Capability shortfalls identified in these analyses 
(amphibious ready group/combat logistics force escort, as well as BMD, 
littoral anti-submarine warfare and mine warfare) are those normally 
delivered by multi-mission surface combatants (e.g., DDG-51).
    The Navy is developing a new concept of operations that provides a 
global response capability by adding surface escorts to the amphibious 
ready group (forming the expeditionary striking force) and by standing 
up dedicated surface action groups (strike/land attack in the near-
term, becoming BMD capable as weapons and technologies mature). These 
additional DDGs (Aegis) are required in order to support the carrier 
battle group, expeditionary striking force, and surface action groups 
that form the key force elements of this concept.

    9. Senator Kennedy. Admiral Mullen, since the Defense Department 
has canceled the Navy area missile defense program, I presume that your 
requirements for missile defense capability are tied to meeting the 
sea-based mid-course program requirements within the Missile Defense 
Agency's portfolio? Has the Navy chosen the DDG-51 as the preferred 
platform to carry the sea-based mid-course missile defense capability?
    Admiral Mullen. No. DPG 2003 calls for the ability to provide 
mobile, projected missile defense, a capability that can only be 
delivered by ships. While the increased number of DDG-51s could 
possibly provide this capability, the necessity for ensuring access in 
light of the evolving BMD threat, as well as ensuring a global presence 
and response capability drives the number of DDGs required.
    The current sea-based mid-course program is undergoing an extensive 
concept definition review to characterize the system that will 
transition to the Navy. Current plans are to deploy sea-based mid-
course capability on cruisers. Although the Navy area program planned 
for deployment on cruisers and destroyers was canceled, the requirement 
remains for a Navy terminal defense capability. Missile Defense Agency 
is evaluating alternatives for a sea-based terminal defense capability.

                 DESTROYER SHIPBUILDING INDUSTRIAL BASE

    10, 11. Senator Kennedy. Secretary Young, during the hearing we 
discussed the prospects for maintaining the destroyer industrial base 
with the current Navy shipbuilding plan that includes only two DDG-51s 
per year through fiscal year 2007, and a DD(X) in fiscal year 2005. I 
believe you indicated that we should perhaps discount the conclusions 
of the previous Navy studies since they contained flawed or out-of-date 
assumptions about the shipyards or the workloads in the shipyards. 
Could you tell which assumptions you believe are flawed?
    Is it the Navy's assessment now that the current shipbuilding plan 
is adequate to support the destroyer industrial base?
    Secretary Young. The Navy's November 2000 Update to the 1993 DDG-51 
Industrial Base Study reaffirmed that both DDG-51 class shipyards can 
rcmain viable with the shared, annual workload of three new procurement 
DDG-51s, plus additional work. The report was based on the PB01 budget 
profile and pointed out a severe risk due to the workload problem 
during the transition from the DDG-51 program to the DD 21 program.
    There have been changes both in shipbuilding budgeted quantities 
and corporate structure since the last update that need to be taken 
into account when assessing the adequacy of the shipbuilding plan to 
support the destroyer industrial base.
    Quantitative Assumption Changes Since the Last Update:

        <bullet> PB02 increased the DDG quantity procured in fiscal 
        year 2002 to three.
        <bullet> PB02 provided incremental funding for LHD-8 starting 
        in fiscal year 2002 in lieu of the PB01 planned date for LHA(R) 
        in fiscal year 2005.
        <bullet> PB03 added six DDGs and deleted three DD 21 surface 
        combatants from the PB02 surface combatant profile. That helped 
        to mitigate effects on the industrial base of the PB01 profile.
        <bullet> Ingalls and Bath Iron Works have both implemented 
        leanmanufacturing programs to manage efficiently at low rate 
        production.
        <bullet> The U.S.S. Cole that was repaired at Ingalls, created 
        significant unplanned work.

      The addition of six DDGs to the shipbuilding profile in PB03 has 
stabilized and somewhat mitigated the severe industrial base transition 
risk to DD(X).
    Also, since the respective mergers with General Dynamics (GD) and 
Northrop Grumman (NG), Bath Iron Works (BIW), and Ingalls (ISI) can no 
longer be treated as stand-alone companies. Today, General Dynamics and 
Northrop Grumman are treating BIW and ISI as part of their larger 
shipbuilding divisions and are working hard to mitigate workload 
imbalances by allocating work across their entire shipbuilding 
operation, taking advantage of the centers of excellence that exist 
within those companies.
    Examples of Industry Action to Mitigate Workload Imbalances
        <bullet> Northrop Grumman has transferred some LPD-17 module 
        construction and outfitting from Avondale to Ingalls to take 
        advantage of the experienced and under utilized combatant 
        workforce.
        <bullet> It is anticipated that some additional work will go to 
        Ingalls, if the Navy moves all LPD-17 work to NG.
        <bullet> GD is exploring the merits of using their state-of-
        the-art Quonset Point steel fabrication facility to support BIW 
        surface ship construction.
        <bullet> Both corporations are examining steps required to 
        ``right size'' their surface ship workforce for a low rate 
        production environment of two per year reflected in PB03. 
        <bullet> Both companies are also aggressively incorporating 
        lean manufacturing techniques and processes that should improve 
        their production efficiencies in years of lower production 
        rates.
        <bullet> GD has invested in construction of a state-of-the-art 
        land-level fabrication facility, which will facilitate enhanced 
        construction efficiency and reduce the man hours historically 
        required to construct surface combatants.

    However, a two ships per year DDG procurement rate is not without 
cost to the Government, which will pay increased unit costs. 
Furthermore, once the shipbuilders have downsized to accommodate low 
rate production, additional non-recurring costs would likely be 
incurred to restore an increased level of production if surface 
combatant procurement rates increased outside the FYDP.

                              DD(X) IN R&D

    12. Senator Kennedy. Secretary Young, your new strategy for buying 
the DD(X) is to purchase a ship in fiscal year 2005 using research and 
development funds. Using this approach, you said that, ``Being able to 
adjust the RDT&E budget for the lead ship provides the best chance to 
control costs and define a production process that allows the Navy to 
affordably build the entire class of these next-generation surface 
combatants.'' It would appear that this would entail waiting until 
building the lead ship is fairly advanced in the production process to 
ensure that follow-on production efforts realize the benefits of these 
developments on the first ship. Under this approach, when would you be 
ready to start building the follow-on production ships?
    Secretary Young. A follow-on DD(X) ship production decision will be 
based upon several factors, including the maturity of the technology 
prototype development, component/system testing and progress of the 
ship's design. Progress in these areas will be assessed through the 
preliminary and critical design process, balanced against the 
validated, time-phased operational requirements document, which in turn 
will facilitate an informed follow-on ship start of production 
decision.

    13. Senator Kennedy. Secretary Young, how would this differ from 
current practices of providing a single gap year between lead ship and 
the first follow ships?
    Secretary Young. Funding the lead ship in RDT&E provides greater 
program flexibility than the current practice of providing a gap year 
between the lead ship and first follow ship, both funded in SCN. There 
will be opportunities with funding the lead ship in RDT&E, for annual 
reviews and adjustments to program capability and associated funding 
requirements, based upon the status and schedule for technology 
development and component/system testing. Depending on acquisition 
strategy and ship quantity profile, it may also be useful to fund the 
first follow ship in RDT&E. For example, this approach may be used if 
there is a lead yard/follow yard acquisition strategy or the first 
follow ship is procured in the year immediately following the lead 
ship.

    14. Senator Kennedy. Admiral Mullen, there would appear to be no 
explicit commitment to building more than the one DD(X) in R&D in the 
Future Years Defense Program (FYDP). Is there any specific commitment 
from the Office of the Secretary of Defense to build more than one 
DD(X) if the technologies in the DD(X) research and development program 
yield capabilities that can be fielded?
    Admiral Mullen. The number of DD(X)s that will be built has not yet 
been determined. The size of the DD(X) class will be based on several 
factors, such as current force structure requirements, rate of 
decommissioning other surface combatants and the budgetary balance 
between fleet maintenance and force recapitalization requirements. The 
FYDP submitted with the fiscal year 2003 President's budget provides 
research and development funding for construction of the first DD(X) 
commencing in fiscal year 2005. In order to provide an orderly 
transition to DD(X), as its technology matures, the fiscal year 2003 
President's budget includes an additional six DDG-51s in fiscal years 
2005 to 2007. The funds set aside for these destroyers in the FYDP 
could be transitioned to build DD(X)s in the outyears.

                     NAVY'S FIRE SUPPORT CAPABILITY

    15. Senator Kennedy. Admiral Mullen, the subcommittee has heard 
testimony over the past several years that the only solution to meeting 
the Marine Corps' surface fire support requirements would be the 
introduction of the capability that was going to be available on the DD 
21, specifically the two 155 millimeter gun batteries that DD 21 was 
supposed to provide. Now the Navy has outlined a DD(X) program that 
would build a demonstration ship in R&D in fiscal year 2005, with no 
explicit plan to buy any more new design DD(X) vessels after that. We 
also know that the extended range guide munition has slipped again, the 
Navy has canceled the land attack standard missile, and there is no 
funded plan to build the advance land attack missile. Is there any 
prospect that the Navy will be able to meet the Marine Corps' fire 
support requirements during the current FYDP? If so, when would that 
be?
    Admiral Mullen. No, the Navy will not fully meet the Marine Corps' 
requirements for NSFS until outside the FYDP when DD(X) enters the 
fleet. DD(X) will have the capacity to carry the variety and volume of 
offensive, precise firepower that will enable our United States Marine 
Corps and light mobile United States Army Forces to complete their 
littoral missions. The 155mm advanced gun system (AGS), with ``fully 
automated'' ammunition handling system and a family of munitions/
propelling charges, will achieve ranges of up to 100 nautical miles. 
With AGS, DD(X) will have the ability to deploy a high volume of 
affordable, precision-guided munitions with significantly improved 
ranges, accuracy, volume, firing rates and response times compared to 
the current generation of NSFS systems. Additionally, the Navy is 
assessing the affordability of submitting a future budget request for 
an ALAM program, which would be fielded with DD(X).

                       LPD-17 PROGRAM RESTRUCTURE

    16. Senator Kennedy. Secretary Young, you mentioned during the 
hearing that the Navy and the LPD-17 contracting team is considering 
moving LPD-17 construction from General Dynamics (Bath) to Northrop 
Grumman (Avondale and Ingalls). In consideration for this, construction 
of one DDG-51 would be transferred from Northrop Grumman to General 
Dynamics for each LPD-17 shifted.
    You indicated that it might be more efficient to build all LPDs in 
the Northrop Grumman yards. What wasn't clear from your testimony was 
what is required from the Federal Government's side to make this 
agreement work. Does your analysis of what is more financially 
attractive to the Navy include the costs of any extra DDG-51s that are 
not in the current shipbuilding plan that might be necessary to make 
this transfer work?
    Secretary Young. There is no Federal Government action required to 
shift the LPD-17 class ship construction work from General Dynamics to 
Northrop Grumman, since the contractual arrangement for LPD-17 class 
ships built by BIW is between Northrop Grumman and BIW. However, 
because of the different rates/workforce mix at Northrop Grumman, the 
Government would negotiate a contract modification to its contract with 
Northrop Grumman to establish a new cost/incentive structure for 
construction of the BIW ships transferred to Northrop Grumman.
    Our analysis did not include the costs associated with any DDG-51 
ships that are not in the current shipbuilding plan. However, the Navy 
will benefit from these additional ships, which are necessary to 
maintain surface combatant force structure and benefit the industrial 
base.

                LHA REPLACEMENT PROGRAM DECISION PROCESS

    17. Senator Kennedy. Admiral Mullen, the five amphibious assault 
ships in the LHA class will have to be replaced over the next decade or 
so. LHD-8 would presumably replace one of them. I understand that the 
Department of the Navy has not come to a decision on the requirements 
for the rest of the LHA replacement program. Reports indicate, for 
example, that the size of a potential replacement ship ranges from 
roughly 40,000 tons to as large as 75,000 tons. Why is there such a 
difference in displacement among the options that are under 
consideration?
    Admiral Mullen. The DOD acquisition process for major new systems 
is designed to ensure careful consideration of mission requirements, 
system capabilities, and costs. The process includes specifying the 
mission need for a new system, considering a broad range of alternative 
systems in a formal analysis of alternatives (AoA), and specifying 
goals and thresholds for key performance parameters in an operational 
requirements document (ORD) that is reviewed by the Services and CINCs, 
and ultimately approved by the JROC.
    AoAs are intended to consider a wide range of alternatives in terms 
of capabilities and costs. The LHA(R) AoA is considering broad 
categories of alternatives including a repeat LHD-8 (with fact-of-life 
changes), a modified LHD, and new ship designs. There is a fairly broad 
range in the full-load displacement of the alternative ship designs, 
which is due to differences in the following factors: amphibious lift 
capacity, aviation capabilities, service life allowances, habitability 
standards, and survivability features. The AoA will show how variations 
in these types of factors affect the size and cost of the system and 
its ability to carry out the types of missions identified in the LHA(R) 
mission need statement (MNS), and thereby provide DON and DOD decision 
makers with clear and consistent information on cost and operational 
effectiveness for a range of choices. This information is intended to 
help them understand the choices and execute sound judgment on the 
appropriate balance of capability and affordability, taking into 
account the many competing requirements and budgetary demands. LHA(R) 
AoA results are due in summer 2002.

    18. Senator Kennedy. Admiral Mullen, when can we expect to see some 
resolution of the issues behind such a disparity in sizes of potential 
LHA replacement ships?
    Admiral Mullen. LHD-8 will replace one of the aging LHA-class ship. 
The other four LHAs will be replaced by LHA(R). The ongoing LHA(R) AoA 
process is considering a range of options including a repeat LHD-8 
(with fact-of-life changes), a modified LHD, and new ship designs. 
Based on the analysis presented in the AoA, results of which are due in 
summer 2002, the Navy will determine the optimal alternative for the 
LHA(R).

    19. Senator Kennedy. Admiral Mullen, why should we be budgeting 
advance procurement funding in Shipbuilding and Conversion, Navy for 
LHD-9 when we have not decided on a configuration for the LHA 
replacement program, and when we have not paid off the rest of the $500 
million+ we will owe on LHD-8 even after the funds in the fiscal year 
2003 budget for LHD-8 are provided?
    Admiral Mullen. The LHA replacement analysis of alternatives is 
ongoing and will report out later this summer. The configuration for 
LHA(R) will not be determined until then.
    The $10 million in SCN AP funding was shifted to LHD-9 by the 
Undersecretary of Defense Comptroller's office during the fiscal year 
2003 OSD budget review process. Full funding of the LHD-8 in fiscal 
year 2003 is a high priority item on the CNO's Unfunded Requirements 
List.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                        INNOVATIONS IN MANPOWER

    20. Senator Landrieu. Admiral Wachendorf, the portion of your 
testimony that deals with crew swapping is very interesting to me. I 
have always urged the various services to find innovative ways to 
increase operational tempo (OPTEMPO) where needed. I am excited to hear 
that Vice Admiral Lafleur is undertaking the first pilot program in 
this area. Does the Navy view crew swapping as a long-term plan to 
increase OPTEMPO or is it meant to meet the needs of our current 
situation in the war on terror?
    Admiral Wachendorf. The general area of increasing presence via 
alternative manning concepts was being studied prior to September 11. 
As such, it is potentially part of a long-term plan to increase OPTEMPO 
without the negative impacts on individual OPTEMPO. It could also be 
viewed as a means of maintaining pre-September 11 presence levels with 
a smaller force structure. The crew swaps described are two pilot 
programs in the Pacific Fleet employing the deployment of Spruance-
class destroyers with the Abraham Lincoln battle group and Arleigh 
Burke-class guided missile destroyers with the Constellation battle 
group. Both groups of ships will swap crews at approximately 5.5 months 
deployed. The idea is to take Fletcher (a Spruance-class destroyer in 
the Lincoln battle group) and replace that crew with the Kincaid crew 
(a Spruance-class destroyer in Constellation battle group). The ship 
(Kincaid) would not deploy, but the (Kincaid) crew would fly out to 
Australia, Singapore or another location to take over the ship from the 
currently deployed crew. The Oldendorf crew from the Nimitz battle 
group will relieve the Kincaid crew. There may be one more iteration 
with a ship from the Vinson battle group.
    Similarly the crew of Higgins (a DDG in the Constellation battle 
group) will be relived on station by the crew of John P. Jones (Nimitz 
battle group) and then by Benfold (Vinson battle group).
    At the end of these pilots, various factors concerning crew morale, 
welfare, and effectiveness will be evaluated to ensure that our attempt 
to relieve individual OPTEMPO stress on our sailors ship is; in fact 
accomplished. If we find our pilot did not meet our expectations, we 
will discontinue this initiative.

    21. Senator Landrieu. Admiral Wachendorf, even though crew swapping 
will result in a longer period of time in port between cruises that 
will allow maintenance and necessary upgrades to be done, will the 
longer time at sea put more wear and tear on our ships and increase 
operations cost?
    Admiral Wachendorf. Although the crew swapping initiative will 
reduce time spent transiting to and from forward areas, the anticipated 
longer times at sea and the longer times between homeport periods may 
put additional wear and tear on our ships and increase operations 
costs. This is one of the aspects of the pilot program that will be 
evaluated before the Navy makes a decision regarding expansion and/or 
adoption.

           HISTORICAL SERVICE LIFE VS. ESTIMATED SERVICE LIFE

    22. Senator Landrieu. Admiral Wachendorf, in your testimony, you 
point out that there is a disparity between the historical service life 
of a ship and the estimated service life. I think this is a difficult 
fact to stomach, as it seems to indicate that we are consciously making 
rosy estimates for a ship's length of service. If this is so, something 
must be done to bring our estimated service life even with the 
historical service life. You do point out that this disparity is mainly 
present in ships that have not been modernized. When one of our ships 
does receive the necessary upgrades, does it, in fact, fill out its 
estimated service life or does it still fall short?
    Admiral Wachendorf. With appropriate upgrades and modernization 
packages, many of our ships have met or exceeded estimated service life 
(ESL). For example, having undergone periodic scheduled maintenance and 
upgrades, Austin-class amphibious transport dock ships will have served 
nearly four decades when they are replaced by LPD-17. Other ship 
classes such as Farragut and Adams-class guided missile destroyers, 
which were retired at 31 to 33 years of service, benefited from a 
series of planned combat systems upgrades. The new threat upgrade (NTU) 
package was considered for these ships, but was terminated since 
modernization would not have been cost effective given the limited 
service life remaining. Most destroyer classes, including Spruance-
class with vertical launch system capability added, have been 
modernized to last 29 to 30 years, just short of the 35 year ESL. 
Generally, the decision to retire a ship early or to modernize it to 
reach ESL is a function of the continued relevance of its combat 
systems to emergent threats versus modernization, operational and 
support costs.

    23. Senator Landrieu. Admiral Wachendorf, is this disparity taken 
into consideration when the Navy projects fleet strength for future 
years?
    Admiral Wachendorf. Estimated service life is the primary factor 
used for long-term estimates of fleet strength. The referenced 
disparity between estimated service life and historical service life is 
a fact of life resulting from a ship's operational tempo, maintenance, 
and most significantly the continued relevance of installed technology 
to emergent threats that cannot be accurately estimated very far into 
the future. Typically, near-term investment decisions are based on 
warfighting capability to be maintained or gained versus acquisition 
and operational costs.

                           NEW OVERSEAS BASES

    24. Senator Landrieu. Admiral Wachendorf, when you discussed the 
augmentation of Navy presence at pre-established installations, you 
only mentioned the Pacific. Did you consider increasing U.S. presence 
in any other theaters, specifically, the Atlantic/European region?
    Admiral Wachendorf. Requirements for augmentation of Navy presence 
at pre-established installations in the Pacific were developed in 
concert with the Joint Staff and CINCs and were based on regional 
stability concerns throughout the world.

                        OVERALL SHIP PROCUREMENT

    25. Senator Landrieu. Secretary Young and Admiral Mullen, your 
budget for ship procurement requests just $6.1 billion for five ships. 
This is half the number of ships required to sustain your present force 
levels and is $5 billion below the Clinton administration's plan for 
fiscal year 2003 request of $11 billion for eight ships that was 
included in the fiscal year 2001 request. Each year, no matter who is 
in the White House, the Navy comes before Congress to state that the 
Navy plans to address the shortfall in ship procurement next year, or 
the year after. Unfortunately the outyears never come. Would you please 
submit for the record a copy of the Navy's shipbuilding plans included 
in the Future Years defense Program for each of the last 8 years?
    Secretary Young and Admiral Mullen. Navy's shipbuilding plan is 
reviewed annually and programmed quantities can vary widely from year 
to year as funding priorities change. For a given year, the following 
table compares the projected quantities of new ship construction when 
first programmed in the FYDP versus the actual budgeted quantities for 
that year.

----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal Year
            Quantity of Ships            -----------------------------------------------------------------------
                                           1995    1996    1997    1998    1999    2000    2001    2002    2003
----------------------------------------------------------------------------------------------------------------
Projected...............................      10       9       8       6       7       7       6       5       6
Budgeted................................       4       3       4       4       6       6       6       6   5 \1\
----------------------------------------------------------------------------------------------------------------
\1\ Requested.


    26. Senator Landrieu. Secretary Young and Admiral Mullen, if 
additional funding were available, what would your priorities for 
shipbuilding be?
    Secretary Young and Admiral Mullen. If additional funding were 
available for shipbuilding, Navy would invest in a combination of new 
construction, conversions, and overhauls to maintain force structure 
and required warfighting capabilities, as well as to provide workload 
stability in the shipbuilding industry. The Department's priorities for 
shipbuilding are as follows:

        <bullet> DDG-51: Add third ship in fiscal year 2003. 
        <bullet> DDG-51 AP: Add AP for third DDG in fiscal year 2004.
        <bullet> LPD-17: Add second ship in fiscal year 2003.
        <bullet> Submarine Engineered Refueling Overhauls (ERO): Add 
        one ERO in fiscal year 2003.
        <bullet> LHD-8: Fully fund the ship in fiscal year 2003 
        (liquidates fiscal year 2004-fiscal year 2006 incremental 
        funding tail).
        <bullet> Virginia-class Submarine AP: Procure an additional 
        ship set of nuclear AP and non-nuclear AP for a future ship.
        <bullet> CVN-69 RCOH: Fund $24 million of work removed from the 
        original overhaul package due to funding constraints. (Assumes 
        congressional support for $59 million ``cost of war'' request 
        contained in Fiscal Year 2002 Supplemental Request.)
        <bullet> CG Conversion: Fund two Baseline four conversions and  
        non-recurring engineering costs in fiscal year 2003.

                                 LPD-17

    27. Senator Landrieu. Secretary Young and Admiral Mullen, it seems 
to me one of the reasons the shortfall for readiness funding is so high 
is that we are stuck operating ships with higher operating and manning 
costs. The 12 ship LPD-17 class is scheduled to replace 41 older 
obsolete ships. The LPD-17 class will operate with roughly one third 
the manpower (4,344 sailors versus 13,000 sailors). Can't we get our 
operations, maintenance, and personnel costs under control by 
continuing to move forward with modernization programs like LPD-17?
    Secretary Young and Admiral Mullen. You are correct that moving 
forward with our ship modernization program will have a dramatic affect 
on operations, maintenance, and personnel costs. In the specific 
example you bring up, the LPD-17 functionally replaces four classes of 
ships (LKA-113, LPD-4, LSD-36, and LST-1179 classes) resulting in a net 
savings to the Navy of almost 9,000 sailors and an operations and 
support cost avoidance of over $4 billion once the final LPD-17 ship is 
delivered.
    In the particular area of ship personnel reductions, modernization 
will pay large dividends for all our programs with the side benefit of 
improved quality of life for sailors. The DD(X), JCC(X), and CVN(X) 
platforms will operate with 20-50 percent fewer sailors per ship 
compared to the ships they will replace.

                           ADEQUATE TRAINING

    28. Senator Landrieu. Admiral Wachendorf, I understand that Admiral 
Natter and Admiral Fargo have developed a schedule to sustain two 
carrier battle groups and two amphibious ready groups in the war zone, 
but that is being done by shrinking the inter-deployment training 
cycle. I am concerned that, over time, this will result in our 
deploying forces being less well-trained. What force structure of 
carrier battle groups and amphibious ready groups is required to 
maintain this level of presence without shortening the inter-deployment 
training cycle or extending deployment lengths beyond 6 months?
    Admiral Wachendorf. Navy is capable of maintaining two aircraft 
carriers in the war zone with the current fleet composition (12 CVBGs 
and 12 ARGs) by changing most peacetime assumptions to those 
appropriate for combating the war on terrorism. These changes include: 
increasing transit speeds to theater; compressing training and 
maintenance timelines; and reducing at home and at sea quality of life 
stand-downs and port visits. Although the benchmarks of peacetime 
PERSTEMPO, 6-month deployments and two to one turn-around ratios are 
maintained; the maintenance, training, and personnel costs associated 
with the increased OPTEMPO will grow.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                       VIRGINIA-CLASS SUBMARINES

    29. Senator Sessions. Secretary Young, what are the savings that 
could be achieved for Virginia-class submarines fiscal year 2003 
through fiscal year 2007 by applying multiyear procurement?
    Secretary Young. The savings associated with multiyear procurement 
of Virginia-class submarines varies from about $70 million per ship, 
based on a five-ship contract, to about $115 million per ship, based on 
a seven-ship contract. The savings are dependent on the use of material 
and equipment buys in economic order quantities (EOQ).

    30. Senator Sessions. Secretary Young, what are the savings that 
could be achieved for Virginia-class submarines fiscal year 2003 
through fiscal year 2007 by buying equipment in economic order 
quantities?
    Secretary Young. The saving associated with a ``block buy'' 
procurement of Virginia-class submarines with EOQ ranges from about $35 
million per ship, based on a five-ship contract, to about $60 million 
per ship, based on a seven-ship contract.

    31. Senator Sessions. Secretary Young, what is the acquisition 
strategy for the Virginia-class submarines included in the budget 
request, and if not using economic order quantity authority provided in 
fiscal year 2002 legislation, why not?
    Secretary Young. The President's fiscal year 2003 budget request 
was based on procurement of one ship as part of a five-ship block buy 
procurement through fiscal year 2007. The submarines would be built by 
Electric Boat with Newport News Shipyard as a major sub-vendor in 
accordance with their teaming agreement. The fiscal year 2003 request 
includes advance procurement for 2-year long lead-time material for one 
ship in fiscal year 2005 and 1-year advance procurement for one ship in 
fiscal year 2004. EOQ investment was not included because the magnitude 
of the offsets required to fund this strategy was not affordable within 
the Department's fiscal year 2003 budget request.

                         SUBMARINE PROCUREMENT

    32. Senator Sessions. Secretary Young, what amount of advance 
procurement would be required in fiscal year 2003 to initiate a 
multiyear procurement for the next 5 submarines?
    Secretary Young. The President's fiscal year 2003 budget request 
includes advance procurement (AP) in fiscal year 2003 of $706.3 million 
for long-lead-time materials (LLTM) for the fiscal year 2004 and fiscal 
year 2005 ships. It assumes a block buy contract approach for the next 
five submarines built at a rate of one per year.
    To initiate a multiyear contract that includes economic order 
quantity (EOQ) procurement of material for the next five submarines, 
additional AP in the amount of $300 million is required in fiscal year 
2003. Additional EOQ funding increments are required in the outyears to 
fully fund the material ordered in fiscal year 2003. The material 
ordered in quantity in fiscal year 2003 would be valued at 
approximately $500 million per ship.

    33. Senator Sessions. Secretary Young, what amount of advance 
procurement would be required in fiscal year 2003 to initiate a 
multiyear procurement for the next 7 submarines?
    Secretary Young. The President's fiscal year 2003 budget request 
included AP in fiscal year 2003 of $706.3 million for LLTM for the 
fiscal year 2004 and fiscal year 2005 ships. It assumes a block buy 
contract approach for the next five submarines built at a rate of one 
per year. A multiyear contract, by statute, cannot be for more than 5 
years. Therefore, if the number of ships in a 5-year multiyear were 
increased to 7, additional AP funding for LLTM would be required for 2 
years and 1 year prior to the increase (i.e., in fiscal year 2004 and 
fiscal year 2005 for an additional fiscal year 2006 ship).
    To initiate a multiyear contract that included EOQ procurement of 
material for the next seven submarines, additional AP in the amount of 
$400 million is required in fiscal year 2003. Additional EOQ funding 
increments are required in the outyears to fully fund the material 
ordered in fiscal year 2003. The material ordered in quantity in fiscal 
year 2003 would be valued at approximately $500 million per ship.

                      T-AKE AND COST IMPLICATIONS

    34. Senator Sessions. Secretary Young, if the Navy does not 
exercise the option for the second option T-AKE ship in fiscal year 
2004, what is your assessment of the cost implications for that ship?
    Secretary Young. The estimated cost impact of delaying the second 
option ship in fiscal year 2004 is an increase of approximately $30 
million to the cost of that ship. The cost increase is due to inflation 
and the impacts to shipyard contracts with suppliers and shipyard 
production.
    The contract impacts result from the shipyard renegotiating 
supplier subcontracts due to the stretch in schedule. Currently all 
vendor solicitations include option quantities timed to reflect the 
contract option exercise schedule. Changing the procurement schedule 
for the ship necessitates a change in the vendor procurement schedule 
causing an increase in the associated subcontract.
    The production impact results from the sub-optimal workload in the 
shipyard. The current design and construction schedule under contract 
results in an evenly distributed workload that matches National Steel 
and Shipbuilding, Co., production capacity. Disturbing the even 
distribution results in inefficiencies and higher costs.
    The contract and production impacts affect more than just the 
second fiscal year 2004 ship option, since the remaining ships bear the 
increase in costs associated with disturbing the evenly distributed 
workload. The total impact on the T-AKE program procurement costs due 
to anticipated changes to contract delivery schedules is an increase of 
between $50-$70 million.

                     JOINT COMMAND AND CONTROL SHIP

    35. Senator Sessions. Secretary Young, when will you have the 
information required to ask for proposals to acquire the joint command 
and control ship?
    Secretary Young. The President's fiscal year 2003 budget request 
includes a lead ship in fiscal year 2006 and two ships in fiscal year 
2007. The acquisition strategy currently under development plans an 
initial request for proposal for preliminary design efforts in early 
fiscal year 2003 to support a competitive award for detail design and 
construction in fiscal year 2006.

    36. Senator Sessions. Secretary Young, is there adequate funding in 
this request for gathering that required information?
    Secretary Young. Efforts are currently underway to support 
requirement definition for the joint command and control ship and 
adequate funding exists in the PB03 request to support an award for 
preliminary design efforts in fiscal year 2003.

    37. Senator Sessions. Secretary Young, what type of acquisition 
strategy will the Navy pursue?
    Secretary Young. The acquisition strategy is currently in 
development, but will include a competitive procurement. Due to the 
limited planned quantities for this class, the winning competitor is 
envisioned to build all the ships.

                     SHIPBUILDING COSTS--TRADE-OFF

    38. Senator Sessions. Secretary Young, how will you ensure that 
program managers do not trade-off capability to avoid creating a prior 
shipbuilding cost?
    Secretary Young. Control of prior year shipbuilding cost growth is 
one of the Department's top priorities. I have provided specific 
guidance to all shipbuilding program managers delineating their 
responsibility for executing the complete scope of the program within 
budget, specifically configuration control of the approved baseline. 
The guidance is very specific on what changes to the program baseline 
that the program manager may approve. It is anticipated that this very 
detailed direction and guidance will enable the program managers to 
operate within established change order budgets. Any increased cost 
change to the baseline that does not meet the criteria of an approvable 
change will be submitted to the Ship Characteristics Improvement Panel 
for consideration and must be accompanied by funding recommendations. 
Through this tight control of changes or upgrades to the approved 
baseline, it is expected that increased change order requirements will 
not be a source of prior year shipbuilding cost growth. Before program 
managers are allowed to descope warfighting capability to avoid 
creating a prior year bill, senior civilian and uniformed Navy 
leadership would meet and agree on any deleted capability.

    39. Senator Sessions. Secretary Young, does the Navy intend to 
obtain congressional approval prior to changing (cost/capability trade-
off) a congressionally appropriated and authorized configuration for 
ships?
    Secretary Young. Congress will be informed of significant changes 
to the cost/capabilities of authorized and appropriated ships through 
Selected Acquisition Reports, the annual budget review briefings and 
whenever information is requested.

                                  t-5
    40. Senator Sessions. Secretary Young, on the T-5 tanker buy-out 
proposal, what other alternatives did you consider other than buying 
out the T-5 tanker leases and what savings do you expect from the buy-
out?
    Secretary Young. Various alternatives were examined. First, we 
considered the costs of letting the current leases run their course 
through 2005 and 2006 and replacing the ships by going to the tanker 
charter market after that. Second, we considered extending the current 
charters for an additional 5 or 10 years. Lastly, we looked at a 
construction program for replacement tankers.
    Assuming the ships can be used for an additional ten years, we 
estimate that exercising the Navy's purchase options will save $440 
million (net of purchase price) over the life of the ships as compared 
to the first alternative. We estimate that both an extension and a new 
construction program would yield half of that.

    41. Senator Sessions. Secretary Young, have thorough surveys of 
these ships been completed to determine what the maintenance costs will 
be once these ships are owned by the Navy and that they are worth 
buying?
    Secretary Young. These ships are under a continuous survey program 
through the American Bureau of Shipping. Each of the five ships 
involved in the purchase have been surveyed in the past year and all 
were determined to be in very good condition. The Navy has directly 
reimbursed the maintenance of these ships over the years and we believe 
that they are, and will continue to be, in very good condition. In our 
analysis, we presumed that maintenance costs would gradually rise as 
the ships get older and our savings estimates account for those rises.

                         SHIPBOARD FIRE SUPPORT

    42. Senator Sessions. Secretary Young, has the Navy considered 
alternatives which would enable the Navy to deploy the shipboard fire 
support required by the Marine Corps and resident in the 155 mm gun by 
the original fiscal year 2009 target date?
    Secretary Young. Due to the large increase in weight from current 
guns to the 155 millimeter advanced gun system (AGS), it does not 
appear to be practical to install AGS on any existing surface combatant 
without significant ship modification. As such, there does not appear 
to be an opportunity to deploy the capabilities inherent to AGS until 
it enters the fleet with DD(X) in 2012.
    To illustrate, the AGS with 600 (long range land attack projectile) 
rounds would weigh approximately 400 tons. With two AGS guns with one 
600-round magazine each on DD(X), the weight would total 800 tons. In 
order to accommodate this significant load, DD(X) has been designed as 
a total ship system with gun placement a primary consideration in the 
ship architecture. In comparison, the 5,,/62-caliber Mark 45 Mod 4 gun 
with 232 extended range guided munitions rounds and 210 conventional 
rounds currently weighs approximately 60 tons.

    43. Senator Sessions. Secretary Young, what investment would it 
take to take advantage of a wider application of spiral development to 
push forward with the new hull, gun, and radars for the first 10 ships 
and move up the delivery date of the DD(X) destroyer?
    Secretary Young. Spiral development is the defining characteristic 
of the restructured DD(X) program. However, preliminary and critical 
ship design timelines and the schedule for engineering development 
modules prototype risk reduction testing make it impractical and risky 
to start construction of the lead DD(X) any earlier than fiscal year 
2005. Spiral development will play a key role in defining the level of 
warfighting capability that will be delivered with the first flight of 
DD(X) in fiscal year 2011, but the Navy believes that the current 
program schedule provides the best balance between program development 
risk and future fleet force structure requirements.

                           BUDGET MANAGEMENT

    44. Senator Sessions. Secretary Young, what processes and policies 
prevent two or more program managers from developing like capabilities 
resulting in the taxpayer paying twice for the same technology?
    Secretary Young. We certainly don't want to pay twice for 
developing the same technology. However, we often want to develop 
different technologies that achieve a similar capability. Pursuing 
families of technologies is prudent, and we do it intentionally. It 
reduces risk and gives the taxpayer the best return on investment.
    To avoid buying the same technology twice, the Office of Naval 
Research (ONR) uses a five-step oversight cycle:
    1. Division heads exercise administrative oversight of the program 
officers.
    2. Department heads exercise administrative oversight of their 
divisions and program officers.
    3. ONR's Program Council exercises routine corporate-level 
oversight by approving individual awards.
    4. The Departments' boards of visitors--distinguished groups of 
outside expert who function a bit like university accreditation teams--
provide an external review of our programs.
    5. At the DOD level, we participate in the Department-wide planning 
and assessment process (Defense S&T Reliance) which provides the same 
oversight coordination desired above for the entire DOD.
    Finally, we not only want to avoid duplication of effort, but we 
also want to be able to take advantage of advances and opportunities 
across a broad spectrum of scientific fields. Tracking specific awards 
within our overall scientific strategy helps ensure communication 
between program officers, and helps ensure multidisciplinary 
integration occurs.

                           SURFACE COMBATANTS

    45. Senator Sessions. Admiral Mullen, what will be the impact on 
the remaining 108 surface combatants of decommissioning ships early?
    Admiral Mullen. The 2001 QDR presented a force structure of 108 
active and 8 Reserve surface combatants. This force structure was 
assessed across several combinations of scenarios on the basis of the 
new defense strategy and force-sizing construct, and the capabilities 
of this force were judged as presenting moderate operational risk.
    The Navy's goal is to continue to maintain current OPTEMPO 
standards while accepting moderate operational risk to recapitalize the 
force during this time to meet future requirements, achieving 116 
surface combatants by 2010.
    This strategy is the groundwork for the onset of the family of 
ships transition that bridges the gap between existing force structure 
and future ships. This does reduce the number of ships, in the near-
term, but includes the additional enhanced warfighting capability that 
the multi-mission DDG-51-class has over the retiring DDs. Adding more 
DDG-51s and introducing initiatives, like sea-swap in the DDs and DDGs, 
to improve OPTEMPO and on-station time, reduces the risk by adding more 
strike, force protection, and undersea warfare capability to the 
existing force both forward deployed and at home.

    46. Senator Sessions. Admiral Mullen, what additional funding would 
be required, by fiscal year, to keep a base force of 116 surface 
combatants throughout the FYDP, and what would be the recommendation 
for composition of that base force by fiscal year?
    Admiral Mullen. The actual composition of the force would depend on 
multiple assumptions (dominated within the FYDP by decommissionings 
versus new construction) and funding options. However, one option to 
reach 116 surface combatants would be to maintain the current mix of 
CGs, DDGs, and FFGs and postpone the scheduled decommissioning of 16 
Spruance-class destroyers:

----------------------------------------------------------------------------------------------------------------
                                                                                     Fiscal Year
                               Class                                --------------------------------------------
                                                                       2003     2004     2005    2006      2007
----------------------------------------------------------------------------------------------------------------
- NRF-FFG..........................................................        8        8        8        8        8
- FFG..............................................................       22       22       22       22       22
- DD-963...........................................................       16       16       13        9        5
- CG-47............................................................       27       27       27       27       27
- DDG-51...........................................................       39       43       46       50       54
                                                                    --------------------------------------------
  Total............................................................      112      116      116      116      116
----------------------------------------------------------------------------------------------------------------

    The cost to crew, maintain, and operate a Spruance buy-back plan 
that yields a surface combatant force level of 116 is $1.2 billion as 
articulated by the table below.

----------------------------------------------------------------------------------------------------------------
                                                                  Fiscal Year
              Total Savings              ------------------------------------------------------------    Total
                                             2003        2004        2005        2006        2007
----------------------------------------------------------------------------------------------------------------
- Ship Operations.......................        14.9        48.3        74.8        68.4        46.5       252.9
- Maintenance...........................        23.9        41.0        87.1        81.3        67.0       300.3
- Manpower..............................        13.6       117.8       192.5       201.2       134.6       659.7
                                         -----------------------------------------------------------------------
  Total.................................        52.4       207.1       354.4       350.9       248.1     1,212.9
----------------------------------------------------------------------------------------------------------------

    The Spruance decommissioning decision is driven by affordability. 
Under the program of record, the force level decreases over the FYDP 
largely due to the decommissioning of the more costly (manpower and 
maintenance), less capable (older technology) DD-963 class ships. 
However in fiscal year 2010, the force will exceed the 116 goal with 
the continued commissioning of new DDGs and the first DD(X). Although 
in the short-term the force level drops below the QDR level of 116, the 
Navy emerges with a more capable and more affordable force beginning in 
fiscal year 2010.

    47. Senator Sessions. Admiral Wachendorf, did the Navy's cost/
benefit analysis on reducing surface combatant force structure 
determine the additional risk to national security associated with 
dropping to 108 surface combatants? If so, provide the determination, 
and if not, what is the Navy's current assessment?
    Admiral Wachendorf. The cost/benefit analysis to reduce the number 
of surface combatants to 108 was primarily based on affordability in 
the context of today's threat environment. The decision to drop below 
116 was a short-term reduction to allow for the development and 
construction of more capable ships. Although in the near-term we drop 
below the QDR force level of 116, we emerge in fiscal year 2010 with a 
more capable force. This more capable force includes over 60 DDGs, 27 
Aegis cruisers, and a more common architecture of combat systems with 
capabilities specific to the threat of 2010 and beyond. In addition, 
the restructuring of the force will allow for new ships to be built to 
a reduced manning standard and will improve life cycle management costs 
well into the future. This incurs a moderate risk associated with a 
near-term drop in ship structure to allow for a long-term capability 
growth in the force.

                            POTENTIAL BASES

    48. Senator Sessions. Admiral Wachendorf, are there any overseas 
locations that have been analyzed to provide a forward base for quick 
reaction missile defense, maritime interdiction, and/or Tomahawk 
capability of a few ships that would not be attached to a battle group 
such as the ships in the Persian Gulf that perform those duties on a 
rotational basis?
    Admiral Wachendorf. There are several alternatives for homeporting 
3-4 surface combatants in WESTPAC to provide a forward base for quick 
reaction missile defense. Singapore, Darwin, Australia and Chinhae, 
South Korea are all politically amenable to having strong U.S. force 
presence. They all have piers and harbor  facilities that can 
accommodate Aegis ships. However all of these ports would need 
significant infrastructure improvement to properly support the 
stationing of U.S. ships. For example, pier electricity, CHT waste 
facilities, oily waste, refueling storage and delivery, NIPRNET/SIPRNET 
connectivity and all of the required base support services such as 
housing, medical, schools, exchanges and maintenance facilities would 
need to be constructed and manned. Additionally, land would need to be 
purchased to support basing options. Since there are no U.S. facilities 
in place in these harbors, it would be a large investment to develop 
the infrastructure to support 3-4 ships.
    Japan has several ports that can facilitate U.S. ships. There would 
be significant political opposition to increasing forces anywhere in 
Japan. Yokosuka, Japan, is the current homeport for the forward 
deployed naval forces (FDNF) carrier battle group. The Yokosuka Naval 
Base is jointly operated by the U.S. and Japan. It possesses the 
infrastructure for basing and maintenance, but lacks the pier space to 
support additional ships. Ship changes are done on a one-for-one basis.
    The Japanese government provides support each year to offset costs. 
The Japanese are under an economic strain and would like to reduce the 
amount they contribute towards supporting all U.S. forces. The local 
Japanese workforce is extremely well disciplined and skilled; the 
maintenance they provide is equal or superior to that found stateside. 
Logistics support for U.S. forces is enshrined in Japanese law, and a 
massive infrastructure for dependents-support and R&R has been 
established.
    Guam as a U.S. territory also provides potential. It is the United 
States' only guaranteed failsafe against the loss of basing rights in 
East Asia. The revenue increases to Guam would be a significant benefit 
for its economy. Housing and amenities for U.S. personnel/dependents 
are adequate, though expansion and renovation (of existing housing 
stock) would be required. Since Guam was a large naval base in the past 
and already has infrastructure to support U.S. forces, it was used as a 
model to benchwork costs for forward basing ships. With the exception 
of Japan, costs in all other areas would exceed projected costs in 
Guam. In addition to infrastructure upgrades, a costly environmental 
impact assessment would need to be conducted. Estimated timeframe to 
achieve environmental approval and build the necessary typhoon/
earthquake hardened infrastructure is a minimum of 7 years. A major 
concern in achieving upgrades to infrastructure overseas is the ability 
to divert the workforce. In addition to the local workforce, both 
skilled and unskilled labor would have to be brought into the country 
to support efforts.
    Excluding Japan, Guam is the most cost effective location to 
station additional combatants with TMD capability and closest to 
support East Asian missions. The Guam decision would reverse a 1995 
BRAC decision to reduce facilities. Japan is the most cost effective 
and closest location to support a TMD mission in East Asia. We already 
have established facilities to support ships and personnel. The quality 
of life available in Japan is far superior to that offered in other 
WESTPAC locations. Training opportunities already exist in Japan.

                    EMPLOYMENT ALTERNATIVES FOR SSGN

    49. Senator Sessions. Admiral Wachendorf, what operational 
employment alternatives is the Navy considering to get the maximum 
operational days out of the SSGN converted submarines?
    Admiral Wachendorf. Four Ohio-class fleet ballistic missile 
submarines (SSBN) are funded for refueling and conversion to SSGN. 
These submarines will have a 70 percent operational tempo allowing them 
to spend 14 years of their remaining 20 year lifetime forward deployed. 
In other terms, their high operational tempo will allow between two and 
three SSGNs to be in theater continuously for 20 years beginning in 
2007/2008. This operational tempo is achievable by employing the 
following concept of operations:

        <bullet> SSGNs will retain the two-crew concept currently 
        employed onboard our SSBNs and leverage off the training and 
        maintenance infrastructures already in place in Kings Bay, 
        Georgia and Bangor, Washington.
        <bullet> Crew exchange and limited scope maintenance evolutions 
        will be conducted ``in theater'' (e.g. at forward bases) to the 
        maximum extent. SSGNs will only return to CONUS (Bangor or 
        Kings Bay) for long-term maintenance, the frequency of which is 
        under review.

   ``INCREASE THE MISSION CAPABILITY OF THE ATTACK SUBMARINE FORCE''

    50. Senator Sessions. Admiral Wachendorf, what are the Navy's 
comments regarding the conclusions of the Congressional Budget Office 
March 2002 study ``Increasing the Mission Capability of the Attack 
Submarine Force''?
    Admiral Wachendorf. Although not fully exploring all of the details 
of each area, the CBO study provides an informative analysis of SSN 
force structure and recommends three options to improve the 
effectiveness of our submarine force. Each of these recommendations 
have already been implemented in various degrees as follows:
    1. Conversion of four Ohio-class fleet ballistic missile submarines 
to SSGN. This is a funded program today for delivery of SSGN starting 
in 2007. A future SSGN/SSN force will meet today and future mission 
requirements will be studied over the next several years.
    2. Multi-crew manning of attack submarines. There are several 
unique issues that are not fully explored by the study. Dual/multi-
crewing of SSNs is challenging for several reasons. An independent 
study that provides more depth is in the final stages of development. 
Of note, the submarine force has experience with dual-crewing onboard 
single mission SSBNs and is currently working through how this concept 
will transition to multi-mission forward deployed SSGNs.
    3. Forward-basing attack submarines in Guam. The force will be 
basing SSNs in Guam for the first time starting in 2002. By early 2004, 
three SSNs will have been refueled and moved to Guam. The three SSNs 
are all first flight 688s that will have sufficient fuel to allow them 
to be operated at a higher OPTEMPO until their end of life. Over the 
next several years as the SSNs are operated from Guam, the submarine 
force will further explore the lessons and benefits from this type of 
force employment and its applications to other classes of submarines. 
These three SSNs will leverage off the current base infrastructure in 
Guam. Homeporting additional SSNs in Guam would require upgrading the 
base facilities at significant expense to the government.

    51. Senator Sessions. Admiral Wachendorf, would applying the 
applicable concepts to surface combatants have a similar effect on 
their operational days?
    Admiral Wachendorf. In line with the CBO study on ``Increasing the 
Mission Capability of the Attack Submarine Force,'' Navy is conducting 
two pilot ``crew swap'' projects programs in the Pacific Fleet whereby 
individual ship deployments would be extended to 11.5 months or longer 
while holding crew deployments at 6 months. In essence, crews would 
swap at mid point of the ship's deployment. Through the pilot programs, 
Navy hopes to determine the true costs and potential savings, while 
developing lessons learned to provide a firm analytical basis for 
recommendations to either expand the program or look for other 
alternatives.

               HISTORICAL LIFE V. ESTIMATED SERVICE LIFE

    52. Senator Sessions. Admiral Wachendorf, is the Navy the using 
historical life or estimated service life in the calculations for 
determining required investment to maintain about 300 ships?
    Admiral Wachendorf. Estimated service life (ESL) is one of several 
criteria the Navy uses to determine when and how much to invest in 
recapitalization to maintain our force structure. We also consider 
average age of the fleet and acquisition rates required to maintain 
core warfighting capabilities. Based on ESL alone, assuming a fleet-
wide average ship service life of about 35 years, the Navy needs to 
procure about 8.9 ships per year at a cost of about $12 billion per 
year to maintain about 310 ships.

    53. Senator Sessions. Admiral Wachendorf, what is the impact on the 
annual number of ships the Navy will have to build and the resulting 
annual investment required if historical instead of estimated service 
life is used, and which should the Navy use to calculate their 
investment requirements?
    Admiral Wachendorf. Based on actual decommissioning data for all 
battle force ships over the last 10 years and projected service life of 
ships in commission, average historical service life (HSL) is about 30 
years versus an average ESL of 35 years. Using the average HSL to 
determine shipbuilding requirements, the Navy would have to procure 
about 10.3 ships per year and invest about $12-$14 billion per year to 
maintain a 310 ship fleet.
    Service life by itself is not used to determine investment 
requirements. Needed warfighting capabilities, projected investment 
requirements to maintain/operate existing fleet assets, sustaining the 
shipbuilding industrial base and the available Navy TOA in addition to 
service life are variables Navy relies upon in determining when and how 
much to invest.

                          TRAINING ON TRANSIT

    54. Senator Sessions. Admiral Wachendorf, your written testimony 
regarding pre-positioning ships in forward operating areas suggests 
that combatants could not be pre-positioned because they have complex 
command, control, communications, computers, and intelligence, 
surveillance, and reconnaissance (C\4\ISR) and weapons systems aboard 
and that a crew flown in would have to take time to develop 
proficiency. This time would negate the time gained in not having to 
transit with the ship. Are there ships in the Navy for which this 
concept would be applicable such as auxiliary and support ships; and 
for combatants, whether or not the concept would provide a capability 
to the Navy, if the crews that flew out to man the ships were trained 
in a similar platform in the U.S. prior to flying out to the ship?
    Admiral Wachendorf. Unit readiness depends on both the ability of 
sailors to perform their individual specialties and on their 
integration into a proficient team that is able to fully employ the 
capabilities of their ship. This proficiency is developed through 
training during the inter-deployment training cycle and transit. Ship 
configurations are not identical; there are differences in both the 
individual skill requirements and the mix of specialties even between 
ships of the same class. As a result, some period of familiarization 
and team training on the systems unique to that ship will be required 
to achieve full crew proficiency on any new ship. In general, the less 
complex the ship systems and smaller the differences between the old 
and new ship, the less training will be required on arrival. The 
training required to achieve full crew proficiency would likely be less 
for auxiliary and support ships than for combatants. For all ship 
classes, having crews trained on similar platforms in the U.S. prior to 
joining the ship would reduce, but not eliminate, the time required to 
develop proficiency once onboard.
                                 ______
                                 
               Questions Submitted by Senator John McCain

              SENATOR LOTT'S ROLE IN THE SHIPBUILDING PLAN

    55. Senator McCain. Admiral Mullen, in a January 28, 2002 article 
``Responding to Lott, DOD Starts Funding LHD-9 And One More DDG-51'' by 
Chris Castelli in the publication Inside the Navy, the article states:

        ``At the urging of Senate Minority Leader Trent Lott 
        (Republican--Mississippi), the Pentagon has made last minute 
        adjustments to the Navy's shipbuilding plan in the Bush 
        administration's fiscal year 2003 budget. The Pentagon put $74 
        million more toward a third DDG-51 destroyer and allocated $10 
        million in advance procurement for a ninth amphibious ship--LHD 
        9--that was not previously in the Navy's budget.''

    Is this true, yes or no?
    Admiral Mullen. The OSD Comptroller made two late changes to the 
Navy's fiscal year 2003 shipbuilding budget request by adding $74 
million in advance procurement funding for a third DDG-51 destroyer in 
fiscal year 2004, and shifting $10 million for advance procurement 
funding for a fiscal year 2008 LHD-9. Any specific questions on the 
factors that precipitated the decision for these shifts should be 
referred to the OSD Comptroller.

                   AOA IN CONCERN TO LHA REPLACEMENT

    56. Senator McCain. Admiral Mullen, can provide the status of the 
AOA to replace the current LHA with an LHA(R)?
    Admiral Mullen. The LHA replacement [LHA(R)] AoA is scheduled to 
complete in the summer of 2002. The AoA is evaluating several 
alternatives including a repeat LHD-8, a modified LHD-8, and an 
entirely new ship design.

    57. Senator McCain. Admiral Mullen, are you also aware that the 
Comptroller in the Office of the Secretary of Defense deleted the 
funding for the study on the AOA-cutting $16 million from the RDT&E 
effort for the LHA replacement?
    Admiral Mullen. Yes, the Department is aware of this situation. 
During the November 2001 review of the Navy's Fiscal Year 2003 budget, 
the OSD Comptroller's office deleted fiscal year 2003 and 2004 research 
and development (R&D) funding for the LHA(R) program.
    LHA(R) R&D funding throughout the FYDP was briefed to and approved 
by OSD (including the OSD Comptroller) at milestone A as the minimum 
R&D funding necessary to support the least expensive LHA(R) AoA 
alternative--a repeat LHD-8. Since the AoA completes in fiscal year 
2002, this fiscal year 2003-2004 research, development, test, and 
evaluation (RDT&E) deletion does not directly impact the AoA study, the 
AoA final report or the Navy's ability to decide which LHA(R) 
alternative to pursue. However, the Department of the Navy will select 
a preferred alternative based on the results of the AoA and adjust 
RDT&E and SCN profiles as required to move forward.

    58. Senator McCain. Admiral Mullen, does the $10 million in advance 
procurement for LHA-9 that was added by the OSD Comptroller according 
to the Castelli article predetermine the results of the AOA?
    Admiral Mullen. No. The results of the LHA(R) AoA are not 
predetermined. The preferred alternative may or may not be based on the 
LHD-8. The LHA(R) AoA is ongoing and will report out in summer 2002. 
Alternatives being considered include: repeat LHD-8 with evolutionary 
modifications, modified LHD-8 upgraded to enhance the ability to 
operate the larger and/or heavier new generation amphibious systems, 
and new ship designs spanning a wide range in size and capability. 
Based on the analysis presented in the AoA, the Navy will determine the 
optimal alternative for the LHA(R) as part of the LHA(R) program. The 
$10 million in the fiscal year 2003 budget request allows the Navy to 
begin refining the AoA selected alternative's detailed capabilities/
characteristics and other developmental work.

                          COMPARING LHA TO LHD

    59. Senator McCain. Admiral Mullen, you know that I have traveled 
to Afghanistan with other members of this committee. While there, I 
heard from several Navy and Marine Corps officers that the number one 
concern for replacing the LHA is safety because of a stability problem 
or high center of gravity issue, especially with deployed aircraft. 
Their concern was that even with some minor fixes with fuel 
compensation systems, the problem will be exacerbated when the Service 
deploys larger aircraft, such as the Osprey (MV-22) and the Joint 
Strike Fighter (JSF) which are replacements for the CH-46 and AV-8B 
respectively. I am told that the MV-22 is twice the weight of the CH-46 
and that the JSF is believed to be about twice the weight of the AV-8B. 
Does the LHD class have similar stability problems as the LHA class?
    Admiral Mullen. The seven ships of the LHD class have improved 
stability characteristics over the LHA class and, therefore, do not 
experience weight and center of gravity issues to the same extent as 
the LHA. For example, LHD-7, commissioned in 2001, has greater than the 
required 1000 long tons of service life weight growth allowance.

    60. Senator McCain. Admiral Mullen, would you agree that the 
problem could be exacerbated with the planned future aircraft and 
vehicles envisioned for the Marine Corps?
    Admiral Mullen. LHDs have the growth allowance to accommodate MV-22 
and JSF with aggressive weight control measures and the fuel oil 
compensation ship alteration although LHDs have less vehicle storage 
space (square footage) than LHAs.
    The Navy's five LHAs need to be replaced as soon as possible, as 
they are rapidly reaching the end of an already extended service life. 
The LHA(R) AoA was initiated to ensure that both Marine Corps and Navy 
21st century requirements are addressed, including the issues the 
Senator raises regarding the impact of heavier and larger aircraft/
vehicles and overall amphibious force vehicle storage area. An LHD 
repeat is just one of several alternatives being considered in the 
LHA(R) AOA to meet requirements.

    61. Senator McCain. Admiral Mullen, what growth percentages are 
currently planned for the LHD class of ships?
    Admiral Mullen. The CNO-specified minimum service life allowance 
for the LHD class at delivery from the building yard is 0.5 feet KG (KG 
= ship's center of gravity above the keel) and 1,000 long tons of 
displacement service life (about 2.5 percent). The requirement is 
documented in the LHD class top level requirements document of August 
2, 1991.

    62. Senator McCain. Admiral Mullen, is the LHD a good replacement 
for the LHA class of ships, considering that the ship does not meet the 
requirement in planned future vehicles and aircraft for the Marine 
Corps or our special operations community and considering the 
amphibious lift requirement of 2.5/3.0 MEB?
    Admiral Mullen. Among several alternatives, the ongoing AoA is 
addressing whether the LHD is a good replacement for the LHA class. 
Continuing to build LHDs, as well as ship design modifications to 
enhance the capability to operate the larger and heavier new generation 
amphibious systems such as the Joint Strike Fighter, MV-22 Osprey, 
advanced amphibious assault vehicle and medium tactical vehicle 
replacement is currently being examined. The AoA is also investigating 
the optimum way to reach the fiscally constrained amphibious lift 
requirement of 2.5 Marine expeditionary brigades. The AoA is expected 
to report out later this year.

    63. Senator McCain. Admiral Mullen, because of the well deck inside 
the LHD, isn't the LHD available square footage less than the LHA?
    Admiral Mullen. LHD available vehicle stowage space is 
approximately 4,500 square feet less than the LHA. Both ship classes 
have large well decks, which are approximately the same length. 
Modifications to the LHD well deck design allow LHDs to carry two 
additional landing craft air cushion (LCACs) compared to the LHA. While 
giving up vehicle stowage space in the LHD, other design changes were 
made to improve the aviation capabilities and provide more protection 
for critical command and decision spaces in the LHD.

                              R&D FUNDING

    64. Senator McCain. Admiral Mullen, it seems to me that the LHD is 
not a very transformational program, especially considering that it is 
the exact same hull of the current LHA class that is based on a 1950s 
design. It seems to me that if the LHA (R) class ship is built to have 
a lifespan of 50 years with no further R&D invested, then LHD-9 will be 
a 100-year old design when it is decommissioned in the 2050 timeframe. 
Would the Navy develop an aircraft carrier (CVN), destroyer (DD), or 
submarine (SSN) without a robust R&D effort?
    Admiral Mullen. No, the Navy would not build a new ship class 
without a robust R&D effort. The LHA replacement AoA is ongoing and 
will report out later this summer. The Navy plans to use the $10 
million added by OSD for LHD-9 in the fiscal year 2003 President's 
budget request to initiate engineering development of the LHA(R) AoA 
preferred alternative, regardless of which alternative is selected. In 
addition, RDT&E resources will need to be adjusted to reflect the 
preferred alternative.

    65. Senator McCain. Admiral Mullen, where is the R&D funding for a 
major amphibious ship like LHA(R)?
    Admiral Mullen. R&D funding was deleted from the fiscal year 2003 
budget under the misconception that Navy was leaning toward an LHD-8 
repeat as the preferred replacement for LHA-class ships and would not 
require as much R&D and not until later in the FYDP. If the results of 
the AoA support a modified repeat LHD or new ship design, additional 
RDT&E funds will be required. At that time, it may be necessary to 
revisit the current plan to use the $10 million in fiscal year 2003 SCN 
AP for a LHD-9.

    66. Senator McCain. Admiral Mullen, are you not relegating the 
amphibious Navy to non-transformational status?
    Admiral Mullen. No. While the LHA(R) hull shape may be close to the 
original, its combat systems suite, communications gear and information 
technology set up will be state of the art. What we envision for 
LHA(R)--advanced command and control capabilities, network centric 
warfare systems, Joint Strike Fighter, onboard targeting--will enable 
LHA(R) to support expeditionary maneuver warfare in a manner that was 
not imaginable when the LHAs were designed. The planned service life of 
the LHA(R) class, like the LHD class, will be 40 years.

                           BUYING T-5 TANKERS

    67. Senator McCain. Admiral Mullen, on February 8, Rear Admiral 
Church, USN, delivered to Congress the Department of the Navy's 
``Fiscal Year 2003 Budget Overview.'' On page 18 of the Navy's budget 
brief is a slide called ``Promote Better Business Practices, Managing 
the Department in a Business-like Manner.'' I noticed a bullet that 
states ``T-5 Tanker Buyout.'' Will you please tell the me why the Navy 
has decided in its fiscal year 2003 budget to buy the T-5 tankers 
rather than to continue to lease them as was the plan several years 
ago?
    Admiral Mullen. The T-5 tankers were leased in the early eighties 
rather than purchased because of the budgetary circumstances that 
existed at the time. When the ships were leased, the Navy negotiated 
for favorable purchase options that, conditions permitting, could be 
exercised at the appropriate time. Those conditions exist and that time 
is now. We have a continuing need for these vessels beyond their lease 
terms, which end in 2005 and 2006. If we let our options expire, we 
will end up chartering (leasing) higher cost replacement tankers.

                        PURCHASING CRUISE SHIPS

    68. Senator McCain. Admiral Mullen, there are reports that the Navy 
is being approached to purchase a pair of unfinished cruise ships at 
the Northrop Grumman Shipyard in Pacagoula left behind when American 
Classic Voyages went bankrupt for use as mobile housing or hospital 
ships. Is the Navy in any way interested in purchasing such ships?
    Admiral Mullen. The Maritime Administration, which now ``owns'' one 
of the two ships due to the default on Title XI loans, has inquired 
about the Navy's interest in acquiring the incomplete passenger cruise 
ships available as a result of the bankruptcy of American Classic 
Voyages, Inc. The Conference Report accompanying the Fiscal Year 2002 
Department of Defense Appropriations Act also addressed this issue.
    A team of Navy engineers recently visited the partially completed 
passenger ships in Pascagoula, Mississippi, and concluded that the 
ships are not suitable for use as command and control ships due to 
their structural design and lack of military survivability features. We 
also explored the ship's utility for other non-combat ship missions and 
found that while it may be technically feasible to modify the ships for 
use as hospital, recreational, or berthing vessels, the Navy does not 
anticipate a requirement for additional ships of this type. 
Accordingly, the Navy has declined the offer to acquire or use the 
cruise ships under construction.

    69. Senator McCain. Admiral Mullen, is there a need for such ships?
    Admiral Mullen. No. We looked at the ships' utility for non-combat 
ship missions and found that while it may be technically feasible to 
modify the ships for use as hospital, recreational or berthing vessels, 
the Navy does not have a requirement nor the need for any more of these 
ship types today.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

                 THE VALUE OF DD(X) AND FAMILY OF SHIPS

    70. Senator Collins. Secretary Young and Admiral Mullen, DD(X) is 
expected to make a significant contribution in the Navy's ability to 
achieve affordability breakthroughs with dramatic reductions in fleet 
O&M including personnel costs, and DD(X) should allow the Navy to field 
a fleet of highly capable and affordable warships. Would you discuss 
the value that you believe DD(X) and its family of ships will provide 
the Navy team, and further comment on the criticality of the $961 
million investment proposed in the fiscal year 2003 budget for this 
family of ships?
    Secretary Young and Admiral Mullen. Maritime dominance in the 21st 
century requires a naval force capable of projecting power and 
defeating anti-access threats. U.S. naval forces will be required to 
project power forward, provide assured access in the littoral 
environment and support a wide variety of joint and combined 
operations. Defeating and deterring future national threats will 
require a wide range of capabilities provided from a family of ships. 
These ships will be required to provide:

        <bullet> Precision strike and volume fires;
        <bullet> Anti-access littoral missions; and
        <bullet> Missile defense.

    In order to accomplish these complex and challenging missions, the 
future surface naval force will consist of four elements:

        <bullet> Advanced, multi-mission destroyers, DD(X), capable of 
        providing precision strike and volume fires,
        <bullet> Advanced cruisers, CG(X), providing sustained air 
        superiority against air-breathing and ballistic threats,
        <bullet> Agile littoral combat ships (LCS) capable of defeating 
        enemy littoral defenses including mines, small boats, and 
        diesel submarines, and
        <bullet> In-service Aegis-equipped surface ships.

    Transformation of the future naval force starts with the DD(X) 
technology development effort. Many of the cutting edge and future 
technologies that will assure maritime dominance are being developed 
under the DD(X) program for the future family of ships.
    The fiscal year 2003 budget request for DD(X) supports provides 
funding to support the downselect to a single design agent in Spring 
2002 and the development of transformational systems. The DD(X) design 
agent will focus on the development of engineering development models 
(EDMs) during fiscal year 2003 including:

        <bullet> Advanced gun system and magazine;
        <bullet> Integrated power systems;
        <bullet> Radar suite (multi-function radar/volume search 
        radar);
        <bullet> Total ship computing environment;
        <bullet> Advanced vertical launch system;
        <bullet> Integrated deckhouse and apertures;
        <bullet> Autonomic fire suppression system;
        <bullet> Infrared mock-ups;
        <bullet> Hull form scale model; and
        <bullet> Integrated undersea warfare system.

    In fiscal year 2003, the design agent will also perform design 
studies to support the spiral design review/requirements revalidation 
and the integration/evolution of the overall DD(X) ship design. Full 
funding is critical to achieve the innovation and transformational 
technologies that DD(X) will bring to the fleet.

                            DDG-51 AND FF6-7

    71. Senator Collins. Secretary Young and Admiral Mullen, please 
delineate the Navy's plans for funding near-term efforts on the DDG-51 
destroyer optimized manning initiative and for FF6-7 frigate 
modernization. In the case of DDG-51, the plan to implement optimized 
manning initiative can enhance operational readiness and significantly 
but safely reduce crew-size. This initiative, I understand, has great 
potential to dramatically reduce Navy ship O&S costs, while at the same 
time enhancing sailor quality of service, and in the case of FF6-7 
modernization--an acceleration of planned activities, including force 
protection upgrades. The plan would maintain mission functionality, 
improve reliability/maintainability and safety, and upgrade combat 
detection and ship self-defense capabilities. This initiative, I 
understand, is crucial given Navy leadership's decision to maintain the 
remaining 33-ship FFG force, in part because of the expectation these 
ships may have roles related to the evolving homeland defense mission. 
Please comment on the more general question of whether investing in or 
accelerating both initiatives is likely to pay larger dividends in 
terms of a more capable and affordable surface force in the long-term.
    Secretary Young and Admiral Mullen. Last year, N76 tasked Program 
Executive Office Theater Surface Combatants (PEO TSC) to ``. . . 
examine technologies, both current and prospective that have a 
potential of reducing the manning of the DDG-51-class combatants'' and 
``. . . examine policies and procedures that could also affect 
manning.'' In response, PEO TSC chartered a DDG-51-Class Manning 
Assessment Panel to begin defining and evaluating options to reduce 
manning on Arleigh Burke-class combatants. Their initial findings and 
recommendations are currently being briefed to Navy leadership. In 
parallel with this undertaking, each fleet CINC is conducting an 
``experiment'' to reduce manning on one cruiser and one DDG in their 
respective fleets. This ``experiment'' is ongoing and two of the ships 
should deploy soon. The goal is to take lessons learned from these 
reduced manning experiments and evaluate the results in conjunction 
with the studies being conducted by the DDG-51 Manning Assessment Panel 
to determine the best long-term solution for DDG manning. Once these 
evaluations are complete the most beneficial technology projects could 
be considered for funding. Preliminary findings to date, however, make 
it clear that any one technology application alone will not 
significantly reduce manning, but can act as an enabler.
    The Navy has committed to modernizing the FFG class by upgrading 
both its hull, mechanical, and electrical (HM&E) as well as topside 
combat system enhancements for 24 ships in the class. Through 1999 
efforts, the Navy determined its lead maintenance concerns with the 
class and is moving forward with contract awards to address those 
concerns. These HM&E efforts include: re-engine the ships service 
diesel generators; 6,800 GPD reverse osmosis desalinization capability; 
and replacement of the rigid hull inflatable boat (RHIB) davit with a 
slew arm davit (SLAD) to improve both RHIB launch safety and decrease 
the high maintenance cost of the existing davit. Additional 
enhancements include installation of self-contained breathing apparatus 
(SCBA) and ventilation modifications to the ships main spaces.
    Combat system improvements include installation of the close-in 
weapons system block 1B with surface firing capability and the 
installation of Nulka anti-ship missile decoy launching system. 
Fielding for both of these modernization efforts will take place 
between fiscal year 2003 and fiscal year 2007. Additional modernization 
efforts for the remaining ships in the class are being carried above 
core during the fiscal year 2004 budget development process. Force 
protection upgrades have been recently defined as an additional MK-38 
25mm chain gun and the installation of two additional .50 caliber 
machine gun (MG) mounts with their associative ammunition storage 
lockers and communications circuits required. Costs to install those 
defensive systems are being developed and should mature in time for 
installation during the timeline for the above-mentioned modernization 
efforts.

                              A THIRD DDG

    72. Senator Collins. Secretary Young, the President's fiscal year 
2003 budget request proposes making an additional down payment on a 
third fiscal year 2003 DDG. The $74 million advanced procurement added 
to the $125 million appropriated by Congress late last year provides a 
meaningful commitment and another building block to funding and 
executing a shipbuilding contract for a third fiscal year 2003 DDG-51-
class ship this year. Also of note is the fact that the Navy's unfunded 
requirements list for fiscal year 2003 includes full funding of the 
third fiscal year 2003 DDG-51-class ship and AP for a third ship in 
fiscal year 2004 as very high priorities to the Navy leadership. How 
high a priority is funding a third DDG in the shipbuilding unfunded 
request?
    Secretary Young. Adding a third DDG in fiscal year 2003 is the most 
appropriate candidate for additional new shipbuilding construction 
funding in fiscal year 2003.

    73. Senator Collins. Admiral Mullen, the Navy's fiscal year 2003 
unfunded requirements list recently provided to Congress, placed a very 
high priority on adding funds to sustain the three-DDG procurement rate 
in fiscal year 2003 and fiscal year 2004. The rationale provided in the 
Navy's UFR for increasing funding for the third fiscal year 2003 DDG-51 
destroyer states that these funds are necessary to: ``support 
recapitalization of the Surface Combatant Force, and to maintain 
surface combatant industrial base.'' You may be aware that the CNO and 
Navy Secretary have gone on record expressing strong support for 
addition of a third fiscal year 2003 DDG, and I believe it is critical 
that this issue be considered in terms of meeting military 
requirements, and as it relates to efforts to preserve the specialized, 
but fragile surface combatant industrial base. Please describe the 
operational, force structure, and multi-mission value of our front-line 
DDG-51 Burke-class Aegis destroyers. Specifically, how are they 
contributing to military effectiveness and force flexibility today and 
why do you believe is it important to ``support recapitalization of the 
Surface Combatant Force''--as noted on the Navy's UFR?
    Admiral Mullen. The mission of the Arleigh Burke-class destroyer 
(DDG-51) is to project power simultaneously in multiple dimensions of 
naval warfare. These include the destruction of enemy cruise missiles, 
aircraft, surface ships, and submarines and to attack land targets in 
support of joint or combined operations .
    The DDG-51 class destroyer is designed to be a battle group asset 
and a multi-purpose surface combatant capable of sustained operations 
in threat areas outside the umbrella of battle group operations 
including the littorals. They feature extraordinary seakeeping and low 
observability characteristics. Today, we are seeing this multi-mission 
platform conduct maritime interdiction operations (MIO) in the Arabian 
Gulf and Eastern Mediterranean, Tomahawk strikes, and battle group 
defense all in support of the war on terrorism.
    The 2001 Quadrennial Defense Review (QDR) revalidated the 
requirement for 116 surface combatants to meet all expected peacetime 
and warfighting missions. However, this force structure, which 
contained only 57 DDG-51 class destroyers, was considered a moderate 
operational risk. Adding more DDG-51s would reduce that risk by adding 
more strike, force protection and undersea warfare capability to the 
existing force. Additionally, due to the accelerated retirement of less 
capable and more costly to operate Spruance-class destroyers and the 
transition to DD(X), additional DDGs are needed and can be delivered 
more rapidly in the near-term than other shipbuilding programs thus re-
capitalizing the surface combatant force in both numbers and improved 
capability. Re-capitalization of the force is necessary if we are to 
maintain both a quantitative and qualitative edge and support a 
diminishing industrial base.

                         DELAYS IN SHIPBUILDING

    74. Senator Collins. Secretary Young, the CNO testified that the 
fiscal year 2003 proposed priorities invest in current readiness for 
our naval forces. However, I am aware that there have been some 
deferred depot maintenance periods due to current operations (i.e., 
combating terrorism) on the Los Angeles-class submarines in fiscal year 
2002, which will impact fiscal year 2003 and outyear workload 
schedules, placing the fleet ready submarines at risk to meet future 
missions as required by the CINCs. These delays can not only adversely 
affect fleet readiness, they can also cause dramatic workload 
imbalances at our shipyards. I am concerned that continued shifts in 
the workload to future years will place undue stress on the fleet and 
the yards. Therefore, I would like your commitment that your workload 
plans will be adjusted to maintain a stable workload and workforce at 
the shipyards.
    Secretary Young. Ship depot maintenance plans are continuously 
updated to incorporate actual execution, operational impacts, and 
financial resources. Availabilities are deferred only after the risk to 
Fleet readiness associated with deferring the work is determined and 
deemed acceptable.
    The Navy actively works to refine and schedule ship depot 
availabilities for effective shipyard execution. Keeping the shipyard 
workload level is essential to efficient operation and is a key 
consideration in scheduling availabilities.
    A skilled and motivated shipyard workforce is essential to maintain 
the Navy's high state of material readiness. Recognizing that many in 
the public shipyard workforce are rapidly approaching retirement 
eligibility, a primary focus of the Navy's depot maintenance program is 
maintaining a stable workforce with the skills we need. In view of 
these needs, we appreciate the support Congress has given the naval 
shipyard apprentice programs which will provide the skilled workers we 
will need in the future.

                              LCS CONCERNS

    75, 76. Senator Collins. Admiral Mullen, I have been recently 
hearing discussions that the Navy may be accelerating the littoral 
combat ship (LCS) to deploy ahead of the development of DD(X). DD(X), 
as I understand it, is to be the engine and the lead shipbuilding 
program that will drive the rest of the family of ships. While LCS may 
indeed have a unique, contributory niche role in that future netted 
force, I am concerned that the Navy may be getting ahead of itself in 
ascribing characteristics to LCS for which a requirements assessment 
has yet to be conducted or a concept validated. Has the Navy performed 
the traditional analysis of alternatives requirements on the LCS ship? 
Can you respond to my concerns regarding this member of the DD(X) 
family?
    Admiral Mullen. The Navy has not yet conducted a traditional AOA 
for the LCS.
    However, the Navy is developing a draft surface combatant family of 
ships capstone requirements document (CRD). This document will be an 
overarching requirements document from which the individual operational 
requirements documents for the DD(X), CG(X), and the LCS will be 
derived. Although a traditional AOA has not been conducted, the Navy is 
leveraging off the CRD and a number of studies to help define the LCS 
requirements.
    The Navy is in the early process of exploring technologies and 
potential characteristics for the LCS. As an example, the Naval War 
College (NWC) was tasked to recommend characteristics best suited for 
LCS; and, if the technology exists, or will exist in the near-term, it 
will support these characteristics. The Navy plans to use the data from 
these studies as contributory material in the development of the ORD to 
support the LCS acquisition. A formal ORD development and validation 
process, along with the required supporting analysis, is beginning. 
This will be a necessary part of the acquisition documentation needed 
for LCS Milestone decisions.

                           FACTORY EFFICIENCY

    77. Senator Collins. Admiral Mullen, the submarine factory workload 
is seeing a rise in anticipated future requirements, particularly in 
light of the Trident submarine conversions and the increased number of 
Los Angeles-class refuelings over the next few years. I believe that 
this influx of work should be providing additional opportunities across 
the submarine factory. However, the yard located in my state is at risk 
of seeing dramatic peaks and valleys in its workload during fiscal year 
2003 and fiscal year 2004. This is simply unacceptable. Are you looking 
into ways that the Navy can more efficiently utilize the yards 
supporting the submarine factory to ensure a level workload at all of 
the naval shipyards is implemented to ensure that the submarine factory 
is operating at it maximum efficiency?
    Admiral Mullen. The contribution provided by the workers of the 
naval shipyards is important to the Navy and the Nation. The innovation 
and dedication to quality submarine maintenance by the workers at 
Portsmouth Naval Shipyard (PNSY) is greatly appreciated by the 
Department.
    The fiscal year 2003 workload phasing challenge at PNSY is 
primarily driven by the difficult decision to delay the U.S.S. 
Annapolis depot modernization period (DMP). Delaying this DMP was 
considered the best available option to fund Navy operational 
priorities. This option limited the effect to a single submarine.
    The Navy is continuously evaluating the scheduling of ship 
availabilities to achieve the highest state of readiness balanced 
against shipyard workload and efficiency considerations. In formulating 
the fiscal year 2003 budget the Navy carefully considered workload at 
PNSY. The budgeted workload is consistent with fiscal year 2002 
budgeted levels. The Department considers several factors when 
assigning submarine availabilities. They include:
    a) Assignment of effort to an industrial facility near the ship's 
homeport;
    b) Maintaining reactor servicing skill levels; and
    c) Avoiding, to the extent practical, major shifts in workload 
levels across all the shipyards.
    The Department is in the process of evaluating availability 
assignments through the FYDP. All four of the naval shipyard commanders 
are part of the planning process. Their inputs are extremely valuable 
as the Department goes through the difficult effort of achieving the 
optimum balance between fleet readiness, fiscal realities, and shipyard 
workloading.

    [Whereupon, at 4:34 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                         TUESDAY, APRIL 9, 2002

                               U.S. Senate,
                          Subcommittee on Seapower,
                                Committee on Armed Services
                                                    Washington, DC.

NAVY EQUIPMENT REQUIRED FOR FIELDING A 21ST CENTURY CAPABILITIES-BASED 
                                  NAVY

    The subcommittee met, pursuant to notice, at 2:37 p.m. in 
room SR-222, Russell Senate Office Building, Senator Edward M. 
Kennedy (chairman of the subcommittee) presiding.
    Committee members present: Senators Kennedy, Reed, Warner, 
McCain, Sessions, and Collins.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Creighton Greene, 
professional staff member; and Christina D. Still, professional 
staff member.
    Minority staff members present: Judith A. Ansley, 
Republican staff director; Edward H. Edens IV, professional 
staff member; Gary M. Hall, professional staff member; Ambrose 
R. Hock, professional staff member; and Thomas L. MacKenzie, 
professional staff member.
    Staff assistants present: Daniel K. Goldsmith and Andrew 
Kent.
    Committee members' assistants present: Brady King and 
Christina L. Martin, assistants to Senator Kennedy; Frederick 
M. Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Benjamin L. Cassidy, assistant to 
Senator Warner; Christopher J. Paul, assistant to Senator 
McCain; Arch Galloway II, assistant to Senator Sessions; 
Kristine Fauser, assistant to Senator Collins; and Derek 
Maurer, assistant to Senator Bunning.

    OPENING STATEMENT OF SENATOR EDWARD M. KENNEDY, CHAIRMAN

    Senator Kennedy. Senator Sessions will join us shortly and 
we will proceed. The subcommittee meets this afternoon to 
discuss the Navy-Marine Corps equipment issues and needs in 
order to meet their future operational requirements. We will 
hear from two panels of witnesses. The subcommittee invited 
Admiral Vern Clark, the Chief of Naval Operations, to discuss 
the overall strategic context in which the Navy Department is 
making specific hardware choices in the budget and the future 
years defense program and how the Navy budget supports fielding 
a 21st century capabilities-based Navy.
    On the second panel we will hear from four witnesses about 
the specific equipment programs that will support the 
Department of the Navy's 21st century capabilities: Major 
General William Whitlow, Director of the Expeditionary Warfare 
Division; Rear Admiral Phillip Balisle, Director of the Surface 
Warfare Division; Rear Admiral Paul Sullivan, Director of the 
Submarine Warfare Division; and Rear Admiral Michael McCabe, 
Director of the Air Warfare Division. I welcome each of our 
witnesses and look forward to their testimony.
    I believe the world we face will continue to be one of 
uncertainty and unrest. Therefore, I continue to believe that 
greater emphasis should be placed on lighter, more lethal 
forces and on mobility forces. We have seen proof during the 
last year that this is a job at which the Navy and Marine Corps 
excel.
    However, we must not let the outstanding performances by 
the Navy and Marine Corps distract our attention from some very 
real problems that face the sea services. This subcommittee has 
been working diligently with the Department of the Navy to 
address some of the very important problems, including 
improving fire support capability, organic Marine Corps fire 
support and Navy shore fire support, and augmenting our mine 
countermeasures capability both for sea and land combat.
    I note for the record this subcommittee has taken the lead 
in Congress in ensuring that the Navy and Marine Corps improve 
existing capabilities in these areas, in many cases over the 
objections of senior Defense and Navy Department officials.
    Unfortunately, we are seeing early signs that the Navy 
Department may be lapsing into previous unacceptable behavior. 
Some of the instances that may be forming a pattern are:

        <bullet> Cancelling the planned and attack destroyer, 
        the DD 21 program. DD 21 was intended to be a multi-
        mission ship. It was primarily aimed at meeting the 
        Navy surface fire support requirements for the Marine 
        Corps. DD 21 was to have been the first ship in a class 
        of 32 ships, with delivery starting fiscal year 2010.
          Marine Corps officials had previously testified that 
        nothing short of the capability of the planned DD 21 
        with two 155-millimeter guns would meet the fire 
        support requirements.
          With the new DD(X) program, there is no firm 
        commitment in the new future years defense program to 
        build anything other than a demonstration ship using 
        reseach and development (R&D) funding. It is not clear 
        when or if the future years defense program (FYDP) 
        would lead to meeting the Marine Corps fire support 
        needs.
        <bullet> Terminating the fire support missile program, 
        the Land Attack Standard Missile (LASM). The LASM 
        program was a program designed to use old surface-to-
        air missiles to provide some fire support capability, 
        particularly at longer ranges. LASM was intended to be 
        an interim system that would have been replaced by a 
        new system, the advanced land attack missile (ALAM) 
        system. Last year it appeared that the Navy was 
        cancelling ALAM. However, we could not tell for sure 
        since the budget request did not give any information 
        about fiscal years after 2002. This year it is clear 
        the Navy is cancelling both the ALAM and the LASM.
        <bullet> Cancellation of the Shallow Water Minefield 
        Breaching System. The Navy decided last year to 
        terminate the Shallow Water Assault Breaching System 
        and distributed explosive technology, the Shallow Water 
        Mine Clearance System. In part, they based this 
        decision on the fact that the systems were too bulky to 
        be carried continuously aboard ship and the lanes 
        cleared through the minefield would not be wide enough.
          The Navy made this cancellation in spite of the fact 
        that the Navy has no near-term alternative to provide 
        this capability. It is hard to understand why having no 
        capability in this area would be better than at least 
        having some capability, whatever the shortcomings.
        <bullet> Retiring the U.S.S. Inchon mine command and 
        control ship. Several years ago, with significant 
        pressure from this subcommittee, the Navy decided they 
        needed to have a large aviation-capable ship that would 
        be dedicated to mine countermeasures. They converted an 
        older amphibious ship, the U.S.S. Inchon, to this duty. 
        While the ship served the purposes for which it was 
        intended, the fact that it was an older ship and was 
        probably not the highest on the Navy maintenance 
        priority list caused an erosion in the material 
        condition.
          Within the last year, the crew experienced a fire on 
        the ship, with one person killed. Because the Navy has 
        decided that fixing this ship would be too expensive, 
        they are retiring the ship with no immediate 
        replacement. Navy officials have said that in the 
        interim they would use one of the amphibious ships in 
        the regular fleet in case they need to conduct 
        dedicated minesweeping operations.

    This was the position we were in before the subcommittee 
began pressing the Navy to make a significant mine warfare 
improvement in the early 1990s.
    Unfortunately, there are other examples I could cite, but 
in the interest of time I will not. Each of these actions taken 
individually may have an explanation. However, taken as a 
whole, I fear they are part of a pattern of the Navy 
Department's walking away from their funding of the very 
capabilities that make the Navy and Marine Corps team so 
relevant in today's world.
    If there is a new national military strategy that is 
charting a new course for the Navy-Marine Corps team, we need 
to hear about it and understand it. If there is not, we need to 
ensure that the Department of the Navy does not march down a 
path of incrementally divesting capability without a thorough 
understanding of where these actions would take us. I hope we 
can explore these and other issues with Admiral Clark today.
    During the second panel we will hear from individual 
warfare area sponsors more specifically about the capabilities 
that this budget supports.
    Before we begin with Admiral Clark, I would be glad to 
recognize Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I will be very 
brief.
    I welcome Admiral Clark and the next panel of witnesses. 
Admiral, I am very concerned from a macro sense the lack of 
proposed increases in shipbuilding. I had the privilege along 
with nine of my colleagues to visit the U.S.S. Theodore 
Roosevelt and I was proud of the fact that their morale was so 
high. It was an exhilarating experience. We also know that they 
set a record for longest time at sea.
    If you believe that there is a possibility of further 
crises like this around the world in the war on terrorism, it 
seems to me it has been made obvious that we do not have enough 
aircraft carriers. I hope in your remarks you can address that 
issue. Admiral Blair, I believe, made similar comments recently 
as we were left uncovered in certain areas as far as a carrier 
presence is concerned.
    So I am concerned about the rate of overall shipbuilding 
and I will have some specific questions. But I think there are 
many lessons we have learned from this latest conflict and one 
is that there needs to be air power from ships available for 
the area commanders to use when absolutely necessary.
    Thank you, Mr. Chairman.
    Senator Kennedy. We always welcome the former chairman of 
our committee and now the ranking member, Senator Warner.
    Senator Warner. I join you in welcoming our witnesses.
    Senator Kennedy. We welcome any comments that you would 
like to make. Before you begin, Admiral Clark, I would like to 
recognize our subcommittee's ranking member, Senator Sessions.
    [The prepared statement of Senator Sessions follows:]

              PREPARED STATEMENT BY SENATOR JEFF SESSIONS

    I thank our Chairman, Senator Kennedy, for scheduling today's 
hearing and join him in welcoming Admiral Clark, the Chief of Naval 
Operations, and his requirements officers.
    Our men and women of the Navy will depend on the strategy, 
doctrine, and equipment that we will be discussing today to carry out 
their missions. The strategy and doctrine must be sound. The equipment 
must be the best we can provide and it must be provided in sufficient 
quantities to make a difference.
    We have a great challenge before us. The Department of Defense 
decided during the 2001 Quadrennial Defense Review to adopt a 
capabilities-based approach to planning instead of using a threat-based 
approach. Tomorrow's force must have the capability to handle the most 
challenging scenarios of the future. While it is prudent to understand 
the lessons learned from Operation Desert Storm, previous conflicts, 
and of the current war on terrorism, it is imperative that we resist 
the temptation to equip tomorrow's forces based solely on lessons of 
the past. We do know from experience that the one thing we cannot 
predict is the nature of the next conflict.
    We also know, from over two centuries of operations, that a strong 
Navy and Marine Corps are vital to national security. The American 
people have seen vivid images on their televisions and in newspapers 
and magazines of the Navy and Marine Corps conducting strikes in 
Afghanistan. These vivid images underscore, once again, the importance 
of ships and marines at sea that can respond quickly to the operational 
commander's requirements and conduct continuous joint combat 
operations.
    The Navy and Marine Corps team's ability to provide forcible entry 
and to strike quickly and with deadly accuracy deters potential 
adversaries from taking offensive action. The men and women of the Navy 
and Marine Corps require information superiority to carry out the full 
range of missions from forward-deployed presence to full scale war. 
This information superiority provides strategic and tactical advantage 
and enables rapid, precise, and effective action.
    Presence, and the resulting information superiority, is possible 
through our ships and aircraft exercising freedom of navigation in the 
littorals and on the high seas throughout the world. Forward deployed 
ships provide the sovereign territory from which power can be projected 
on short notice. They provide the regional commanders in chief a 
rapidly scalable and sustainable range of options to support our 
national interests.
    The requirements for equipment on those ships and aircraft are 
researched, developed, tested, and then procured to support anticipated 
Navy and Marine Corps missions. Every development and procurement 
program attempts to provide what is needed to meet a valid military 
requirement. Decisions on the capabilities and reliability provided by 
a given program are often made years before the equipment is fielded.
    Requirements officers and program managers face a number of 
challenges in providing the required equipment. They must decide 
whether to: upgrade aging equipment or buy new; develop equipment or 
buy off-the-shelf; provide exact specifications or provide performance 
parameters; design the equipment to accept rapid technology changes or 
delay procurement to provide added capability; and fix the cost for 
development or provide cost incentives for improved development 
performance. They look for ways to shorten the acquisition cycle and 
leverage funding from other programs.
    The requirements officers' newest challenge is to adjust their 
programs to provide a specific capability rather than to provide a 
counter for a specific threat. Our challenge is to review the 
development and procurement proposed in this budget request to ensure 
our forces are adequately equipped for future operations. The most 
common way to evaluate programs for this type of review is to compare a 
future capability requirement to the program cost and performance 
indicators. Although it is easiest to make evaluations from the 
perspective of the individual program or its specific warfare area, 
future operations require us to broaden our perspective to include 
evaluation of how the capability supports joint, coalition, and other 
warfare specialty operations.
    The following are key questions which will assist us in these 
reviews and evaluations:
    1. Will Navy and Marine Corps plans for mine warfare capabilities 
enable timely access for joint operations?
    2. What is the Navy's plan for ensuring P-3 and SH-60 aircraft 
capabilities and availability for joint and coalition forces?
    3. Is the plan for modernization adequate to support the tempo and 
nature of expected operations, given the lagging plans to buy new ships 
and aircraft?
    4. What capabilities directly support joint and coalition 
operations, and should the proposed capabilities include seamless 
communications and operations with Navy and Marine Corps operational 
units?
    5. Can the Navy's plan to provide land attack weapons in support of 
joint operations be accelerated?
    Again, welcome to our witnesses today. I look forward to their 
testimony.

    Senator Sessions. Mr. Chairman, I also have a statement 
from Senator Collins.
    [The prepared statement of Senator Collins follows:]

              Prepared Statement by Senator Susan Collins

    Thank you Mr. Chairman. I would like to thank the distinguished 
chair and ranking member for calling this very important hearing on the 
topic of Navy equipment required for fielding a 21st century 
capabilities-based Navy. As we predicted, the battleground and 
warfighting requirements are changing and so must the naval forces of 
today. As I have stated many times, seapower is among the most 
essential components of our national security posture and an important 
part of ensuring the U.S. meets its global commitments.
    Currently, our naval forces are providing immediate access and 
forward-deployed combat power, 24/7, in support of Operation Enduring 
Freedom, but our current capabilities and equipment must evolve as the 
threat continues to evolve. Our naval forces of tomorrow must stand 
ready to assure access and to project joint and combined power in 
support of national policy.
    The fact is that we will face a variety of challenges in the 21st 
century. These challenges, such as cyberwarfare, weapons of mass 
destruction, and continued international terrorism, define not only an 
unpredictable future, but one that will require our naval forces to 
operate with new deterrence options and require a significant 
investment in next-generation research and development capabilities and 
platforms. These platforms and capabilities will have to be survivable, 
cost effective, and agile enough to allow for a highly capable, easily 
maintained, and modernized force for years to come.
    These capabilities, and the fact that two-thirds of the world's 
surface is covered by ocean, make a compelling case for robust naval 
forces. Forward presence, however, requires that our ships, subs, and 
aircraft are available and ready to deter, fight, and win. I have said 
and will continue to state, that in order to meet the challenges of the 
21st century we must recapitalize and invest in the naval forces of 
tomorrow today!
    America's national security demands that we recapitalize our Navy 
today. President Bush and his administration have identified this 
global war on terrorism and homeland security as our highest 
priorities. As we in Congress work with the Bush administration to 
defend freedom, I will continue to encourage the replenishment of our 
naval fleet as the cornerstone of this global defense.
    We cannot continue to defer this investment year after year, as we 
are just slipping deeper and deeper into a procurement hole, and that 
is why we must look at all of the resources available in the Department 
of the Defense's budget, including the Defense Emergency Response Fund 
(DERF), or contingency fund, to begin to address this egregious 
shortfall.
    If we continue to underinvest in our critical naval forces--i.e., 
our naval shipbuilding and research and development accounts--the 
future force is at risk. Therefore, I am convinced there will be a need 
for even greater reliance on our naval forces as joint operations 
emerge to provide sovereignty to our fighting forces. Proof is in our 
current operations in Afghanistan. For these reasons and many others, I 
share the view of many of my colleagues that we must recapitalize our 
fleet today to ensure that America retains her maritime power in the 
21st century.
    I will close by welcoming each of the distinguished witnesses to 
the committee, and I look forward to working with each of you in the 
weeks and months ahead, to not only bring the procurement rates of our 
platforms up, but also to ensure that we are investing in the force of 
tomorrow. I look forward to your testimony this afternoon. Thank you, 
Mr. Chairman.

    Senator Kennedy. Thank you. Admiral Clark, I enjoyed 
getting a chance to talk with you recently and valued those 
conversations and insights. We welcome you here before the 
subcommittee and look forward to your testimony.

    STATEMENT OF ADM. VERNON E. CLARK, USN, CHIEF OF NAVAL 
                           OPERATIONS

    Admiral Clark. Thank you very much, Mr. Chairman, Senator 
McCain, and Senator Warner. Good to see you this afternoon. 
Speaking on behalf of the rest of the team in Panel Two which 
is going to be here in a few minutes and the members of our 
staff, we appreciate the chance to come up and see you this 
afternoon.
    Mr. Chairman, I have submitted an extensive statement that 
addresses a number of the things that you spoke about and, with 
your concurrence, I would ask that we submit that for the 
record. Since I appeared before the full committee on March 7, 
I will keep my opening comments brief.
    Senator Kennedy. Without objection, that is so ordered.
    Admiral Clark. I want to start by just saying that it is 
clear to me, reinforcing Senator McCain's comments, that our 
success in Operation Enduring Freedom has been caused first and 
foremost by the dedication and the professionalism of the men 
and women who are serving in our Navy, certainly the finest 
navy in the world, second to none.
    Second, I believe that our success in Operation Enduring 
Freedom is the result of the significant investments that have 
been made in current readiness and manpower, improvements to 
those accounts, and those changes supported by this committee 
and the rest of Congress.
    I also believe that this war on terrorism is certainly a 
powerful demonstration of why our country needs a navy. I 
believe that it is a vivid illustration of the relevance of 
operating from the maritime domain, the need for maritime 
dominance. We are taking our Nation's sovereignty to the far 
corners of the Earth, specifically off the coast of Pakistan 
and Afghanistan, and the beauty of that is that we are doing it 
without a permission slip. We are doing it without getting the 
permission of some country that can say yes, you can, or no, 
you cannot.
    To me that means that ``anywhere, any time'' is not just a 
bumper sticker. In the case of the United States Navy and its 
number one partner in jointness, the United States Marine 
Corps, it is a reality.
    Now, when I appeared before the full committee on March 7, 
I talked about the fact that the Navy and Marine Corps team had 
been a key player, and I am sensitive to the use of words that 
sound self-aggrandizing, that sound like we think that we might 
be able to do it all by ourselves. I think I want to emphasize 
that none of the services in my view can do it all by 
themselves and certainly we cannot.
    But I do believe that Operation Enduring Freedom has been 
an excellent example of the things that I have already spoken 
to and have demonstrated, that the United States Navy and its 
ability to operate out of the maritime domain has made it a key 
factor in the successes that we have realized in operations in 
Afghanistan. From the issues of tactical strike to being a lead 
player in overland manned surveillance, not something that you 
would normally think about when you talk about the United 
States Navy, a key player on the ground side--many people are 
unaware of the fact that we had 750 Navy people on the beach, 
central to the Special Operations Forces mission, from Kitty 
Hawk to our own Special Forces.
    Then, of course, we are a leader in the maritime coalition. 
At times there have been upwards of 105 ships, Navy ships from 
the various nations, present in those operations. They want to 
be partners, first and foremost, with one Navy, and that is the 
United States Navy.
    Moreover, I believe that this war has been showcasing what 
it means to be a capabilities-based Navy. It is highlighting 
our flexibility, precision, reach, and persistence. Admiral 
Mullen spoke before this subcommittee a few days back and 
talked about the fact that 80 percent of the Navy strike 
sorties, the operations conducted, when the sorties were 
launched the pilots were unaware of the specific targets that 
they were going to hit; that 93 percent of Navy TACAIR ordnance 
was precision guided--certainly reemphasizing the importance of 
the decision to focus on precision after Operation Desert 
Storm.
    Then, more significantly, there is the issue of combat 
reach. The average sorties have been 7 hours in the cockpit for 
fighter pilots flying missions over Afghanistan, sometimes as 
long as 12 hours.
    Then the whole issue of persistence, one of my favorite 
words these days, focusing on the importance of being there, 
the importance of being able to respond at a moment's notice, 
and especially when you have thousands of Americans committed 
to a particular operation.
    This year's budget, the budget that we are here to talk 
about today, was constituted with some real tough choices, I 
believe the correct choices, given the top line that we had to 
work with. It does prioritize current readiness. It does 
prioritize investments in manpower. When somebody asks the 
reason why, as I talked about some on March 7, it is because 
our Navy must be ready to go to sea, fight and win on a 
moment's notice. That is what these priorities do.
    That being said, it is very clear still that we have to 
keep our eye on the future. We must understand that in order to 
have a Navy in the future we have to have ships and we have to 
procure aircraft. Clearly, this budget does not have us where 
we would like to be and where we would desire to be, and that 
is the biggest challenge that we face in the procurement side 
in our Navy today.
    I do want to say that I do not believe that it is all about 
numbers. I do believe that numbers count, numbers have a 
quality all their own. There is no question about that. But it 
is more important that we buy the right kinds of capabilities 
in the ships that we are procuring in the future; and that is 
what we need to focus on and ensure that we are doing.
    We are fully engaged in transforming this Navy into a 21st 
century fighting force, and to that end we have terminated some 
programs. Mr. Chairman, you have mentioned some of those in 
your opening remarks. We have terminated 7 programs and 
restructured 12 others over previous years. We have done this 
to capture efficiencies, but also to prioritize the investment 
in the areas that we believe will produce for us the most 
warfighting capability.
    When I think about the future and I think about where our 
Navy is going in the future--and this is not tomorrow's Navy, 
but it is a Navy of a generation away--I think about a Navy 
that has more of the kinds of capabilities that I think that we 
are demonstrating today in Afghanistan. That is about 
flexibility and precision and combat reach and persistence and 
expeditionary mobility.
    I believe the future is about Joint Strike Fighter, the 
Littoral Combatant Ship, and DD(X), and I believe that these 
platforms will play huge and important roles in increasing our 
ability to dominate a battle space in the future and improve 
our combat effectiveness. It is about CVN(X) and it is about F/
A-18E and it is about the new submarine programs. It is about 
research and development into our future.
    I would just say that, with regard to DD(X), the output 
from the research and development in this program will produce 
a family of ships that is going to define what the United 
States Navy is all about for, in my opinion, the next four 
decades, and it is of utmost importance and we solicit your 
support in this regard.
    I believe that DD(X) and the R&D that is in DD(X) will also 
help our maritime partner, the United States Coast Guard, in 
its modernization and transformation efforts.
    Further, to the greatest extent possible, new technologies 
developed along the way must be incorporated into legacy 
platforms, ensuring that we transform the hulls that we own 
today. I think it important to point out that over 60 percent 
of the hulls that we own today will be in our Navy in the year 
2020. We must ensure that we take the steps to modernize that 
capability so that they are viable throughout their lifetime.
    So for the future, I see a Navy that is all about being 
able to climb into the ring with an enemy. We are about 
ensuring access. It means that we must be able to climb in the 
ring with an enemy and operate in high-risk environments, and 
the littoral can be a high-risk environment, with robust mine 
warfare and shallow water ASW capabilities.
    I see a Navy in the future that works more smoothly and 
effectively with our number one partner, the United States 
Marine Corps, in our newly designated expeditionary strike 
groups. I hope that we get a chance to talk more about that in 
the question and answer session.
    I see a Navy that plays a key part in homeland security and 
missile defense, and I see a Navy that is fully networked, with 
all the implications that suggests even more responsive and 
even more lethal in the future.
    In short, I see a Navy more effective than the Navy that we 
have today, a capabilities-based Navy that, like today, is 
preeminent in the maritime domain and can fight and win to 
preserve the blessings of peace that we enjoy in our country 
today and that we want to enjoy in the future for our children 
and our children's children.
    Mr. Chairman, I thank you again for the chance to be with 
you today and I look forward to responding to your questions.
    [The prepared statement of Admiral Clark follows:]

            Prepared Statement by Adm. Vernon E. Clark, USN

    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to appear before you. Your support of America's Navy has 
been vital to accomplishing our missions around the world--including 
swift and effective response to the attacks of 11 September 2001--and I 
thank you.

                         THE STRATEGIC CONTEXT

    The global war on terrorism is America's first war of the 21st 
century. Violent horizons lie before us, harboring profound challenges 
including the threat of cyberwar, weapons of mass destruction, 
continued international terrorism, and the havoc accompanying failed 
states. Importantly, such threats do not replace the specter of state-
on-state conflict. They add to the danger and uncertainty, providing 
new sparks to already combustible situations.
    This terrorist-filled world is more dangerous in many ways than 
that which existed when we faced the global strike and sea denial 
capabilities of the Soviet Union. We no longer counter a peer adversary 
that maintains order within its geopolitical orbit. Rather, the 
international landscape today is comprised of multiple actors whose 
interests form a complex pattern of interwoven and explosive tensions.
    Potential adversaries today include other states, informal 
alliances of states, and terrorist elements that range from state-
sponsored to state-opposed. Such terrorists may be local actors or 
integrated into global federations dedicated to the export of killing. 
Catalysts motivating potential enemies include religious fervor, 
political ideology, aspirations of regional dominance, dedication to 
fomenting domestic revolutions and, conversely, efforts at sustaining 
domestic order by deflecting internal tensions outward.
    Little is certain in this new world beyond the fact that such 
tensions can be expected to lead to repeated crises, quite often with 
minimal warning or predictability regarding size, location, or 
intensity. It can also be presumed that given America's peerless 
military power, strikes against our Nation, people, or interests will 
be delivered in an asymmetric manner, such as the attacks that took 
place last September in New York and Washington, or the previous 
October in Yemen against U.S.S. Cole.

                  THE NAVY'S ROLE IN THE 21ST CENTURY

    Forward deployed naval forces will continue to be a vital part of 
America's defense as we move into the 21st century, a time during which 
the range of threats will in all likelihood grow in volatility and 
unpredictability. Thus America's Navy must remain prepared to conduct 
combat operations anytime, anywhere with maximum effectiveness and 
minimum risk.
    Yet accomplishing our missions has become steadily more 
challenging. Our Navy's force structure declined 41 percent since 1991, 
from 538 to 315 ships, while the global war on terrorism has increased 
the call for forward-deployed naval forces. The introduction of a new 
class of smaller combatant--the Littoral combat ship (LCS)--will help 
ease the strain and could lead to a war-sustaining fleet of 
approximately 375 ships.
    The current pace of operations is very high. Approximately half of 
the fleet is at sea every day. Nearly one-third of the fleet is 
deployed forward around the world, while the remainder is operating off 
our coasts, conducting training or homeland defense missions with the 
United States Coast Guard.
    In view of this taxing requirement, we are exploring innovative 
methods of increasing the presence and striking power of naval forces. 
One construct is to complement amphibious ready groups with surface 
combatants and submarines, producing expeditionary strike groups 
equipped to destroy terrorist elements wherever they may be found.
    We are also experimenting with flexible manning techniques to 
produce greater efficiencies in conducting prolonged on-station 
missions, such as guarding international straits or other locations of 
exceptional strategic value.
    At home, fleet commanders are taking measures to minimize the loss 
of readiness that traditionally occurs between deployments. 
Historically, deployed readiness has been achieved at the expense of 
the non-deployed segment of our force structure. That is no longer 
acceptable and, thanks to Congressional support, we have made 
significant progress over the past several years in correcting long-
standing shortfalls in spare parts, munitions, and training.
    Fiscal year 2003's budget submission continues that trend, adding 
$2.7 billion to manpower accounts, $2.8 billion to operations and 
maintenance accounts, over $1 billion to research and development, and 
over a half billion dollars to procurement. We have also programmed 
$2.6 billion to buy munitions and $1.3 billion for homeland defense.

                     NAVY TRANSFORMATIONAL CONCEPTS

    Sustaining warfighting effectiveness in this uncertain strategic 
environment will require continued global presence by sovereign naval 
forces that are prepared to counter whatever capabilities the enemy may 
bring to bear. Quantity has a quality all its own in this regard, and 
our Navy will remain on-station around the world, prepared to fight and 
win.
    The dynamic and unpredictable nature of potential enemies demands 
that we continually develop new and more effective capabilities to 
prevent crises and--should deterrence fail--project offensive and 
defensive power ashore. The 21st century Navy must be strategically and 
operationally agile, technologically and organizationally innovative, 
networked at every level, highly joint, and effectively integrated with 
allies.
    Three core operational concepts are key to achieving Navy 
transformation: the application of precise and persistent global 
striking power, the ability to assure access to the littorals and 
project defense overland, and the capability to conduct sustained 
operations from sea bases.
    Precise and persistent global striking power is the offensive 
element of the 21st century Navy. Its effectiveness is derived from 
network-centric operations in which platforms and sensors are fully 
integrated to form seamless warfighting knowledge. Situational 
awareness generated from this network provides rich understanding of 
the adversary that enables the tailored application of power, allowing 
our forces to sustain the initiative, disrupt enemy timelines, and 
deliver operational success.
    Concurrently, the ability to assure access to the littorals and 
project defense overland provides battlefield dominance, assuring 
allies and deterring adversaries. Such battlefield dominance exploits 
expeditionary sensor grids that sweep from seabed to space, cueing 
coordinated air, surface and subsurface combatants to neutralize enemy 
threats. This element of naval power relies upon control of the seas, 
allowing us to guard the flow of trade while identifying, tracking, and 
intercepting threats long before they reach our shores.
    Finally, leveraging the mobility and security of ships on the vast 
oceans in the form of sea basing assures the effective projection of 
sovereign American power. At the operational level of war, sea basing 
serves as a secure foundation from which to project expeditionary 
warfare, while minimizing the requirement to stage vulnerable forces 
and supplies ashore.
    Achieving Navy transformation will include both new procurement and 
aggressive modernization. Nearly 60 percent of the ships in the Navy 
today will be in the fleet in 2020. Thus a significant portion of 
Navy's transformation will occur within existing hulls, placing an 
emphasis on new systems and capabilities that can be inserted through 
modernization. These upgraded platforms will complement new ships and 
aircraft joining our fleet.
    Examples of exciting new technologies that will accelerate our 
transformation toward a fully networked Navy include the DD(X) 
destroyer and its related family of ships, Joint Strike Fighter, 
unmanned aerial vehicles, unmanned underwater vehicles, Tactical 
Tomahawk, advanced gun system, theater ballistic missile system, 
cooperative engagement capability, Navy-Marine Corps intranet, and SSGN 
strike submarine, among others. These systems, in turn, will be 
employed in innovative ways via concepts validated in the fleet battle 
experiment series coordinated by the Navy Warfare Development Command 
in Newport, Rhode Island.
    As it progresses, the process of Navy transformation will yield a 
dispersed and networked fleet that enhances deterrence, assures access, 
conducts precision strikes, gathers real-time intelligence, exercises 
joint command and control, and leverages the priceless advantage of sea 
control. In short, it will be a fleet that serves as the leading edge 
of America's defense--around the world, around the clock.

                     NAVY READINESS AND PROCUREMENT

    As promised in previous testimony, the Navy's budget funds manpower 
and current readiness first and fullest because those accounts are key 
to mission accomplishment around the world. Our operational success in 
Afghanistan is a direct reflection of these investment priorities, as 
supported by Congress.
    To sustain the size of the current fleet, we would need to buy an 
average of 180-210 aircraft and 9 ships a year. We are currently 
procuring significantly less than that. The fiscal year 2003 budget 
will, if approved as submitted, provide just 5 ships and 83 naval 
aircraft.
    Harvesting efficiencies within our Navy is key to increasing 
procurement and we will focus a major effort toward that goal over the 
next 2 years. Failure to free such resources would have a profoundly 
negative effect on the fleet.
    Naval aviation, in particular, would suffer as that community faces 
the greatest near-term challenges. Our current aviation force contains 
the oldest mix of type/model/series aircraft in naval history. Yet 
these aircraft are being tasked to unprecedented levels in on-going 
conflict. The F/A-18 force, for example, has been flown well in excess 
of planned utilization rates and more than 300 F/A-18 aircraft will 
require service life extensions earlier than planned. The best way to 
address such problems is to introduce new aircraft into the fleet as 
soon as possible
    While our surface and subsurface combatant fleet is, on average, 
fairly young, the rate of ship recapitalization bears watching. The 
following chart illustrates the dramatic decline in authorized ships 
since 1980.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The impact of the current low procurement rate goes beyond force 
levels. It adversely affects the stability of our defense industrial 
base, and we are paying a premium in program cost due to the small 
number of units being built.
    On a more positive note, maintenance and modernization efforts are 
progressing well due to solid increases in current readiness funding 
over the past several years. The fiscal year 2003 budget requests the 
following additional dollars over the fiscal year 2002 budget: $804 
million for ship operations and maintenance, $119 million for flying 
operations and maintenance, $276 million for combat and weapons 
support, and $310 million for base support.
    Additionally, the ships and aircraft being developed are superb and 
will serve us well as the core capability of our force in the coming 
decades. DD(X), CVN(X), JSF, F/A-18E/F, LPD-17 and the Virginia-class 
SSN present impressive technological leaps in warfighting capability, 
innovation, and reliability. Program specifics include:
    DD(X)/CG(X)/LCS. Maritime dominance in the 21st century requires a 
naval force capable of projecting power and defeating anti-access 
threats. To accomplish these missions, the future surface naval 
combatant force will consist of four elements: DD(X) advanced multi-
mission destroyers that provide precision strike and volume fires; 
CG(X) advanced cruisers to achieve sustained air superiority against 
airborne threats and ballistic missiles; agile Littoral combat ships to 
defeat enemy defenses such as mines, small boats, and submarines; and 
today's Aegis fleet kept current through the insertion of developing 
technologies. Cutting-edge systems integral to this family of ships 
include the advanced gun system, multi-function radar/volume search 
radar, integrated power system electric drive, and revolutionary hull 
forms.
    CVN(X). The fiscal year 2003 budget provides RDT&E and advance 
procurement for the first CVN(X). CVN(X) will replace U.S.S. Enterprise 
in fiscal year 2014 when that ship is in her 53rd year of commissioned 
service. Design objectives for the CVN(X) class include a significant 
reduction of total ownership costs during the carrier's 50-year 
expected service life, reduced manning, and incorporation of a flexible 
infrastructure that will allow the insertion of new capabilities as 
they evolve.
    JSF. The Joint Strike Fighter contract was signed in 2001. It will 
provide an aircraft with unprecedented stealth and range to the fleet 
as part of a family of tri-service, next-generation strike aircraft 
with an emphasis on commonality and technological superiority at an 
affordable price. The fiscal year 2003 budget supports procurement of 
the initial variant in fiscal year 2006.
    F/A-18E/F. The F/A-18E/F will replace older F/A-18s and all F-14s. 
There is extensive commonality of weapons systems, avionics, and 
software between F/A-18 variants, and the infrastructure supporting the 
Super Hornet builds upon existing organizations.
    LPD-17. Although we have experienced design and production 
difficulties with the lead ship, we remain fully committed to this key 
program. LPD-17 supports vital littoral warfighting requirements and 
promises relief from the escalating costs of our aging amphibious 
ships. The LPD-17 class will replace four older classes of ships and 
serve as a central element of future amphibious ready groups/
expeditionary strike groups. We need to accelerate development of these 
ships as rapidly as design and production facilities will allow.
    Virginia-class submarine (SSN-774). This class will replace Los 
Angeles-class (SSN-688) attack submarines as they leave the fleet. SSN-
774s are designed for multi-mission littoral operations, as well as 
traditional open-ocean anti-submarine and anti-surface missions. They 
will also incorporate new technologies as they become available, 
ensuring future effectiveness. The fiscal year 2003 budget procures one 
submarine per year and continues RDT&E. This pace of procurement will 
have to be increased beyond the current FYDP to maintain the required 
attack submarine force level over the long term.

                    SAILORS: OUR MOST VALUABLE ASSET

    Winning the global war on terrorism is our primary goal, and Navy's 
fiscal year 2003 budget prioritizes manpower and current readiness 
above future readiness and infrastructure needs for that reason. As 
noted earlier, the fiscal year 2003 budget submission adds $2.7 billion 
to manpower accounts over fiscal year 2002 levels and an additional 
$2.8 billion in operations and maintenance funding.
    Thanks to the unequivocal support of Congress--including increases 
to base pay and bonuses, retirement reforms, and better medical 
benefits--sailors are staying Navy in record numbers. In 2001, we 
retained 58 percent of all eligible sailors at the end of their first 
enlistment, 67 percent of sailors with 6-10 years of service, and 83 
percent of sailors with 10-14 years of service. Additionally, 1,512 
more sailors were advanced in 2001 than the year before.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Navy also met our overall recruiting goals in fiscal years 
1999, 2000, and 2001, and this year we are well ahead of the record-
setting pace of fiscal year 2001. Thanks to these successes, battle 
groups are deploying better manned than ever before.
    We are winning the battle for people, but important challenges 
remain. Officer retention in most line communities is below required 
levels and recruiting shortfalls exist in officer specialty areas and 
critical enlisted ratings.
    We are also dedicated to continuing the fight against attrition. 
The annual attrition rate for first-term sailors has been reduced from 
over 14 percent to 10 percent since 1998, retaining thousands of young 
men and women for service. Yet we can--and will--do better. Concerned, 
involved leadership is central to minimizing attrition without 
compromising standards. To make this happen, I have directed Navy 
leaders to take every measure to ensure our people succeed and prosper.
    Key to achieving that goal is cultivating a command climate 
throughout the Navy that offers plentiful opportunities, encourages 
participation, and is conducive to personal and professional growth. We 
are striving to minimize the increased wartime operational tempo of the 
fleet via careful planning and innovative training. This is the first 
time in modern history that the Services have faced a prolonged 
conflict with an all-volunteer force, and we must protect the integrity 
of our fleet.
    Two initiatives have been launched during the past year to help us 
fully utilize our sailors' potential:
    Task Force EXCEL (Excellence through our Commitment to Education 
and Learning) is making impressive progress in developing processes, 
policies, and structures to fully realize the capabilities of every 
sailor. Seventeen ratings are currently under review to find ways to 
expand professional learning, earn certifications that are recognized 
by the civilian community, and enhance personal growth. The goal is to 
provide a comprehensive development plan for every sailor based upon 
education that takes place in the classroom and on the internet as part 
of a culture of continual learning.
    Project SAIL (Sailor Advocacy through Interactive Leadership) is a 
new program that will have a major impact on how the Navy assigns our 
personnel. Using a team detailing process that includes sailor 
advocates, enhanced internet connectivity, and billet incentivization, 
Project SAIL will strengthen efforts to find the best set of orders for 
every one of our sailors, leading to assignments that are both 
professionally rewarding and personally fulfilling.
    The shared focus of these initiatives is an appreciation that 
combat success in the 21st century will rely heavily on knowledge 
management derived from a highly educated and motivated volunteer 
force, a force that is empowered in their career decisions and 
encouraged to contribute to a climate of warfighting excellence.

                  CONCLUSION: A COMMITMENT TO VICTORY

    Our national leaders have repeatedly told the American people that 
the war against terrorism will be neither easy nor short. In addition 
to targeting international terrorist networks, the President has 
singled out states sponsoring terrorism for military action should they 
threaten international peace.
    This struggle promises to be global in scope and simultaneous in 
execution. It will require the full might of America's armed forces. In 
pursuing victory, the United States Navy--forward-deployed, highly 
capable, and poised for action--will play a leading role.
    I thank the subcommittee for your continued strong support of our 
Navy and our sailors. Working together, I am confident that we will win 
the global war on terrorism, leading to a more stable and peaceful 
world.

    Senator Kennedy. Thank you very much, Admiral Clark.
    I ask Senator Sessions if he wants to say a word.
    Senator Sessions. Thank you, Mr. Chairman. I am sorry I 
missed the beginning.
    I would just say that we know that we did not achieve as 
much as we would like in shipbuilding, new ships, and that the 
QDR rate is not being met. You made a decision under the 
circumstances that I suspect was the right decision, which was 
to focus on readiness and other matters, not to cut that in 
order to build a new platform. So I guess our hearing today 
will be how are you doing? Are you actually improving your 
readiness, new equipment, technologies and enough? Or is that 
just one more thing that we are not reaching the appropriate 
level?
    Thank you, Mr. Chairman, for having this hearing and thank 
you for your leadership in general. I know you care about this 
issue. You have studied it for many years and we appreciate 
you.
    Senator Kennedy. I will ask the staff to time 7-minute 
rounds for questions if you would, please.
    Admiral, in our conversation that we had yesterday I talked 
with you about the fire support capabilities for the Marines. 
That was outlined to this subcommittee a number of years ago 
and we have tried to follow this issue closely during this time 
and during the time when Senator Cohen was the chairman of the 
subcommittee. There was a great reliance on the DD 21 in terms 
of the fire support for the Marines.
    But nonetheless, we saw the cancellation of the DD 21, now 
it is the DD(X). It is going to be later, uncertain as to what 
is going to be the follow-on, and that is going to take us down 
into the out years, 2011 to 2012, in terms of the DD(X).
    What can you tell us? Those requirements are still there. 
They are enormously important, obviously, in terms of the 
Marines and their effectiveness. What can you tell us about 
this? The requirements have not changed. With the Navy program 
in terms of its support or filling that requirement, the 155-
millimeter gun batteries which were on the DD 21, what can you 
tell us about how you intend to meet that particular 
requirement?
    Admiral Clark. Well, thank you, Mr. Chairman. I believe 
that DD(X) is vital to our future, as I said in my very brief 
opening remark. One of the key reasons is because of the 
existence of the new technology that exists in the gun system. 
When Admiral Balisle testifies on panel two he can talk to some 
of the detailed specifics of the programmatics. If you want to 
talk dollars and those kind of things, I do not have those kind 
of things with me.
    But let me talk about the broader strategic approach to 
this. The requirements are valid. The Marine Corps has stated 
what kind of combat reach that we need. Today from our gun 
systems--and thinking about what we would do in an open session 
like this, our gun systems are incredibly--in DD(X) has an 
incredible improvement in combat reach, one of those 
characteristics that I discussed in my opening statement.
    We need that capability. I have every expectation that we 
are going to down-select that ship this month. The acquisition 
executive has testified earlier to that objective, to down-
select in April. That down-selection will lead to the 
development and the building of a ship that in this case will 
be done in research and development. But as our acquisition 
executive said recently, as this ship moves along successfully 
we fully expect it to then transition into a class of ships 
that we need in these new expeditionary strike groups that I 
talked about.
    I believe that today's amphibious ready group does not have 
enough striking power in it. It needs the capability that we 
are going to bring to it by bringing cruisers or DDGs into it 
that have the ability to reach and strike with Tomahawks, that 
have the ability to better defend itself from air-to-surface 
attack; we are bringing submarines into the group that have the 
same type of capability.
    It is all about responding to the challenges that exist to 
us in the future. Now, when we look at future systems--and you 
mentioned the cancellation of LASM--I believe that we have to 
look at the array of systems that we have available to us. 
General Jones has indicated that he very much would like to see 
us procure a system that the Army has for the Marine Corps and 
that is the gun system in the 130s, which brings that kind of 
artillery capability to the air and able to apply it in the 
battlefield.
    We have Tomahawks and we are going to have the Advanced Gun 
System in DD(X). So one of the issues is how many systems do 
you need? My fundamental conviction is that we were 
overprogrammed. We had more programs than we can deliver. The 
analysis of LASM was that it was that it did not have the kind 
of combat effects that we needed to continue to invest in it.
    I believe, in response to your question, that the 
requirement has not changed one bit. We have to have the kind 
of reach that we are going to deliver in DD(X) and other 
systems that are in the program.
    Senator Kennedy. Well, clearly with regard to DD(X) this is 
going to provide that kind of support. The real question is 
what is going to happen in the interim period. I guess I 
understand from your response that you believe, and as I 
understand speaking for the Marines believe, that you have 
sufficient kind of variety of support from other systems to 
meet that particular requirement.
    That has been a requirement that the subcommittee has taken 
very seriously over a long period of time. It was one of the 
principal aspects of the DD 21 as well as the DD(X). My 
question really relates to what happens in this interim period 
of time to the support. It is a matter of concern to us.
    A broader issue would be the general capability for what we 
call the forcible entry capability. In my opening statement, I 
listed a number of the program cancellations and restructurings 
that would cause one to conclude that we may be moving 
incrementally away from the credible forcible entry capability. 
We have limited ability to conduct fire support now. The 
actions taken last year, including the DD 21 cancellation, give 
little hope the Navy will be able to meet the Marine Corps' 
foreseeable fire support requirements.
    We also raise the questions about the implications of the 
actions in terms of the mine warfare and where we are on this 
program, which has been something that we have talked on in 
terms of the mine warfare deficiencies as well.
    I am just interested in whether we ought to be drawing any 
kind of conclusions if we say that the shore fire capability 
immediately is of continuing concern certainly to the Marines, 
and that the mine warfare still is very much up in the air. We 
have had responses that we have new technologies that we are 
looking at, but we have not heard very much of anything in this 
committee about real progress in that area other than some 
observations that, with the high altitude bombing now, we may 
be effective in bombing particular pathways in the entrance 
into certain kinds of areas. I do not know whether that is the 
answer.
    But I suppose the question is, is there some flagging in 
terms of the determination for the forcible entry capability? 
If there is, then obviously that leads to other kinds of 
questions about the need for other kinds of advanced amphibious 
assault vehicles and amphibious assault ships and whether we 
could not buy other ships that are a lot cheaper, like cargo 
ships for example.
    I am interested in hearing you out just on that issue 
perhaps for another minute or two, and then my time is up.
    Admiral Clark. Well, certainly it is a fundamental 
requirement, I believe, for this Nation to have a forcible 
entry capability, and I believe that the capability the United 
States Marine Corps brings to this Nation is vital. When you do 
not have, as we do not today, a long-range gun system, a system 
with the kind of combat reach we are envisioning in DD(X), it 
forces you to an approach, and that is what a capabilities-
based force is all about. You bring whatever capability you 
have to whatever task that you have been given.
    But it has required us to then utilize aircraft and in 
effect, if you talk to the Marine Corps, they will tell you 
they gave up their artillery years ago and substituted Marine 
air, because you did not have the kind of reach that they 
believed that they needed in order to execute forcible entry.
    The joint world we operate in today, the Marines are going 
to be supported by combat air when forcible entry operations 
are required. So we are not flagging from that requirement. To 
the contrary, I want my comments to be interpreted that it is a 
priority that we fund and deliver DD(X) and that DD(X) becomes 
a class of ships that supports our expeditionary striking 
groups, that gives us the kind of capability that you speak to.
    Senator Kennedy. Thank you very much.
    Senator Sessions.
    Senator Sessions. Just to follow up on the DD(X), we went 
from DD 21, which had plans to move forward, to DD(X), which is 
more research, I suppose. Can you tell us whether or not the 
proposed ship is going to be better for this transition to 
DD(X) than it would have been with the DD 21?
    Admiral Clark. Well, I do not know how to answer that, 
Senator, because in the down-select and in the decisions we 
have made in tradeoffs in the program, I do not know how to 
distinguish specific equipments and components. For example, 
the analyses of the number of gun systems and so forth. I just 
do not, I have no way to predict what those are going to be. 
But I have every expectation of tradeoffs, and they are being 
done by a committee. I am not involved in that. It is part of 
the acquisition process.
    But validating the requirement is for effective combat 
reach with the gun system. I have every reason to believe that 
the gun system is going to be there. I have every reason to 
believe--and I have testified to this statement--that the spec 
calls for this to be a ship with a very low radar cross-
section. That is going to make it extremely difficult for an 
enemy to deal with. It has been talked about, a radar cross-
section that is smaller than a fishing boat; that with a 
signature that it is so quietly operated that it is going to be 
like a 688 submarine, that the transformation to all-electric 
power is going to open up potentials for the future that we do 
not even see yet.
    I have every reason to believe that this is going to be the 
ship with the technology that is going to deliver and that the 
ship is going to be the definer of the next four decades of 
what our Navy looks like.
    Senator Sessions. I guess we have a delay in moving forward 
with it, which is a billpayer of sorts and is not totally 
insignificant. But you cannot say at this point that we are 
going to have a better vessel because of it?
    Admiral Clark. I have every reason to believe that it is 
going to be a great ship and it is going to deliver the 
capability that we need. I regret the delay, Senator----
    Senator Sessions. Let me go back. I understand we are all 
confronted with realities.
    The general concept for my thinking is that an older 
platform with a newer and better weapon system may be, at least 
financially, more critical for us than new platforms. How are 
we in terms of our equipment making sure that our existing 
aircraft and vessels are equipped with the latest technology, 
and are you satisfied with our present stocks of weaponry? If 
we do not have bullets to fire in the gun, the gun is not very 
valuable. I am talking about the precision-guided munitions.
    Admiral Clark. Let me take the first part of that first 
question. There are limits to what you can do with an old 
platform. A good case would be to look at the alternative. If 
you decided that you were not going to build DD(X) and you were 
going to continue to build or you were going to invest in our 
older cruisers and meet the need with that kind of a system, 
you could not ever have the gun systems. But let us say you 
were going to try to do that.
    As we move to the future and we study science and 
technology applications, one of the clear issues is that future 
solutions are going to require great power. As we look to 
potential breakthroughs in technology, power is always a 
limiting thing. So power limits what you are able to do in 
older platforms.
    Then other things wear out inside of a ship. I have had the 
privilege and the challenge of steaming around when my first 
ship was a World War II destroyer.
    Senator Sessions. I think you were responding realistically 
to the question I asked, but I will be a little more specific 
about it. I guess my concern is in the next year, in the next 
18 months, do we have in place on ships that are going to be in 
the inventory for some years to come the capabilities that we 
ought to have on them, considering the funding problems we 
have?
    Admiral Clark. We have the systems on that we can have. We 
cannot create systems anew in a year, a year and a half. Your 
question gets to the heart of the readiness challenge: Are the 
ships going to be ready? They are, and let me tell you that we 
are eating away at a maintenance backlog that we had in the 
accounts, and the current readiness budget is allowing us to do 
that.
    The second part of your question had to do with munitions. 
This budget expands the production capability so that we can 
buy the munitions, the precision munitions, that we need, and 
we earnestly need the support of Congress in the approval of 
that. Some of that has been done in the 2002 emergency funding 
and we need to continue that application of funding in the 2003 
budget.
    Senator Sessions. Well, they say that we may be moving to 
capacity at our plants for munitions, but why can we not build 
new plants if we need to? Are we at what we need for a 
sustained military operation? The world is looking awfully 
dangerous right now. We could find ourselves in a prolonged 
conflict with a lot more targets than we found in Afghanistan 
to utilize.
    Do we need to think bigger, much bigger, in terms of what 
we need in terms of precision-guided munitions?
    Admiral Clark. I believe that, first of all, do we need to 
think bigger? We have and are making changes and the emergency 
funds are being applied to do that. So we are increasing our 
capacity. It is very important that we do that because we did 
not have enough capacity to meet, in my estimation, the needs. 
The judgment of the leadership supports that because the 
investments are being made to increase our ability to produce 
precision rounds.
    Senator Sessions. Mr. Chairman, you have to have the 
bullets and the gun. We have the capability. We do not want to 
find ourselves in some very serious matter and not have all the 
munitions we could have.
    In terms of the size of a $379 billion, a couple of billion 
dollars more to make sure that our stocks are very ample and 
would be a good investment, I think.
    Admiral Clark. If I could just follow up, there was an 
article that I saw in the paper today that went into some 
detail about JDAM, that we did not have enough, and it related 
to Kosovo operations. We need to make wise investments for the 
Nation, too. JDAM just came on line when we started in Kosovo. 
So a ramp-up is clearly the way this is going to be produced. 
You cannot suddenly have zero one day and then have 5,000 of 
them the next day.
    So the investment being made has to be one that makes sense 
that we do not create a capability that then is going to go 
idle also. We need to reach the balance between the requirement 
and ramping up at a smart and effective rate that meets the 
requirement. I believe the investments that are being made 
today have us on that ramp. We must continue to analyze that to 
be sure.
    Senator Sessions. I am thinking we need to leap up, not 
ramp up.
    Senator Kennedy. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, Admiral Clark. The Navy has a daunting challenge 
with legacy systems to try to harmonize them. But at least 
going forward, is your RDT&E consciously trying to make all of 
our new platforms interoperable, and not just within the Navy 
and the Marine Corps, but also with the other services, 
principally I would assume by information technology? Is that 
something that is conscious, deliberate, proceeding forward?
    Admiral Clark. Yes, sir, absolutely.
    Senator Reed. Can you comment on some of the aspects of 
that or some of the challenges that you face in that regard?
    Admiral Clark. Well, I can certainly. Interoperability--in 
order to take advantage of the technological advantage that the 
United States of America has, it is about information becoming 
knowledge. For us to do that, our systems have to be 
interoperable, and they are not all interoperable today. By 
that I am talking now about the power of second and third order 
interoperability.
    For example, we certainly have interoperability in our 
forces today, but we see things that we could do in the future 
that will make us much more effective. For example, a pilot 
flying over Afghanistan that gets input from a Special Forces 
operator on the ground, that lases the target, and all this 
action takes place that we saw happen in Afghanistan.
    The future will allow us to do this with the touch of a 
button, as opposed to verbal orders and those kinds of things. 
That is where we all want to go. We have to do this with web-
based capability. We have mandated in our Navy, for example, 
that we are not going to spend money on applications that are 
not web-based in the future. You cannot afford to do that. The 
taxpayers' investment in our warfighting capability has to 
produce that kind of interoperability and that is where we are 
all going.
    Senator Reed. What is your perception of the other services 
in terms of linking up?
    Admiral Clark. A common objective. We have challenges with 
legacy systems and the issue always becomes how much do you 
spend on the legacy system to bring it up to how you would 
deliver it if you were procuring it today; it is a case-by-case 
basis, Senator.
    Senator Reed. Also, Admiral, you are experimenting with new 
types of hull designs, particularly for the littoral ships, the 
logistical vessels. Can you comment upon how that is going and 
what you see in the next several years about the deployment of 
these innovative hulls, like catamarans, etcetera?
    Admiral Clark. Yes, sir. Well, I believe I mentioned DD(X) 
and the family of ships and this concept has us spiraling the 
research and development result into three platforms; one of 
them is the Littoral Combatant Ship, the other will be the 
follow-on missile defense cruiser, the CG(X). Very clearly, we 
need a platform--and this gets to the chairman's concern and 
interest in mine warfare--that is able to operate in a near-
land area that can take this on directly.
    We have in the program the ability and we are working 
toward the availability of organic mine warfare capability in 
our battle group by 2005. But my view was that we needed a 
class of ships that goes on and takes on this asymmetric threat 
that we are going to be dealing with in the 21st century. I am 
not sure what this hull looks like exactly. I am not sure it is 
going to be steel, aluminum, a composite, what it is going to 
be.
    What I want is an effective combat capability that will 
enable us to go in there and take on the enemy and fight and 
win. So we have leased a couple of these vessels. We are 
conducting experiments and they are going very well. We have 
one that has now been turned over for Army use. We took it to 
Europe. It is now conducting operations there and it will be 
operating in other parts of that part of the world.
    Senator Reed. One of the other aspects of mine warfare, and 
I share the chairman's concern, is the rapid use of unmanned 
undersea vehicles, not only in mines but also in other types of 
operations. I know that you are planning to accelerate the 
Multi-Mission Reconfigurable unmanned undersea vehicle (UUV) 
and also the Long-term Mine Reconnaissance System, the LMRS. 
Specifically with those systems and in general about UUVs, your 
comments about where you are now?
    Admiral Clark. I think with unmanned vehicles, there is a 
great future and we should be exploring this kind of technology 
under the water, on the surface, and in the air. It is also 
clear to me that the Littoral Combatant and the marriage of 
unmanned vehicles, potentially manned vehicles also, but 
unmanned vehicles to do certain missions that I believe the 
future in technology will prove to us that is better done by 
unmanned vehicles and the ability to do off-base, off-hull, 
off-the-ship kind of sensor operations that will tremendously 
advance our warfare and combat capability.
    So I see the LCS delivering--delivering and introducing--
this into the capability as rapidly as possible in a hull form 
that will enable us to conduct these kinds of operations. I 
believe it will be required for mine warfare as well as near-
land ASW.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Senator Kennedy. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Admiral, thank you again for being here today. Admiral, 
last month the OSD Comptroller, Dr. Zakheim, testified before 
the Subcommittee on Readiness and Management Support that the 
decision to begin funding LHD-9 in the 2003 budget was done 
completely in conjunction with the Navy. Were you involved in 
those discussions?
    Admiral Clark. You mean specifically with Dr. Zakheim?
    Senator McCain. Yes.
    Admiral Clark. No, sir, I do not recall any discussions on 
LHD-9, no.
    Senator McCain. I see.
    Admiral Clark. I would say, Senator, I do not know if he 
said me in particular or if he said the Navy.
    Senator McCain. Oh, no, he just said done completely in 
conjunction with the Navy, which one might assume that that 
would be the Chief of Naval Operations.
    Admiral Clark. No, sir, I did not have those discussions.
    Senator McCain. So the first you heard of it was when it 
became published in the media?
    Admiral Clark. Well, in the closing days as we were putting 
this budget to bed, we were dealing with major and a large 
number of issues, Senator, as you can well imagine--you have 
been through this--dealing with a number of ships and billion 
dollar kinds of things. Frankly, that issue did not come up at 
all. When I heard about it, it was in response to what was this 
particular funding line about, and it was my belief and the 
belief of those members of my staff that it was all about the 
replacement for the amphibious assault ship (LHA); that that 
was the intent.
    Senator McCain. I see. I appreciate that.
    You and I have discussed what I feel is a shortage of 
carrier presence during this crisis. If you had your choice, 
would you rather have an LHD-9 or a CVN?
    Admiral Clark. Well, if all things were equal, certainly I 
would love to have another carrier.
    Senator McCain. How do you feel about this shortage? 
Because when you look back at the last several crises we have 
been in recently, we have had to uncover a certain area, 
whether it be the Western Pacific or, in the case of the P-3 
incident that took place with China, we had to uncover the 
Mediterranean, I believe.
    How do you feel about that? What are the Navy's plans for 
additional carrier construction?
    Admiral Clark. Well, first of all let me answer the second 
part, how do I feel about future construction. Certainly CVN(X) 
I believe brings the kind of technology along that we need in 
the future, because it brings a lot of----
    Senator McCain. When would you like to see that happen?
    Admiral Clark. Well, it is in the existing budget. It is a 
2007 and a 2008 kind of a funding line. That program slipped, 
principally for affordability issues. It did not have enough 
top line to keep it where it was before.
    With regard to how I feel about these challenges, every 
time one of these challenges comes up I make a judgment and a 
recommendation on how we in the Navy can surge to meet a 
particular requirement. We have been operating at a fairly 
intense rate for routine, maintaining two carriers in the 
Indian Ocean. We could certainly get more carriers there.
    But the key to our Navy is that we are a rotational force, 
and we continue to have that presence there. So you were not 
here at my confirmation hearing, but it was in this room, 
Senator, and I said that day, and I believe the same rule 
applies today, the Nation decides how much of this Navy they 
are going to have and what kind of Navy that they are going to 
have.
    With a 12-carrier force, we can be in a place, the number 
of places where 12 carriers will allow us to be represented. 
Obviously, if we had more it would change that calculus.
    Senator McCain. You would agree with me, though, it is 
wonderful to have a carrier break the record for the longest 
period of time at sea, I guess since World War II, is that 
right, the Theodore Roosevelt?
    Admiral Clark. Yes, sir, that is correct.
    Senator McCain. But is it wonderful to force a number of 
other aircraft carriers to break that same record?
    Admiral Clark. No, sir, it is not, certainly not.
    Senator McCain. Is it possible to retain qualified men and 
women? I note there were 800 women on board the U.S.S. 
Roosevelt. Is it possible to retain qualified men and women in 
the Navy when you are asking them to stay for over 6 months at 
sea?
    Admiral Clark. Well, that is difficult for me to project, 
but I believe that--you were on the ship and you know how----
    Senator McCain. Senator Collins was with us on that trip.
    Admiral Clark. I remember the discussion, the discussion I 
had with the battle group commander, because I was over there 
shortly after you were: When are you taking this ship into 
port? He said: They want the record. They were proud of what 
they were doing. That does not discount your concern.
    Senator McCain. Yes, but my question was do they want it 
twice.
    Admiral Clark. No. I understand your point and that is 
where I am. This is not something that we want to be doing on a 
routine basis.
    Senator McCain. If you go through these crises, if history 
is any guide, you are going to have more of them in the future, 
and then you are going to have continued inordinate amounts of 
time at sea and away from home in an all-volunteer force.
    Admiral Clark. We have done some analysis to figure out 
what the people impact is. I believe that one of the reasons we 
have been so successful in our retention, recruiting, and 
objectives, Senator, is that our people really do understand 
service. We have been studying, and I recall during the Vietnam 
campaign that my first deployment was 9 months. It is a long 
time.
    We know that if you get in the habit of having those kinds 
of deployments, people are going to vote with their feet. So 
this is a decision that the national leadership makes about how 
they are going to commit the force, sir.
    Senator McCain. There are reports that the Navy is being 
approached to purchase a pair of unfinished cruise ships at the 
Northrop Grumman shipyard in Pascagoula, left behind when 
American Classic Voyages went bankrupt, for use as mobile 
housing or a hospital ship. Is the Navy in any way interested 
in purchasing these ships?
    Admiral Clark. We were asked about these ships. We sent our 
engineers down to look at the ships. The ships are not suitable 
for the kind of platforms that we need and we are not 
interested in them.
    Senator McCain. Thank you, Mr. Chairman.
    Senator Kennedy. Thank you.
    Senator Warner.
    Senator Warner. I thank the chair.
    Chief, my good friend, I will get directly to the point, a 
follow-on to the very good questioning you had with your fellow 
sailor, Senator McCain, about the carriers. It is my 
expectation, I hope, that a recommendation which I will be 
forwarding to the chairman and ranking member of this 
subcommittee to find the funds to restore the carrier to the 
original position it once had in our budget process.
    I do so by no means to be confrontational with the 
Secretary and/or yourself. You had your framework of decisions. 
But as you recognize, being a coequal branch, we have our 
framework of decisions. It is my hope and expectation that 
eventually this subcommittee and the full committee will 
restore those funds.
    My direct request to you, assuming that it becomes a part 
of the authorization bill, would you be willing to support that 
law and go forward with the restoration of that program as it 
once was?
    Admiral Clark. Well, of course I am going to implement the 
law.
    Senator Warner. Good.
    Admiral Clark. May I comment further?
    Senator Warner. No, I do not know that there is any need. 
[Laughter.]
    The question was very clear and the response was equally 
clear. But I hope that in doing so that you feel that it is 
consistent with your goals as the top sailor in the Navy to put 
our carrier force in the strongest position possible to again, 
if necessary, carry out the missions it has here in the last 90 
to 120 days.
    Admiral Clark. The move on the CVN(X) was an affordability 
issue.
    Senator Warner. We have been all over that.
    Admiral Clark. We have.
    Senator Warner. The record is clear on that. I thank you 
for your responses.
    I thank the chairman and members of the committee.
    Senator Kennedy. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Admiral Clark, welcome. It is a pleasure to have you here 
today. I was very pleased to hear your strong statement of 
support for the DD(X) and the family of ships that its 
technology will support. In the last year, there has been a lot 
of focus on the technology associated with the DD 21 or the 
DD(X), but less discussion about the need for this next 
generation destroyer.
    So just to underscore what you have said today, it is not 
just the technology the you need. You need a new generation, 
next generation destroyer. You need DD(X). Is that correct?
    Admiral Clark. Absolutely.
    Senator Collins. The second question I want to ask you, 
though, has to do with some manning initiatives for the DDG-51 
and the FFG-7 frigate modernization program. One of the 
advantages of the DD(X), of course, is that it could operate 
with a much smaller crew size. Would you discuss for a moment 
the Navy's need for an optimized manning initiative for the 
DDG-51 and for the FFG-7 and talk about the advantages of 
perhaps investing such that we could reduce the crew sizes for 
those, which are particularly important in view of the Navy 
leadership's decision to maintain the remaining 33-ship FFG 
force, in part because of the expectation that these ships may 
have a new role to play in homeland security?
    Admiral Clark. Well, first of all, Senator, one of the 
actions that we took immediately after September 11 was I had 
an FFG that was scheduled to be decommissioned. We put that on 
hold because of the very point that you make, that this has a 
potential role to play in homeland defense. So I think that 
there is no question that the FFGs have a role to play.
    Point two, what am I doing with the optimum manning 
experiment? It is just exactly that. I have been at sea, I have 
been in the Navy for 33 years. I have to be the CNO and I had 
the conviction that I was on some ships that I did not think 
the manning document was laid out correctly. I put out in my 
guidance this year that we are going to zero-base every billet 
that we have in the whole Navy and that on particular ships, I 
want to run some experiments making sure that we have made 
moves to adjust the manning after we have made policy changes 
that changed the requirements.
    So that is what that particular experiment is about. Do we 
have it right and, if there is a question, let us run the test 
and then adjust, not just jerk the people off. Run the test and 
see what happens.
    Point three, I think, is about an investment to reduce 
manning. That is something that I believe. We need to capture 
technology. I believe that when I talked about what tomorrow's 
Navy looks like, it is a Navy that is a more senior Navy. It is 
a Navy that is very high tech with high tech people. Frankly, I 
want every job that we have to offer people to be a very 
rewarding and challenging one, and I want to get rid of jobs 
that are not that way to the maximum extent that I can.
    This will include investing in technology that would allow 
us to get rid of some of those less rewarding and fulfilling 
assignments.
    Senator Collins. Thank you.
    The third issue I want to raise with you really piggybacks 
on some of the concerns that Senator Warner has raised with you 
about the low level of ship procurement. I know that you have 
been very frank with your concerns about the low procurement 
rates. It obviously has an adverse impact on the stability of 
our industrial base as well as the size of our fleet.
    I also think that the Navy is paying a premium in program 
costs due to the small number of units being built. Could you 
discuss perhaps, to follow up on Senator Warner, what your 
priorities would be if additional funding is forthcoming, for 
example for the need to procure three DDG-51s this year rather 
than two, as put forth in the budget? How high on your priority 
list of unmet needs is that?
    Admiral Clark. I do not remember, Senator. I sent an 
unfunded list over here and I had the DDG on it and it is near 
the top. I do not remember the exact number, but it is very 
near the top.
    Let me just go on record once again with this comment. I 
have stated that we need to be investing $12 billion a year in 
new ship construction. I do not know how to make it any clearer 
than that, so I say it again. We should be doing $12 billion a 
year in new construction, not just SCN. SCN can be repair and 
modernization, for example, refueling overhauls and so forth. 
That is my belief.
    My analysis shows that that is what we need to sustain the 
force. I could not get there. I also told you all on the first 
day that I came to this very room that I was going to pay the 
current readiness bill. I told you that is what I was going to 
do, because I had lived in a Navy where it was not done that 
way and I am not going to be the CNO of a Navy that does not 
stand up and make that claim. I am not going to send the young 
men and women of this Nation out to serve on ships and aircraft 
that are not ready.
    So I did not have enough money to get there and that is why 
we do not have $12 billion in the account and in the program.
    Senator Collins. I think many of us on this subcommittee 
are committed to helping you get there because we are truly 
concerned about the impact of the low procurement rate. I 
understand you had a lot of very difficult choices to make, but 
I hope we will be able to make some adjustments to deal with 
the shipbuilding budget as well.
    Finally, Admiral, and I know my time is about to expire, I 
want to let you know that yesterday I was at the Portsmouth 
Kittery Naval Shipyard on the border in Maine. The Supreme 
Court has finally settled that issue once and for all and we 
now call it the Portsmouth Kittery Naval Shipyard. The men and 
women working there just set two national records for 
completing the overhaul and refueling of two Los Angeles-class 
submarines in record time. I wanted to share that 
accomplishment with you and it suggests that we should keep 
that shipyard very busy because the work load for that shipyard 
is troubling over the next couple of years, and yet they are 
setting performance records that have not been matched by any 
other shipyard. So I am very proud of the work they are doing.
    Thank you.
    Admiral Clark. Yes, ma'am.
    Senator Kennedy. Just a final question on my part, Admiral. 
This is on the issue of aircraft carrier homeporting options. 
We know the relationship, 7.6 carriers in the northern Arabian 
Sea, 1.7 to keep one for the Western Pacific. I asked the 
Admiral at the last hearing about forward homeporting options 
and he talked about submarines and other support ships in Guam, 
but he made no mention about looking at other options for 
homeporting carrier battle group.
    I am just wondering if you can give us assurance the Navy 
will give serious attention to all the options for increasing 
forward presence. Senator Sessions and I wrote you a letter I 
believe earlier this year and we would be interested in 
assurances from you that you are going to look at the range of 
different options.
    Admiral Clark. Yes, sir. I do not remember if your letter 
prompted the particular guidance that I put in my 2002 guidance 
to our Navy or not. I have to go back and check the time line. 
But looking at options, we will this year, and it is in the 
guidance that I put out to our Navy, commence again experiments 
to look at alternative manning concepts. These are 
fundamentally to reduce the amount of time spent in transit and 
increase the time that is forward. We are going to do that 
starting this summer.
    We have not looked at the carrier specifically because it 
is much more difficult because of the size of the carrier to 
do. There are huge implications in this. We do it now with 
blue-gold crews on submarines. You are very aware of that. I 
will not take up all the time to explain what the issues are, 
but they are training and maintenance specifically.
    I intend to continue those experiments and to look, and the 
guidance that I have given our Navy is challenge every 
assumption that we have ever made about the way that we do 
this.
    Senator Kennedy. We would appreciate that. We outlined in 
our letter at least some of these policy issues. We welcome 
making sure that you will, which I am sure you would, that you 
will give your full focus and attention to it.
    Are there other questions from our subcommittee members?
    Senator Sessions.
    Senator Sessions. Yes, briefly.
    When is the next carrier coming on line? When do we 
project, do you recall?
    Admiral Clark. I will have to get the specifics, but the 
Ronald Reagan delivers next. The next panel will give you the 
specifics.
    Senator Sessions. But is it the firm plan now to take the 
Kitty Hawk out of the fleet as soon as the Reagan comes on 
line?
    Admiral Clark. The next ship out is the Constellation.
    Senator Sessions. The Constellation.
    Admiral Clark. Yes, sir. We have done the analysis to see 
what it would take to retain her in terms of finances.
    Senator Sessions. So if you could maintain that ship you 
would have an additional carrier.
    Admiral Clark. That is correct.
    Senator Sessions. If we got back on line with the 
commitment, the QDR level I guess, on the carriers that we cut 
back on in this budget, I understand it would be about $239 
million additional funds we would have to come up with this 
year?
    Admiral Clark. I have to check the number, Senator. I would 
be happy to provide it for you, but I do not have it here.
    [The information referred to follows:]

    The correct amount to get CVNX back ``on line'' is $229 million. 
The CVNX-1 PB02 program of record schedule (fiscal year 2006 
construction start/later fiscal year 2013 delivery) would have required 
Northrup Grumman Newport News (NGNN) to start their design team ramp up 
on January 2002. However, adjustments made to the CVNX-1 program of 
record in PB03 delayed the start of construction until fiscal year 2007 
and, as a result, NGNN has not started their design team ramp up. If 
Congress were to provide additional funding in fiscal year 2003 for 
CVNX-1 and implement the revised funding profile, the earliest CVNX-1 
could be delivered would be March 2014 due to the 9-month loss of 
design team ramp up in fiscal year 2002.

    Senator Sessions. Thank you.
    Senator Kennedy. If there are no further questions, thank 
you very much.
    Admiral Clark. Thank you, Mr. Chairman. It is always a 
pleasure to appear before the subcommittee.
    Senator Kennedy. We appreciate it very much.
    Admiral Clark. We very much appreciate your support.
    Senator Kennedy. Thank you very much.
    Our next panel, Major General Whitlow, Rear Admiral 
Balisle, Rear Admiral Sullivan and Rear Admiral McCabe.
    We will start off with General Whitlow. We will hear a 
brief presentation from each of the panelists. We will file the 
statements in the record, and then proceed to the questions.

  STATEMENT OF MAJ. GEN. WILLIAM A. WHITLOW, USMC, DIRECTOR, 
 EXPEDITIONARY WARFARE DIVISION, OFFICE OF THE DEPUTY CHIEF OF 
     NAVAL OPERATIONS FOR WARFARE REQUIREMENTS AND PROGRAMS

    General Whitlow. Mr. Chairman and distinguished members, I 
have a very brief statement if you would allow me.
    Senator Kennedy. Fine.
    General Whitlow. Mr. Chairman and distinguished members of 
the Seapower Subcommittee, I am Major General Bill Whitlow, 
Director of Expeditionary Warfare Division. I appreciate the 
opportunity to appear before you today. I must warn you, I just 
had a root canal and some oral surgery, so if I appear to be 
drooling I am going to use that as my excuse and will stick 
with it.
    Senator McCain. Would you rather have the root canal than 
be here? [Laughter.]
    General Whitlow. I am truly on drugs, sir.
    But seriously, to maximize operational effectiveness, we 
have pursued programs that enhance our capability to be fast, 
flexible, and lethal. Underpinning these operational 
imperatives is the requirement for the amphibious lift. By 
doctrine and prudent analysis, execution of our Nation's 
military strategy relies on the availability to deploy three 
marine expeditionary brigades.
    As this committee knows, we have not been able to meet the 
3.0 marine expeditionary brigade requirement because of fiscal 
constraints and instead have focused on the less capable goal 
of maintaining lift for 2.5 marine expeditionary brigades. This 
is a deficiency that must be addressed and strikes at home in 
our shipbuilding accounts.
    The ability to conduct expeditionary warfare is tied to the 
size and composition of our naval force. The amphibious fleet 
remains the oldest in the Navy and must be enhanced. Key to 
this effort is the LPD-17 program. According to the current 
ship construction plan, the 2.5 marine expeditionary brigades' 
worth of lift capability will not be achieved until the 
delivery of the twelfth LPD-17, now estimated for delivery in 
the year 2015. As such, the Navy is forced to retain the aging 
and increasingly unreliable 35-plus year old LPD-4 class of 
ships, ships that are plagued with problems of poor 
habitability and deteriorating working conditions. These 
conditions have a direct impact on the morale and effectiveness 
of their assigned personnel.
    Another initiative that impacts every aspect of 
expeditionary warfare is the LHA replacement program. An 
ongoing analysis of alternatives is due to be completed 2 
months from now during June and should lead to the selection of 
a design of an LHA replacement. The LHA replacement ship class 
will be multi-functional and highly versatile. It is prudent to 
improve the baseline capability of the LHD-8, a transition ship 
with limited capacity for future growth. A smooth transition 
from LHA to LHD-8 to the LHA replacement is critical if we are 
to leverage technology to garner adequate ground combat power 
in order to maintain forcible entry capability. Unless we like 
playing home games, which I do not believe we do, forcible 
entry capability is at the heart of this Nation's national 
strategy.
    Navy leadership has openly discussed the difficulties 
associated with mine countermeasures warfare operations, 
especially in the surf zone, as the chairman has articulated 
earlier. Unfortunately, recent efforts to develop a mine 
clearance, mine destruction system in the surf zone proved 
unsuccessful. That was the shallow water assault breaching-
distributive explosive technology (SABRE-DET) previously 
mentioned. That is not to say that we do not have a surf zone, 
very shallow water capability. Unfortunately, we are forced to 
conduct such operations using special warfare divers and 
mammals.
    As this committee knows, a decision was made to terminate 
development of the SABRE and DET systems, two R&D programs that 
early on demonstrated great potential. To remedy this 
unsatisfactory situation and provide a badly needed capability, 
the Navy has instituted a corrective three-track program. These 
tracks seek to improve systems for immediate possible use as 
well as develop more capable systems in the near and long-term.
    Thank you for the opportunity to testify today. I am 
standing by for your questions, sir.
    [The prepared statement of Major General Whitlow follows:]

        Prepared Statement by Maj. Gen. William A. Whitlow, USMC

    Mr. Chairman, distinguished members of the Seapower Subcommittee, I 
am Major General Bill Whitlow, Director of the Expeditionary Warfare 
Division. It is truly an honor to represent the men and women of your 
United States Navy and Marine Corps expeditionary team. As head of the 
division that identifies and validates resource requirements necessary 
to conduct expeditionary warfare, I provide this testimony on their 
behalf.
    History is replete with incidents that galvanize a nation. The 
events that took place 7 months ago stunned our sense of domestic 
tranquility. They also aroused our collective anger, eliciting a 
national call to arms to eliminate a vengeful enemy eager to wreak 
carnage onto the American public. Our military response has been 
powerful, yet focused; lethal, but mindful of the ideals that form the 
foundation of our Nation. Over the years, this committee has supported 
and provided valuable guidance on many of the systems now being 
employed in defense of our country. You should take great pride, as I 
do, in the sailors and marines who are faithfully and professionally 
performing their assigned duties overseas today. Their performance is a 
reflection of the support they have received from their countrymen and 
elected leaders.
    It is worthy of our time to pause and examine how our Nation has 
chosen to respond to the war on terror. Well before my tenure as 
Director of the Expeditionary Warfare Division, Navy and Marine Corps 
leaders have spoken of the operational advantages of possessing a force 
that is lethal, flexible and self-sustaining. Events in Afghanistan 
have demonstrated that the maritime strategy ``forward . . . from the 
sea'' is valid even when conducting warfare in a country that is 
landlocked and located 400 miles from a major body of water. Despite 
Afghanistan's isolation, the first sustained U.S. military operation 
ashore was conducted by the 15th and 26th Marine Expeditionary Units, 
an expeditionary force that was deployed, organized and launched from 
the U.S.S. Peleliu and U.S.S. Bataan amphibious ready groups (ARGs). As 
you recall, the mission of these two MEUs was to seize the first in-
country staging base (Rhino), secure the Kandahar airport and establish 
a base from which quick-reaction operations could be conducted to 
further track down Taliban and al Qaeda forces.
    The MEUs' conquest is simply the latest example of a long history 
of expeditionary warfare. The term ``expeditionary'' refers to a menu 
of forces (air, ground, and sea) that are forward or rapidly deployed 
to achieve a specific national security objective. These forces are 
trained and configured to respond to the full spectrum of military 
operations, from humanitarian assistance to small-scale contingencies 
through major theater war. To be effective in these different and 
challenging operations, expeditionary warfare forces must be capable, 
mobile and extremely versatile. While the concept of ``expeditionary 
warfare'' may seem new or revolutionary, in reality it is how this 
Nation's sea services have operated for all of its 226-year (plus) 
history.
    To maximize operational effectiveness while minimizing the threat 
to safety, we have pursued programs that enhance our capability to be 
fast, flexible and lethal. Underpinning these operational imperatives 
is the requirement for lift. Lift drives everything. It permits us to 
respond quickly, decisively, and without first having to obtain host 
nation support. Lift also allows us to be on station to monitor and 
hopefully deter events before they escalate. The naval amphibious 
assault ships that provide the critical lift are designed to conduct 
sea-based operations with a minimal reliance on host or allied nation 
support. Amphibious ships with embarked Marine forces are one of the 
most formidable power projection capabilities in the world and 
represent our Nation's only sustainable forcible-entry capability.
    By doctrine and prudent analysis, execution of our Nation's 
military strategy relies on the availability and readiness to deploy 
three Marine expeditionary brigades (MEB) assault echelons, the so-
called ``3.0 MEB lift.'' However, it should be emphasized that the 3.0 
MEB requirement is based on a single major theater war (MTW) scenario 
and this force is not intended to act as a swing force in the event of 
a second contingency or second MTW. As this committee is aware, we have 
not been able to meet the 3.0 MEB requirement because of fiscal 
constraints and instead have focused on the less capable goal of 
maintaining 2.5 MEB. The fiscally constrained 2.5 MEB goal was supposed 
to be a temporary situation; a ``strategic pause'' permitted following 
the end of the Cold War and Operation Desert Storm. It was not intended 
to replace, nor should it be seen as an acceptable alternative to, the 
3.0 MEB requirement. Unfortunately, I must report that we have not been 
able to maintain the 2.5 MEB capability in the active force. Today, 
your expeditionary forces are only equipped at 2.1 MEB lift equivalent 
with the corresponding risk and dangers inherent in such a reduced 
posture. I want to emphasize that a 2.5 MEB capability is neither 
dependent on, nor significantly affected by, changes to the two MTW 
strategy.
    So what? So why should Congress and the American public be 
concerned if our military falls even further from the required 3.0 MEB 
lift? Among the capabilities that expeditionary forces--and in many 
cases, expeditionary forces alone--provide is assured access. As the 
number of overseas U.S. bases has decreased, the importance (and 
difficulty) of gaining and sustaining entrance into foreign hotspots 
has increased. Expeditionary warfare, with its diverse, tailored 
packaging of forces represents our Nation's only forcible entry 
capability as well as the enabling force for the introduction of 
heavier and more specialized forces into a theater conflict. As such, 
without adequate amphibious shipping we run the risk that access will 
be blocked or achieved only at great human cost.
    The ability to conduct expeditionary warfare is tied to the size 
and composition of our naval force. The amphibious fleet remains the 
oldest in the Navy and must be replaced and enhanced. Key to this 
effort is the LPD-17 program. The LPD-17 San Antonio-class ship is a 
highly versatile, wet-well platform that is capable of conducting both 
air and landing craft air cushioned (LCAC) operations. According to the 
current ship construction plan, the 2.5 MEB lift capability will not be 
achieved until delivery of the twelfth LPD-17, now estimated for the 
2015 timeframe. As such, the Department of the Navy is forced to retain 
the aging and increasingly unreliable LPD-4 class of ships. All of 
these ships are currently 31-37 years old and are not expected to be 
decommissioned until they reach an average age of 41.5 years--6.5 years 
beyond their expected service life. Not surprisingly, the LPD-4 Austin-
class ships are plagued with problems of poor habitability and 
deteriorating working conditions that have a direct impact on the 
morale and effectiveness of assigned personnel. Additionally, these 
ships require costly C\4\I upgrades to be interoperable with other C\4\ 
advances being implemented throughout the fleet.
    I cannot stress enough the importance of maintaining, if not 
accelerating, the construction schedule of the LPD-17. Relative to the 
LPD-4s, delivery of LPD-17s will have a direct and immediate increase 
in our warfighting capability. The LPD-17s will provide increased 
vehicle and LCAC capacity, improved aviation and C\4\I capability, 
improved survivability, and improved shipboard quality of life. They 
are a vital asset and a prudent investment.
    Another initiative that impacts every aspect of expeditionary 
warfare is the LHD-8/LHA Replacement (LHA(R)) program. The five Tarawa-
class LHAs are rapidly approaching the end of their service life and 
face block obsolescence at the rate of one per year from 2011-2015. 
Under the recapitalization plan, we project that some of the LHAs will 
not be retired until they are as much as 10 years beyond their 35-year 
service life. LHD-8 (Wasp-class) is scheduled to begin construction in 
fiscal year 2002 with an expected delivery during fiscal year 2007. 
Once operational, LHD-8 will replace one of the Tarawa-class LHAs. Yet, 
as this committee well knows, the LHD-8 is a ``transition'' ship--a 
ship designated to develop and demonstrate technology that will be 
incorporated into the follow-on LHA replacement ship. An ongoing 
analysis of alternatives (AoA) is due to be completed in June 2002 and 
should lead to the selection of a design for the LHA(R). As the 
centerpiece of the amphibious ready group, the big deck LHA(R) ship 
will be multi-functional and highly versatile. It is prudent, however, 
to improve the baseline capability of the LHD-8 and leverage technology 
to garner more vehicle and air capacity. A smooth transition from LHA 
to LHD-8 to LHA(R) is reliant on continued funding of the LHA mid-life 
sustainment program. This upgrade program extends to 35 years the 
useful life of the aging LHA-class ships and provides the time 
necessary to pursue the LHA(R) in a fiscally responsible manner.
    From an operational point of view, lift (and the ships that 
constitute our lift) is necessary to transport and sustain the 
expeditionary amphibious triad. The triad consists of LCAC, the 
advanced amphibious assault vehicles (AAAVs), and the MV-22 tilt-rotor 
aircraft. The versatile LCAC is the primary platform for high speed, 
over-the-horizon transport of troops, vehicles and material. The LCAC's 
high speed and ability to access over 70 percent of the world's 
coastlines (compared to 17 percent for conventional landing craft) is 
key to our ability to execute the maneuver warfare doctrine of seeking 
out and landing at the enemy's weakest point. The LCAC fleet is 
undergoing a service life extension program (SLEP) to correct hull 
fatigue and corrosion, extending the hull life up to 20 years. In 
addition, the SLEP includes an upgrade to its command/control/
communication/computer and navigation (C\4\N) suite and enhanced 
engines that will increase its interoperability and performance. I'm 
pleased to report that in December 2000, the Navy received its first 
successful SLEP craft, LCAC 91, providing a good template for future 
LCACs. This program makes good business sense and is widely endorsed by 
fleet commanders. Our conventional landing craft now average 35 years 
of age. The LCU replacement program is on track for a fiscal year 2005 
start to replace these craft.
    The attack on the World Trade Centers, preceded by the 1999 attack 
on the U.S.S. Cole, illustrate the type of asymmetric threat our 
sailors and marines face as they carry out their duties in support of 
our national objectives. All of our commanders place the protection of 
their sailors and marines on top of their priority lists, and it is my 
task to provide the support necessary to optimize their ability to 
deter and counter such an attack and to minimize the consequences 
should one occur. The solution lies in a combination of complimentary 
efforts, ranging from doctrine and training to manpower and equipment. 
While there is no single program that can entirely eliminate our 
vulnerability to a terrorist attack, there are several ongoing 
initiatives within expeditionary warfare that will improve our ability 
to both deter and defeat terrorist attacks.
    For the past year and a half, our naval coastal warfare forces 
(NCWF) have been called upon to conduct expeditionary harbor defense 
and coastal surveillance at critical locations throughout the globe. It 
is important to note that the NCWF is almost completely manned and 
managed by Naval reservists and is a prime example of the integration 
between active duty and Reserve Forces. Using their core elements of 
mobile inshore undersea warfare units, inshore boat units, and Harbor 
Defense Commands, the naval coastal warfare forces have provided us the 
flexibility and capability to tailor units to meet specific 
requirements based on the deployment location and threat. These 
deployments, however, have revealed critical readiness shortfalls, 
primarily in equipment deficiencies, that have accumulated since their 
last major employment during Operation Desert Storm. Providing 
sufficient resources to attain sustainable readiness for this small but 
essential force is one of my most immediate priorities.
    This group of highly motivated naval reservists has largely 
volunteered to defer their personal and professional lives so that they 
may contribute to our Navy's immediate security. This increased force 
protection posture, however, is not indefinitely achievable solely 
through a Reserve Force, however motivated. To that end, we have 
resourced the establishment of an active duty ``mobile security force'' 
that will provide our naval commanders with a flexible, rapidly 
deployable, and immediately available capability. This force is 
designed to provide defensive security augmentation during heightened 
force protection conditions in locations where the U.S. or the host 
nation's security infrastructure is inadequate to meet the temporary 
heightened requirement. This new force has been fully resourced to the 
identified requirement. The first detachment is expected to reach 
initial operational capability early in fiscal year 2003, and all 12 
detachments will become fully operational by fiscal year 2005. While 
this new Active-Duty Force will not replicate the robust surveillance 
and command and control capability of our Reserve naval coastal warfare 
force, it will relieve them of the security augmentation role they have 
been filling, allowing us to sustain heightened force protection 
requirements and conduct extended harbor security and overseas littoral 
surveillance operations.
    Equally important to our ability to maintain a heightened security 
posture in locations where our expeditionary forces operate, is the 
requirement to detect, identify and defeat weapons most commonly 
employed by terrorist organizations. Such weapons include the full 
spectrum of chemical, biological, nuclear, radiological (CBNR) and 
enhanced explosive devices. This difficult task lies primarily with 
another of our Navy's small but critical forces: explosive ordnance 
disposal (EOD) units. To improve the capabilities and safety of these 
highly specialized forces, we are developing unmanned ground and 
underwater vehicles to assist in conducting dangerous EOD operations at 
sea or on land, in hostile and contaminated environments. We are also 
funding increased EOD force levels as the demand for these uniquely 
skilled operators increases across the spectrum of naval operations. 
The Navy is not the only service feeling the increased demand for EOD 
capabilities. As the single manager for joint service EOD technology 
and training, the Navy is expanding and improving the curriculum for 
joint service advanced improvised explosive device training and 
developing technologies to further enhance the joint service capability 
to detect, identify and defeat terrorist devices.
    While much of the current discussion of asymmetric threats involves 
terrorist activities, perhaps the greatest asymmetric threat to 
expeditionary operations continues to be the anti-ship mine. To address 
the challenges posed by sea mines, the Navy-Marine Corps team is 
maintaining a dedicated mine countermeasure (MCM) force while 
simultaneously developing and introducing new organic MCM capabilities. 
Dedicated and organic assets are complimentary and are designed to 
address two different missions. Organic MCM systems are being developed 
to permit naval forces to operate/transit in a mined environment 
without having to await the arrival of dedicated MCM forces. Focusing 
primarily on the area that stretches from deep water to the 40-foot 
curve, organic assets will provide a highly capable, albeit reduced, 
capacity across the MCM requirements spectrum. Specifically, the 
carrier battle group commander will have a full range of organic MCM 
capabilities embarked as an integral part of the battle group. These 
ship-borne assets will give forward-deployed forces the ability to 
conduct timely MCM operations, allowing for unencumbered transit and 
minimizing the operational delay or impact of mines on a mission.
    Dedicated MCM forces are equipped, manned and trained to provide a 
sustainable capability for larger missions such as detecting and 
clearing mines in a broad geographical area. Dedicated forces will 
continue to provide highly capable assets in sizes and quantities that 
effectively address the sustained, large area MCM efforts required for 
creating areas necessary for both fleet operations (e.g. large carrier 
operational areas or major Q-route shipping lanes) and amphibious task 
force operations (principally large landing architectures). It is the 
Department of the Navy's position that both organic and dedicated 
forces are needed to safely and efficiently prosecute MCM missions.
    The Navy leadership has openly discussed the difficulties 
associated with MCM operations. Contained in the Fiscal Year 2003 U.S. 
Naval MCM Certification Plan is the admission that, ``given the 
complexity and proliferation of the mine threat and the myriad of 
environmental influences on MCM system performances, mine 
countermeasures represents one of the Navy's most significant 
operational and tactical challenges.'' To address these challenges the 
Navy has developed a plan that seeks to maintain current assets while 
aggressively developing and fielding new capabilities. The overarching 
goals of this plan are to (1) shorten the MCM tactical timeline and (2) 
reduce and eventually eliminate manned MCM operations in mine threat 
areas.
    Current capabilities are well established in the ``blue water'' 
operational area. These capabilities are resident in the current MCM 
triad force of surface mine countermeasures (SMCM) ships, airborne mine 
countermeasures (AMCM) helicopter squadrons, and underwater mine 
countermeasures (e.g., EOD MCM detachments and marine mammal systems). 
This multi-faceted force operates synergistically and is well suited 
for mine hunting and minesweeping in deep waters. The Triad offers not 
only a capable force, but also a sustained high capacity to conduct 
large area and long endurance MCM efforts. These forces are 
collectively known as ``dedicated MCM.'' In many respects, this 
capability is the legacy of efforts begun in the late 1980s and early 
1990s to reconstruct a viable world-class U.S. MCM force. Specifically, 
the Avenger-class MCM ships, Osprey-class MHC ships, and the MH-53E Sea 
Dragon aircraft were all introduced or in procurement prior to 
Operation Desert Storm.
    These combined forces possess the requisite capability to 
successfully hunt and neutralize or sweep mines from the deepest ASW 
weapons to those threats generally employed in the vicinity of the 40-
foot curve. However, inside the 40-foot point the efficacy of these 
dedicated sensors and platforms, particularly SMCMs and their systems, 
can be significantly impacted by a number of factors.
    Unfortunately, recent efforts to develop a mine clearance/mine 
destruction system in the surf zone (defined as the area from 10 feet 
of water depth to the high water mark) proved unsuccessful. As this 
committee knows, a decision was made in the summer of 2000 to terminate 
development of the shallow water assault breaching (SABRE) and 
distributive explosive technology (DET) systems, two R&D programs that 
early on demonstrated great potential. Knowing Congress's and this 
committee's keen interest in these programs, we have attempted on 
several occasions to outline and explain the rationale to terminate. 
Ultimately, the decision was made because the military utility of these 
programs was judged too low to justify the cost. Studies proved that 
these programs were ineffective against specific threats, could not be 
operated in the presence of even light obstacles, required an extensive 
number of LCAC missions to employ, proved problematic to handle onboard 
ship, and required the displacement of an unacceptable quantity of 
combat power to embark aboard amphibious shipping. While cancellation 
of these two programs was clearly the right thing to do, it also left 
the Navy-Marine Corps team without an effective assault breaching 
system. As such, the Navy's current capability in the surf zone is 
deemed unsatisfactory. To remedy this unsatisfactory situation and 
provide badly needed capability in the critical surf zone area, the 
Navy has instituted a corrective ``three track'' program.
    Track one is known as the operator's track. Under this track the 
Navy seeks to identify, refine, and improve existing breaching and 
clearance tactics that currently provide limited surf zone mine 
countermeasure capability (SZ MCM). Beginning in December 2001, 
commanders of the Navy amphibious groups and Marine expeditionary 
forces began briefing N-75 staff on current concept of operations for 
SZ MCM. With a thorough understanding of the fleet's current tactics, 
budgetary resources will be focused to support and enhance these 
capabilities with the aim of maximizing their effectiveness. While a 
complete solution is not expected from this track, it is anticipated 
that a better, more realistic approach can be developed that can 
immediately be employed should the need arise.
    Track two, known as the near-term track, seeks to develop and 
exploit a ``family of capabilities''. At a minimum, desired/required 
capabilities include: enhanced ISR tools, data fusion applications, 
mine-obstacle detection and location systems, precision navigation & 
maneuvering systems, area/lane/object marking systems, mine-obstacle 
kill mechanisms, and common C\4\I systems.
    Within 18-24 months, existing technology promises to provide 
answers to some of these requirements. For example, the Navy is 
confident that current commercial off-the-shelf/government off-the-
shelf (COTS/GOTS) technology exists to equip landing craft/vehicles 
with precision navigation systems. Further illustrating the potential 
of this approach is the airborne laser mine detection system (ALMDS), a 
program that is already under development and represents the next 
generation of airborne mine hunting systems. ALMDS has demonstrated 
that, with certain modifications, it will be capable of rapidly 
detecting mines in the very shallow water region.
    Recent efforts by the Office of Naval Research (ONR) further 
demonstrate our belief that evolving technology can provide a robust, 
near-term MCM capability. In January 2002, ONR released a broad agency 
announcement (BAA) soliciting technology concepts from industry, 
government labs, and academia. Paramount to concept submission was the 
requirement that the proposed technology must be demonstrated within 18 
months of contract award and fielded to the fleet 3 years thereafter. 
Thirty ``white papers'' were received in response to the BAA. A 
comprehensive evaluation panel involving fleet operators met and 
selected three promising concepts to pursue. Full proposals are due 
from these three in mid-May with funding for the 18-month development 
phase commencing in fiscal year 2003. If successfully demonstrated, a 
mine and obstacle kill capability could be fielded to the fleet by 
2006.
    The third track is a long-term approach and is based upon a 
standard acquisition model (normally 10-15 years) for developing and 
fielding mine-obstacle ``kill'' mechanisms. This process encompasses 
early science and technology (S&T) development work and concept 
demonstration, and involves clearly delineated milestones such as a 
full ``mission area analysis'' (MAA), a subsequent ``mission needs 
statement'' (MNS), an ``analysis of alternatives'' (AoA), and 
eventually an ``operational requirements document'' (ORD). This process 
ensures that the testing, acquisition, and fielding of a system will 
meet ORD/Fleet requirements.
    In December 2001, the Navy established a MAA team, instituted an 
over-arching O-6-level oversight board and initiated an integrated 
process team for the purpose of developing required operational 
capabilities for a family-of-systems to perform amphibious MCM by 2015. 
The MAA is on track to be completed by the end of fiscal year 2003 and 
will lead into a fiscal year 2004 AoA. Aircraft and ship-based concepts 
are currently being examined through the S&T and concept demonstration 
phase and will be evaluated during the AoA process.
    While expediting the overall process is a key priority of this 
track, particular care will be taken to ensure acceleration does not 
result in a quick but unsatisfactory product. This track is expected to 
result in acquisition of the final MCM piece--obstacle and mine kill 
mechanisms--which, with the other required capabilities, will complete 
the MCM tool set.
    As stated in the Navy's Strategic Planning Guidance (NSPG), 
establishing an ``organic capability of surface forces to detect, avoid 
and/or neutralize mines within operationally acceptable timelines and 
with acceptable levels of operational risk'' is a top Navy priority. 
The MH-60S, next generation MCM systems, the remote mine hunting system 
(RMS) deployed from surface combatants, and the submarine-based long-
term mine reconnaissance system (LMRS) address this priority.
    The RMS represents the most effective mine hunting system ever 
carried onboard a non-MCM Class ship. The RMS, an unmanned surface 
vehicle (USV) towing an AQS-20X sonar system (practically identical to 
the system operated from the MH-60S), will provide long-duration 
unmanned operations under the direction of host ship operators or in a 
pre-planned autonomous mode. The USV ``tow vehicle'' is almost entirely 
submerged with only a snorkel/antenna piercing the surface of the 
water. As such, the RMS is considered to be ``low-observable'' and very 
tolerant of sea states that can adversely effect other USVs.
    The LMRS is an autonomous UUV system that will be operated from 
both Los Angeles-class submarines (SSN-688) and Virginia-class 
submarines (SSN-774). Using mine detection and classification sonars, 
the LMRS will be used at extended ranges as a clandestine, forward-
deployed asset, to determine the extent and size of the mine threat, as 
well as to determine the safety of anticipated operating areas.
    It should be noted that in addition to fielding the MH-60S AMCM 
aircraft as an organic asset, the Navy is evaluating whether to 
transition its dedicated AMCM force from the MH-53E to the MH-60S. One 
advantage of transitioning from the MH-53E to the MH-60S is airframe 
commonality between the dedicated and organic fleet AMCM force 
operations, training, and logistics. Many significant issues are being 
evaluated including the ability of the MH-60S to conduct the AMCM-
required missions as well as the total cost of completely 
recapitalizing the force into an MH-60S dedicated force. We expect a 
decision in PR-05.
    As this subcommittee is well aware, the Navy converted U.S.S. 
Inchon (LPH-12) to serve as a mine countermeasures command and support 
ship (MCS-12) in 1994. The intent was to use this ship, the last of her 
class, to bridge the Navy to a future MCS platform prior to 2005. The 
rapid aging of U.S.S. Inchon, particularly its engineering plant and 
equipment, resulted in sub-optimal material readiness and high 
operating/repair costs. Ongoing safety concerns and a recent major fire 
in its engineering spaces further reduced the ship's utility. Already 
planned for decommissioning in 2005, the Inchon's age, difficulty in 
effecting repairs while in homeport, and the immediate need for 
extensive engineering upgrades combined to lead the Navy to a decision 
to accelerate the decommission plan to fiscal year 2002.
    In the absence of a dedicated MCS platform, the Commander, Fleet 
Forces Command (formerly Commander, Atlantic Fleet) coordinated a plan 
with the numbered fleets and Commander, Mine Warfare Command to employ 
large deck amphibious ships (LHAs and LHDs) in a surrogate MCS role. 
Upon decommissioning of MCS-12, various key operational capabilities 
inherent to U.S.S. Inchon will be retained in expeditionary 
detachments. This plan has already been promulgated and will be 
exercised on a regular basis. Use, however, of amphibious shipping as 
surrogate MCS will pose additional constraints on MEB AE lift 
requirements. When embarked, MCM assets will greatly increase the size 
of the naval support element and will encroach on aviation and vehicle 
storage space--a situation that must be watched and managed closely.
    Concurrent with the employment and refinement of this interim MCS 
concept, the Navy is conducting a MCS mission area analysis (MAA) with 
Johns Hopkins University. This MAA will lead to a refined mission need 
statement supporting an analysis of alternatives for a follow-on MCS 
platform. Additionally, the Navy continues to experiment with 
transformational concepts like the high speed vessel to understand how 
such a concept/platform might serve in an MCS role.
    In closing, I first want to echo and reinforce what General Jones 
stated to this committee on March 5, 2002. The long recognized 
requirement for the amphibious force structure is the ability to lift 
the assault echelons of three Marine expeditionary brigades. Today, we 
can barely lift two brigades--a mere two-thirds of the requirement. I 
second the commandant's recommendation that we recapitalize our 
amphibious fleet as a matter of urgent priority. Two programs that I 
have testified about today will move us closer to meeting this critical 
requirement. We need delivery of at least 12 LPD-17s and replacement of 
the LHAs as they approach the end of their expected service life. 
Second, I want to reemphasize the need to ensure the safety and welfare 
of our sailors and marines. The way to do this is to ensure that the 
equipment and shipping they use is modern, capable and habitable. 
Again, LPD-17 and LHA(R) address these priorities, as does our 
continuing endeavor to remove the ``man and mammal from the 
minefield.'' We can ill afford not to fully exploit these programs. The 
gain far exceeds any short-term financial pain caused by investing in 
the safety and welfare of our most precious asset--our sailors and 
marines. I am grateful for your support and look forward to supporting 
you and the American people in the years to ahead.

    Senator Kennedy. Admiral Balisle.

   STATEMENT OF REAR ADM. PHILLIP M. BALISLE, USN, DIRECTOR, 
        SURFACE WARFARE DIVISION, DEPARTMENT OF THE NAVY

    Admiral Balisle. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to appear before you today to 
discuss the Department of the Navy's fiscal year 2003 surface 
warfare systems budget. I would also like to thank the 
committee for your strong and enduring support for surface 
warfare programs and, more importantly, for your support of our 
truly outstanding surface warriors. These young men and women 
who stand watch today on ships and at support bases around the 
world in the defense of freedom are the heart and soul of 
surface warfare and are the key to our success.
    Surface warriors and our systems have played a key role in 
the recent successes in the war on terrorism. The status of 
surface warfare today is healthy and improving. We have a 
credible combat-ready force that emphasizes forward-deployed 
operations. This year's budget submission shows real progress 
in fiscal year 2003 and through the future years defense plan 
in support of our strategy to provide a robust warfighting 
capability necessary to pace the threat and support worldwide 
assured access for joint forces.
    We are focused on providing the greatest flexibility for 
the least investment. For our fiscal year 2003 budget, we seek 
improvement in current and future readiness, with emphasis on 
transformational technologies and concepts, to provide 
affordable solutions to our warfighting requirements. More 
importantly, we will endeavor to get those solutions rapidly 
into the fleet.
    My written testimony describes our investment strategy and 
details the impact of this budget submission on the full range 
of surface warfare programs. But I would like to very briefly 
highlight our efforts in three important areas: readiness, 
network-centric warfare, and the future fleet.
    This year we are making solid progress in addressing 
longstanding readiness issues, thanks to the leaders and 
sailors in the fleet and the support of this Congress. Surface 
warfare manpower, training, and maintenance accounts have 
recently posted significant levels of improvement, an 
achievement reflected in the persistent performance of our 
ships in the ongoing war on terrorism. The fiscal year 2003 
budget submission continues this improvement trend in these 
critical readiness areas.
    The Navy's cornerstone warfighting concept of network-
centric warfare derives maximum force warfighting potential 
through rapid and robust networking of diverse, well-informed, 
and geographically dispersed warfighters. The Navy's 
cooperative engagement capability (CEC) system and the naval 
fires network are leading the way in making network-centric 
warfare a reality in the fleet.
    The John F. Kennedy battle group deployed with CEC last 
month and we added in this budget submission significant 
funding to accelerate fielding and further development of CEC 
and other sensor-netting technologies.
    The naval fires network digitally connects sensors through 
decision makers to shooters. This provides time-critical strike 
and time-critical targeting capabilities and enhances every 
area of our warfare missions. Using the Defense Emergency 
Response Fund provided by Congress this year, we have 
accelerated deployment of this vital system and our current 
budget request ensures continued rapid deployment and 
development of this significant situational awareness and time-
critical targeting capability.
    The report of the Quadrennial Defense Review study and the 
Navy's leadership have recognized that assuring access to key 
regions abroad and projecting power in its various forms 
requires a broad range of naval capabilities. To achieve this, 
our 21st century Navy must be comprised of affordable force, 
reflecting state-of-the-art capabilities and technologies.
    The cornerstone of this force is the timely fielding of the 
DD(X) destroyer as the lead ship of an evolving class of multi-
mission threat-capable, and cost-efficient surface combatants. 
The application of a proven Spruance-to-Aegis evolutionary ship 
development approach in a new class of 21st century combatants 
is absolutely essential for tomorrow's Navy. Together with the 
cruiser conversion program and the upgrade of our DDGs, these 
future ships will provide the joint force commander with a 
toolbox of capabilities he needs.
    In conclusion, sir, once again I would like to thank you 
and the members of this committee on behalf of the surface 
warriors in our Navy. I want to offer my sincere thanks for 
this opportunity to speak before you today and I stand by for 
your questions.
    [The prepared statement of Rear Admiral Balisle follows:]

          Prepared Statement by Rear Adm. Phillip Balisle, USN

    Chairman Kennedy, Senator Sessions, distinguished members of the 
Senate Seapower Subcommittee, thank you for the opportunity to address 
you today on the status of the surface Navy. I greatly appreciate the 
excellent and continued support your committee has given the surface 
Navy which has allowed our Surface Warriors to contribute significantly 
to America's Navy's accomplishment of our missions around the world--
including the swift and effective response to the attacks of last 
September--while continuing to advance our strategy to transform the 
Surface Forces to meet the challenges of the future.

      THE UNITED STATES NAVY--PRESENCE . . . POWER . . . PRECISION

    Our Navy's response to the events of September 11 highlights the 
mobility, lethality and reach of naval forces.
    On the home front, aircraft carriers, Aegis cruisers and 
destroyers, and numerous other ships rapidly responded to take station 
off the east and west coasts of the United States to guard the air and 
sea approaches to our shores in coordination with the U.S. Coast Guard 
and other military and civilian agencies ashore.
    Forward deployed, U.S. naval forces were first on the scene and led 
the way for the joint force effort in Operation Enduring Freedom. 
Tomahawk shooters suppressed enemy air defenses while carrier strike 
aircraft projected power with precision munitions hundreds of miles 
beyond the sea. Marines, Navy SEALS, Seabees, and Special Operations 
Forces sustained by Navy forces from the sea all played key roles in 
freeing Afghanistan from the Taliban regime and the al Qaeda terrorist 
network.
    The extraordinary warfighting flexibility demonstrated by U.S. 
naval forces this year is the result of the dedicated service of our 
active and Reserve Sailors and Marines and their civil service team 
members. It is a testament to our commitment to mission accomplishment. 
The U.S. Navy is ready to fight and win.
    Forward deployed combat forces provide this nation with speed of 
response to an emerging crisis from forces that can be immediately 
employed from within a region. Before the most recent action in 
Afghanistan, naval forces had provided the same type of timely response 
on 86 occasions in the last decade alone, including 11 different combat 
operations. In fact, even before the events of September 11, the last 
10 Navy carrier battlegroups to deploy, a span that began in 1998, have 
engaged in combat as part of Operation Allied Force in Southeastern 
Europe and/or operations in the Middle East. Additionally, in that time 
span, naval forces conducted non-combatant evacuation operations, 
conducted thousands of boardings in support of U.S. drug policy and 
United Nations sanctions, and participated in numerous humanitarian 
assistance operations. During crisis or conflict, forward-deployed and 
forward-based naval forces are positioned for timely response. The 
Navy-Marine Corps team stands ready, at the ``tip of the spear,'' to 
assure access and to project joint and combined power in support of 
National policy.

             STRATEGIC ENVIRONMENT AND NAVY TRANSFORMATION

    The 2001 Quadrennial Defense Review (QDR) sets clear goals to 
assure allies and friends that the United States is a reliable security 
partner, to dissuade future military competition from potential 
adversaries, to deter threats and coercion against U.S. interests and 
decisively defeat any adversaries who have not been deterred from 
attempting to impose their will on the U.S., its allies or its friends. 
The QDR requires that we restore and then improve current readiness 
while transforming to address the circumstances of the 21st century. To 
support these goals, our sovereign naval forces must be able to enhance 
deterrence and, should that fail, assure sea-based joint force access 
to project offensive and defensive power ashore to defeat all 
adversaries.
    New challenges, including the threat of cyberwar, weapons of mass 
destruction, continued international terrorism and the havoc wrought by 
failed states, define a most unpredictable future. These and other 
emerging threats will call for new deterrence options spanning the full 
range of threats facing our Nation. Technical advances in area-denial 
forces including mines, small boats, diesel submarines, sophisticated 
anti-ship cruise missiles, land-based aircraft and ballistic missiles 
have expanded the challenge in the littoral areas where naval forces 
must operate in order to maintain the ability to project power in 
support of national objectives.
    To counter these challenges in the littoral, robust Surface Force 
warfighting capabilities must be maintained to guarantee the Navy's 
ability to sail into harm's way, and enable our assured access in the 
littorals throughout the world. These capabilities are achieved through 
multi-layered defense-in-depth, active and passive measures, teamwork 
and force synergy. The evolution of our warfighting systems must be 
kept ``lock step'' ahead of the emerging threat. As the threat evolves 
and becomes more capable, so must the Navy's combat systems. To remain 
ahead of this evolving threat we must field state-of-the-art 
capabilities as we continue to invest in next-generation research and 
development.
    The Navy will meet the challenge of an uncertain future by 
continuing to transform our concepts, organizations, doctrine, 
technology, networks, sensors and platforms, weapons systems, training, 
education and our approach to manning. At the heart of this wide-
ranging transformation is the implementation of network-centric 
warfare. This integration of sensors, information systems, platforms 
and weapons to achieve major increases in warfighting effectiveness 
will provide the framework for a transformed, balanced total force that 
will provide the Joint Force Commander with the ``tool box'' of 
capabilities necessary to fight and win against current and emerging 
threats.
    The Surface Warrior's contribution to the joint commander's ``tool 
box'' of capabilities supports a family of shaping, offensive and 
defensive missions including assurance and deterrence, maritime 
strategic fires, expeditionary maneuver warfare, maritime strategic 
defense, ship self-defense, undersea warfare, and homeland security.

        <bullet> Assurance and Deterrence--The enduring Navy-Marine 
        Corps contribution to national security is combat-credible 
        forward presence. surface Navy forces present and engaged 
        forward--where our most vital economic, political, and military 
        interests are concentrated--routinely provide a framework of 
        security and stability that helps other instruments of national 
        power to assure our allies and friends and to dissuade 
        potential military competitors.
        <bullet> Maritime Strategic Fires--The surface Navy provides 
        cruise missile precision strike and naval surface fires 
        capabilities vital to integrated joint operations across the 
        spectrum of warfare.
        <bullet> Maritime Strategic Defense--The surface Navy with a 
        variety of existing and developing capabilities is postured to 
        project defense over sea-based and land-based U.S. and Allied 
        forces including theater air defense and theater ballistic 
        missile defense.
        <bullet> Expeditionary Maneuver Warfare--surface Navy forces 
        play a vital role on the Navy-Marine Corps team that stands 
        ready to project sea-based power ashore in support of joint, 
        naval, or multi-national operations.
        <bullet> Ship Self-Defense--This capability enhances the 
        ability of all fleet units to survive and operate in an enemy 
        area-denial environment and is at the core of the sea-basing 
        concept that affords sustained access to naval forces and 
        supports maneuver along the length and breadth of the joint 
        littoral operations area unconstrained by political or 
        sovereignty issue.
        <bullet> Undersea Warfare--Command of the seas in both the open 
        ocean and in the littorals is a pre-requisite for sea-basing 
        and the surface Navy fields an array of existing and developing 
        capabilities in anti-submarine and mine warfare to ensure 
        freedom of maneuver, access, and freedom of trade on the sea.
        <bullet> Homeland Security--The surface Navy is coordinating 
        with numerous other government and military agencies, 
        especially the Coast Guard to defend the air and surface 
        approaches to our coast, ports, and waterways.

                         A CONTINUING CHALLENGE

    The status of Surface Warfare today is healthy and improving. We 
are still the greatest Navy in the world. We have a credible, combat 
ready force with our primary emphasis on deployers. This year's budget 
submission shows real progress for fiscal year 2003 and through the 
Future Years Defense Program (FYDP) in support of our strategy to 
provide the robust warfighting capabilities necessary to pace the 
threat and support assured access. We are focused on providing 
warfighting capability and on providing the greatest flexibility for 
the least investment.
    The Nation must continue to have a credible sea-based warfighting 
capability in the 21st century, ships that can go in harm's way and 
accomplish the mission to support the National Security Strategy. We 
must have sufficient force structure in both quantity and quality and 
be able to put the right mix of ordnance in sufficient numbers on 
target.
    We have made progress over the last year in many areas but there is 
still significant work to be done. We will continue to seek improvement 
in current and future readiness with emphasis on transformational 
technologies and concepts to provide affordable solutions that will 
allow us to execute all of our missions and requirements. More 
importantly, we will endeavor to get those solutions rapidly into the 
fleet.
    In my testimony below, I will first review our progress in 
maintaining and improving readiness before discussing our contribution 
to the Navy's network-centric warfare concept and our progress in 
support of the vital mission areas: maritime strategic fires, maritime 
strategic defense, ship self-defense, undersea warfare, and homeland 
security.

           READINESS--MANPOWER, MAINTENANCE, AND FUTURE FLEET

    We are making solid progress in addressing long-standing readiness 
issues thanks to the leaders and sailors in the fleet and the support 
of the American people and Congress. Manpower, training, and 
maintenance posted significant levels of improvement over the last year 
and continued improvement is supported in the fiscal year 2003 budget 
submission. Although maintaining force structure will be a challenge, 
the Surface Ships joining the fleet today are the best in the world and 
we have a solid plan for the future with the DD(X) family of ships.

                           MANPOWER/TRAINING

    Manpower is our biggest investment, comprising nearly one-fourth of 
our allotted budget. We must continue to look for economical and 
efficient methods for manning our ships. The surface Navy has no 
alternative but to transition from manpower- and workload-intensive 
ships to ships such as DD(X) and the LCS (which will be introduced in 
next year's budget submission) that will leverage new technologies to 
expand our warfare capabilities while optimizing manning levels. 
Roughly two-thirds of our community billets are at sea and the 
preponderance of these billets are in our Aegis ships. This coupled 
with the relatively long life expectancy of the Aegis Fleet has guided 
us to introduce the Smartship program into the fleet and our Aegis 
force. The Smartship program, which takes advantage of select 
technological enhancements to reduce manning requirements, is a useful 
vehicle to facilitate this transition from today's manpower intensive 
fleet to the optimally manned fleet of the future, designed around the 
principles of human-centered design (HCD) and human systems integration 
(HSI).

                           TRAINING STRATEGY

    In addition to researching and adopting technologies to achieve 
optimal manning, and critical to our retention efforts, we must focus 
on development of our most valuable resource, the sailor. We are still 
engaged in a battle for people. To win this battle, we must deliver 
educational and personal growth opportunities for our sailors.
    The surface Navy has adopted a strategy to reverse a trend that has 
seen training facilities and equipment become increasingly outdated and 
ineffective. The ultimate objective of this strategy is to provide 
optimally trained sailors to the fleet at the right time, establish and 
maintain their proficiency, and promote personal and professional 
development throughout their careers. This strategy focuses on tailored 
training, robust integrated training systems, mission area training and 
distance support. Through detailed billet and watch station task 
analysis and the installation and use of modern re-configurable 
trainers, we will be able to properly train sailors while at the same 
time replace outdated technical training equipment, rapidly update 
curricula, and phase out outdated training methodologies. Emphasis on 
mission area training will address fleet training requirements at the 
earliest stages of system design and acquisition, an approach that has 
proven successful for Aegis combat system training. Distance support 
will be essential for providing training ``on demand'' to support 
sailors' personal and professional development and to move all training 
administration off the ship.
    To achieve these objectives, in the fiscal year 2003 budget 
submission we have accelerated installations of our principle shipboard 
tactical team trainer, Battle Force Tactical Trainer (BFTT), and 
invested significantly in training re-engineering projects that will 
lead to replacement of costly and out-of-date technical training 
equipment in our technical schools, earlier qualification of our junior 
officers as surface warfare officers and increased navigation, ship 
handling and seamanship proficiency training in our fleet concentration 
area schoolhouses as well as onboard the ships themselves.

                        JUNIOR OFFICER RETENTION

    Junior officer retention is critical to the future of surface 
warfare and, though we are pleased with recent progress, there is still 
significant work to be done in this critical area. Junior officer (JO) 
retention remains at the top of our manpower concerns.
    We monitor JO retention by comparing the number of officers that we 
accessed in a particular year with the current inventory for that same 
``Year Group.'' Our retention requirements are thus different for each 
Year Group, generally falling between 34 and 38 percent of officers 
remaining on active duty in the surface community at about the 7-year 
point. Our shipboard department head requirements are relatively 
stable. We require 245 officers to become department heads every year 
to fill our at-sea requirements without significantly over-touring 
these officers and gapping billets elsewhere in the Navy. To avoid 
confusion among different retention percentage requirements for 
different Year Groups, I will tailor my remarks to discuss our ability 
to meet the relatively stable at-sea requirements of 245 department 
heads per year for each Year Group.
    In recent years, just under 200 officers a year were electing to 
continue their service as department heads. This led to increasing 
department head tour lengths to an average of 40 months and in some 
instances to as much as 50 months in order to cover all of our 
requirements. These extended tours led to significant junior officer 
dissatisfaction and worked further against our retention goals. To 
break this negative cycle, we established several innovative programs.
    Surface Warfare Officer Continuation Pay (SWOCP) offers significant 
financial incentives to remain on active duty in the surface warfare 
community through two department head tours. 1,699 of the 1,713 
available SWOCP contracts offered over the past 2 years were accepted, 
additionally 161 of the 275 contracts available this year have already 
been completed. Additionally, our ``early roller'' program accelerated 
careers of outstanding division officers to department head tours to 
cover some of these critical sea-going requirements. 115 outstanding 
young Division Officers have stepped forward and participated in this 
program to date.
    We believe our strong commitment to graduate education for surface 
warfare junior officers is having a positive retention effect as well. 
We have increased the numbers of junior officers participating in 
graduate programs from 155 in fiscal year 2000 to 200 in fiscal year 
2001, and already have 133 officers participating in fiscal year 2002. 
In addition, we have allocated funds to support 40 Graduate Education 
Vouchers (GEV), paying officers tuition up to $20,000 per year for 2 
years. Our assessment to date indicates that graduate education and 
SWOCP are a powerful retention tools, and we continue to monitor our 
retention progress closely.
    These efforts have been effective in reversing our declining Junior 
Officer population trends of recent years and we are approaching our 
goal of 245 officers per Year Group continuing their service through 
two Department Head tours. The average number of department heads 
produced by YGs 91 through 94 was 179--much lower than the goal of 245. 
YGs 95 and 96 on the other hand already have 219 and 223 contracted 
department heads. Except for the early rollers, these officers can be 
expected to start their department head tours over the next 2 years.
    We are also continuing an aggressive resignation withdrawal 
campaign that has borne much fruit over the last several years. 27 
officers have reconsidered their resignations in the first 3 months of 
fiscal year 2002. This is particularly significant when added to the 
163 officers that withdrew their resignation requests over the previous 
2 years.
    We are not meeting our junior officer retention requirements yet, 
but we are trending in the right direction. Junior officers are our 
future; we will continue to focus our energies and innovations in 
retaining our best. We believe the future of the surface warfare 
community is at stake.

                           FLEET MAINTENANCE

    Fleet maintenance is a pillar of current readiness. Recent world 
events have reinforced the need to maintain our ships mission ready to 
sail in support of national tasking. This is not an easy task in 
today's fiscal environment as we continually strive to balance the 
needs of today's Navy with the requirement to modernize and re-
capitalize our fleet. With our smaller force, we must also focus on 
maintaining our ships with minimal disruption to ships' operational 
schedule to provide the maximum flexibility to our Fleet Commanders.
    Our ability to predict ship maintenance requirements continues to 
improve. The Maintenance Requirements System (MRS) is in its third year 
of use and has matured considerably since its introduction. This system 
uses historical return costs and documented deferred maintenance to 
project future maintenance requirements. Under the guidance of the MRS 
Alliance, MRS is yielding a firmer, more rigorous requirement. This 
more credible requirement provided the needed rationale to increase our 
investment in depot maintenance in fiscal year 2003 budget submission.
    Condition-based maintenance (CBM) processes and our ships' class 
maintenance plans further define our surface ship maintenance 
requirements. The maintenance support community has embraced CBM and is 
working hard at improving water-front maintenance assessment processes 
and our ability to determine maintenance requirements based on evidence 
of need. Material condition information from these assessments is 
directly fed back into the programming process to ensure adequate 
resources are devoted to ship maintenance. This information is also 
being used in new ship design efforts to reduce overall lifetime costs. 
Programs such as Capital Investment for Labor (CIL) and Cost Reduction 
and Effectiveness Improvement (CREI) are also investing in new 
technologies and ways of doing business that will directly affect 
maintenance requirements and sailor workload. A recent example of this 
is our fiscal year 2003 budget submission investment in magnetic 
couplings, a new technology that eliminates the requirement for our 
sailors to perform a time consuming alignment procedure. In the 
President's budget submission, we are planning to procure and install 
176 magnetic couplings per year for the next 4 years. This initiative 
not only has a high maintenance return on investment, but also 
significantly reduces the sailor workload. This is a win-win for both 
the sailor and the maintenance community and demonstrates our 
commitment to reducing sailor workload and improving quality of 
service.
    In the fiscal year 2003 budget submission, we funded depot 
maintenance to 91.6 percent and intermediate maintenance to 95 percent 
of the OPNAV assessed requirement. Although deferred maintenance is 
expected to grow when funded at less than a 100 percent investment 
level, MRS captures this shortfall and includes a portion of the 
deferred maintenance in the annual continuous maintenance (CM) 
requirement.
    We remain committed to providing ships that are supported to a 
realistic and executable maintenance requirement and ready to respond 
to operational tasking.

                    BUILDING THE FLEET OF THE FUTURE

    As the Chief of Naval Operations has pointed out in his previous 
congressional testimony, the surface combatant fleet is, on average, 
relatively young, but the rate of ship recapitalization bears watching. 
We must procure an average of nine ships per year in the later years of 
the FYDP to sustain today's fleet and to provide stability for our 
defense industrial base. As VADM Mullen, DCNO for Resources, 
Requirements and Assessments, stated in his previous congressional 
testimony, Navy leadership is committed to improving the 
recapitalization rate of the Navy, particularly in the area of 
shipbuilding. Our current budget sets the foundation for the future by 
investing in impressive programs that will comprise the core 
capabilities of our force in the years to come. The continuing 
production of Arleigh Burke destroyers, the planned production of a 
family of new surface combatants--the advanced destroyer, DD(X), the 
advanced cruiser, CG(X), and the LCS--the Ticonderoga Cruiser 
Conversion program, and the Joint Command and Control Ship JCC(X) 
program present impressive technological leaps in warfighting 
capability, innovation, and reliability.

                                 DDG-51

    The DDG-51 class guided missile destroyer program remains the 
Navy's largest surface ship program. The fiscal year 2003 budget 
request includes $2.29 billion for the procurement of two DDG-51 class 
destroyers. The request adds six additional destroyers to the 
procurement profile, two additional ships per year in fiscal year 2005 
through 2007. The addition of the six DDGs addresses three issues: 
mitigates the industrial base gap issue between DDG-51 production and 
DD(X) construction that was evident in prior budgets; better stabilizes 
the surface combatant build rate as we transition to DD(X); and 
stabilizes future surface combatant force structure in the 2012 time 
frame. A new 4 year, fiscal year 2002 through 2005, multiyear 
procurement contract solicitation draft has been recently released. It 
is anticipated that a contract will be awarded for these eight ships 
plus options this summer.
    The two Arleigh Burke-class destroyers procured in fiscal year 2003 
will be Flight IIA ships configured with the Baseline 7 Phase I Aegis 
combat system, which we introduced on the third ship in fiscal year 
1998. This baseline incorporates new integrated mission capability and 
makes these ships more capable in the littoral than any other combatant 
in the world. The upgrades include the SPY-1D(V) radar system, 
Cooperative Engagement Capability, and a 5,,/62 gun. Additionally, the 
DDG-51 destroyers of the fiscal year 2002 multiyear procurement will be 
forward fit with Baseline 7 of the Mk 41 Vertical Launching System, the 
Tactical Tomahawk Weapons Control System and the ability to accommodate 
the MH-60R helicopter variant.

                          THE FAMILY OF SHIPS

    The Report of the Quadrennial Defense Review Study and the Navy's 
leadership have recognized that assuring access to key regions abroad 
and projecting power, in its various forms, requires a broad range of 
naval capabilities. These disparate capabilities can best be satisfied 
by a family of ships, each of which, while capable of multiple missions 
as necessary and prudent, is optimized to perform a key function:

        - Advanced Multi-mission Destroyer, DD(X), for delivery of 
        precision strike and volume fires to support assured access and 
        maneuver warfare.
        - Advanced Cruiser, CG(X), to provide air superiority against 
        cruise missile and ballistic missile threats over the total 
        force.
        - Littoral combat ship, LCS, capable of defeating littoral 
        defenses including mines, fast small boats and diesel 
        submarines. (fiscal year 2004 program start)

    Power projection ashore at the high end of the spectrum of conflict 
(as well as concomitant force-protection and assured-access 
requirements) demands the high-volume firepower, long-range precision-
strike capability, ample magazine capacity, and enhanced endurance of 
sizeable multi-mission combatants.
    However, the intricacies of the littorals demands more expansive, 
detailed ``coverage'' inshore which, as currently envisioned, may be 
satisfied by a multiplicity of smaller, high-speed, and highly 
maneuverable ships working in close concert with a distributed, netted 
force of multi-mission ships.
    DD(X) and CG(X) will be larger, multi-mission warships, with 
specialized mission systems and significant ordnance payloads. They 
will be optimized to deliver ``fires for effect'' in both land attack 
and high-end force protection. They will be designed to be highly 
survivable in expeditionary operations and will provide defense-in-
depth for smaller focused-mission ships.
    LCS will be a smaller ship with an advanced hull design, optimized 
specifically to operate close inshore. Key attributes of LCS will be 
stealth, speed, and maneuverability. Missions envisioned for LCS 
include mine warfare, anti-surface warfare, and anti-submarine warfare 
against quiet diesel submarines. LCS will be capable of operating self-
sufficiently for extended periods in a low-threat environment, 
including homeland security/defense missions in conjunction with USCG 
forces. LCS is a new program that will be addressed in the fiscal year 
2004 budget submit. Nevertheless, it is appropriate to address it in 
this fiscal year 2003 supporting testimony as it will play a 
significant role in the 21st century Navy force structure.
    In-service Aegis ships, also within this family of ships, will be 
upgraded through evolutionary upgrades and back fit of technologies in 
the DDG-51 production line and by back fit of CGs in the Cruiser 
Conversion program to keep them current and viable in the littoral for 
their entire life span.

                       SPIRAL TECHNOLOGY TRANSFER

    Using a spiral development approach will allow technologies to be 
fielded when they are ready through a flight approach and lessons 
learned/technology sharing between programs, forged to capture cutting 
edge initiatives. As DD(X) drives the development of technology in many 
areas, we will look for opportunities to backfit advancements on 
existing platforms. Carefully focused upgrade and conversion programs 
will ensure the existing core of surface combatants maintain the 
capability for battlespace dominance. The spiral technology development 
process of DD(X) and LCS will enable the most efficient insertion of 
high pay-off technologies into the Family of Ships with the least 
amount of risk. DD(X) and LCS will be developed in parallel and on 
complementary time lines.

        - CG(X) will share a common hull form and propulsion plant 
        architecture with DD(X) and will use many of the same 
        innovative technologies to reduce crew size, increase joint 
        C\4\I connectivity, and reduce operating and support costs.
        - LCS will benefit from the DD(X) technology development by 
        taking advantage of advanced automation technology, high 
        density propulsion plants and increased nodal and C\4\I 
        connectivity.
        - In-service Aegis surface combatants will receive technology 
        upgrades that will extend their combat capabilities and keep 
        them at the leading edge of combat effectiveness.

                        DD(X) ADVANCED DESTROYER

    DD(X) will introduce a wide range of technology for naval ships 
but, moreover, it will be the first deploying combatant ship of a new 
family of 21st century multi-mission ships. DD(X) will integrate 
advanced command, control, communications, intelligence, surveillance, 
and reconnaissance systems to achieve an unprecedented level of 
knowledge of the battlefield. To ensure effective operations within the 
littoral, DD(X) will employ state-of-the-art sensors combined with 
unsurpassed radar, acoustic, magnetic, and infrared signature 
reductions exceeding those of all previous warships, including DDG-51. 
Active and passive self-defense systems, as well as cutting edge 
survivability features (including modular ship systems and in-stride 
mine avoidance) will enable DD(X) to fulfill the full spectrum of 
battlegroup missions assigned to our destroyers today, and to fight 
through damage.
    DD(X) will have the capacity to carry the variety and volume of 
offensive, precise firepower, which will enable our Marine Corps and 
light, mobile Army forces to complete their missions. These systems 
include Tactical Tomahawk and the Long Range Land Attack Projectiles 
(LRLAP) with a range of 100 miles, and will have the growth potential 
to include an ALAM. DD(X)'s ability to deploy a high volume of 
precision-guided munitions will provide Joint Force Commanders with 
significantly improved ranges, accuracy, volume, firing rates and 
response times compared to current-generation ships.
    In order to ensure the ship's ability to perform its primary naval 
fires mission, the DD(X) design is structured to incorporate several 
``leap ahead'' technological advances. This represents a ``win-win'' 
investment for the Navy as many of DD(X)'s advanced technology 
developments will benefit other ship classes. DD(X) will be the 
catalyst for:

        - Integrated Power System (IPS)/Electric Drive: All-electric 
        architecture that provides electric power to the total ship 
        (propulsion and ship service) with an integrated plant. 
        Benefits include reduced operating costs, improved warfighting 
        capability, and architectural flexibility.
        - Advance Gun System: 155mm gun with ``fully automated'' 
        ammunition handling system and a family of munitions/propelling 
        charges specified to achieve ranges of up to 100 nautical 
        miles. AGS will provide high rate-of-fire (approximately 12 
        rounds per minute) with a magazine capacity sufficient in size 
        to meet USMC operational requirements. Features of the AGS 
        design will provide the basis for future naval gun systems.
        - New Radar Suite (Multi-Function Radar (MFR)/Volume Search 
        Radar (VSR): MFR provides DD(X) and other applicable surface 
        combatants with affordable, high performance radar for ship 
        self-defense. The MFR will greatly enhance ship defense 
        capability against all threats envisioned in the littoral 
        environment. VSR provides DD(X) and other applicable surface 
        ships with an affordable, high performance air search radar. 
        Both MFR and VSR should reduce manning and life-cycle costs 
        compared to the multiple systems that perform these functions 
        today.
        - Optimized Manning through Automation: Use of initiatives, 
        such as advance system automation, robotics, human centered 
        design methods, and changes in Navy personnel policies, will 
        allow DD(X) to meet mission requirements with significantly 
        reduced crew size while improving the sailor's quality of 
        service. Lessons learned from DD(X) can be applied to future 
        surface ship and submarine designs.
        - Total Ship Computing/Software Development: Key to meeting 
        optimal manning requirements is affordable open systems 
        architecture technology insertion/upgrades to future ships. By 
        taking advantage of commercial advances in computer processing 
        power, distributed/integrated data networks and software 
        development, total ship computing enables a ``plug and play'' 
        environment for all internal and external user systems.
        - Integrated Apertures: In addition to reducing the ship's 
        radio frequency (RF) signature, shared apertures will reduce 
        topside antenna crowding, decrease topside weight, and simplify 
        antenna maintenance. Shared aperture technology has the 
        potential to benefit many other Navy programs.
        - Survivability: DD(X) is developing system and protection 
        concepts that are intended to reduce vulnerability to 
        conventional weapons and peacetime accidents under reduced 
        manning conditions. Development areas include damage control 
        computer-based systems that provide rapid systems restoration, 
        fire protection devices that improve probability of survival 
        with a reduced crew ship, and ship protection concepts that 
        reduce magazine and commercial equipment vulnerability.
        - Stealth: Operations in the littoral battlespace has made 
        stealth an essential element of new combatant design, 
        particularly radar cross-section reduction. The lessons learned 
        by DD(X) will provide new insight toward all aspects of ship, 
        sensor and weapons design.

    The DD(X) family, with its transformational technologies, will be 
the cornerstone for a family of next-generation surface combatants. 
These combatants must be affordable to produce and less costly to 
operate. They must be designed from the keel up to enable dramatic, 50 
to 70 percent, manpower reductions.
    Many of these technologies planned for DD(X) were intended to be 
incorporated into the DD 21 program. However, the DD 21 program allowed 
little technical risk reduction, though many of the technologies are 
quite transformational. With DD 21, we were taking a single step to 
full capability. There was a success-oriented assumption that 
everything would proceed on schedule and cost. There were limited 
opportunities for prototyping and little room for error. In the end, 
these factors resulted in a program with unacceptable cost growth risk. 
Thus, DD(X) was formulated to employ a broad range of strategies to 
make our entire family of next-generation surface combatants, the 
DD(X), CG(X) and LCS, more affordable.
    To mitigate the high technical risk; the restructured DD(X) program 
adds several land-based and sea-based prototypes for the key 
technologies. This provides a practical means of reducing risk within 
each area. The Navy will see potential problems earlier in the process, 
providing us a better chance to efficiently solve them. This strategy 
improves the chances of delivering a functional destroyer within cost 
and schedule.
    Additionally, the Navy plans to produce the lead ship using RDT&E 
funds. RDT&E funding recognizes that the lead ship design will mature 
during the design and construction process and may require a more 
flexible funding medium than SCN to compensate for technology 
development or schedule issues. This approach is supported by ASN (RDA) 
and USD (AT&L).
    The Navy can react to problems without the risk of resorting to 
prior-year completion funding. The program manager can focus on 
establishing an efficient process for manufacturing the DD(X) class and 
avoid trading away production initiatives if costs increase. Being able 
to adjust the RDT&E budget for the lead ship provides the best chance 
to control costs and define a production process that allows the Navy 
to affordably build these next-generation surface combatants.
    Construction of the lead ship in RDT&E is a significant change in 
the Navy's approach to shipbuilding, which the Navy hopes the committee 
will support.
    Navy's fiscal year 2003 shipbuilding program also provides 
flexibility for a smooth transition in DD(X) production. Given 
production approval by Navy and OSD, SCN funds allocated to fiscal year 
2006/fiscal year 2007 DDG-51 class destroyers may be reallocated in 
future budget submissions to provide uninterrupted follow-on class 
production of the fiscal year 2005 RDT&E lead ship.

                         CG(X) ADVANCED CRUISER

    The CG(X) will be built with the same hull and propulsion plant as 
DD(X). The combat system will take advantage of emerging technologies 
to provide sustained, theater-wide strategic defense against aircraft, 
anti-ship cruise missiles, and theater ballistic missiles.

                       LITTORAL COMBAT SHIP (LCS)

    The LCS will be a focused-mission ship. Built on a time line 
complementary to, but shorter than, that of the DD(X)/CG(X) family, it 
will be a practical, significantly smaller surface combatant capable of 
performing focused missions in places where it would be impractical or 
unwise to commit a larger, multi-mission surface combatant. Commercial 
hull technologies will be leveraged to develop these modular mission 
package platforms, primarily focused on missions related to battle 
space access.
    In a sense, this is new ground and a significant opportunity, as we 
will be building our 21st century surface combatant fleet from the keel 
up with the full awareness that it will operate as a netted, 
distributed force. We will need the focused-lethality of the Littoral 
combat ship to accomplish specific missions, while the multi-warfare, 
multi-mission DD(X) and CG(X) platforms provide the wide area battle 
space dominance for which they are uniquely suited. Away from home 
waters and particularly in water space immediately adjacent to 
adversarial coastlines, access will be a challenge. Area denial 
defenses close to land will be neutralized by multi-mission surface 
combatants working in close coordination with specially designed, 
netted and configured Littoral combat ships, exercising the capability 
to counter mines, small surface combatants and the shallow water 
warfare threat posed by diesel submarines.
    Importantly, with its size, speed and modular design 
characteristics, LCS has the potential to serve as a platform for 
mutual development with the United States Coast Guard's Deepwater 
Program. In this capacity LCS may provide the foundation for the 
Nation's interoperable U.S. Navy and U.S. Coast Guard force engaged in 
homeland defense. We are continuing to explore these possibilities with 
the Coast Guard as we both move forward with these important ship 
development programs. LCS will also be particularly suitable for 
foreign military sales, potentially providing our coalition partners 
with a state-of-the-art surface combatant that will ensure continuing 
interoperability among our navies. In fiscal year 2003, the LCS program 
consists of the analysis of several ongoing experimental ship efforts. 
Development and production funding will be addressed in the fiscal year 
2004 budget submission.

                           CRUISER CONVERSION

    While building new platforms for the future is a prime priority, 
maintaining and modernizing our current platforms enables them to 
continue to be valuable warfighting assets in the years ahead while 
concurrently trying to mitigate escalating support costs of aging 
equipment. As technological cycle times are now shorter than platform 
service life, it is fiscally prudent and operationally imperative to 
modernize the force through timely upgrades and technology insertion. 
In support of this priority, we plan to modernize the Ticonderoga-class 
cruisers. Our technology insertion efforts include the Smartship 
initiatives and a spectrum of new capabilities on other combatants for 
both existing and in-development ships to be used to extend the combat 
system service life of these vital multi-mission platforms. The fiscal 
year 2003 budget request includes $104 million in RDT&E funds to 
continue the engineering efforts to meet the schedule for the first 
installation, which will occur in fiscal year 2006. The upgrade of 
these ships will add new, and enhance existing, combat system 
capabilities for maritime strategic fires, cooperative engagement 
capability, force protection, and area air defense commander missions 
as well as increase service life with hull, mechanical, and electrical 
upgrades. These new mission capabilities will dramatically improve the 
ability of these warships to operate in joint and coalition warfare 
environments and the littorals. The program is essential to maintaining 
a mission-relevant force of approximately 116 surface combatants over 
the next 20 years.

                                 JCC(X)

    JCC(X) will provide the JFC and staff with enhanced mission 
capability for joint campaign management. It will also provide naval 
component commanders with capabilities for operational control of 
assigned naval and allied forces. JCC(X) will support planning and 
command and control of a full spectrum of joint and multi-national 
efforts including:

        - Major Theater War
        - Forward Presence/Peacetime Engagement
        - Peacekeeping/Peace Enforcement
        - Humanitarian Assistance/Disaster Relief
        - Non-Combatant Evacuation Operations

The program entered concept exploration and definition in November 1999 
and has developed a range of alternatives which will be used to decide 
the controlling characteristics of the ship. The fiscal year 2003 
budget request supports construction of the JCC(X) within the FYDP. The 
final definition of the program will be addressed in the fiscal year 
2004 budget submission.

                        NETWORK-CENTRIC WARFARE

    The Navy's cornerstone warfighting concept of network-centric 
warfare derives maximum force warfighting potential through rapid and 
robust networking of diverse, well-informed and geographically 
dispersed warfighters. This requires the integration of systems, 
weapons and communications networks in which the right information is 
available to the right system or operator at the right time. Naval 
forces, dispersed or concentrated, with shared awareness of the battle 
space and a solid understanding of the commander's intent, are prepared 
to exploit opportunities as they arise without reliance on centralized 
control procedures. The command and control environment of the future 
must be capable of contending with the complexity of the battle space.
    Network-centric operations are based on a robustly networked system 
of sensors, decision aids, weapons, warriors, and supporting systems to 
support joint and naval forces in their execution of missions across 
the entire range of military operations. FORCEnet is the Navy's 
overarching, integrating concept through which network-centric 
operations will be implemented by Naval forces. It will provide the 
architecture of networks, the joint infostructure, web-based 
infrastructure, and network security for the conduct of network-centric 
warfare.
    The surface Navy's cooperative engagement capability (CEC) system 
will contribute significantly to the force level integration that 
FORCEnet is introducing and ensuring interoperability of this and other 
systems at the battle group, fleet, and joint levels is a major 
initiative to support network-centric operations. Sea-based joint 
command and control is another pillar of the FORCEnet concept and the 
area air defense commander (AADC) program and the naval fires network 
(NFN) program are prime examples of the type of transformational 
systems the Navy is fielding to advance our goal of universal 
situational awareness. We have made significant progress in CEC, 
interoperability, AADC, and NFN over the last year and, through the 
fiscal year 2003 budget submission, we are postured to continue to 
advance these revolutionary capabilities.

                   COOPERATIVE ENGAGEMENT CAPABILITY

    Cooperative engagement capability is a system, in the fleet today, 
which provides a revolutionary capability in force-level integration 
for area defense and ships self-defense. Given increased speed and 
kinematics of the evolving threat, CEC integrates existing sensors and 
weapons more effectively across the force. The sensor netting approach 
employed by CEC allows many sensors throughout the force to work 
together to form a single composite track for each target in the battle 
space. As a result, CEC delivers significant improvement in force level 
detection and tracking, including improved track identification (ID) 
continuity, improved track accuracy, and improved situational awareness 
for all ships and aircraft in the force. Additionally, because CEC 
generates real-time fire control quality tracks, it brings significant 
engagement improvements including increased depth of fire, engagement 
of targets not held by own ship sensors, increased reaction time and 
maximized performance against the most stressing targets. As the only 
system based on shared fire control quality information, CEC provides 
the cornerstone to build the single integrated air picture (SIAP). This 
capability not only contributes to the ship self-defense of the 
platforms on which it resides, it also protects all naval units by 
``buying back'' battle space, the capability of greatest value in 
countering a fast moving threat. It provides time for alertment, 
decisions and actions and allows our weapons to shoot to the maximum 
flight capability of the missile rather than to the limit of one ship's 
sensors.
    Over the past 2 years, CEC has been rigorously tested to ensure 
full integration across current fleet combat systems and data links. 
The system successfully completed the largest operational evaluation 
conducted by the Navy to date in the spring of 2001 and was found both 
operationally effective and operationally suitable by the Commander, 
Operational Test and Evaluation Force. This highly robust and 
operationally realistic test series consisted of 10 underway test 
events over 2 years involving 10 warships, hundreds of aircraft sorties 
in support of challenging test scenarios, and nearly 30 missile 
firings.
    Subsequently, the Joint Requirements Oversight Council (JROC) has 
re-validated the system's operational requirements and we have 
continued to work closely with the Office of the Secretary of Defense 
to ensure compatibility with the evolving global information grid (GIG) 
architecture. The GIG architect has concurred that CEC is compliant 
with the 2003 GIG architecture although some work remains to ensure 
that CEC keeps pace as the GIG continues its evolution. Further, we are 
currently anticipating a favorable decision from the Defense 
Acquisition Board (DAB) that approves full-rate production of our 
surface-based CEC units and continues low rate initial production of 
the airborne units for the E-2C Hawkeye aircraft.
    The way ahead for this vital system consists of continuing the 
spiral development of CEC as we increase the number of cooperating 
nodes in the CEC sensor network (potentially including joint assets); 
examine CEC's potential as the foundation of the joint composite 
tracking network that will facilitate the development of a single 
integrated air picture (SIAP); ensure continued compliance with the GIG 
architecture; and examine alternative, potentially bandwidth-reducing, 
technologies. In short, Navy stands ready to field a system that is and 
will remain:

        - Operationally effective
        - Operationally suitable
        - GIG-compliant
        - JROC-validated

CEC is a dramatic improvement in area and ship self-defense for 
multiple ship classes.
    There is also growing international interest in this revolutionary 
new capability. This past summer, the U.S. Navy signed a memorandum of 
understanding with the United Kingdom that will ultimately lead to CEC 
being installed on Royal Navy frigates and destroyers. Additionally, 
other Allied Nations including Australia, Spain, Italy, Germany, 
Netherlands, and Japan have also expressed interest in CEC. Specific 
requests by these nations will be handled on a case-by-case basis.
    The CEC program has been a success story this year. The John F. 
Kennedy battle group deployed with CEC last month and we added 
significant funding to accelerate fielding and further development of 
CEC and sensor netting technologies in this budget cycle. This 
revolutionary capability will now be installed in most battle groups by 
fiscal year 2007.

         FORCE INTEROPERABILITY--DISTRIBUTED ENGINEERING PLANT

    The force-level integration generated by systems like CEC provides 
vast improvements in ship self-defense by buying back battle space that 
allows extra time for decisions and actions in today's challenging ASCM 
environment. The integration of multiple systems in a force with 
different levels of capability creates a challenge to ensure 
interoperability between all the units in a force. The objective of the 
Navy's force interoperability program is to engineer interoperability 
into our systems. Improved interoperability brings significant 
warfighting capability through increased situational awareness, 
enhanced weapons coordination, and reduced fratricide, enabling our 
combat systems to operate at their full design performance level and 
contributing to the development of a SIAP. This is critical to close-in 
ship self-defense but even more critical to timely engagement of the 
``archer'' vice the ``arrow'', the ultimate ship self-defense 
objective.
    The Navy's force interoperability program is divided into three 
functional areas: assessments, readiness, and warfare systems 
engineering. The foundation of this effort has been the establishment 
of a series of a land-based test sites that support testing of 
essential fleet combat system upgrades before they are introduced in 
the fleet. By networking these sites together into a distributed 
engineering plant (DEP), we can conduct rigorous force wide 
interoperability testing and engineering among different combat 
systems, including the examination of specific battle force 
configurations, before the software is deployed at sea. The DEP 
continues to evolve, leveraging existing engineering infrastructure to 
transform the Navy. Since 1998, when the Navy initially linked existing 
land-based combat system facilities together to conduct realistic 
battle force interoperability testing, the program has evolved to 
include tailored interoperability testing for every deploying battle 
group. This testing has enabled the development of interoperability 
measures of effectiveness (MOEs), and the ability to relate these MOEs 
to operational performance in terms of extended warfighting battle 
space.
    The Navy has initiated the correction of the prioritized 
interoperability deficiencies found during DEP testing. Beginning in 
fiscal year 2003, we have ``closed the loop'' from identification of 
deficiencies, to collection and analysis of data, to identification of 
root causes, to implementation and follow-up testing of prioritized 
fixes which yield the greatest warfighting return on our investment.
    As we draw lessons from the interoperability testing of today's 
combat systems, we are simultaneously feeding the results into the 
development of tomorrow's combat system baselines. As we explore the 
transformation of the existing Aegis Baselines into an open 
architecture, distributed processing combat system, we intend to build 
these interoperability enhancements into our new systems from the 
ground up. Following the successful transition to a complete COTS 
computing environment on our new construction Aegis DDGs, Aegis 
baseline development will introduce an open architecture, high 
performance, interoperable and network ready software architecture, 
which will eliminate many of the interoperability limitations of 
today's combat systems.
    As the DEP has continued to mature and expand, it has become 
evident that the role of this powerful engineering tool must be 
expanded to support the Navy acquisition process, in addition to the 
deploying forces. From its inception in 1998 through 2000, the full 
efforts of the DEP remained focused on battle group interoperability 
testing. However, beginning in 2001, the DEP team established new 
initiatives--in addition to full battle group testing operations--to 
help program managers find and resolve problems earlier in the 
acquisition cycle. In fact during 2001, for the first time, 45 percent 
of DEP utilization was dedicated to supporting development work. For 
example, the cooperative engagement capability program, which has 
rapidly become the DEP's second largest user, has been able to test 46 
percent of CEC's interoperability requirements in the DEP, 
substantially reducing requirements to do live shipboard testing, and 
therefore shifting this burden from the fleet to the shore 
infrastructure.
    The fiscal year 2003 budget submission continues to support this 
most important interoperability testing and engineering development 
effort.

                         JOINT INTEROPERABILITY

    In addition to the Navy's force interoperability program, last year 
the Joint Requirements Oversight Council (JROC) established the Office 
of the SIAP System Engineer, modeled after the Navy's SIAP Engineer 
effort, to begin working interoperability issues across the Services. 
The office has been established as a Navy-led joint program office, 
whose initial focus will be resolving interoperability issues currently 
existing in the tactical data links used by all the Services. Navy 
remains closely aligned with this joint initiative as we move forward 
in addressing interoperability issues.

                      COMMAND AND CONTROL SYSTEMS

    Installing new or improved weapons systems and integrating them at 
the shipboard and force level will dramatically improve naval forces 
ability to project power and to provide area and ship self-defense. New 
and innovative command and control systems will significantly enhance 
warfighting effectiveness by reducing confusion and coordinating the 
efforts of all the units in a force. Examples of such command and 
control systems are the area air defense commander program and the 
naval fires network program which have both been accelerated over the 
last year and are fully supported in the fiscal year 2003 budget 
submission.

                       AREA AIR DEFENSE COMMANDER

    The area air defense commander (AADC) program will provide naval 
forces significant new joint integrated air defense (JIAD) capability 
and buy back more battle space and decision time. The objective of AADC 
is to provide an essential joint air defense planning and execution 
tool. AADC provides a means to conduct detailed and comprehensive air 
defense planning, including air space deconfliction and the optimal 
stationing of air defense and theater ballistic missile defense assets. 
AADC is being developed to be fully interoperable with the Army and Air 
Force air defense planning systems. Through high-resolution displays 
and robust communications, the AADC module also provides the capability 
to serve the air defense commander through the entire range of conflict 
from minor crisis to major theater conflict.
    In the wake of the September 11 attack, we identified AADC as one 
of the systems that would better enable our forces to conduct forward-
deployed operations and homeland defense and re-baselined the program 
to develop and deliver a system to the fleet today vice the scheduled 
fiscal year 2005 introduction date. Through this realigned program, we 
installed one unit this year on U.S.S. Blue Ridge and intend to 
continue installs into next year and across the FYDP, significantly 
accelerating the delivery of this revolutionary warfighting capability 
to the fleet and, potentially, joint forces. This rapid fielding 
strategy increased planned unit procurements by an additional 6 units 
to a total of 17 units across the FYDP.

                          NAVAL FIRES NETWORK

    Within the specter of command and control enhancements, the naval 
fires network (NFN) was developed to provide the network-centric 
infrastructure and processing capability (software and hardware) 
required to support CVW strike, surface strike, land attack, 
expeditionary fire support, and anti-submarine missions in support of 
joint and coalition forces. NFN will be integrated into all phases of 
the time-critical strike/targeting (TCS/TCT) process, connecting the 
sensor grid, information grid, and weapons grid. NFN's overarching 
goal, integrated with the distributed common ground station (DCGS) 
architecture, is to collect, process, facilitate fusion of and 
disseminate data from a variety of disparate, geographically-separated, 
dissimilar joint sensors (including space-based sensors) and provide it 
to the warfighting community in a timely enough manner to identify, 
target, engage (re-engage, if necessary), and destroy enemy targets. 
NFN's multiple sources of fused intelligence, distributed throughout 
the battle-space, ultimately builds commanders' confidence, 
facilitating rapid decision-making. This common picture, the basis for 
engagement decisions, is electronically linked to mission planning and 
engagement systems. NFN digitally connects sensors, through decision 
makers, to shooters. This provides a TCS/TCT capability and enhances 
our deliberate targeting ability in every area of warfare including 
ship self-defense. NFN provides the commander with time critical 
intelligence, yielding enhanced situational awareness and therefore, 
better force posturing for self-defense.
    Using the Defense Emergency Response Fund (DERF) provided by 
Congress, we have accelerated deployment of this vital system. Our 
budget request ensures continued rapid deployment of this significant 
situational awareness and time critical targeting capability.

          MARITIME STRATEGIC FIRES--PROJECTING PRECISION FIRES

    Our Navy continues to be a ready and relevant offensive maritime 
force, with increased emphasis on precision strike and naval fires as a 
vital, emerging mission area to support joint and expeditionary 
warfare. We will continue to develop our long-range precision strike 
arsenal, and be capable of conducting precision land attack in concert 
with joint and coalition forces.
    This naval fires mission area includes several existing and new 
capabilities, such as long-range strategic precision strike provided by 
the Tomahawk cruise missile, and precision naval surface fire support 
to Marines and other ground forces delivered by a combination of gun 
systems.
    Our surface naval fires programs are addressing Navy, Marine Corps, 
and Army needs for today, tomorrow, and the future. Naval fires include 
a combination of guns, projectiles, and missiles to meet expeditionary 
maneuver warfare and Army transformation force requirements. These gun 
and missile capabilities complement each other and together will 
continue to improve and meet Marine Corps and Army requirements in 
terms of range, lethality, accuracy, and responsiveness.

                                TOMAHAWK

    Since the success of the initial 1991 Operation Desert Storm 
firings, Tomahawk has transformed our Nation's tactical approach to 
modern warfare. Today, Tomahawk is a vital CINC asset--the Nation's 
premier deep strike weapon. Tomahawk provides long-range, highly 
survivable, unmanned, all-weather precision strike capability from 
warships at sea. As a result, the Nation has come to rely on Tomahawk 
to meet an ever expanding number of key warfighting mission 
requirements, including suppression of enemy air defenses, destruction 
of vital C\4\I nodes, proportionate and surgical destruction of 
critical warfighting infrastructure, and engagement of time-critical 
targets.
    With an average of over 100 Tomahawk missiles expended each year in 
conflict, Congress approved a 1998 reprogramming of existing Tomahawk 
funds to field the Tactical Tomahawk (Tactom) weapon system--the 
follow-on to the Block III missile. Applying modern manufacturing 
technologies to Tomahawk's core competencies, Tactical Tomahawk reduces 
unit production cost ($569,000 in fiscal year 1999 dollars) while 
lowering life cycle cost and increasing the weapon's tactical 
flexibility. Tactom improves responsiveness and flexibility by 
providing an improved anti-jam GPS capability, a satellite data link, 
reduced mission load and alignment times, increased accuracy, improved 
reliability, the capacity to loiter and then engage on demand, an 
ability to flex via the data link to a preplanned alternate target or 
to a real-time emerging target, and a flexible design that can carry 
alternate payloads in the future. Tactom, the associated Tactical 
Tomahawk weapon control system (TTWCS) and the Tomahawk planning system 
(TPS) will ensure Tomahawk continues to expand in capability to meet 
tomorrow's land attack warfighting challenges head on.
    Commencing with the first Tomahawk wartime expenditures during 
Operation Desert Storm in 1991, the Navy has fired more than 1,100 
Tomahawk missiles in combat. Most notably, the Navy fired over 600 
missiles in fiscal year 1998/1999 during Operations Desert Fox and 
Allied Force and recently, more than 80 Tomahawk missiles in the first 
phase of Operation Enduring Freedom. Approximately 90 percent of all 
Tomahawk missiles expended in Operations Desert Fox and Allied Force 
and 70 percent fired in Operation Enduring Freedom were launched from 
surface ships. These surface ship expenditures represent approximately 
20 percent of the total Tomahawk inventory produced to date.
    As a direct result of the high combat expenditures in Operations 
Desert Fox and Allied Force--and in recognition of Tomahawk's 
increasingly important contribution towards achieving our warfighting 
objectives--Congress provided a fiscal year 1999 emergency supplemental 
of $431 million. This supplemental funded the conversion of 424 Block 
II missiles to the preferred Block III GPS variant as well as the 
remanufacture of 200 Tomahawk anti-ship missiles (TASM) to the Block 
III configuration. The induction of these missiles into the depot 
commenced October 1999. This effort, known as REMAN I, will complete in 
May--7 months early.
    Earlier this year, as a result of actual and anticipated Enduring 
Freedom expenditures, a second conversion/remanufacturing effort was 
funded with $350 million from the fiscal year 2002 emergency 
supplemental. This effort, known as REMAN II, will convert the 
remaining Block II missiles and will remanufacture additional TASM and 
former surface nuclear Tomahawks missiles. REMAN II will deliver the 
first of 450 additional Block III missiles in January 2003, completing 
approximately 15 months later. Approximately 330 TASM and former 
surface nuclear missiles will remain as candidates for a third 
remanufacture effort if funding becomes available this year or next.
    In the wake of the 11 September attack, we also increased the 
Tactom procurement profile. We added 362 missiles to the 1,353 missiles 
funded by the fiscal year 2002 profile. The PB03 profile now procures 
1,715 Tactom missiles through the FYDP. The first of these Tactom 
missiles delivers in May 2004.
    We are also teaming with the Defense Threat Reduction Agency to 
field a Tactical Tomahawk penetrator variant (TTPV). TTPV will address 
a substantial portion of the weapons of mass destruction hardened and 
deeply buried target set. The initial buy is programmed for 130 
missiles, with an IOC scheduled for fiscal year 2005.
    The two Block III remanufacture efforts, coupled with the increased 
PB03 Tactom missile procurement profile, will increase missile 
inventory to approximately 2/3 of the Navy's Tomahawk requirement by 
fiscal year 2009--assuming no future expenditures. While this approach 
of combining Remans and Tactom is clearly the best way ahead, current 
funding does not yet fulfill warfighting requirements.
    Just as Tomahawk has provided the national strike weapon, Tactical 
Tomahawk, with its capabilities for loiter and in flight retargeting, 
will also provide a significant land attack weapon, especially suited 
for targets beyond the 100 nm range of future guns.

                           NAVAL GUN SYSTEMS

    The Navy's approach for tomorrow's fleet is to develop a set of 
NSFS weapon systems to install in existing Aegis ships. These weapon 
systems include the 5,,/62-caliber gun and the extended range guided 
munitions (ERGM). These NSFS capabilities are expected to meet USMC 
requirements in accuracy, lethality, and responsiveness.

                           5,,/62-CALIBER GUN

    The 5,,/62-caliber gun is already installed in eight Arleigh Burke-
class ships, commencing with U.S.S. Winston S. Churchill (DDG-81). The 
gun was successfully tested during a firing exercise in DDG-81 in fall 
2001. This new gun will provide significantly better reliability, 
require less maintenance, and will fire the ERGM to an objective range 
of 63 nm.
    As mentioned above, the 5,,/62 gun is already in the fleet on 
recently commissioned DDG-51 class ships and the fiscal year 2003 
budget request supports installation of 5,,/62 guns on all following 
DDGs. 5,,/62 installation is also planned for some Ticonderoga-class 
cruisers as part of cruiser conversion.

                 EXTENDED RANGE GUIDED MUNITIONS (ERGM)

    ERGM has overcome significant technical challenges and stands as a 
most important naval surface fires system program. A December 2001 
controlled vehicle test shot yielded successful rocket motor 
performance and proper functioning of the ERGM's guidance package which 
uses GPS to guide to target. Testing continues during 2002.
    Navy made a recent decision to change ERGM's payload to a unitary 
warhead vice the originally planned submunitions, improving lethality 
against the target set. The ERGM IOC will shift to fiscal year 2006 to 
support development of the unitary warhead, and will provide precision 
fires in support of expeditionary maneuver warfare. ERGM extends gun 
ranges to 63nm--a significant improvement over the 13nm range afforded 
by conventional 5'' rounds.

                      ADVANCED LAND ATTACK MISSILE

    To meet the full set of USMC NSFS requirements,--an AoA for an ALAM 
was conducted. We envision that ALAM will be fielded in DD(X) as a 
spiral development and may be backfit in our current Aegis ships, and 
potentially submarines. The AoA provided Navy and OSD leadership with 
potential technical options. We anticipate ALAM will completely address 
the full NSFS target set, including mobile/moving targets, and hardened 
and deeply buried targets. Competing priorities precluded inclusion of 
ALAM in the fiscal year 2003 budget submission. Navy is addressing the 
initiation of an ALAM program in the fiscal year 2004 budget 
development process. As an interim effort to meet near term NSFS 
requirements, the fiscal year 2003 budget submission fully funds the 
Tactical Tomahawk program, providing the most efficient balance for 
strike and NSFS requirement.

                       NAVAL FIRES CONTROL SYSTEM

    In order to safely and effectively employ long-range, precision-
guided weapons in support of complex amphibious and joint land battle 
operations, we are developing the naval fires control system (NFCS). 
NFCS is a battle management system that will automate NSFS functions 
and be the enabler for surface land attack in net-centric warfare. NFCS 
will support mission planning for the 5,,/62-caliber gun, ERGM, as well 
as conventional rounds, and support evolving expeditionary warfare 
capabilities, tactics, and doctrine. NFCS will be interoperable and 
consistent with joint C\4\ISR systems. NFCS ties the Navy into the 
digital battlefield, and will be completely interoperable with the Army 
and Marine Corps' advanced field artillery tactical data system 
(AFATDS). NFCS will IOC in fiscal year 2003. The first NFCS suite was 
installed in U.S.S. Lassen (DDG-82) in September 2001.
    The fiscal year 2003 budget submission supports installation of 
NFCS on DDG-81-108, and selected CGs as part of cruiser conversion.

                       FUTURE NAVAL FIRES SYSTEMS

    For the future, DD(X) will have the capacity to carry the variety 
and volume of offensive, precise firepower, which enable our Marine 
Corps and light mobile Army forces to complete their missions. These 
systems include the Tactical Tomahawk (Tactom) and the advanced gun 
system (AGS), firing the long-range attack projectile (LRLAP) to 
distances of 100 miles. DD(X) will also have the growth potential to 
include the ALAM. DD(X)'s ability to deploy a high volume of precision-
guided munitions will provide joint force commanders with significantly 
improved ranges, accuracy, volume, firing rates, and response times 
compared to current-generation ships.
    The 155mm gun, with fully automated ammunition handling system and 
a family of munitions/propelling charges, is specified to achieve 
ranges of up to 100 nautical miles. AGS will provide high rate-of-fire 
(approximately 12 rounds per minute) with a magazine capacity 
sufficient in size to meet USMC operational requirements. The AGS 
design will provide the basis for future naval gun systems.

          MARITIME STRATEGIC DEFENSE--PROJECTING AREA DEFENSE

    Building on the ``backbone'' of CEC to network fire control quality 
data throughout the battleforce and Standard missile enhancements, 
surface combatants will be able to conduct lethal engagements of large 
numbers of cruise missiles and aircraft over water around the sea base 
and, in selected cases, over land around joint forces ashore. Combining 
the track data from CEC with that of other services in a joint single 
integrated air picture will permit profound advances in tactical 
decision speed and accuracy.
    To achieve synergy at a local level, combat systems are integrated 
at a shipboard level by systems designed to network sensors and systems 
within the lifelines. Programs that support this shipboard-level 
integration effort include the ships self-defense system (SSDS) and the 
Aegis Weapons system. Combined with the Standard missile program, data 
link systems and CEC, these cutting edge combat systems form the basis 
for area air defense that is expanding to the kinetic range of our 
missiles.

                      JOINT INTEGRATED AIR DEFENSE

    The readiness of naval forces to perform joint integrated air 
defense (JIAD) missions remains a central focus for surface warfare. 
The objective of JIAD is to ensure assured access and projected defense 
as our military forces move essential combat and logistic forces 
through the littoral and into the sea and air ports of debarkation 
(SPODs and APODs). The Navy's forward presence, strategic and tactical 
mobility, and ability to conduct sustained sea-based combat operations 
form the basis for our significant contributions to JIAD and are 
essential to support U.S. national strategy.
    Today's naval forces remain positioned to lead the JIAD effort with 
systems such as CEC, naval fires network (NFN), and area air defense 
commander (AADC). Our ability is also tied to the robust warfighting 
capability inherent in combat systems such as the Aegis weapons system 
and the ship self-defense system which continue to pace the emerging 
threat, in parallel with focused major modernization programs such as 
cruiser conversion, DDG-51 shipbuilding and force interoperability 
enhancement programs.

                    SHIP SELF-DEFENSE SYSTEM (SSDS)

    The ship self-defense system (SSDS) is the combat system of the 
future for all Nimitz class aircraft carriers and LSD-41, LHD-1, and 
LPD-17 ship classes. SSDS is a physically distributed, open 
architecture computer network consisting of commercially available 
hardware. It includes operator consoles using the Navy's AN/UYQ-70 
standard display family for human-machine interface, commercially 
available circuit cards and fiber optic cabling. SSDS, significantly 
expands the capability of both advanced combat direction system (ACDS) 
Block 0 and Block 1, performing the integration function for detection 
and engagement as well as performing automated detection and quick 
reaction functions, emphasizing performance in the littoral 
environment. SSDS also serves as the integration point for the 
cooperative engagement capability (CEC) and the tactical data links 
(TADILS) on these ships.
    Following operational requirements approval in 1995, SSDS 
development began for the LSD-41 class ships. Designated SSDS Mk 1, 
this system provided integration and automated operation of the combat 
system elements of these ships, including the SPS-49 radar, SLQ-32 
electronic warfare system, close-in weapon system, and the rolling 
airframe missile Block 0. Following a successful OPEVAL in 1997, the 
system was approved for full rate production, and has subsequently been 
fielded on all 12 ships of the class, providing them with a robust 
anti-ship cruise missile defense capability.
    After the successful deployment of SSDS Mk 1, the Navy began the 
development effort to expand the SSDS system to meet the evolving 
requirements of aircraft carriers and large deck amphibious ships. 
Designated SSDS Mk 2, this system will integrate additional weapons and 
sensors including the SPS-48E air search radar, the SPQ-9B ASCM radar, 
re-architectured NATO Sea Sparrow missile system (NSSM), and RAM Block 
1. Additionally, SSDS Mk 2 provides the integration of the cooperative 
engagement capability and the tactical data links (TADILS) for these 
ships, providing a powerful ASCM capability as well as enhanced command 
and control capabilities to embarked Battle Force commanders.
    The Navy has increased its investment in the SSDS program to ensure 
complete combat system integration, testing, and certification for 
U.S.S. Ronald Reagan (CVN-76) and U.S.S. San Antonio (LPD-17). These 
new construction ships will be the first built with the SSDS Mk 2 
combat system, ensuring their ability to pace the increasingly lethal 
anti-ship cruise missile threat. Additionally, funds were added to 
equip land-based training sites on both coasts as well as to initiate a 
technology refresh process for this COTS-based system.
    The fiscal year 2003 budget submission adds funds to accelerate 
fielding of this important combat system.

                              AEGIS SYSTEM

    The Aegis weapons system brings immense warfighting capability to 
defeat the emerging threat and represents the backbone of the surface 
fleet. Over 50 percent of today's surface combatants are Aegis ships 
and by 2010, that figure will grow to 75 percent. Additionally, the 
profound role of Aegis lies in new advances in warfighting capability, 
including TBMD, CEC, and expanded land attack capabilities, which will 
all be introduced through the Aegis combat system.

           AEGIS BASELINE CONSOLIDATION AND OPEN ARCHITECTURE

    As the number of Aegis ships grows and new capabilities are 
introduced, the complexity of the combat system is increased, and we 
are faced with rising life-cycle costs. If not addressed, these costs 
have the potential of eroding warfighting readiness. Additionally, a 
threat to Aegis warfighting readiness stems from costs necessitated by 
replacement of COTS computing hardware. As industry has incorporated 
new hardware to meet the advanced computing requirements of our new 
Aegis combat systems, the myriad of computer boards and processors 
needed to drive the sophisticated Aegis combat system have become 
increasingly COTS based. Because this COTS hardware technology 
continuously changes as the marketplace rapidly introduces new 
computing technology, we must conduct COTS refresh of our shipboard 
systems every 2 to 5 years on average to avoid component obsolescence. 
Available data indicates that these COTS refreshes will come at a cost 
of $60 to $75 million per Aegis baseline. This cost is unavoidable due 
to the extensive research and development effort required to integrate 
COTS hardware with other existing Aegis combat system software and 
hardware interfaces.
    The surface Navy is exploring new ways to mitigate these spiraling 
life-cycle costs. One way that offers the most potential is 
transitioning the Aegis combat system to an open computing system 
architecture. Open architecture would transition the existing Aegis 
centralized software and interfaces to a software design using a modern 
commercial language and software development techniques. Once in an 
open architecture configuration, changes to the Aegis combat system 
hardware and software, whether required due to component failure or 
age, or to support expansion of the system to perform new warfighting 
capabilities, could be done much more quickly and cheaply than with 
today's legacy architecture. In a real sense, open architecture is the 
key to maintaining the warfighting readiness of the Aegis combat 
systems over the life of these ships. Additionally, as we explore the 
transition of the existing Aegis baselines into an open architecture, 
distributed processing combat system, we intend to build in 
interoperability enhancements from the ground up, as well as 
integrating new capabilities to fully enable the transformation to 
network-centric warfare operations of the future.

                        SPY-1D (V) RADAR SYSTEM

    The AN/SPY-1 radar system is the primary air and surface radar for 
the Aegis combat system installed in the Ticonderoga (CG-47) and 
Arleigh Burke (DDG-51) class warships. It is a multi-function, phased-
array radar capable of search, automatic detection, transition to 
track, tracking of air and surface targets and supporting missile 
engagements. The third variant of this radar, AN/SPY-1D(V), known as 
the littoral warfare radar, will improve the radar's capability against 
low altitude, reduced radar cross-section targets in heavy clutter 
environments and in the presence of intense electronic countermeasures. 
SPY-1D(V) will be fielded on DDG-91 and follow-on DDGs. It will be 
delivered to the Navy in October 2003. SPY-1D(V) will go through land 
based developmental and operational testing during the summer of 2003, 
followed by shipbuilder trials in the fall. When netted with other 
ships through the cooperative engagement capability system, this radar 
will improve the self-defense capabilities of all the ships in the 
network.

                       FUTURE AIR DEFENSE RADARS

    The multi-function radar (MFR) and the volume search radar (VSR) 
are crucial stepping-stones to the future theater air and missile 
defense (TAMD) radar and will allow us to neck-down our family of in-
service radars and illuminators. As an integrated radar suite, MFR/VSR 
will provide radar functionality for a wide range of ship classes at 
the best overall value to the Navy. The suite will generate significant 
space and weight savings and reduce shipboard radar signature.

                          MULTI-FUNCTION RADAR

    Before the fleet can engage with weapons systems, we must first 
detect hostile aircraft and missiles. Among the detection systems under 
development in the DD(X) program is the multi-function radar/volume 
search radar (MFR/VSR). This radar suite provides a high power, solid 
state, wideband (X-Band for MFR and L-Band for VSR) active phased array 
radar system suite optimized for the littoral mission. It will replace 
up to nine in-service radars and illuminators, while providing 
autonomous horizon search, long-range volume search, and fire control 
tracking. MFR is also designed for surface search, periscope detection, 
and navigation. MFR will enable counter-fire support, electronic 
protection, and air traffic control/air intercept control functionality 
for the close approach control function required of air capable ships. 
As the primary ship defense AAW radar element of the host combat 
system, the MFR will conduct automatic detection, ID, tracking, and 
illumination of low altitude anti-ship cruise missiles in adverse 
(multi-path, lobing, and ducting) propagation conditions typically 
found in littoral environments. It will provide missile uplink and 
terminal homing illumination for ESSM and SM, as well as non-
cooperative target recognition (NCTR) and kill assessment. MFR brings 
all this capability to the combat system in littoral clutter, heavy sea 
state, rain, and difficult radar propagation environments. It will do 
this with less manpower, lower life cycle costs, and a higher 
operational availability than current systems. MFR is designed to be 
scalable for possible future applications and, along with VSR, has 
application for a wide range of ship classes.

                          VOLUME SEARCH RADAR

    The volume search radar (VSR) is an L-band active phased array 
radar using COTS based technology. It will provide long-range 
situational awareness with above horizon detection, and air control 
(marshalling) functionality. The VSR will replace the functionality of 
today's SPS-48E, SPS-49, and SPN-43 radars. Additionally, because it 
will be a non-rotating phased array radar, VSR will provide the 
required track revisit times to deal with fast, low/very low 
observable, high diving missile threats as well as reducing ships 
signature. VSR will provide cueing for MFR to conduct functions above 
the horizon. It too is designed to reduce ship manning and life cycle 
costs.

                         STANDARD MISSILE (SM)

    The Standard missile (SM) is a primary defense-in-depth weapon in 
the ship self-defense family of capabilities, providing hard kill self-
defense at two levels. At the area air defense level, SM-2 Block IV can 
be used at extended range to engage the ASCM carrying aircraft. Closer, 
but still at significant range, SM-2 Block III, IIIA, and IIIB variants 
of the missile have significant ASCM capability as well as improved 
capability against surface targets. These missiles, historically 
limited in performance to the range of their own ship organic sensors, 
are now, in conjunction with cooperative engagement capability (CEC), 
able to engage targets at considerably greater ranges, markedly 
enhancing defense-in-depth and multiple engagement opportunities.

                       EXTENDED AREA AIR DEFENSE

    The Navy has an ongoing effort to deploy next-generation extended-
range AAW capability which adds a robust outer layer to fleet air 
defenses. The SM-2 Block IV is a kinematics improvement of the proven 
Standard missile family, incorporating a thrust-vector-controlled 
rocket booster, a more robust airframe, and guidance and control 
modifications for improved altitude/range/cross-range coverage against 
high-performance, low radar cross-section threats in an electronic 
countermeasures (ECM) environment.
    The SM-2 Block IV has been delivered to the fleet and is presently 
deployed in small quantities to the Arabian Gulf and Mediterranean. 
Block IV production was terminated at the end of low rate initial 
production (LRIP) in favor of Block IVA development.
    SM-2 Block IVA, cancelled in December 2001, was to have added 
endoatmospheric theater ballistic missile defense (TBMD) and improved 
air defense capabilities to the proven Block IV baseline. In the 
Acquisition Decision Memorandum which cancelled the Navy Area TBMD 
program and the SM-2 Block IVA, the Under Secretary of Defense for 
Acquisition, Technology and Logistics recognized a continuing 
requirement to ``address the need for extended-range anti-air warfare 
capability against cruise missiles and aircraft in light of this 
cancellation.'' While the details of the extended-range advanced AAW 
follow-on missile are still being defined, this missile could build on 
the proven airframe and propulsion stack developed for the SM-2 Block 
IV/IVA missiles.

                     STANDARD MISSILE--ASCM DEFENSE

    A robust area air defense missile is a prerequisite for maintaining 
forward naval presence, operating in the littorals, and projecting and 
sustaining U.S. forces in distant anti-access or area-denial 
environments. The Standard missile-2 (SM-2) is the Navy's primary 
weapon for anti-ship missile defense and theater air warfare. Deployed 
SM-2 Block III, IIIA, and IIIB configurations are all-weather, ship-
launched, medium-range surface-to-air missiles employed by all Aegis CG 
and DDG ships.
    Each of the blocks is progressively more capable against more 
challenging threats and in more difficult electronic countermeasures 
(ECM) environments. SM-2 variants employ inertial mid-course guidance 
with command updates from the shipboard fire control system with an 
ECM-resistant monopulse receiver for semi-active radar terminal homing. 
Block IIIA features significantly enhanced performance and lethality 
against sea-skimming threats due to a new warhead and fuze design in 
addition to enhanced trajectory shaping. Block IIIB builds on the Block 
IIIA improvements by adding an infrared (IR) guidance mode capability 
to improve performance in a stressing electronic countermeasures 
environment. Blocks IIIA/IIIB will be the heart of the SM inventory for 
the next decade.
    Block IIIB is the only variant presently in production for the U.S. 
Navy, although Block IIIA is still produced for foreign military sales. 
Block IIIBs are being produced as new all-up rounds, and as upgrades 
from older Block II and III missiles. The fiscal year 2003 budget 
submission for SM-2 Block IIIB begins an increase in SM production 
which promises to nearly double procurements through the FYDP compared 
with fiscal year 2002 projected levels.
    The loss of the SM-2 Block IVA development poses a significant 
challenge in achieving an extended-range air defense capability for 
naval forces which will have to be addressed in the fiscal year 2004 
budget submission.

                           SHIP SELF-DEFENSE

    Ship self-defense is integral to a layered defense concept that 
evolves as naval assets move toward and establish presence and sea base 
in the littorals. Force defense starts with preemptive strikes by 
airborne assets such as Tomahawk cruise missiles and strike aircraft to 
neutralize the threat. As ships move closer, defense migrates to 
defensive aircraft and area defense assets such as Aegis cruisers and 
destroyers. Finally, as naval assets move in closer to the threat, 
protection is based on ship self-defense systems. Ship self-defense is 
a fleet wide requirement and all ship types, including aircraft 
carriers, surface combatants and amphibious ships, are included in our 
strategy. Ship self-defense for anti-submarine warfare and mine warfare 
will be discussed in the Undersea Warfare section below so this 
discussion will focus on systems that support self-defense and close-in 
defense of naval assets against aircraft, the anti-ship cruise missile 
(ASCM) threat and small fast surface combatants.

                ANTI-SHIP CRUISE MISSILE (ASCM) DEFENSE

    Our ASCM defense strategy involves enhancing the capabilities of 
our existing ship self-defense weapons and introducing new ship self-
defense systems while simultaneously integrating these systems within 
the ship and among ships throughout the force to achieve exponential 
levels of improvement in our capabilities. All three levels of 
integration--stand alone system, ship-level integration and force-level 
integration--are important and are being advanced in this year's budget 
submission. Current and near-term programs will be discussed first at 
all three levels of integration before moving on to a general 
discussion of future programs.

              SHIP SELF-DEFENSE WEAPONS SYSTEMS--HARD KILL

    Hard kill systems are designed to detect, engage, and destroy ASCMs 
or small surface craft. The Navy significantly increased funding for 
hard kill ship self-defense weapons in the fiscal year 2003 budget 
request. A common theme in our effort to increase our hard kill 
capabilities was to ramp up funding of missiles to achieve economic 
order quantity as soon as feasible. This allows us to buy missiles more 
efficiently, meaningfully address our ship fill requirements and 
optimize the use of available funds. Specific examples of this 
investment are explained below.

                     ROLLING AIRFRAME MISSILE (RAM)

    In terms of capability and performance, the RAM is our premier 
close-in hard kill system. RAM is deployed aboard 39 U.S. ships, 
including LHAs, LHDs, LSDs, DDs, and CV/CVNs and is planned to be 
installed aboard LPD-17 class ships. The RAM Block 0 missile is a 
highly capable missile with low altitude capability and dual RF/IR 
guidance that does not require fire control illuminators. RAM Block I 
adds an IR all-the-way capability and a helo/air/surface (HAS) mode 
which should begin to enter the fleet next year. This HAS mode will 
allow RAM Block I to engage single engine propeller aircraft, 
helicopters, and small coastal patrol surface craft, while preserving 
point defense ASCM mission priorities. This missile has exceeded 
expectations since its successful operational evaluation (OPEVAL) 
aboard the self-defense test ship with a record of 181 successes out of 
192 firings, including 23 of 25 firings of the most advanced Block I 
missile. RAM Block 0 ships will complete upgrade to Block I over the 
FYDP. The RAM development program is an example of the benefit of 
international cooperation. It was developed in cost-effective 
partnership with Germany with the U.S. paying only 50 percent of the 
development cost.
    In the fiscal year 2003 budget submission, the procurement profile 
for RAM includes the purchase of both all-up round RAM Block I missiles 
and RAM alteration kits (converting existing Block 0 missiles to Block 
1) that will result in a significant increase in the RAM inventory over 
the FYDP.

                   EVOLVED SEA SPARROW MISSILE (ESSM)

    NATO Sea Sparrow, the forerunner of the ESSM, still provides ample 
self-defense against the significant preponderance of the near-term 
threat and is one of the world's most widely deployed ship self-defense 
systems. It is currently deployed on 50 U.S. ships and 110 other ships 
worldwide. It has an all-environment engagement capability against non-
emitting, non-radiating, non-cooperative targets, including low-to-high 
speed surface vessels, rotary and fixed wing aircraft, and low radar 
cross-section anti-ship cruise missiles in a regime from sea level to 
an altitude of 25,000 feet.
    The ESSM has its roots in the NATO Sea Sparrow and is another 
example of the Navy's ability to take advantage of international 
cooperation to defray the cost of improving and upgrading hard kill 
self-defense systems. Ten Sea Sparrow Consortium nations have invested 
in the ESSM with the U.S. paying less than half the development costs. 
A new rocket motor, tail control, and warhead have improved the ESSM's 
speed, range, and lethality. ESSM is delivered in a quad-pack canister 
container of four missiles, with each quad-pack designed to be inserted 
into a single Mk 41 vertical launcher system (VLS) cell. Follow-on 
launcher options are being examined for application on non-VLS equipped 
ships (CVN/LHDs). The program has enjoyed a most successful year of 
development and testing, highlighted by highly successful land-based, 
live-fire testing completed last December at White Sands Missile Range. 
Low rate initial production approval was granted in early March.
    The fiscal year 2003 budget submission improves the fielding 
profile for ESSM, supporting installation on 17 ships across the FYDP, 
including CVN-77, cruiser conversions, and DDG backfit (DDG-79-84). 
fiscal year 2003 ESSM missile procurement was increased by nearly 50 
percent over fiscal year 2002 projections.

                 CLOSE-IN WEAPONS SYSTEM (CIWS) UPGRADE

    Another hard kill system that has matured to meet both the evolving 
threat and the changing tactical environment of the littorals is the 
CIWS. After nearly 20 years of CIWS service, the Navy continues to 
upgrade the CIWS to expand capability and improve maintainability and 
reliability. The Block 1A variant of CIWS, introduced to the fleet in 
1996, possesses new high order language computer hardware and software 
to counter maneuvering targets, providing increased firing rates, 
better receiver sensitivity, electromagnetic interference (EMI) 
hardening, and other significant improvements. In the fiscal year 2002 
budget and the fiscal year 2003 budget submission, the Navy has 
accelerated upgrade of the CIWS system to the Block 1B variant. CIWS 
Block 1B continues the evolutionary upgrade of this system with the 
incorporation of a thermal imager, an automatic acquisition video 
tracker, and a stabilization system for the tracker to provide threat 
detection both day and night. The thermal imager improves the accuracy 
of angle tracking information, and the fusing of radio frequency (RF) 
and electro-optical (EO) sensor systems provides a marked improvement 
in anti-air warfare (AAW) capability, including increasing the number 
of hits per engagement, extending initial hit range, and countering the 
effects of multi-path propagation. Block 1B is outfitted with an 
optimized gun barrel (OGB) and is able to fire enhanced lethality 
cartridges. Most notably, CIWS-1B brings a day and night surface mode 
capability (PSuM) to this proven air defense weapons system, allowing 
highly responsive engagement of threats such as small boats, jet skis, 
and floating mines out to a range of 4,000 yards.
    The fiscal year 2003 budget submission initiates a CIWS Block 1B 
procurement and conversion program geared to expeditiously deliver 
significantly enhanced ship self-defense and terrorism/force protection 
to our amphibious ships, surface combatants and carrier force. Our 
fiscal year 2002 and fiscal year 2003 funding plan is postured to 
``jump start'' conversion of CIWS gun mounts to Block 1B and our 
objective is to provide Block 1B capability across the surface force 
within the FYDP.

              SHIP SELF-DEFENSE WEAPONS SYSTEMS--SOFT KILL

    Layered force defense is made more robust by the combination of 
soft-kill systems with the hard kill systems. These systems defeat the 
ASCM electronic systems through jamming or deception. In the fiscal 
year 2003 budget submission the Navy significantly accelerated the 
fielding of the highly effective Nulka decoy system and funded moderate 
upgrades of the AN/SLQ-32 electronic warfare system while continuing 
development of the next-generation advanced integrated electronic 
warfare system (AIEWS).
  nulka off-board decoy/advanced integrated electronic warfare system
    Another success story of international cooperation to speed 
development and reduce unit cost is the Nulka active, off-board, ship-
launched decoy system. Developed in cooperation with Australia 
(Australia paid half the development cost) to counter current and 
future radar-guided, anti-ship cruise missiles, Nulka employs a 
broadband radio frequency repeater mounted atop a hovering rocket 
platform. Nulka radiates a large, ship-like radar cross-section while 
flying a trajectory that seduces and decoys incoming ASCMs from their 
intended targets. Nulka is planned for installation in CG-52 through 
73, DD(X), DDG-51, LPD-17, and LSD-41 class ships. During recent 
testing Nulka provided impressive protection against multiple missile 
attacks.
    The fiscal year 2003 budget submission adds funding to upgrade 20 
FFGs with Nulka and continues funding for the installation on new 
construction ships and procurement for an ongoing backfit program 
throughout the fleet.

              AN/SLQ-32 ELECTRONIC WARFARE SYSTEM UPGRADES

    The soft kill ``workhorse'' of the fleet is the AN/SLQ-32 
electronic warfare system. The AN/SLQ-32(V) electronic countermeasures 
set is a family of modular radar warning receivers and jamming systems 
that support the three anti-ship missile defense (ASMD) elements of 
detect, control, and engage. Ships use AN/SLQ-32(V) to detect and 
identify threat radars and, in later variants, to engage or jam these 
radars or deploy decoys against them. AN/SLQ-32(V) program started in 
1973 and resulted in five variants of AN/SLQ-32(V). Variants (V)1 and 
(V)2 are computer controlled, radar warning receiver systems that 
detect, sort, classify, identify, and indicate the presence of enemy 
and friendly radars. Variants (V)3, (V)4, (V)5 include all of the 
receive capability of variants V(1) and (V)2 and add integrated radar 
jamming equipment. All variants of the AN/SLQ-32(V) interface directly 
to the Mk 36 or Mk 53 decoy launchers. Through this interface, the AN/
SLQ-32(V) controls and coordinates the launching of off-board 
countermeasure decoys. Off-board countermeasures include radio 
frequency (RF) chaff, Nulka (rocket-propelled, active jamming decoy), 
and infrared (IR) decoys.
    This year we have added funding to upgrade the AN/SLQ-32 to address 
shortfalls in the threat emitter library. Additionally, we are 
assessing new technologies developed in the advanced integrated 
electronic warfare system for potential insertion into the AN/SLQ-32 
system.

         ADVANCED INTEGRATED ELECTRONIC WARFARE SYSTEM (AIEWS)

    As with hard kill systems, soft kill systems also must pace the 
threat, which is becoming smaller, faster, lower, and more 
maneuverable. Next generation soft kill technologies are being explored 
in the AIEWS program. These technologies include an advanced display, 
improved emitter processing, enhanced combat system integration, a new 
receiver capability, and improved emitter identification. The AIEWS 
program has provided ``leading edge'' technology development that is 
providing an exceptional array of technologies with significant promise 
to improve surface electronic warfare capabilities in the legacy and 
future systems.

                        REDUCED RADAR SIGNATURE

    Reducing the radar signature of our combatants buys battle space by 
complicating threat targeting and acquisition. The DDG-51 class hull 
and superstructure were designed to significantly reduce radar 
signature to enhance survivability in an ASCM environment. Building on 
this concept which lowered the DDG radar cross-section to less than 
that of a FFG, the DD(X) is being designed to further reduce radar and 
IR signatures. Through integrated topside design (ITD) and new hull 
forms making use of the latest technologies including composite 
materials and aperture control, DD(X) is expected to achieve 
significant multi-spectral signature reduction that will greatly 
enhance self-defense and survivability in the littoral. Such signature 
reduction provides dramatic advantages on the battlefield but, more 
over, makes future self-defense systems markedly more affordable and 
practical to build.

                    SHIP SELF-DEFENSE SENSOR SYSTEMS

    Complementary to our hard kill and soft kill weapons programs, the 
Navy is developing and upgrading selected sensor systems to enhance 
ships self-defense. These systems include improvements to the AN/SPQ-9B 
search and gunfire control radar, the SPY-1D radar system, the Mk 46 
optical sight and the thermal imaging sensor system.

                      AN/SPQ-9B GUN CONTROL RADAR

    The AN/SPQ-9B is state-of-the-art detection system being developed 
to counter the emerging air and missile threats. AN/SPQ-9B detects and 
tracks low-flying, high speed, small radar cross-section anti-ship 
cruise missiles in heavy littoral clutter. It detects and tracks small, 
high speed maneuvering surface craft in sea clutter as well. The result 
is a significant extension of a ship's battle space to conduct self-
defense engagements. The first unit was installed aboard U.S.S. 
Oldendorf (DD-972) and has met all requirements with impressive 
results. Its configuration is based on the original Naval Research 
Laboratory design with a parabolic reflector antenna that is larger and 
heavier than the antenna of the AN/SPQ-9A. In a mid-deployment report, 
Oldendorf stated AN/SPQ-9B was an excellent development in radar 
systems and the improvement of the 9B over the 9A was ``tremendous'' 
noting ``the AN/SPQ-9B has become Oldendorf's premier radar.'' To 
provide installation flexibility, we have completed development of a 
rotating slotted array lightweight antenna designed to provide 
comparable performance to the antenna deployed on Oldendorf but with 
significantly lower topside weight.
    This year we have added funding to procure additional AN/SPQ-9B 
systems to backfit fleet units and will install AN/SPQ-9B on all 
cruisers as part of the cruiser conversion program.

                          MK 46 OPTICAL SIGHT

    Mk 46 optical sight system is a central component of the Mk 34 gun 
weapon system, providing electro optical/infrared detection and 
tracking capability in support of gun engagements. Ancillary uses 
include night/low visibility surveillance, navigation/ship handling, 
search and rescue, and in-port security. Over 40 Mk 46 optical sights 
are fielded in the DDG-51 class.
    In the fiscal year 2003 budget submission, we commenced the 
fielding of Mk 46 upgrades, including an eyesafe laser range finder, 3-
5 micron FLIR, and azimuth motor upgrade, that will significantly 
enhance system reliability and performance. These warfighting 
improvements will provide Aegis DDGs increased ship self-defense and 
force protection capabilities.

                     THERMAL IMAGING SENSOR SYSTEM

    The thermal imaging sensor system (TISS) also provides ships with a 
24-hour visual surveillance capability to be used for situation 
awareness, target detection and identification, and critical 
capabilities for challenging littoral environments. Efforts are 
underway for integration of this system into current and future combat 
systems for both fire control and target identification. TISS is 
currently deployed in limited numbers in the fleet, but the response 
from crews of ships with this system has been enthusiastic. TISS is a 
beneficial anti-terrorism/force protection asset. In the Arabian Gulf, 
TISS is the system of choice for monitoring and identification of 
shipping in our maritime interdiction operations (MIO). TISS's 
detection and surveillance capabilities are also of great benefit to 
units conducting counter-drug operations in this hemisphere. As funds 
permit, we are continuing a systematic program directed to outfit every 
forward-deployed ship in the fleet with a low light surveillance (EO/
IR) system like TISS.
    The fiscal year 2003 budget submission maintains support for this 
significant sensor capability at fiscal year 2002 projected levels.

                    FUTURE SHIP SELF-DEFENSE SYSTEMS

    To pace the threat, continued development of future ship self-
defense systems is incorporated in the spiral design of DD(X) which 
will be developed as one of a family of ships that will also include 
two other future surface combatants, the advanced cruiser CG(X), and 
the LCS. The DD(X) program in fiscal year 2003 is fully funded with 
emphasis on risk mitigation and timely deployment. The combination of 
the stealth characteristics gained in signature reduction technology 
and state-of-the-art radar technology will significantly enhance the 
self-defense capabilities of the DD(X) and, through netting, the other 
ships in the force. The LCS, to be built from the start as a networked 
and distributed platform with open, modular architecture, will rely on 
networks, speed, stealth and maneuverability to enhance its own self-
defense, while, through those same capabilities and its organic sensors 
and weapons, contributing to the self-defense of other ships of the 
force. This is network-centric warfare in a most tangible and 
meaningful way.

                MULTI-FUNCTION RADAR/VOLUME SEARCH RADAR

    As discussed above, multi-function radar (MFR) and volume search 
radar (VSR) associated with the DD(X) program are optimized for the 
littoral environment and will provide autonomous horizon search, long-
range volume search, and fire control track. MFRs have the ability to 
provide surface search, periscope detection and navigation and enable 
counter-fire support and electronic protection in ship self-defense. 
MFR will automatically detect, ID, track and illuminate low altitude 
anti-ship cruise missiles in littoral environments. It will support 
ESSM and SM and provide non-cooperative target recognition (NCTR) and 
kill assessment. The VSR will provide long-range situational awareness 
and the required track revisit times to deal with fast, low/very low 
observable, high diving missile threats to enhance ship self-defense.

                INFRARED SEARCH AND TRACK (IRST) SYSTEM

    The Navy is investing in electro-optical and infrared (EO/IR) 
detection and tracking systems to provide a key capability to 
complement traditional radar and RF systems. The integration of 
multiple, layered force defense systems allows a ship to defeat a wide 
variety of threat missiles across the spectrum of radar cross-sections, 
IR signatures, and seeker types. Each system is affected differently by 
weather, environment, or ducting. A performance null experienced by one 
type of system due to its environment can be filled by another system's 
capability.
    The IRST system is a sea-skimming anti-ship cruise missile 
detection system that adds significant improvements to the shipboard 
sensor suite. It improves ship survivability by providing 360-degree 
passive horizon surveillance, automatically detecting and tracking 
subsonic and supersonic threats.
    The developmental system will provide ships with a 24-hour visual 
surveillance capability to be used for situational awareness and target 
detection and identification. Additionally, tests have been conducted 
to integrate this system into current and future combat systems for 
both fire control and target identification. The first developmental 
model was successfully tested aboard the self defense test ship in 1997 
and 1998, and on U.S.S. O'Bannon (DD-987) in 1999.
    In the fiscal year 2003 budget submission we have added funding to 
complete a second engineering development model of the IRST system.

     SHIP SELF-DEFENSE--PATROL BOATS AND SMALL, FAST SURFACE CRAFT

    Small, fast surface combatants are a serious threat in the littoral 
environment. The guided missile patrol boat (PTG) is a vessel generally 
between 50-70 meters and capable of carrying 4-8 ASCMs. The surface 
Navy possesses adequate capability to counter both the PTG and their 
associated missiles. Significantly smaller boats, 5-27 meters and armed 
generally with shoulder-fired and/or smaller weapons, are an emerging 
threat. In numbers, these boats could present a challenge to single 
ships operating in close-in littoral waters. Situational awareness, air 
assets (organic or shore based), and netted multi-ship formations 
mitigate this challenge. Our strategy to counter this threat parallels 
our efforts to pace the ASCM threat, including the layered defense 
concept of operation, and hinges largely on leveraging the same weapons 
systems and integration advantages that were discussed above for the 
ASCM threat. As previously mentioned, several weapons developed for 
ASCM self-defense also have surface capability, most notably Standard 
missile, ESSM, and RAM against the PTG and RAM Block 1 (HAS) and CIWS 
1B against the smaller boats. Additionally, the new LCS will be 
designed specifically to counter this threat, leveraging networks, 
speed and agility.
    Immediate measures to respond to the small surface craft threat 
include, providing additional 23mm chain guns, installing TISS systems 
on deployers and introducing organic armed helicopters to surface 
combatants. Each 23mm chain gun-equipped ship will be provided with two 
gun mounts to ensure 360-degree coverage for this anti-surface weapon. 
The TISS system, described above, is being fielded on our ships 
deploying into high threat areas such as the Arabian Gulf. We have also 
already deployed light airborne multi-purpose system (LAMPS) SH-60 
helicopters with Hellfire missile capability into the fleet. In the 
near-term, we are accelerating the conversion of CIWS mounts to the 
Block 1B variant and providing the HAS capability to the RAM capable 
ships.
    Future enhancements that will continue to improve our anti-small 
boat capability include introduction of the AN/SPQ-9B, the Multi-
Function Radar (MFR) and the LAMPS MH-60R helicopter. The AN/SPQ-9B 
gunfire control radar, described above, is specifically designed to 
provide better detection of small surface craft and to allow the 5,,/54 
gun system to engage them. The MFR, designed to function in the 
littoral, will provide the automatic tracking, auto-identification and 
periscope-level sensitivity necessary to detect, track and target 
small, fast surface craft. Though not possessing the requisite 
algorithms for periscope detection, in certain environmental 
conditions, AN/SPQ-9B has demonstrated promising capability during at 
sea testing. Finally, the MH-60R helicopter, employed from in-service 
cruisers, destroyers and frigates or future platforms like LCS, and 
armed with Hellfire missiles, offers considerable capability against 
small surface craft.
    The LCS is being developed to conduct this type of difficult, 
focused littoral mission as a complement to our current and future 
multi-mission surface combatants in the balanced total force. As part 
of a netted and distributed force, the LCS will use its speed and 
agility to enhance its own self-defense and contribute to the self-
defense of other platforms in the network. We are leveraging work in 
other programs to start work on LCS related technologies now and expect 
to formally fund the program next year.

                            UNDERSEA WARFARE

    Undersea warfare (USW), which includes antisubmarine warfare (ASW) 
and mine warfare (MIW), is and will remain a Navy core competency and 
is critical to assured access. The littoral environment provides a 
challenge for ASW. The proximity to coastal waterways, harbors, and 
shipping lanes increases ambient noise and significantly complicates 
the already difficult challenge of undersea acoustic detections. This 
continued acoustic space complicates the problem of sorting legitimate 
target echoes from random background echoes. Littoral sonar performance 
and prediction are highly problematic. Now more than ever, ASW requires 
a team effort as the harsh littoral requires exploitation of each 
detection opportunity.
    In our shipboard sonar program, we are pursuing an aggressive two-
pronged strategy. First, we intend on taking full advantage of the 
enormous advancements in computing power and networking. We have 
targeted these technologies for the AN/SQQ-89(V)15 and the AN/SQQ-
89A(V)15 with the multi-function towed array (MFTA) undersea warfare 
suite. Through analysis we have learned that our best payoff is gained 
by employing active sonar in conjunction with active acoustic 
processing techniques and optimizing our passive sonar arrays to 
operate in the noisy and complex waters of the littoral. Second, we are 
investing in systems that afford surface combatants mine hunting 
capability. History has shown time and again that mines are the most 
effective asymmetric threat in the littoral environment. Their vast 
diversity and increased proliferation, coupled with abundance of mine-
like clutter, present in the littorals demand that we equip our Fleet 
with the ability to find and avoid this threat. The concept in which we 
are engaged is called remote mine hunting and, when executed 
successfully, will allow us to sail in seas heretofore closed to us, 
simply because mines might be present. Add to the ASW sensors described 
above, improvements in ship torpedo defensive systems, the improved MH-
60R helicopter program, and the new Mk 54 lightweight hybrid torpedo, 
and it is clear this budget submission is focused to enhance surface 
combatant ASW effectiveness.

                           AN/SQQ-89 PROGRAM

    In the near-term, our ASW focus centers on upgrading the existing 
AN/SQQ-89 sonar suites to meet future undersea challenges. The upgrade, 
designed to counter the quiet diesel-electric submarine threat in the 
littoral, enhances existing capabilities for shallow-water prosecution 
and adds new, robust capabilities such as torpedo recognition and 
alertment, and cross-layer active detection using broadband waveforms. 
The system will capitalize on open system network architecture, and 
commercial off-the-shelf (COTS) functional enhancements to reduce 
procurement and development costs, and also simplify future capability 
upgrades. The AN/SQQ-89 undersea warfare control system provides a 
fusion point for sonar data, bottom topography, and non-acoustic 
sensors. With the AN/SQQ-89, surface warriors will have superior data 
fusion and processing, combined with more effective sensor coverage.
    Critical to future ASW is the multi-function towed array (MFTA), 
developed in concert with the submarine and IUSS communities, it will 
provide warfighters with a below-layer active/passive detection sensor 
and a torpedo detection receiver optimized for shallow water 
environments. Unlike previous towed arrays that were restricted to 
deeper water, the MFTA is designed to serve as a receiver for the hull 
mounted AN/SQS-53 sonar, extending the reach of the hull sonar away 
from own ships noise. Additionally, surface combatants will receive the 
MH-60R with its advanced ASW suite, including the AQS-22 airborne low 
frequency sonar (ALFS). The SQQ-89(V)15 working in a coordinated manner 
with the MH-60R carrying the new Mk 54 digital torpedo will give 
surface warriors a powerful ASW capability in any ASW environment.
    The fiscal year 2003 budget submission represents a significant 
change of strategy for SQQ-89A(V)15 fielding. Under this new strategy, 
these systems will now be installed in Ticonderoga-class cruisers as 
part of the cruiser conversion program in addition to the installation 
plans for DDGs. OPN funding levels were revised downward as part of 
this budget to reflect the shift of funds to the CG Conversion SCN 
account.

                             MK 54 TORPEDO

    As the shallow waters of the littoral environment have become 
better understood, it is clear that ASW acoustic torpedoes require more 
robust detection and signal processing capabilities to further enhance 
performance in littoral environments. With defense-wide fiscal 
constraints prevailing, a new ``bottom up'' development program has not 
been feasible. The determination was made that state-of-the-art COTS 
processors combined with technologies and performance features already 
incorporated into the Mk 50 lightweight torpedo and Mk 48 (ADCAP) 
heavyweight torpedo, if effectively adapted to inventory units of the 
Mk 46, provide the most cost-effective alternative to counter today's 
threat. In 1995, the Mk 54 lightweight hybrid torpedo program was 
initiated to provide a cost-effective shallow water performance upgrade 
to the lightweight torpedo inventory of Mk 46 and Mk 50 torpedoes.
    For the Mk 54 the incorporation of non-developmental item 
technologies from existing weapons and commercial industry has resulted 
in a significantly improved shallow water performance while reducing 
total ownership cost. Extensive use of COTS and open systems 
architecture enables the Mk 54 to be readily upgraded via technology 
insertion and software upgrades to counter future threats. CG-47, FFG-
7, and DDG-51 class combatants, the SH-60B/F, MH-60R, and the P-3 
aircraft will all employ the Mk 54.
    The Mk 54 is planned to IOC in fiscal year 2003, with full rate 
production commencing in that year. We significantly accelerated the 
procurement of the Mk 54 in the fiscal year 2003 budget submission to 
achieve significant savings through procurement at economic order 
quantities (EOQ), and to obtain a significant improvement in capability 
within the FYDP.

                               AN/SLQ-25A

    The advances in computing technology have allowed an increased 
sophistication and enhancement to our underwater defensive systems, 
specifically the AN/SLQ-25A. Central to our future undersea defensive 
systems will be a focus on the existing AN/SLQ-25A, which will be 
enhanced with state-of-the-art acoustic sensors and automated 
processing.
    The AN/SLQ-25A system is currently a soft-kill countermeasure 
system that acts as a decoy to confuse incoming homing torpedoes. It is 
the most widely used torpedo countermeasure system fielded on our 
ships. The AN/SLQ-25A is a towed system that operates at all times when 
the ship is at risk of torpedo attack, and unlike some of the more 
sophisticated countermeasure systems, the AN/SLQ-25A in its current 
state does not rely on cueing from an anti-submarine warfare (ASW) 
system.

                   TORPEDO RECOGNITION AND ALERTMENT

    If a ship is to react to a torpedo fired against it, there must be 
a way for the ship to detect the torpedo. Our surface combatants, using 
input from both the hull sonar and towed arrays, employ a processor and 
display system to gain alertment and recognition of torpedo acoustic 
emanations. The alertment and recognition system is used in conjunction 
with ship maneuvers to evade the torpedo and deployable countermeasures 
to effect a soft-kill of the incoming torpedo. The AN/SQQ-89 anti-
submarine warfare combat system torpedo recognition and alertment 
functional segment (TRAFS) will detect and localize torpedoes at 
tactically significant ranges when torpedo acoustic noise is received 
by the towed array or the hull sonar. In the development of this 
important system, recent advances in acoustic sensors and computing 
have provided promise that the AN/SLQ-25 can be adapted to provide a 
significant improvement to torpedo alertment.

                       ANTI-TORPEDO TORPEDO (ATT)

    The ATT is the only near-term, hard kill countermeasure that 
promises to be effective against all threat torpedoes. The ATT will 
soon complete a fiscal year 2001 advanced technology demonstration 
(ATD). The Navy Staff has worked very closely with the Office of Naval 
Research on further development of this promising weapon system, as 
well as the potential to integrate this capability into shipboard 
systems for torpedo defense. The torpedo detection programs previously 
discussed lay the foundation for introduction of an ATT capability as 
it materializes.

                       REMOTE MINEHUNTING SYSTEM

    While it is preferable to avoid mined areas (using our knowledge 
superiority), military objectives may require operations in close 
proximity to mined waters. The Navy will continue to aggressively 
research and prepare mine countermeasure (MCM) systems to ensure 
effective operational capability in littoral waters in support of land 
campaigns. Countermeasure technology must keep pace with the increased 
sophistication in mine fusing and stealth technology.
    For surface combatants, a new addition to the AN/SQQ-89 USW suite 
will be the AN/WLD-1, remote minehunting system (RMS). The first RMS 
deployment is presently planned for DDG-91 in fiscal year 2005 and 
represents the first generation of organic mine countermeasures (OMCM) 
systems for surface combatants. RMS is a semi-submersible vehicle that 
tows a mine hunting sensor suite to detect, classify, locate, and 
identify mines in the water column and on the sea bottom. RMS can 
operate autonomously and maintain a radio frequency link to the ship to 
allow sufficient forward deployment from the host ship, thereby 
reducing risk and minimizing interference with other ship missions. 
Through the AN/SQQ-89 and global command and control system-maritime 
(GCCS-M), RMS will communicate mine location information to the rest of 
the fleet, supporting the integration of organic and dedicated mine 
warfare forces. RMS represents leading edge technology in organic mine 
hunting which must be leveraged into our future ships to provide 
optimum operational capability and flexibility.

           MH-60R LIGHT AIRBORNE MULTI-PURPOSE SYSTEM (LAMPS)

    An important piece of undersea warfare and force protection is the 
LAMPS SH-60B and its next generation, the MH-60R helicopter. These 
helicopters play a significant role in our ``assured access'' strategy. 
The MH-60R will provide improved capability in littoral--specifically 
in improving to situational awareness and providing defense against an 
increasing threat from small surface combatants and quiet diesel 
submarines. The MH-60R will bring an inverse synthetic aperture radar 
(ISAR) capability, the advanced ALQ-210 EW suite, and an integrated 
AQS-44 FLIR capability to our surface force. The MH-60R and its AQS-22 
dipping sonar, along with an improved COTS-based acoustic processor 
will enable the execution of multi-static ASW, contributing to our 
ability to detect threats in harsh littoral environments. In addition 
to these significant mission avionics capability upgrades, the decision 
was made last year to shift to a new manufacture program geared to 
directly improve the readiness and operational availability of these 
helicopters. This program provides a critical warfighting component for 
our surface combatants.

                               CONCLUSION

    Our surface Navy remains a pre-eminent maritime fighting force in 
an ever changing and dangerous world that continues to be characterized 
by instability, uncertainty and ever increasing asymmetric threats. 
Today's Navy possesses the mix of capabilities required to carry out 
our Nation's maritime strategy. But we must do more to pace tomorrow's 
inevitable challenges. The surface Navy we are building for the 21st 
century will be characterized by speed, agility, strategic reach, and 
an enhanced ``toolbox'' of capabilities all designed to assure access, 
project power and project defense. The ``family of ships'' in our 21st 
century surface Navy will be truly transformational and will dominate 
the battle space, undersea, on the surface and in the air. This 
``family of ships'' will be a force designed from the keel up to 
operate as a distributed, netted force. Today, we are on our way to 
realizing the full benefits of network-centric warfare with 
capabilities such as CEC, AADC and NFN operating at sea, and we will 
build upon our successes to move towards the more enhanced and 
transformational networked architecture of FORCEnet.
    In a challenging world, our surface Navy remains a critical force 
in defending U.S. interests abroad and our citizens at home.
    On behalf of surface warriors and our Navy, I want to offer my 
sincere thanks for your continued support and thank you for this 
opportunity to speak before you on the state of surface warfare. We 
have met and are meeting the challenges of the Cold War, the conflicts 
of the 1990s and now the first war of the 21st century, the War on 
Terrorism. In doing so, the message is clear: be prepared for the 
unexpected. We continue to strive earnestly to do just that.

    Senator Kennedy. Admiral Sullivan.

    STATEMENT OF REAR ADM. PAUL F. SULLIVAN, USN, DIRECTOR, 
SUBMARINE WARFARE DIVISION, OFFICE OF THE DEPUTY CHIEF OF NAVAL 
               OPERATIONS, DEPARTMENT OF THE NAVY

    Admiral Sullivan. Mr. Chairman and distinguished members of 
the Seapower Subcommittee, thank you for this opportunity to 
discuss submarine shipbuilding acquisition programs. Thank you, 
too, for your continued strong support of our sailors, their 
families, and our submarine force.
    To understand the important contributions our force is 
making in defense of our freedoms, we need to look no further 
than the role that submarines played in the early phases of 
Operation Enduring Freedom. Following the attacks of September 
11, the U.S.S. Providence and her sister ship, U.S.S. Key West, 
were among the first on the scene.
    Providence is particularly an excellent example of the 
success of recent congressionally-funded submarine programs and 
initiatives. Providence was at the end of a 6-month deployment 
and on her way home when the attacks occurred. Upon receiving 
word of the attacks, the skipper and his crew were directed to 
return to station off the coast of Afghanistan at best speed.
    The very next day, the well-trained crew of Providence was 
on station preparing the battle space for upcoming naval combat 
operations and stood ready to launch Tomahawk cruise missiles. 
Providence positioned close in, providing important cuing to 
the Enterprise and Vinson battle groups, recorded and forwarded 
intelligence, surveillance, and reconnaissance information, and 
rapidly executed time-critical strike missions when called 
upon.
    Recent modernization initiatives, including the submarine 
high data rate antenna, the ARCI sonar system, the advanced TB-
29 towed array, and IT-21 local area network, were all critical 
to her success. These initiatives, combined with the strong 
long-term maintenance plan, provided Providence the endurance 
to stay on station well beyond the normal 6-month deployment 
and launch nearly one-third of the initial strike weapons while 
conducting surveillance activities ashore and at sea.
    With the increased demand signal from the warfighting 
combatant commanders since September 11 and a present force 
structure of only 54 attack submarines, how do we ensure 
similar success in the future? The key is to continue to deploy 
similar capabilities on all our submarines--SSNs, including 
future Virginia class submarines, SSBNs, and future SSGNs.
    Therefore, it is imperative that as a top priority we 
maintain a core modernization plan for our ships that utilizes 
COTS equipment and open architecture systems whenever possible 
to allow the ability to rapidly update. With this as a 
priority, we will be best positioned to handle the biggest 
challenges today involving access to littoral waters when 
threatened by mines and quiet diesel submarines.
    As a result of the post-September 11 successes and 
recognizing the need to transform for the future, our PB03 
budget focuses on investing in upgrades such as sonar, ARCI and 
its annual programs, command, control, communications, 
computer, intelligence systems, including our common submarine 
radio room, improved antennas, as I mentioned the high data 
rate antenna, and the new OE-538 antenna, combat control 
systems, which are envisioned to be more than just fire control 
systems, but provide tactical control and information 
management systems, periscopes and imaging----
    Senator Kennedy. Admiral, I am going to have to just recess 
for just a moment. As you can see, there is a vote over in the 
Senate. I will go over and vote, and then we will go ahead with 
the remainder of your testimony here, Admiral.
    The committee will be in recess. [Recess from 3:50 p.m. to 
4:09 p.m.]
    We will come to order. Admiral Sullivan, I recognize you.
    Admiral Sullivan. Yes, sir. I was discussing the 
investments we are doing to upgrade our ships' capabilities. I 
left off with we are investing considerably in updating our 
periscopes and ability to do imaging through some automatic 
low-intercept radars, some infrared imaging.
    We are also investing in signals intelligence to allow us 
to conform to the threat.
    Away from submarines, we are also integrating or updating 
our integrated undersea surveillance systems, both the fixed 
systems and the advanced deployable systems.
    With all this, we are continuing to emphasize our 
maintenance, force protection, and our payloads, particularly 
the tactical Tomahawk and undersea unmanned vehicles.
    On the strategic side of our business, the recent Nuclear 
Posture Review clearly reinforced the importance of the 
survivable sea-based deterrence provided by the Trident SSBNs. 
Recently the U.S.S. Alaska was backfitted to accommodate the 
Trident II D5 missile and completed a highly successful 
demonstration and shakedown operational missile test.
    We also are investing in D5 missile life extension programs 
to ensure adequate missile inventory for the life of our 
Trident submarine programs.
    Mr. Chairman, thank you again for the privilege of 
testifying today. The capabilities we are building into our 
ships and undersea systems are critical to meeting the threats 
of today and those of the future. Innovative modernization of 
our current SSNs and SSBNs, continued development of the superb 
Virginia class, transformation of the four Ohio class fleet 
ballistic missile submarines to SSGNs, and a robust yet focused 
research and development investment will ensure the U.S. 
remains the preeminent submarine force.
    With your continued support, we will be able to modernize 
and maintain our platforms as the most advanced technologically 
sophisticated submarine force in the world.
    Thank you, sir.
    [The prepared statement of Rear Admiral Sullivan follows:]
         Prepared Statement by Rear Adm. Paul F. Sullivan, USN
    Mr. Chairman and distinguished members of the Seapower 
Subcommittee, thank you for the opportunity to discuss submarine force 
non-shipbuilding acquisition programs. Thank you too for your continued 
strong support of our sailors, their families, and our submarine force.
    As the Navy's Director of Submarine Warfare, it is my principal job 
to determine the capabilities required of our undersea forces across a 
wide spectrum from peace through deterrence to conflict. Inherent in 
this job is the responsibility to ensure the programs and initiatives 
we are pursuing are an efficient and effective use of limited defense 
resources. My remarks today will include a description of the enduring 
characteristics of nuclear powered submarines, the strategic concepts 
that form the submarine force's vision for the future and the 
capabilities we are pursuing for our systems.
    The focus of our acquisition programs in Presidential budget 2003 
is to improve the joint warfighting effectiveness of our submarines and 
undersea systems to meet current and future Commander in Chief (CINC) 
and National requirements. In addition to shipboard programs, I will 
also discuss submarine rescue systems, fixed acoustic arrays and other 
off-hull undersea warfare sensors and systems for which I am 
responsible.
    To understand the importance of today's submarine force, we need 
look no further than the contributions of our submarines during the 
early phases of Operation Enduring Freedom (OEF). Following the attacks 
of September 11, U.S.S. Providence (SSN-719) and her sister ship U.S.S. 
Key West (SSN-722) were among the first on the scene. Recent submarine 
force initiatives including the high data rate (HDR) antenna, acoustic 
rapid COTS insertion (ARCI) sonar system, advanced TB-29 towed array 
and IT-21 local area network were critical to the successes of these 
ships in preparing the battle space, providing anti-diesel cueing to 
the U.S.S. Enterprise and U.S.S. Carl Vinson battle groups, recording 
and forwarding intelligence, surveillance, and reconnaissance (ISR) 
information and rapidly executing time-critical strike missions. I will 
include a discussion of each of these acquisition programs and 
initiatives later.

                   ENDURING SUBMARINE CHARACTERISTICS

    The ability of our submarines to conduct surprise operations has 
been critical to success during the War on Terrorism and will prove a 
key capability in unforeseeable future conflicts involving mobile 
adversaries operating without regard to national borders. Our 
submarines make use of their unique stealth, endurance, and agility to 
provide critical and irreplaceable capabilities, in support of joint 
forces, against the emerging threats and challenges of today and 
tomorrow.

        <bullet> Stealth. Uniquely undetectable and survivable, U.S. 
        submarines can operate covertly or overtly, creating surprise, 
        fear, and uncertainty among adversaries and assuring access for 
        friendly naval and joint forces. Of the five military domains 
        (land, surface-sea, undersea, the atmosphere and space), 
        undersea operations are the least visible and therefore the 
        stealthiest. U.S. submarines remain virtually undetectable by 
        other forces and their sensors, enabling them to operate with 
        impunity--covertly when required, or overtly if desired--inside 
        an adversary's threat envelope in advance of less survivable 
        joint forces. Their stealth also gives them inherent protection 
        from precision-guided missiles, electro-magnetic pulses (EMP) 
        and chemical, biological, radiological, nuclear and enhanced 
        high explosive (CBRNE) weapons. Under stealthy cover, the 
        submarine's ability to deliver payloads in hostile or denied 
        areas is singularly unique, providing the CINCs with survivable 
        ground-truth sensors inside the enemy's battlespace as well as 
        credible combat power for use against naval and land-based 
        targets.
        <bullet> Endurance. U.S. submarines conduct sustained, 
        independent operations within an enemy's battlespace. They 
        often operate alone in areas where detection or risks from 
        hostile forces prevent other forces from operating. Their 
        endurance, combined with their stealth, enables them to operate 
        with no defensive or logistics support from other forces for 
        months at a time. With their advanced sensors and precision 
        firepower, they have a remarkably high ``tooth-to-tail'' ratio.
        <bullet> Agility. Robust in capability and highly maneuverable, 
        U.S. submarines carry out unique national, operational and 
        tactical missions across the spectrum from peace to deterrence 
        to war. Their ability to surge between theaters with sustained 
        speed is a key capability in providing responsive, forward-
        deployed forces. Often ``first in and last out,'' they provide 
        presence, 24/7 intelligence collection and improved situational 
        awareness through special operations during peacetime and pre-
        hostility phases. Able to transition to emerging missions on 
        station, they also provide credible conventional deterrence, 
        dominant undersea warfare and early and covert precision strike 
        when conflicts arise. A single U.S. nuclear submarine can 
        conduct a wide range of missions in one deployment.

   SUBMARINE FORCE JOINT STRATEGIC CONCEPTS AND VISION FOR THE FUTURE

    The submarine force's vision is to leverage the unique attributes 
of our ships to provide critical and irreplaceable capabilities, in 
support of joint forces, against the emerging threats and challenges of 
today and tomorrow. To support this, we emphasize four strategic 
concepts:

        <bullet> U.S. submarines assure access for joint forces.

          Our submarines operate ``out front'' and prepare the battle 
        space in denied, hostile or sensitive areas. Because they can 
        operate where other platforms cannot, submarines neutralize 
        enemy anti-access systems or operate in spite of them, often 
        enabling attacks against time-sensitive targets. Information 
        provided by submarines, in conjunction with that available via 
        integrated undersea surveillance systems (IUSS) and Surtass 
        ships, provides valuable expeditionary capability for assuring 
        access for joint forces.

        <bullet> U.S. submarines exploit their unique access to develop 
        and share knowledge.

          Able to operate undetected very close to a potential 
        adversary's forces or territory, our submarines collect 
        information and provide real-time high data rate reporting 
        about adversaries and their capabilities that other assets 
        cannot--improving national and theater-level situational 
        awareness.

        <bullet> Stealth, access, knowledge, and firepower make U.S. 
        submarines a potent deterrent.

          In addition to strategic nuclear deterrence, our submarines 
        provide the CINCs and the Secretary of Defense with 
        unlocatable, close-in presence in support of diplomatic and 
        military objectives. Accurate and timely knowledge combined 
        with early and unpredictable conventional attack capabilities 
        from our submarines strengthen our leaders' deterrent options 
        against aggression.

        <bullet> Undetected presence and access enable U.S. submarines 
        to project power with surprise from close-in.

          Stealthy and survivable, our submarines provide an early and 
        rapid precision strike capability against time-sensitive 
        targets, as well as attack capabilities within contested or 
        sensitive areas.

                  PURSUING A CAPABILITIES-BASED FORCE

    Armed with this vision, the submarine force, in close coordination 
with industry and government laboratories, is moving forward to 
identify and invest in programs and technologies that bring the needed 
capabilities to our submarines and undersea systems. Through an 
enduring and comprehensive process, this consortium of warfighters, 
shipbuilders and technologists share ideas and a consistent focus. This 
process, called SUBTECH, ensures all current and future submarine 
program efforts are geared toward achieving our vision for the future. 
The capabilities that we are pursing can be summarized under three 
themes; extended reach, fully netted, and greater adaptability:

        <bullet> Extended reach to increase the submarine's tactical 
        horizon and collection capabilities, enabling better 
        penetration of hostile or inaccessible areas to improve 
        situational awareness and provide more information in support 
        of CINC and national tasking. Current initiatives include the 
        upgrade and modification of existing shipboard acoustic and 
        command, control, communications and computer (C\4\) ISR 
        systems and development of off-board sensors.
        <bullet> Submarine information systems fully netted with 
        national and theater level assets to improve processing 
        capabilities and provide integrated data for onboard and off-
        hull interpretation and knowledge sharing. Fully netted systems 
        allow the data collected by submarines and their organic and 
        off-board sensors to be distributed to joint forces and 
        national agencies, while also allowing real-time reach-back 
        from submarines deployed in forward regions to central 
        intelligence and cueing resources.
        <bullet> Greater adaptability to provide the submarine force 
        with more mission flexibility and volume of firepower to adapt 
        to emerging threats and technology. The development of modular 
        concepts and designs and incorporation of interoperable COTS 
        technology that can be rapidly upgraded and/or reconfigured 
        will aid in supporting this concept.
         irreplaceable submarine missions and joint warfighting
    Leveraging their enduring characteristics and guided by the above 
strategic concepts, submarines and undersea systems play a unique and 
thus irreplaceable role in joint warfighting and in fulfilling CINC and 
National requirements in the following primary areas: undersea 
superiority, battlespace preparation (including ISR and SOF), covert 
early strike, and global deterrence. I will now discuss our President's 
budget 2003 programs and initiatives in the context of these four 
mission areas. Although many of the programs and initiatives are 
applicable to more than one mission area, I will only include each 
under its primary mission area.
Undersea Superiority
    U.S. submarines penetrate conventional enemy defenses to ensure 
undersea superiority and sea control, defeating enemy area denial 
capabilities. Our submarines are critical to the Navy's ability to 
wrest control of the sea from a determined enemy employing mines, 
cruise missiles and/or quiet, advanced diesel submarines. They can 
disrupt and destroy our adversaries' military and commercial operations 
at sea, ensuring maritime dominance for the U.S. or its allies. Over a 
number of years, our submarines have established unparalleled anti-
submarine and anti-surface capabilities. Armed with significantly 
improved sensors and weapons, today they provide an even greater 
ability to locate, track and if necessary destroy submarines, surface 
ships and shipping in both the open ocean and the littorals.
    Undersea superiority enables the safe arrival and employment of 
joint forces in distant theaters of operations. Our submarines and 
other undersea surveillance assets (e.g. integrated undersea 
surveillance systems (IUSS)) are critical to the Navy's ability to 
ensure freedom of the seas and the flow of forces in support of joint 
operations in the face of an adversary's maritime threat.
    President's budget 2003 acquisition programs and initiatives to 
support continued undersea superiority include the following:

        <bullet> Underwater Acoustics

          Acoustic superiority over modern diesel and advanced nuclear 
        submarines is fundamental to control of the seas, underwater 
        dominance and assured access for our naval and follow-on 
        forces. Current initiatives include use of a standard sonar 
        system (TB-29 towed array with COTS technology) for all 
        submarine classes, integrated undersea surveillance systems 
        (IUSS) and Surtass ships, and continued development and 
        installation of acoustic rapid COTS insertion (ARCI) sonar 
        systems to maximize collection of acoustic data.
          Annual updates via the advanced processor build installation 
        and management plan have proven effective in steadily 
        maintaining ARCI systems up to date. Shipboard installations 
        are being done in a 2-year cycle to best fit submarine 
        deployment and operational schedules.
          All deploying SSNs will have towed array ARCI (Phase II) by 
        October 2003 and hull mounted ARCI (Phase III/IV) by October 
        2005. All SSBNs will have towed array ARCI by October 2006 and 
        hull mounted ARCI (Phase III) by October 2010. SSGNs will have 
        towed array and hull mounted ARCI installed after conversion.

        <bullet> Submarine Weapons

          Submarine-launched torpedoes provide essential combat power 
        for sea control missions. Submarine-launched Mk 48 advanced 
        capability (ADCAP) heavy-weight torpedoes are the most 
        effective anti-shipping weapons in the Navy. Advancements in 
        submarine weapons to ensure continued undersea superiority and 
        sea control in response to emerging threats in the littoral 
        waters include the following:

        <bullet> Improvements to the Mk 48 ADCAP. Modifications are in 
        progress to upgrade the current inventory of ADCAPs from Mod 5 
        to Mod 6, yielding significant improvements in weapon guidance/
        control and propulsion systems and improved performance in the 
        difficult littoral environment. The Mod 6 guidance and control 
        section has four times the memory and processing speed of its 
        predecessor to support continual software updates for enhanced 
        weapon performance. These software improvements, coupled with 
        hardware developments that support installing updates onboard 
        the submarine, will enable improved capability at a reduced 
        cost. Propulsion system improvements include sound-quieting to 
        reduce weapon operating noises and reduce target alertment, 
        yielding a significant tactical advantage for our submarines.
        <bullet> Development of the common broadband advanced sonar 
        system (CBASS) torpedo as the next improvement to the Mk 48 
        ADCAP. CBASS takes advantage of improved sonar technologies and 
        processing capabilities and is deliberately designed to defeat 
        the submerged adversary of the future (very quiet, low 
        operating speed, diesel or air independent propulsion (AIP) 
        platform, capable of high speed evasions, deploying 
        countermeasures, operating in a high noise, high contact 
        density, very shallow water environment). Initial operational 
        capability (IOC) for CBASS is 2007.
        <bullet> Submarine Countermeasures. Work continues on making 
        submarine countermeasures uniform in dimension so every 
        submarine can fire all countermeasures in the inventory. The 
        new 6,, countermeasures offer increased performance and 
        endurance over the previous generation. Additionally, progress 
        continues on the anti-torpedo torpedo, a joint submarine and 
        surface force weapon, with first at-sea testing scheduled in 
        2006.

        <bullet> Submarine Combat Control Systems (CCS) Modernization

          Current CCS enhancements will enable full capability for 
        tactical Tomahawk (Tactom) and use of the IT21 communications 
        system, deliver significant improvements in high contact 
        density littoral areas and enable periodic improvements in 
        capability. The program implements an open architecture system 
        similar to ARCI sonar that is more conducive to competition for 
        software and hardware development.
          Today's CCS integrate two different functions: contact 
        tracking and management and control of weapons. Our ultimate 
        goal is to split these functions so that contact management 
        upgrades are not tied in with costly and time-consuming testing 
        requirements for upgrades to weapon control systems. We fully 
        intend to apply the lessons learned from our experience with 
        the ARCI sonar system in developing the architecture and the 
        advanced processor build process for the CCS.
          Equally important is the installation of phase 2 of the 
        tactical integrated digital system (TIDS), a mission critical 
        digital network incorporating the Navy's first on-board 
        tactical network. It will provide robust, survivable servers 
        and network hardware that will serve as a ready host for a wide 
        range of future applications. It is a fundamental building 
        block to achieving network-centric warfare capability on 
        submarines. The first installations have been completed, and 
        the program is aiming to complete fleet wide installation 
        within the FYDP.

        <bullet> Off-board Sensors

          Recent efforts have accelerated experimentation, development 
        and fielding of UUV, unmanned aerial vehicles (UAV) and 
        deployable systems to expand the submarine's payload and reach. 
        Autonomous, off-board vehicles and sensors deployed from 
        submarines will allow covert penetration of denied/hostile 
        areas with leave-behind persistent intelligence collection 
        capabilities in support of the warfighting CINCs. Off-board 
        vehicles and sensors will improve the situational awareness and 
        multiply the operational impact and flexibility of their host 
        platform--and the supported joint forces--at significantly 
        reduced risk.

        <bullet> The long-term mine reconnaissance system (LMRS) is an 
        autonomous UUV currently under development that will enable our 
        submarines to search for mines in denied littoral waters and 
        other areas while remaining covert and out of danger. LMRS is 
        scheduled for IOC in 2005.
        <bullet> The mission reconfigurable UUV (MRUUV) is a next-
        generation UUV that will provide the ability to greatly extend 
        the range and variety of off-board sensors. MRUUV will be the 
        Navy's first fully autonomous vehicle that has specified 
        interface standards to enable acceptance of a wide array of 
        sensor payloads.
        <bullet> Cueing provided by the integrated undersea 
        surveillance system (IUSS) is essential to the Navy's undersea 
        warfighting capability. Current fixed and mobile systems 
        provide persistent maritime surveillance worldwide.

          <bullet> IUSS fixed systems, the legacy sound surveillance 
        system (SOSUS) and the newer fixed distributed system (FDS), 
        provide long-term, forward-deployed covert surveillance. Cost 
        of these systems is typically shared with our allies.
          <bullet> For our mobile IUSS component, SURTASS ships will be 
        even more capable with the installation of highly effective TB-
        29A twin line arrays, with first installation scheduled to 
        occur in fiscal year 2004. Additionally, after receiving 
        authorization from the National Maritime Fisheries Service, we 
        expect to begin low frequency active sonar operations this 
        year.
          <bullet> Development of advanced deployable system (ADS), a 
        transformational system that provides rapid deployability, 
        continues with initial delivery of an operational system to the 
        fleet in fiscal year 2005. For the future, we are developing a 
        variant of ADS that will not require a cable link to shore.

        <bullet> Submarine Rescue

          Following the sinking of the Russian submarine Kursk and 
        subsequent loss of lives, the Navy conducted a thorough 
        analysis of the safety and habitability of our submarines 
        following a major casualty. While we had already taken a 
        proactive role in this area including installing new escape 
        equipment and developing a new rescue system, fiscal year 2003 
        provided an opportunity to further improve our capability. The 
        Navy has increased funding to procure and install new carbon 
        dioxide removal equipment to allow sailors to survive until 
        escape or rescue. Additionally, we have accelerated the 
        installation of an improved escape suit by 2 years from 2007 to 
        2005 and are pursuing initiatives to re-establish pressurized 
        escape training for our sailors.
Battle Space Preparation, including ISR and support of Special 
        Operation Forces (SOF).

        <bullet> ISR. Space-based and airborne signals interception is 
        complemented in critical ways by our submarine intercepts. Our 
        submarines can position themselves to capture electromagnetic 
        emissions or observe maritime activities or tests that would 
        elude other sensors and systems. They are critical assets in 
        ensuring comprehensive, persistent surveillance of many 
        information domains (visual, acoustic and electronic), ensuring 
        complete situational awareness and precluding enemy sanctuary. 
        Submarines also provide sole-source ``tip-off'' information, 
        which enables the intelligence community to optimally allocate 
        other collection assets.
          U.S. submarine-gathered intelligence focuses military 
        planning and operations and minimizes threats to national 
        assets. Operating closely and continuously to observe 
        activities without the adversary's knowledge, submarines 
        provide battle group and joint force commanders real-time 
        information that helps define and prepare the battle space. 
        Intelligence gleaned from such operations ranges from the 
        highly technical details of military platforms to knowledge of 
        a potential adversary's military doctrine and intentions. Their 
        non-provocative and non-escalatory presence also enables them 
        to gain ``ground-truth'' intelligence that aids diplomatic 
        efforts and helps anticipate (and preclude) hostilities.
          Programs and initiatives to enhance submarine ISR 
        capabilities include the following:

        <bullet> Submarine Communications

          The submarine IT21 communications suite significantly 
        improves connectivity via wideband (128 kbps) and narrowband 
        (32-48 kbps) internet protocol (IP) technology. IT21 
        communications provide secure, covert connectivity in the 
        littorals and more efficient use of limited satellite resources 
        while enabling our submarines to be fully netted with the 
        carrier battle group. Submarine IT21 is being outfitted on all 
        submarines deploying with the battle group; and, to date 
        approximately 20 percent of the SSN fleet has this capability. 
        The goal, as supported by the program of record, is for all 
        submarines (SSN, SSBN, and SSGN) to be modernized with this 
        capability by the end of fiscal year 2007.

        <bullet> Submarine Imagery and Signals Intercept

          Current efforts in the areas of tactical imagery and visual 
        intelligence (VISINT) will significantly advance the 
        submarine's capability from World War II era optics to state-
        of-the-art imaging technologies. Efforts include real-time 
        rangefinding, continuous video output (both visual and 
        infrared) and digital still camera imaging. This high quality 
        digitalization of imagery will enable the submarine to gain 
        greater tactical control while operating at periscope depth in 
        high contact density, littoral areas and also provide high 
        resolution VISINT to theater and national intelligence networks 
        quickly.
          Submarine operations since September 11 have highlighted the 
        critical importance of sensitive, state-of-the-art signals 
        intelligence (SIGINT). To ensure maximum capability in this 
        area, we have greatly accelerated procurement and installation 
        of the state-of-the-art AN/BLQ-10 SIGINT suite which provides 
        our submarines the capability to exploit the entire spectrum of 
        signals.

        <bullet> Submarine Geospatial Information

          The submarine force continues to pursue improvements in 
        precision position/attitude/time determination and geographic 
        reference that are critical to exchanging relevant contact 
        information in a tactical or national network. Nearly all 
        operational SSNs have been upgraded to the AN/BPS-15(H) 
        integrated radar and digital chart system, which has 
        significantly enhanced ship's safety during surfaced and 
        submerged operations in high contact density environments. All 
        remaining SSNs will be upgraded to the AN/BPS-15(H) by 2004. 
        The AN/BPS-15(H), in conjunction with ring laser gyro 
        navigator, the replacement for the legacy electronically 
        suspended gyro navigator, will provide seamless integration 
        with geospatial standards and will meet Navy goals for 
        electronic navigation.
        <bullet> SOF. U.S submarines are excellent platforms to deploy 
        and retrieve covert forces. Our submarines' inherent stealth 
        and endurance--as well as their sophisticated communications 
        equipment, sensors, and navigation suites--make possible the 
        secure, precise and reliable insertion and extraction of SOF 
        (SEALS, Rangers, and Recon Marines) close to shore objectives. 
        These covertly placed personnel can plant remote sensors, 
        collect intelligence, exploit and/or disable weapons and 
        communication systems and perform other classified missions 
        inside denied areas. OEF has demonstrated conclusively the 
        importance of being able to deploy SOF quickly and covertly in 
        places and situations that cannot be anticipated.
          The submarine force has always had the capability to insert 
        SOF, but the recent decommissioning of U.S.S. Kamehameha has 
        limited our capability to short duration employments with small 
        teams of special forces. SSGN, in combination with the advanced 
        seal delivery system funded by SOCOM, will enable us to achieve 
        a quantum increase in our capability to insert and support 
        Special Forces from submarines. The prospects are exciting, and 
        we are beginning to lay the foundations for reaping significant 
        operational capability benefits from the synergy of SSGN and 
        SOF. To support this, we have updated nearly all of our non-
        shipbuilding procurement programs to give SSGN the same 
        capability as SSNs in acoustics, imaging, combat control and 
        communications.

        <bullet> Covert, Early, Conventional Strike

          Submarine-launched land-attack missiles provide essential 
        combat power for strike missions. U.S. submarines provide 
        combat-credible presence with responsive and reliable 
        delivery--early strike, with surprise, from close-in. Littoral 
        access and survivability enable unique strike capabilities with 
        reduced risk to personnel.
          Our submarines are not threatened by area denial weapons such 
        as coastal cruise and tactical ballistic missiles or weapons of 
        mass destruction, thus delivering a conventional punch with 
        impunity. They can execute attack operations against targets 
        that might otherwise be alerted by a visible naval presence. 
        Historically, submarines have deployed one-third of the Navy's 
        Tomahawk land-attack missiles, and submarines launched nearly 
        38 percent of all Tomahawk cruise missile strikes during the 
        first phase of OEF.
          The development of Tactom will enable our submarines to 
        project power more swiftly with precision against defensive 
        systems and other time-sensitive targets. In the future, SSGN, 
        loaded with deployable sensors (e.g. unmanned vehicles), 
        Tactoms, future land-attack missiles and miniature air-launched 
        decoys and jammers, will provide robust capability to destroy 
        an integrated air defense system (IADS) or any other anti-
        access system from within the adversary's threat envelope.

        <bullet> Global Deterrence

          U.S. submarines fulfill a unique role in our Nation's ability 
        to deter aggression. Asymmetric in concept and capability, our 
        submarines provide an unlocated but certain strike capability--
        both nuclear and conventional--whose time and place of 
        employment is completely uncertain in the mind of a would-be 
        adversary. The survivable offensive strike weapons carried by 
        our nuclear submarines play a pivotal role in achieving global 
        deterrence as part of the Nation's new strategic triad.
          Ballistic missile submarines (SSBNs) are our Nation's choice 
        for nuclear deterrence. Our SSBNs are virtually undetectable. 
        They comprise greater than 50 percent of our Nation's nuclear 
        deterrent, and 100 percent of our Nation's survivable 
        deterrent, using only 34 percent of our strategic budget and 
        less than 1.5 percent of our naval personnel.

          <bullet> The Presidential Budget for Fiscal Year 2003 fully 
        funds a service life extension program to match the life of D5 
        submarine-launched ballistic missiles (SLBM) to the recently 
        extended 44-year life of Ohio-class SSBNs. This program 
        refreshes the missile guidance and electronics systems to 
        prevent obsolescence and procures additional missiles for 
        required flight testing. The D5 life extension program will 
        ensure maximum weapon system reliability and accuracy for this 
        critical strategic deterrent.

    In addition to traditional strategic deterrence provided by SLBMs, 
Tomahawk cruise missiles carried onboard Los Angeles- and Seawolf-class 
attack submarines (and Virginia-class submarines, when delivered) 
provide a capable conventional deterrent. SSGN will add up to 154 
Tomahawk or future Tactom cruise missiles per platform to advance our 
capabilities in this area.

          ENDURING PROCESSES FOR INNOVATION AND TRANSFORMATION

    The submarine force has incorporated innovative processes to ensure 
our submarines have the necessary tools to meet the challenges of today 
as well as those of the future.
    As I have already referred to, SUBTECH is a collaborative 
organization comprised of OPNAV, industry, acquisition community and 
fleet representatives developed to identify and prioritize promising 
technologies consistent with the submarine force vision. Working hand-
in-hand with SUBTECH, the submarine force's Experimentation Working 
Group ensures our vision is pursued through an end-to-end process that 
guides concept development, war gaming, science and technology, 
experimentation and research and development to deliver the required 
fielded capabilities to the fleet and transform the force vision into 
reality.
    The payloads and sensors program uses the above processes, 
leveraging and integrating technologies developed by others, to 
identify submarine payloads and sensors for the future. The SSGN 
payloads and sensors program will make use of SSGN's large ocean 
interface--22 large-diameter, 44-feet tubes--to develop future payloads 
and sensors to be deployed by SSGN. Additionally, SSGN will serve as 
the transformation ``bridge'' to provide these and future advanced 
joint payloads, including mission-specific weapons and sensors, via the 
technology insertion program, to Virginia-class submarines with 
reconfigurable torpedo rooms, advanced sails and large payload modules.

                              CONCLUSION.

    Mr. Chairman, thank you for the honor of testifying today. I would 
like to close by reiterating the critical need for submarine-delivered 
capabilities as a vital component of our Nation's defense. The 
capabilities we are building into our ships and undersea systems today 
and those that are planned for tomorrow are crucial to meeting the 
threat today and in the future. Our submarines are stealthier and more 
capable than any ships in the world. Our relevance in regional peace or 
conflict enabled by our stealth and combined with the endurance and 
agility that nuclear power brings are absolutely necessary to support 
CINC and National mission tasking.
    Innovative modernization of our current submarines, continued 
development of the superb Virginia-class and transformation of four 
Ohio-class fleet ballistic missile submarines to SSGNs will ensure the 
U.S. remains the preeminent submarine force. With your support, we will 
continue to upgrade and maintain our platforms as the most advanced, 
technologically sophisticated submarines in the world.

    Senator Kennedy. Thank you very much.
    Admiral McCabe.

 STATEMENT OF REAR ADM. MICHAEL J. McCABE, USN, DIRECTOR, AIR 
            WARFARE DIVISION, DEPARTMENT OF THE NAVY

    Admiral McCabe. Senator, I am honored to be in front of you 
today and have a chance to talk about naval aviation. I have a 
short statement for the record I would like to submit.
    Senator Kennedy. Please.
    Admiral McCabe. I would echo the comments of the CNO and 
the prior witnesses on the challenges and the opportunities 
facing the Navy today, and I look forward to your questions.
    [The prepared statement of Rear Admiral McCabe follows:]

         Prepared Statement by Rear Adm. Michael J. McCabe, USN

    Mr. Chairman and distinguished members of the Seapower 
Subcommittee, thank you for the opportunity to discuss the state of 
naval aviation, with specific emphasis on the programs and plans to 
sustain and modernize our P-3 and MH-60 platforms and equipment.
    When I appeared before this subcommittee last year, I spoke of how 
the leading role played by naval expeditionary forces in responding to 
crises pointed to an increasing demand for what the Navy-Marine Corps 
team and naval aviation bring to the fight. Clearly in this past year, 
this trend has continued--even accelerated--as our forward-deployed 
carrier battle groups and amphibious ready groups have served the 
Nation's interests in support of Operations Noble Eagle and Enduring 
Freedom.
    Our remarkable success in these operations validates the 
requirement for unconstrained, sustained and forward naval maritime 
forces. The lion's share of the credit rests with the sailors and 
marines who serve with distinction and honor--meeting the challenge of 
increased operations tempo despite the effects of a prolonged drawdown 
of personnel and equipment. I appreciate the actions by members of this 
subcommittee, the Senate, and the administration to meet our most 
pressing personnel and readiness needs. I am mindful of the choices we 
need to make to balance the modernization and recapitalization efforts 
necessary to ensure naval aviation and naval maritime forces remain 
capable of meeting the Nation's security requirements into the 21st 
century and beyond.

                   MARITIME PATROL AND RECONNAISSANCE

    Maritime patrol and reconnaissance aircraft (P-3/EP-3) continue to 
fulfill critical warfighting roles, including: undersea warfare; 
surface warfare; electronic warfare; intelligence, surveillance, and 
reconnaissance; maritime interdiction; littoral strike and targeting. 
Enhanced connectivity and integration into battle group concept of 
operations (CONOPS) places a premium on these aircraft as we move into 
the future. A key modernization effort for both the maritime patrol and 
reconnaissance fleet is the replacement of mission systems in our 
legacy aircraft to give the warfighter the capability to conduct anti-
submarine warfare (ASW), anti-surface warfare (ASUW) and intelligence, 
surveillance, and reconnaissance (ISR) in the 21st century.
    The P-3 ASUW improvement program (AIP) is an upgrade to the P-3 
weapons system which was designed to provide a more robust anti-surface 
warfare capability. The COTS sensor and connectivity improvements 
allowed for rapid fleet introduction that proved their value during 
multiple worldwide operations, most recently Operation Enduring Freedom 
(OEF). P-3 AIP-equipped aircraft collected, analyzed, and disseminated 
time critical intelligence to joint and coalition forces in OEF, while 
also participating in leadership interdiction and maritime interdiction 
operations in the Persian Gulf and Indian Ocean. Our investment in AIP 
is well leveraged, as this aircraft has performed well in unique roles 
in the global war on terrorism, including overland and overwater ISR 
operations, littoral surveillance, maritime interdiction operations, 
and full support of joint task forces. AIP is a suite of sensor 
upgrades that significantly and rapidly increases capabilities not only 
in ASUW, but also for over-the-horizon targeting (OTH-T); command, 
control, communications, computers, and intelligence (C\4\I); and 
survivability. By protecting the battle group from surface and sub-
surface threats, our P-3 aircraft in conjunction with organic 
helicopter assets, allowed the carrier air wing's tactical aircraft to 
focus exclusively on power projection.
    Our EP-3E electronic warfare and reconnaissance aircraft continue 
to meet critical CINC ISR collection requirements. The primary mission 
of these aircraft is to detect and report tactically significant 
communication and radar signals then associate these signals with enemy 
warfare activity or potentially hostile units. A P-3C to EP-3E 
conversion program is in place and fully funded to meet the inventory 
requirement of 16 aircraft. There are two planned upgrades to the EP-3E 
force. The sensor system improvement program (SSIP) integrates and 
installs new tactical communications, electronic signals monitoring 
(ESM), and special signal processing and exploitation systems. The 
second effort is the joint airborne signals intelligence (SIGINT) 
architecture (JASA) block modernization program (JMOD). The JMOD 
program is an extensive systems upgrade designed to keep the EP-3 ahead 
of the projected threat and is the bridge to future Navy manned and 
unmanned ISR programs.

                    MULTI-MISSION MARITIME AIRCRAFT

    The multi-mission maritime aircraft (MMA) program plan presents a 
path forward to recapitalize the capabilities currently provided by the 
maritime patrol and reconnaissance force. The Navy has completed the 
AoA, identifying a manned aircraft as the key element of the system. 
The analysis also identified the potential application of unmanned 
aerial vehicles (UAV). In the interim, the legacy P-3C force is going 
to be kept viable through sensible modernization until the introduction 
of MMA. This approach will enable the Navy to deliver more reliable and 
capable replacement aircraft faster, minimize costs and technical 
risks. Our schedule has the selection of the preferred alternative for 
development in fiscal year 2004 with the goal for introduction to the 
fleet in the 2010-2012 timeframe.

                     UNMANNED AERIAL VEHICLE (UAV)

    In August of this past year, the Secretary of the Navy announced 
his intent to increase the Navy's emphasis on unmanned systems. With 
increased emphasis on this key transformational area, the Navy and 
Marine Corps re-examined their UAV requirements and priorities. The 
resulting naval UAV strategy has both a short-term plan to capitalize 
on existing systems and a longer term plan to develop a family of 
unmanned vehicles.
    The Navy has initiated an accelerated procurement of a Global Hawk 
system as part of the broad area maritime surveillance (BAMS) 
requirement to satisfy the Long-Dwell-Standoff ISR mission area. This 
will be a two-phased process. Phase I will be procurement of an Air 
Force production line Global Hawk system which will have modifications 
to the existing sensor package to make it more compatible with a 
maritime environment. A system will consist of two air vehicles with 
payloads, a launch and recovery element and mission control element. 
The system will be used primarily for experimentation and CONOPS 
development leading to phase II. Phase II (now called BAMS UAV) will 
leverage from the broad area maritime and littoral armed intelligence, 
surveillance, and reconnaissance mission needs statement and AoA to 
competitively acquire high altitude, long endurance vehicles with 
robust and fully capable maritime sensor payloads. The thrust of BAMS 
UAV will be towards developing sensor/payload capability or identifying 
existing sensor/payloads capable of performing BAMS missions. The Navy 
intends to explore all non-developmental options for the vehicle. A 
competition may result if multiple vendors can provide vehicles 
appropriate to the Navy's requirement.

                           MH-60 HELICOPTERS

    The CNO recently approved a fleet proposal to restructure our Navy 
helicopter forces around the two linchpin airframes to the Helicopter 
Master Plan, the MH-60R and MH-60S. This new concept of operations 
(CONOPS) will align the leadership of helicopter aviation with the 
carrier air wing and bring about warfighting efficiencies. Our 
helicopter force will downsize from seven type/model/series to two, 
while meeting our littoral warfighting requirements. Capitalizing on 
efficiencies of singular maintenance, logistics, and training systems, 
our plan satisfies the needs of both our Active and Reserve Forces.
    The MH-60R multi-mission helicopter is the future aircraft for the 
Navy's tactical helicopter community supporting surface combatants and 
aircraft carriers. The MH-60R will eventually replace the Navy's 
existing fleet of SH-60B and SH-60F helicopters. The warfighting 
systems will provide an advanced multi-mode inverse synthetic aperture 
radar (ISAR), the airborne low frequency (dipping) Sonar (ALFS), a 
greatly enhanced electronic support measures and self-defense sensor 
suite, and upgraded mission computers. In June 2001, the MH-60R program 
received approval from ASN(RDA) to revise the acquisition strategy from 
remanufactured airframes to new production aircraft. The acquisition 
program rebaseline, incorporating this new manufacture strategy and 
extension of the schedule to allow further subsystem testing and 
maturity, has been approved.
    The MH-60S multi-mission combat support helicopter is the future 
aircraft for organic airborne mine countermeasures, combat search and 
rescue, special operations, and logistics support. The MH-60S will 
replace the Navy's aging fleet of H-46, H-1, H-3, and HH-60H 
helicopters. This spring, we certified the fleet replacement squadron 
``ready-to-train'' and we plan to introduce initial operational 
capability of the MH-60S in the fall of 2002. Retirement of the CH-46D, 
the Navy's logistic workhorse (in its 34th year of service) is targeted 
for August 2004. Follow-on systems changes will introduce the network, 
sensors, weapons and survivability suites necessary for the multi-
spectral battle group tasking.

                                SUMMARY

    America's global security interests, recent world events and on-
going operations in the Northern Arabian Sea and Afghanistan are 
validating both our past decisions with regard to aircraft, weapons and 
personnel, as well as our commitment to sustaining the readiness of our 
forces, which now routinely deploy in harm's way. Forward presence, 
maritime dominance, and decisive landward power projection in the 
littorals require modern aircraft and weapons systems capable of 
responding rapidly to a wide range of missions in an increasingly 
complex and demanding threat environment. We must plan, invest, and 
equip our maritime forces so they are shaped to bring overwhelming 
force to the fight. Naval aviation continues to make extraordinary 
contributions to the Nation's defense. We are committed to keeping 
naval aviation robust and relevant and we will keep faith with our 
warfighters in the fleet to ensure they have the aircraft and equipment 
necessary to engage in combat and prevail.

    Senator Kennedy. Maybe I could talk, Admiral McCabe, about 
the purchase of the F-18s. What is on the horizon now in terms 
of that issue?
    Admiral McCabe. We are very happy with the F/A-18E/F. The 
first E-F squadron and F-18E squadron deploys on Lincoln this 
June. The contractors provided for us exactly the airplane we 
asked of them, so we are very happy with it. We would like to 
buy it as fast as possible. With some of the challenges the CNO 
talked about and the framework of decision we face with paying 
for the manpower and then the readiness, we had to make some 
late decisions on the quantities that we were buying. But it is 
a top priority for us to buy that aircraft. We would like to 
replace the F-14s as rapidly as possible. The F/A-18E/F is half 
the cost of an F-14 to operate and so, while the F-14 has 
performed brilliantly even in Operation Enduring Freedom, it is 
time the move on to the new technologies. So we strongly 
support that airplane, Senator.
    Senator Kennedy. We might come back with you on that, on 
that issue. I would be interested in the justification and the 
changes that have been suggested.
    Admiral McCabe, we are obviously saddened by the loss of 
life in the V-22s over the last year. We heard from the panel 
to review the V-22 last year during the time we were trying to 
work out the problems. Can you describe now what the Navy and 
Marine Corps will need to do to ensure that the CH-46 fleet 
will support operating squadrons in the interim before we get 
to the V-22?
    Admiral McCabe. A great concern, more for the Marine Corps 
than us. We are going to replace our H-46s with the MH-60S and 
we will have our H-46s out of service by 2004 in September/
October. The Marine Corps because of the V-22 delays will have 
to fly the H-46 for some time longer. Some of the engines in 
the H-46 case have been overhauled as many as ten times and so 
it is a concern. They have an engine improvement program, a 
monitoring system that is in place. But based on some of the 
recent challenges we have had, that bears close watch and it is 
a concern because of the age of those aircraft. I believe 
General Jones has said before there are H-46s that have been in 
service longer than he has.
    So it is something that NAVAIR SYSCOM pays very close 
attention to, probably more than any of the other aircraft we 
have.
    Senator Kennedy. Can you give us the update on the V-22?
    Admiral McCabe. Right now everything is on track for them 
to resume flying. The directed inspections and the 
improvements, the oversight----
    Senator Kennedy. Resume flying when?
    Admiral McCabe. I am not sure, Senator. I would have to----
    Senator Kennedy. There was a squib in the paper recently 
that it is very soon and we are interested in when that is 
going to take place. Also, as you are aware, the Feingold 
amendment required notification to Congress, I guess, 30 days 
before the flight.
    Admiral McCabe. Yes, sir. I do not believe they are that 
close, but they are making progress. I will get back to you 
with the specifics.
    But I know that we meet regularly with a broad audience at 
NAVAIR reviewing the progress of the airplane with oversight 
from OSD and senior Department of the Navy officials.
    Senator Kennedy. What is your conclusion on this? What is 
the progress that has been made?
    Admiral McCabe. I believe that the program manager is 
making good, steady progress, but from my standpoint on the 
Navy--the Marine Corps may have a different view--we need to 
proceed very carefully here and not rush back into operations 
and make sure that they have met every milestone and we are 
very confident that they will be successful from this point on. 
I do not believe we can accept any more failures.
    Senator Kennedy. That is true. But you will let us know 
about the time, because I understand that it is very soon. We 
are interested in your assessment as well, obviously, of the 
flight.
    Admiral McCabe. Yes, sir.
    [The information referred to follows:]

    As a result of two tragic mishaps that occurred, flight-testing was 
suspended while the V-22 Osprey program underwent an extremely 
rigorous, all encompassing USD(AT&L) directed review. This effort 
included two safety mishap investigations, a Blue Ribbon panel, a NASA 
independent review, and GAO and DODIG investigations and audits. These 
investigation teams, which included aviator. and testing experts from 
across industry, government agencies and academia, recommended many 
improvements to the program. Through this process the V-22 program and 
aircraft was modified to ensure safe flight operations. The return to 
flight report was delivered to Congress by the Defense Department via 
the acquisition chain of command on April 5, 2002, and the first flight 
is currently scheduled for mid-May 2002.
    After a detailed review of the program with the program manager and 
other officials involved in the review process, I believe the systems 
engineering approach established to address acceptable risk has been 
scrutinized and is sound. Senior leadership from both the Department of 
the Navy and Air Force have been following the review very closely and 
have expressed unanimous support. An active executive committee, with 
participation by Navy, Air Force, Marine Corps requirements and 
acquisition executives, testing agencies, and safety centers, along 
with industry representatives, has meet six times since June 2001 and 
will continue to provide detailed oversight to the testing and 
acquisition process. The consensus is that government and contractor 
management teams are well qualified, well led and motivated to make the 
program succeed.
    The OSD-directed review was rigorous and included 7,800 hours of 
scrutiny and analysis of the flight control system and 1,700 hours of 
lab tests to include pilot-in-the-loop simulation. The process included 
a ``triple lab'' analysis, which tied together a flight simulation lab, 
avionics integration lab and a flight control systems integration rig. 
This system, which tests actual flight control components in a 
laboratory environment, has been so successful that the Boeing Company 
plans to incorporate the process to verify flight control systems on 
their other platforms.
    Specific design changes incorporated as a result of the 
investigations include modifications to the hydraulic system, flight 
control system and software, and pilot emergency action procedures. 
Modifications were made to the hydraulic system including re-routing 
lines to improve clearances and reduce line chaffing. The system 
includes triple redundancy equivalent to commercial airliners systems. 
Modifications were made to the warnings, cautions and advisory 
annunciations and all 147 pilot emergency procedures were revalidated.
    The number of pilots involved in flight test has been reduced to 
ensure they are receiving adequate flight time for improved proficiency 
and a greater safety margin. The ground-testing program has been robust 
and included over nine hours of rotor turn time to ensure all systems 
are ready for flight. As a result of the depth and breadth of these 
positive changes, I am confident that the flight test program is ready 
to move forward.
    My assessment of the program is that it's back on track and, if 
they continue to meet cost, schedule and performance milestones safely, 
should continue to receive service, OSD and congressional support.

    Senator Kennedy. You have been following the progress and 
your top people have been monitoring that as well. If there is 
any difference in terms of it, we want to certainly know and 
have your input on that as well.
    Admiral Balisle, I want to talk a little bit about the ERGM 
program. Two years ago the Navy was projecting the ERGM program 
that would achieve initial operational capability in 2004. It 
slipped some 2 years from the original course last year. The 
Navy informed the subcommittee that ERGM will achieve IOC in 
2005. I know this has been an important part of the plans for 
improving fire support capability, but we seem to be 
experiencing continuing delays in the program.
    So how confident are you that the ERGM contracting team can 
solve the problems and remain on schedule?
    Admiral Balisle. Senator, ERGM is definitely a high tech 
program and is a new technology for our gun-fired ordnance, and 
it has had problems in the past as a result of that technology 
edge. We think the program has made considerable progress in 
the last year. It is now passing its tests. We believe that the 
design is sound. We have recently made a change in the ERGM 
projectile to go from a submunition to a unitary warhead, which 
is a more lethal warhead for the target set and also reduces 
risk, we feel, in that particular round.
    We believe fiscal year 2005 in the program, the way it is 
aligned now, is a reasonable target. But we certainly believe 
that the technology base now is solid and we think it will be 
successful.
    Senator Kennedy. The obvious concern is whether down the 
line we are going to have similar kinds of problems with the 
155 mm gun on the new destroyer.
    Admiral Balisle. Yes, sir.
    Senator Kennedy. Are there lessons to be learned from this 
that can be helpful so we can avoid problems?
    Admiral Balisle. Sir, we certainly think there are lessons 
to be learned. The technology in these rounds, GPS-guided 
projectiles and projectiles that have to be fired at a very 
high force when they come out of the gun, were all part of the 
learning curve. They will be common problems for the 155 mm 
gun. So it is our hope and belief that there will be a 
significant learning curve as we go to that technology.
    Senator Kennedy. Well, we want to keep abreast of that 
because that has important implications down the road.
    General Whitlow, on our mine warfare capability--as you 
well know, our continuing interest in this issue--Admiral 
Fallon indicated that the recommendation was to pursue other 
technologies to do the job. He is not specific about the 
program or programs that would meet the requirement. Your 
prepared testimony mentions a three-track corrective action 
program.
    So could you describe in some detail what are the program 
efforts under the three-track approach?
    General Whitlow. Yes, sir. I truly appreciate, Mr. 
Chairman, your continued interest in this very vital and 
important area, in particular since we are so involved with the 
littoral and shallow areas nowadays in our war on terrorism.
    Basically, as I spoke to earlier, the SABRE-DET program, 
very shallow, 10 feet and on, was cancelled for two reasons, 
and I will highlight that. There is some confusion that we do 
not have that type of capability, unfortunately. We do have the 
capability to clear mines in that arena; it is just not the 
capability we would like to have. We have to use special 
warfare divers and EOD type of divers to clear as well as 
mammals to work that region.
    But what we have done on the three-track program is step 
back once SABRE-DET was cancelled and look at where we were 
across the mine warfare spectrum, in particular the very 
shallow water. What we realized was, even if we would have been 
able to successfully employ and deploy the SABRE-DET system, 
which unfortunately while it was under development we did not 
look at other systems, we did not have the navigation systems 
in our assault craft to navigate down those lanes that we would 
have cleared.
    So the first track we are looking at is ensuring that we 
have the proper precision navigation in our craft. That is 
everything from the Marine Corps AAAV program to all of our 
landing craft the LCAC and the LCU.
    The second track we are looking at is exploring other 
options. One of the options you mentioned earlier----
    Senator Kennedy. Do you not have that? I mean, is that not 
the whole GPS, accurate, sufficiently accurate now with the 
progress made that it gives you an accuracy?
    General Whitlow. Yes, sir, we have the accuracy.
    Senator Kennedy. What is the problem, then?
    General Whitlow. Well, the problem we are exploring through 
the acquisition process, experimentation process, is delivery 
mechanisms and the lane marking. Once we drop the ordnance to 
clear such lanes, then marking those lanes so approaching 
craft--and being familiar with the sea, you certainly 
understand how difficult that can be. So sufficiently taking 
care of the mines below the surface in very shallow and then 
marking the lane at the same time to ensure that the aircraft 
and the landing craft have the same type of coordinates and are 
married up accurately enough not to put our combat forces in 
danger.
    The other area we are looking at is long-term and has 
already been--Senator Sessions has mentioned earlier the 
unmanned vehicles. That will be more long-term as we are just 
coming into the realization of how to appropriately use and 
deploy and retrieve if possible those types of systems. Such 
systems as the LMRS and the remote mine-hunting system will 
certainly help us along those ways to accomplish that mission.
    So we have the near-term----
    Senator Kennedy. How does that work, just conceptually?
    General Whitlow. Well, sir, what we are looking at, the CNO 
hit on it a little bit. We are looking at the littoral support 
ship being a class of ships. One of those class of ships, it 
would actually host a family of these systems, everything from 
the RMS, which is a fairly large remote mine-hunting system, 
would go out, deploy, and then it could possibly deploy sub-
crawlers, if you will, to go into the very shallow water, not 
only to clear, detect and clear the mines, as well as mark the 
lanes.
    So we are looking at an entire family of systems. As I 
said, that is more long term, but the littoral support craft, 
if you will, will serve as the host to that. Those are 
basically the three tracks we are looking at.
    Senator Kennedy. The third one then is?
    General Whitlow. Unmanned. Yes, sir.
    Senator Kennedy. Then two is establishing the channels 
going in?
    General Whitlow. Yes, sir.
    Senator Kennedy. What is the third?
    General Whitlow. It is the step marking the channels and 
navigating the channel. Of course, the near-term third track is 
not only the precision navigation, there are off-the-shelf 
systems. If you fly a local Cessna, you can get a GPS system. 
But we need something a little more precision than that, but 
those types of systems for our landing craft.
    Of course, our near-term answer is the countermeasure 
systems we have now for neutralization, is our SEALs and EOD 
divers and mammals in the water, which is what we are trying to 
get away from as soon as possible.
    Senator Kennedy. My time is up. We will continue to pursue 
and follow. I must say, when I was out in the Gulf and I saw 
those mammals. That is one of the most mind-boggling 
experiences. Everyone sees those kinds of mammals down in the 
sea lanes or take our children to them. But to see how they 
were used at that time to be in patrol, for example, in order 
to detect, protect ships, was just enormously impressive. I did 
not know they were still using them.
    General Whitlow. They are very effective. But we would like 
to as soon as possible get them out of that business.
    Senator Kennedy. Yes. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I thank you for 
constantly keeping an eye on the question of mines. I was in 
the Persian Gulf last year on the mine countermeasures ship, 
the Ardent, which I understand is forward-deployed. It 
certainly would not be worthwhile to bring that rather slow 
ship all the way back to the United States. But it has worked 
well and I was impressed with that.
    Yesterday on an airplane flying back to Washington, I sat 
by a young Navy civilian who is also a naval reservist and 
works at the Mine Countermeasures Research Center, in Panama 
City.
    I talked with him all the way coming back. He graduated 
from Tuskegee Institute in Alabama and has done very well. I 
was impressed with all they had ongoing.
    First let me say I agree with Senator Kennedy. If there is 
a breakthrough in the capability of mines against American 
surface ships, then we have had a major strategic alteration of 
our military power, and our ability to project our power around 
the world as we would like.
    Are you satisfied that you have the equipment and the 
research funds necessary to make sure we stay ahead of that 
threat?
    General Whitlow. Yes, sir, I am. As you mentioned, the CSS 
system down at Panama City is doing tremendous work. We are 
funded correctly. The CNO has ensured that. The Secretary of 
the Navy has ensured that. I am not satisfied and will not be 
satisfied personally until we have solutions. But as far as 
funding goes, Senator, we are funded correctly. If I put more 
money toward the systems, frankly, I would probably be 
overfunded, because we have some physics issues that we just 
are not there yet, and some technology issues we just are not 
there yet.
    But as far as funding goes, we are funded correctly. 
Unfortunately, physics is standing in our way. But there is 
some tremendous progress and the remote vehicles as well as 
remote sensing is showing tremendous progress. You mentioned 
Panama City. That is where it is all taking place.
    Senator Sessions. Admiral Sullivan, although operations in 
the littorals are not new for submarines, the focus on 
submarines operating as a part of a battle group in the 
littorals is evolving. What is being done to address the 
challenges in submarine weapon and combat system development to 
make them more effective operating against littoral threats as 
part of a battle group there?
    Admiral Sullivan. Sir, as I mentioned in my opening 
statement, one thing we are doing is with our sonar systems, 
which are COTS-based, open architecture, and we are doing that 
with all our combat systems, including our weapons.
    If I could talk some about the LMRS, which is the mine-
finding system that I sponsor and pay attention to, I think 
this is truly going to be the first autonomous vehicle that 
will go off and do 40-hour missions and be able to pass its 
data to the net, if you will, the satellites. You will be able 
to reprogram it.
    The sonar system that will be used to find mines is the 
LMRS precision underwater mapper (LPUMA) system, which is a 
high frequency, high resolution sonar system that we have 
tested at sea, most recently on the U.S.S. Scranton. We have 
had very good results with this. We are much further with the 
computer power we have to look for mine-like objects. This, if 
you will, is an underwater mapping system that has the 
resolution to be able to navigate and relocate mines. You would 
take this system and go survey areas. Particularly I would like 
to think of it that one of the missions of an SSGN with its 
payloads, it would be able to take a number of these vehicles 
to sea, survey an area. Then say you come back in a number of 
months and you want to use it for actual combat operations, you 
could survey it again and have the technology to take the 
difference, using a computer to see what was there before and 
what has changed and be able to figure out where the mines are 
so you could avoid them.
    On the weapons side of the systems, clearly a slow 
submarine or a submarine on the bottom is a very difficult 
target in the littoral. That is where we have made significant 
advances in the ADCAP Mod 5 and 6, which is more quiet and has 
more advanced sonar. But the real key will be the development 
of the CBASS torpedo, which will have a broad-band sonar to be 
able to operate successfully much better against a low doppler, 
a low, slow-moving target in the littoral. But that is clearly 
the most difficult challenge for a heavyweight torpedo to take 
out that type of target.
    As far as working with the battle group, as I mentioned, 
with our ability, submarines have always been considered 
disadvantaged communicators. We never really had the bandwidth 
or the ability to communicate with the battle group. As I 
mentioned with the Providence in her operations off 
Afghanistan, we really are not considered a disadvantaged user 
anymore. With the high data rate antenna, we are able to 
communicate on a par with the remainder of our surface forces.
    So I look at this as it is a significant challenge. We 
worry mostly, again, about the mine threat and also for the 
slow diesel submarine, because we are all about access. We have 
been making significant progress and the programs that we have 
in place are the right ones and funded correctly.
    Senator Sessions. As we focus this hearing to some degree 
on funding and making sure we have the kind of equipment and 
readiness that we desire, are you sufficiently funded to outfit 
your submarines with the technologies that have proven 
effective at this time?
    Admiral Sullivan. Sir, of course the answer is a bit open. 
You could always use more money, but I will use the ARCI as the 
best example. That system costs about one-thirtieth of the cost 
of the legacy systems. It has the equivalent of about 140 times 
the capability of one given ship 5 years ago. With our present 
programs, the last ship to deploy without that system on board 
overseas, the last SSN, will be in the fall 2003.
    So we have put a lot of money against our combat systems, 
systems that have proven to give us much greater capability. 
That is just one example, but we are pretty much on a good 
track, about as fast as we can.
    Another one is of course periscopes and digital systems. We 
have put a lot of money against that to be able to operate in 
the littoral among a lot of ships, a lot of fishing ships, a 
lot of contact avoidance, and shallow water. So I feel good 
about where we are, sir.
    Senator Sessions. Good. I think it is important that as we 
bring this new technology on. Oftentimes it is not that 
expensive to actually place it on vessels and other ships and 
vehicles, and we need to make sure we have that money.
    Thank you, Mr. Chairman. I will submit some additional 
questions for the record.
    Senator Kennedy. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I just would like to ask Admiral McCabe a couple of 
questions. I know this has been a long hearing. Admiral McCabe, 
I understand there is a demonstration program in progress to 
provide contract in-flight refueling for Navy tactical 
aircraft. The Secretary of Defense in PBD-824 directed the Navy 
to conduct a pilot program for aerial refueling, including 
tanker aircraft.
    Has the demonstration provided responsive tanking and would 
you provide us with a few details?
    Admiral McCabe. Senator, Omega Air is a commercial 707 
reconfigured for tanking. It has been used primarily on the 
East Coast for fleet exercises to support tanking during those. 
We have used it for logistics flights nonstop from West to East 
Coast with some EA-6Bs and in fact used it to take the E-F over 
to the Singapore Air Show, to support that mission.
    To date the study is supposed to conclude in December, with 
a report back to us on the business case and effectiveness and 
the cost data in the January-February time frame next year. But 
I can report that the fleet is very happy with the performance. 
They have met all their commitments and there have not been any 
problems.
    Senator McCain. I have been briefed that the cost per 
flight hour is half the cost of an Air Force tanker. Is that 
correct?
    Admiral McCabe. I do not have specific cost data or 
information myself yet, Senator. I can check on that.
    Senator McCain. What has been the feedback from the fleet 
users?
    Admiral McCabe. Very positive. In fact, my EA is a former 
air wing commander from the East Coast who had opportunity to 
use that with his air wing and he was very positive about it.
    Senator McCain. What would it require to, for example, 
provide the required refueling capability throughout the Navy?
    Admiral McCabe. Well, we have a different problem in terms 
of the naval approach in tanking. We have used contract 
services for jamming, for fleet exercises. We use range 
clearance contract services. So close to the continental U.S. 
we have a decidedly different approach than we do on 
deployment, where we generally will use tanking. One of the 
reasons we like the E-F is it brings back A-6-level mission 
tanking and maxi-tankers. So we tend to tank carrier-based 
unless there is a joint asset from the Air Force available.
    Senator McCain. Would you provide for the record, please, 
the cost per hour of this contracting out of refueling so that 
we can compare it both with the Navy cost when the Navy is 
providing these services and the Air Force?
    Admiral McCabe. I would be happy to do that, Senator.
    [The information referred to follows:]

    The current study is scheduled to continue throughout this year, 
concluding in December. The findings will be published early in 2003.
    The cost of the commercial. tanker is relative to a United States 
Air Force tanker. The dry cost (no fuel) is $6,145 per flight hour for 
the Omega Air 707 versus $13,035 (with $2,125 of indirect support costs 
included) per flight hour for the KC-135. Additional per diem and 
travel costs for both are approximately equal while fuel consumption is 
1,500 gallons per flight hour for the KC-135 (with its most efficient 
engine) and 2,000 gallons per flight hour for the Omega Air 707. An 
informal study of Navy organic aircraft carrier tanker support costs 
provided by the S-3 Viking aircraft reveals a rough estimate of cost 
per flight hour to be approximately $12,627. The basis for cost 
comparison is difficult to fully rationalize due to the different 
missions and profiles of the S-3 when measured against tanker aircraft 
missions and profiles.
    To date, Omega Air has flown 90 tanking missions providing 1,056 
aircraft with 3.5 million pounds of fuel. They have met 100 percent of 
their scheduled events including east coast fleet exercises, JTFEX, 
COMPTUEX, Carrier qualification support, airwing repositioning cross-
country, and escorting two F/A-18E/F aircraft from the United States to 
Singapore. All indications and reports from the fleet users are that 
they are satisfied with the performance of Omega Air.
    As I have mentioned, this study is incomplete as yet and the 
numbers and dollar figures provided are subject to change when the 
final report is issued. However, at this time this appears to be a very 
positive experiment with potential for the fleet.

    Senator McCain. I thank you.
    I thank you, Mr. Chairman. I thank the witnesses.
    Senator Kennedy. We want to thank all of you. We are very 
grateful for your presence and your presentation. We will look 
forward to working with you.
    The subcommittee is adjourned.
    [Questions for the record with answers supplied follow:]

            Questions Submitted by Senator Edward M. Kennedy

                        LHA REPLACEMENT PROGRAM

    1. Senator Kennedy. General Whitlow, 2 years ago at the request of 
the Department of the Navy, Congress provided $25 million and directed 
the Navy to conduct an AoA for replacing the aging Tarawa-class 
amphibious assault ships (LHA-1). You state in your written testimony 
that you expect to know the results on the AoA in June 2002, and yet 
the DOD budget proposal contains $10 million for advance procurement of 
LHD-9. Does this funding request prejudge the outcome of the AoA?
    General Whitlow. No. The results of the LHA(R) AoA are not 
predetermined. The preferred alternative may or may not be based on the 
LHD-8. The LHA(R) AoA is ongoing and will report out in summer 2002. 
Alternatives being considered include: repeat LHD-8 with evolutionary 
modifications, modified LHD-8 upgraded to enhance the ability to 
operate the larger and/or heavier new generation amphibious systems, 
and new ship designs spanning a wide range in size and capability. 
Based on the analysis presented in the AoA, the Navy will determine the 
optimal alternative for the LHA(R) as part of the LHA(R) program. The 
$10 million in the fiscal year 2003 budget request allows the Navy to 
begin refining the AoA selected alternative's detailed capabilities/
characteristics and other developmental work.

    2. Senator Kennedy. General Whitlow, have you any insight into the 
findings of the AoA?
    General Whitlow. At this time I do not have any details beyond 
those mentioned above. But I can share my full confidence that the 
process will yield a range of alternatives from which the Navy and 
Marine Corps leadership can select the preferred solution that will 
best meet the needs of the Navy and Marine Corps current and future 
requirements.

                           P-3 MODERNIZATION

    3. Senator Kennedy. Admiral McCabe, I believe that we need to 
address the question of the P-3 community force structure. The P-3 
forces that operated in Kosovo acquitted themselves very well, and 
demonstrated the attractiveness of the anti-surface warfare improvement 
program, or AIP. Once again in Afghanistan, the P-3 AIP aircraft were 
star performers. Over the past decade, there does not appear to have 
been a substantial commitment to supporting the resources required to 
keep these aircraft forces modernized. Given how well these aircraft 
have performed in recent operations, why has the Navy chosen to buy 
only four P-3 AIP upgrade kits in the fiscal year 2003 budget?
    Admiral McCabe. In spite of the acknowledged effectiveness of the 
P-3C AIP in recent operations, competing priorities within naval 
aviation continue to preclude funding AIP at optimal rates. The four 
kits requested are viewed as representing the best balance attainable 
between requirements and affordability. Navy is however, continuing to 
examine funding options for this important capabilities upgrade. As an 
indication of the importance placed on this program, AIP requirements 
are included in the Chief of Naval Operations' Fiscal Year 2003 
Unfunded Requirements List submitted on 20 February 2002.

              MARINE CORPS HELICOPTER PROGRAM COST GROWTH

    4. Senator Kennedy. Admiral McCabe, we understand that the program 
to upgrade the Marine Corps' utility helicopter and attack helicopter 
fleets has been experiencing cost growth again this year. It is not 
clear whether this is just the engineering and manufacturing 
development (EMD) portion of the program, or whether this may translate 
into higher recurring procurement costs. This contractor is also one of 
the prime contractors for the V-22 program. Can you describe what is 
the extent of the cost and/or schedule problems in this program?
    Admiral McCabe. The program has experienced an increase in both EMD 
and production costs. The EMD cost growth of $256 million (TY$) 
represents approximately 16 percent of the total program cost growth 
($161 million) and includes funding for 10 months of additional 
schedule, risk reduction for OPEVAL, and requisite support funding to 
match the revised schedule. The production cost growth of $1,361 
million (TY$) represents approximately 84 percent of the total and is 
largely due to an update of the production estimate to reflect EMD 
actuals and updated pricing for the bill of materials.

    5. Senator Kennedy. Admiral McCabe, can you provide an assessment 
of what impact the delay in the V-22 program will have on the utility 
and attack helicopter upgrade program?
    Admiral McCabe. The delay in the V-22 program did impact the 
procurement of the AH-1Z/UH-1Y helicopters. However, the increased 
engineering and manufacturing development (EMD) effort on V-22 provided 
some offset to the reduction in V-22 aircraft quantities. The latest 
forward pricing rate agreement (FPRA) provided by Bell included 
adjustments supporting the current delay of the V-22 program. This FPRA 
was utilized to accurately adjust the H-1 cost estimate. The fiscal 
year 2003 budget has been adjusted consistent with the budgeted profile 
for V-22.

                     DD-963 WARFIGHTING CAPABILITY

    6. Senator Kennedy. Admiral Clark, Navy statements regarding early 
retirement of ships have tended to minimize the contribution of the DD-
963. These destroyers have been providing a significant contribution to 
the Navy's ability to maintain the required number of Tomahawk missiles 
in theaters to support requirements of the theater commanders in chief 
under the Global Naval Force Presence Policy (GNFPP). In fact, I 
believe that several DD-963s just returned from Afghanistan operations 
having fired a number of Tomahawk missiles against priority targets.
    Since there is no chance that the Navy will have additional 
Tomahawk missile carrying capability in the near-term, isn't this 
action going to complicate the Navy's ability to maintain the required 
number of Tomahawk missiles in theaters to support requirements of the 
theater commanders in chief under the GNFPP?
    Admiral Clark. The Navy will be able to maintain requisite 
quantities of Tomahawk missiles in theater to support the requirements 
of the theater commanders in chief under the GNFPP, given the current 
DD-963 decommissioning schedule and the potential for further 
acceleration of DD-963 decommissionings. The Navy is continually 
commissioning new DDG-51 Class destroyers through the FYDP. These ships 
have launcher capacities of 96 Tomahawk-capable, vertical launch cells, 
as opposed to the 61-cell capacity of the DD-963 Class ships. The 
current DD-963 program of record decommissions assets at a rate of six 
ships per year. The last ship departs service in 2006 leaving the Navy 
with a loss of 1,159 launcher cells. The current DDG-51 program of 
record commissions ships in fiscal year 2003, three in fiscal year 
2004, four in fiscal year 2005, and two in fiscal year 2006, for a gain 
of 1,344 launcher cells by the end of 2006. This schedule produces a 
yearly net increase of launcher cells, and an overall net gain of 185 
Tomahawk-capable, vertical launch cells by the end of DD-963 class 
service.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

                                 LPD-17

    7. Senator Landrieu. General Whitlow, in your prepared testimony, 
you go to great length to stress the need to increase our amphibious 
lift capabilities. You state that the Marine Corps will not reach the 
2.5 MEB lift capability until the delivery of the 12th LPD-17. This is 
still .5 under the 3.0 MEB capability required to fully meet the threat 
of a major theater war. You comment that an acceleration of the LPD-17 
program will immediately increase our warfighting capability. At what 
rate would the LPD-17 program have to be accelerated in order to 
achieve a discernable difference in our warfighting capability?
    General Whitlow. Increasing the LPD-17 production rate to the 
original President's budget 2001 rate of two per year (currently one 
per year fiscal year 2004 through fiscal year 2009 with two ships in 
fiscal year 2008) would allow earlier decommissioning of the LPD-4 
class ships (five of which have already exceeded service life) and 
increase amphibious lift capabilities to the 2.5 MEB-assault echelon 
level by fiscal year 2012.


                      LANDING CRAFT AIR CUSHIONED

    8. Senator Landrieu. General Whitlow, I am very pleased to see that 
the LCAC is manufactured in New Orleans. The LCAC is, in essence, the 
successor vehicle to the Higgins Boats, which made an important 
contribution to victory in World War II, and was also manufactured in 
New Orleans. Today the LCAC is the primary platform for high speed 
transport of troops and equipment. With an ability to reach over 70 
percent of the Nation's coast lines, the LCAC is the key to executing 
expeditionary maneuver warfare. Currently, the President's budget calls 
for putting three LCACs through the SLEP. Is this enough to meet the 
Marine Corps' current needs, and, if not, how many more LCACs would 
have to go through the SLEP program in order for the Marine Corps' need 
to reach capacity?
    General Whitlow. The LCAC will continue to be a vital leg of our 
mobility triad providing high speed, over the horizon surface assault 
ship-to-shore movement of troops and equipment. The LCAC delivers the 
bulk of the rolling stock and combat equipment needed to generate the 
necessary rapid buildup of combat power ashore. The speed, range, and 
beach access afforded by the LCAC make it a key component in executing 
maneuver warfare from the sea. The LCAC SLEP program will extend the 
hull life of the craft to at least 30 years.
    The fleet commanders have determined 74 active LCAC are required. 
The Navy will concentrate its resources on ensuring a 30 year life can 
be achieved as well as incorporating urgently needed communication and 
navigation upgrades. The optimal time to SLEP the craft is between 18 
to 20 years of service life. Congress has authorized and appropriated 
four LCAC SLEPs through fiscal year 2002. The fiscal year 2003 request 
is for SLEPs number five to seven. To SLEP the craft at the 18 to 20 
years of service life point requires averaging between four to six 
SLEPs per year over the next 13 years. The minimum factory economic 
order quantity rate is four SLEP per year. Thus, an LCAC SLEP program 
that builds up to a steady state of six craft per year is both 
efficient and optimum for supporting the fleet commanders' needs.

                             PERSONNEL GEAR

    9. Senator Landrieu. General Whitlow, most of our comments today 
have focused on the larger systems that are necessary for conducting 
war, but I think it is important that we focus on the personnel gear 
that the individual sailor and marine is issued. In the Emerging 
Threats and Capabilities Subcommittee, we have heard testimony from 
Special Operations Command on integrating off-the-shelf technology into 
our forces. There have been news reports out of Afghanistan (Marine 
Corps Times, February 18, 2002) that some of the new gear that the 
Marine Corps has developed recently simply did not stand up to the 
harsh conditions of the Afghan environment. Specifically, the new MOLLE 
packs that have been put into the fleet were reported to fall apart in 
the field. Is the expeditionary warfare Division aware of this problem 
and is it taking the proper steps to ensure that our marines are 
adequately equipped once they hit the ground?
    General Whitlow. As a marine, I am concerned that the equipment we 
develop, procure, and issue to our marines and sailors adequately meets 
the demands of the mission and environment. As the Director of the 
expeditionary warfare Division, I do not have influence or involvement 
with the development, selection, or procurement of basic issue and 
field equipment for our marines. However, I understand that Marine 
Corps Systems Command is working in conjunction with all intra-Marine 
Corps agencies to ensure all current and future equipment adequately 
addresses our marines' requirements to accomplish the mission in any 
assigned area or environment.

    10. Senator Landrieu. General Whitlow, are you looking at acquiring 
off-the-shelf technology to answer these problems?
    General Whitlow. I am certain that these issues are currently being 
addressed by Marine Corps Systems Command.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions

                   NAVAL GUN FIRE SUPPORT FOR MARINES

    11. Senator Sessions. General Whitlow and Admiral Balisle, the 
Marine Corps requirements for gun fire support were clearly stated in a 
1999 Marine Corps Development Center letter from General Rhodes to the 
Chief of Naval Operations. Admiral Balisle, your written statement is 
unclear regarding the Navy's ability to meet the Marine Corps 
requirements for fire support. Do you concur with previous Marine Corps 
witnesses who testified that the 155 advanced gun system is the only 
system that will meet all Marine Corps fire support requirements?
    General Whitlow and Admiral Balisle. The Marine Corps position on 
naval surface fire support (NSFS) requirements was recently updated in 
a March 2002 letter signed by Lt. Gen. Hanlon, Commanding General of 
Marine Corps Combat Development Command (MCCDC). Navy concurs with 
Marine Corps NSFS requirements.
    The development program for the 155mm advanced gun system (AGS)  
and munitions is focused on meeting Marine Corps NSFS gun requirements. 
However, Marine Corps NSFS requirements also call for other NSFS 
systems (missiles, rockets, other) with ranges objectively to 262nm in 
the 2010-2019 timeframe. In the near term, Navy is meeting the sea-
based portion of the naval fires family of systems with the deployment 
of the 5,,/62 gun on DDGs and CGs, the introduction of the extended 
range guided munition in fiscal year 2005, and the introduction of 
tactical Tomahawk in fiscal year 2004. To meet future requirements, 
Navy will introduce the advanced gun system (AGS) and long-range land 
attack projectile in DD(X) while also considering options for a follow 
on ALAM.

    12. Senator Sessions. Admiral Balisle, your written testimony 
states that the 5,,/62-caliber gun and the extended range guides 
munitions ``are expected to meet USMC requirements in accuracy, 
lethality, and responsibility.'' Are there Marine Corps requirements 
that the 5,,/62-caliber gun and the extended range guides munitions 
will not meet?
    Admiral Balisle. The combination of the 5,,/62-caliber gun 
(presently being deployed on new construction DDGs and programmed for 
backfit on CGs as part of cruiser conversion) and the ERGM, (IOC fiscal 
year 2005) are Navy's programs to address Marine Corps near term and 
mid-term naval surface fire support (NSFS) gun requirements. Marine 
Corps NSFS requirements include responsiveness, range, accuracy, and 
lethality. Marine Corps gun range requirements are provided in a table 
below. 5,,/62 and ERGM meet Marine Corps NSFS requirements for 
responsiveness, accuracy, and lethality. They will be deployed to meet 
near and mid term threshold range requirements of 41nm and 63nm 
respectively. The advanced gun system (AGS) and munitions, planned for 
installation in DD(X), will focus on meeting all Marine Corps NSFS gun 
requirements.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                       Near-term  (fiscal     Mid-term  (fiscal      Far-term  (fiscal
                                                                                        year  2004-2005)       year  2006-2009)       year  2010-2019)
--------------------------------------------------------------------------------------------------------------------------------------------------------
Range..............................  Naval Guns............  Threshold.............  41nm.................  63nm.................  97nm
                                                             Objective.............  63nm.................  97nm.................  Limits of Technology
--------------------------------------------------------------------------------------------------------------------------------------------------------


                      NAVAL COASTAL WARFARE FORCE

    13. Senator Sessions. General Whitlow, your written testimony 
points out there are ``critical readiness shortfalls, primarily in 
equipment deficiencies'' in the naval coastal warfare forces tasked 
with homeland defense. What are the shortfalls and how long will 
reservists continue to man and manage these efforts?
    General Whitlow. The naval coastal warfare force resides in the 
Reserve component and is comprised of three types of commissioned, 
hardware-equipped units that normally operate together as the NCW force 
package. These units are: (1) harbor defense command units (HDCU) that 
conduct command and control, communications, computers, and 
intelligence (C\4\I) operations using the Reserve-mobile ashore support 
terminal (RMAST) system; (2) mobile inshore undersea warfare units 
(MIUWU) that conduct littoral surface and subsurface surveillance 
operations using the radar-sonar surveillance center (RSSC) system with 
mobile sensor platforms (MSPs); and (3) inshore boat units (IBU) that 
conduct harbor patrol and interdiction operations using small boats. 
Units of each type in the existing force structure lack major equipment 
sets as indicated below.
    The inventory objective for NCW major equipment to complete initial 
outfitting of all units is as follows:

        <bullet> 22 radar-sonar surveillance centers (RSSC V.4) systems 

        <bullet> 44 mobile sensor platforms (MSP) systems (2 per unit)
        <bullet> 11 Reserve mobile ashore support terminal (RMAST) 
        systems (84)
        <bullet> IBU small boats (six boats per unit).

    The inventory at the end of fiscal year 2003 is projected as 
follows:

        <bullet> 5 radar-sonar surveillance center (RSSC V.4) systems
        <bullet> 17 radar-sonar surveillance center (RSSC V.3) systems 
        (*)
        <bullet> 28 mobile sensor platform (MSP) systems
        <bullet> 6 reserve mobile ashore support terminal (RMAST) 
        systems
        <bullet> 64 IBU small boats.
    * Note: RSSC V.3 van systems require upgrade to V.4 configuration 
(HMMWV mounted)
    The balance of the inventory objective to be completed by the end 
of the FYDP is as follows:

        <bullet> 17 radar-sonar surveillance centers (RSSC V.4) systems
        <bullet> 16 mobile sensor platforms (MSP) systems
        <bullet> 5 reserve mobile ashore support terminal (RMAST) 
        systems
        <bullet> 16 IBU small boats.

    Navy has funded and is currently in the process of equipping and 
manning a new active capability within the naval coastal warfare 
organization called the mobile security force. Once this new Active 
component is fully stood up and ready for deployment Reserve NCW units 
will no longer exclusively fill the homeland defense role but will 
continue to assist in the naval coastal warfare mission.

    14. Senator Sessions. General Whitlow, have the equipment 
shortfalls been addressed either by the supplemental for fiscal year 
2002 or this budget request?
    General Whitlow. Part of the equipment shortfalls identified above 
have been addressed by the fiscal year 2002 supplemental and the fiscal 
year 2003 budget request. Specifically, $14.4 million in supplemental 
Defense Emergency Response Fund (DERF) funds have been allocated to the 
NCW program. These funds are being used to procure 36 small boats to 
outfit inshore boat units (IBU) to the six-boat standard required for 
sustained port security operations. Delivery of these boats should 
begin in first quarter fiscal year 2003. Funding for an additional four 
boats is included in the fiscal year 2003 budget request. Additional 
funding will be needed for 16 boats to complete outfitting of all 14 
IBU units. Funding for procurement of one additional mobile sensor 
platform (MSP) is also included in the fiscal year 2003 budget request. 
Funding for an additional 15 MSPs will be needed to complete outfitting 
of all 22 MIUW units. No funding is available at present to address 
shortfalls in RMAST systems or to provide for conversion of existing 
RSSC V.3 van systems to RSSC V.4 HMMWV configured systems. These 
shortfalls will be addressed in future budget requests.

                   COMMON REQUIREMENTS AND EQUIPMENT

    15. Senator Sessions. General Whitlow, Admiral Balisle, Admiral 
Sullivan, and Admiral McCabe, your divisions have requirements for 
unmanned undersea vehicles and aircraft-towed unmanned vehicles. What 
is done within your organizations and the corresponding field 
activities to ensure that the taxpayer is not paying more than once for 
development of common subsystems for unmanned vehicles and how do you 
share information with the unmanned vehicle efforts from other 
services?
    General Whitlow, Admiral Balisle, Admiral Sullivan, and Admiral 
McCabe. N70, the Warfare Integration and Assessment Division, has 
responsibility for assuring coordination of unmanned vehicle activities 
across all the Chief of Naval Operation divisions. This includes N75, 
N76, N77 and N78. N70 oversight facilitates the sharing of program and 
technology information in unmanned systems. A key example of this is 
the tactical control system (TCS). TCS is a joint Service program 
sponsored by N78 to provide a common software architecture for unmanned 
aerial vehicle (UAV) ground control stations (GCSs). TCS, when fully 
implemented, will allow UAV GCS personnel to operate and share data 
from any of the Services' UAVs. This same architecture is now being 
considered for application to naval unmanned surface vehicles (USVs) 
and UUVs.
    N78, the Air Warfare Division, is responsible for Navy UAVs and 
aircraft-towed unmanned vehicles, which include decoys and a variety of 
sensors used in undersea warfare. UAVs are vehicles that are controlled 
from the ground and fly under their own power and are different from 
towed decoys and sensors.
    Based on a memorandum of agreement last year, N75, the 
expeditionary warfare Division, transferred all their concerns and 
responsibilities for UAV platforms to N78. Warfighters in N75 mission 
areas will be users of common fleet UAV assets. N75 retains the 
responsibility to set naval expeditionary warfare requirements that can 
be fulfilled by N78-developed UAVs.
    N75's requirements may also be met through the use of unmanned 
surface or undersea vehicles. In very shallow water, N75 develops 
programs for mission requirements in mine countermeasures (MCM) and 
amphibious assault. N75 is developing man-portable very shallow water 
(VSW) UUVs for EOD mission areas in MCM.
    N75 is the sponsor for mine warfare systems in the fleet's 
dedicated and organic MCM forces, including the semi-submersible remote 
minehunting system (RMS), deployed by surface ships. As an example of 
system interoperability, the RMS will tow the same AQS-20(X) sonar 
system that is being developed for the MH-53E and MH-60S helicopters. 
N75 coordinates transition plans for emerging platforms and payloads 
through membership in the Organic Mine Countermeasures Future Naval 
Capabilities Integrated Product Team. N75 develops the annual U.S. 
Naval Mine Countermeasures Certification Plan, annually forwarded by 
the Secretary of Defense to the Congress.
    Although N76, the Surface Warfare Division, has requirements for 
unmanned vehicles in future ships, the division has no unmanned vehicle 
programs of its own. N76 intends to leverage the development of 
unmanned vehicles from existing programs in the Navy and other 
services.
    N77, the Submarine Warfare Division, is responsible for unmanned 
undersea vehicles. N77's UUV efforts include the long-term mine 
reconnaissance system (LMRS) and the mission reconfigurable UUV 
(MRUUV), both of which are unique systems satisfying specific 
requirements. There are no other efforts among the Warfare Divisions 
that duplicate these systems.
    There are a number of other venues that the Navy and the other 
Services use to share information, collaborate on joint efforts, and 
avoid duplication of efforts in unmanned systems. DOD/Service 
laboratories, System Commands, and other field activities participate 
in all these venues. These include:

        <bullet> The Autonomous Operations (AO) Future Naval 
        Capabilities (FNC) Integrated Product Team (IPT) includes 
        membership from N76, N77, N78, the Marine Corps, and the Office 
        of Naval Research (ONR). The AO IPT provides senior level 
        oversight and direction to assure that exploratory and advanced 
        development investments made by ONR support warfighter needs. 
        Field activities such as the Naval Research Laboratory, Naval 
        Air Systems Command, Naval Sea Systems Command, Marine Corps 
        System Command, and Space and Naval Warfare Systems Command 
        participate in the IPT and manage and perform the work efforts. 
        In addition to air, water surface, and underwater unmanned 
        vehicle systems, the IPT also addresses unmanned ground 
        vehicles (UGVs) in support of the Marine Corps. The focus of 
        the AO IPT is development of autonomous system architecture and 
        software, sensors, and advanced propulsion systems that have 
        applicability to all unmanned systems. Unmanned systems are 
        also addressed in other FNC IPTs including time critical strike 
        and total ownership costs.
        <bullet> In April 2000, the Assistant Secretary of the Navy for 
        Research, Development, and Acquisition and the Vice Chief of 
        Naval Operations (VCNO) designated N77 as the primary point of 
        contact for unmanned undersea vehicles for the purpose of 
        developing synergy for the Navy's various UUV programs. N77 is 
        the chair of the UUV Executive Steering Group (UUV ESG) that 
        meets at least annually to provide a forum for coordination of 
        UUV issues within the Department of the Navy. N75, N76 and N78 
        are charter members of the UUV ESG.
        <bullet> At the Office of Secretary of Defense (OSD) level, the 
        Under Secretary of Defense for Acquisition, Technology, and 
        Logistics (USD(AT&L)) provides oversight management of Service 
        UAV and UGV programs to promote synergies in areas of common 
        interest and avoid duplication of efforts. In particular, 
        USD(AT&L) chairs the UAV Planning Task Force that is chartered 
        as the focal point to assure that UAV programs proceed in a 
        coordinated manner. The Planning Task Force has initiated a 
        number of IPTs addressing: communications; sensors; small UAVs; 
        airspace operations; tasking, processing, exploitation, and 
        dissemination; platforms; weaponization; technology, and 
        standards/formats. All the Services, the Joint Staff, the 
        Service Laboratories, and Defense Agencies such as the Defense 
        Advanced Research Projects Agency (DARPA), the National 
        Security Agency (NSA), and the National Imagery and Mapping 
        Agency (NIMA) participate in the IPTs. IPT results will be 
        incorporated into the next version of the OSD UAV Roadmap that 
        is expected to be published by the end of calendar year 2002.
        <bullet> UAV matters are also reviewed by the Joint Staff-
        sponsored UAV Special Studies Group (SSG). The UAV SSG is a 
        two-star level group with representatives from all the Services 
        requirements organizations that meets on an as-needed basis to 
        address UAV requirements, areas of common interest, and issues 
        requiring resolution.
        <bullet> All unmanned system requirements having joint service 
        interest or potential interest are reviewed and validated the 
        Joint Requirements Oversight Council (JROC). The JROC is four-
        star level body consisting of the vice/assistant chiefs of all 
        the Services.
        <bullet> Lastly, in order to share technology and program 
        information and ideas with the unmanned systems industrial 
        base, the Navy sends representatives to public meetings of the 
        Association of Unmanned Vehicle Systems International (AUVSI). 
        AUVSI sponsors symposia and meetings that review unmanned 
        system programs and technology. Many of these symposia and 
        meetings are attended by over 1,000 government and industry 
        participants.

                  BATTLE GROUP COMBAT SYSTEMS TESTING

    16. Senator Sessions. Admiral Balisle, it is not clear that the 
pre-deployment battle group integrated combat system testing and 
resulting correction plans are achievable given the expected compressed 
inter-deployment cycles. What is the importance of integrated combat 
systems testing through the Distributed Engineering Plant, and what is 
the status of that testing for battle groups deploying in the next 18 
months?
    Admiral Balisle. Importance of Testing in the Distributed 
Engineering Plant: In May 1998, the Chief of Naval Operations (CNO) 
assigned the Commander, Naval Sea Systems Command (COMNAVSEASYSCOM) 
responsibility for addressing interoperability issues within the 
Systems Commands (SYSCOMs) and the Program Executive Offices (PEOs). 
The CNO also tasked COMNAVSEASYSCOM with coordinating the resolution of 
interoperability issues with the fleet. Specifically, COMNAVSEASYSCOM 
was tasked to develop policy and architecture for battle force warfare 
systems engineering, implement a common warfare systems engineering 
process, and provide top level direction for fielding and support of 
balanced combat systems for ships and submarines. COMNAVSEA has 
responded with processes and tools that include:

        <bullet> The deployment minus 30 months battle force 
        certification process (D-30 Process)--a disciplined process to 
        maintain configuration management for deploying battle forces
        <bullet> The distributed engineering plant (DEP)--a nation-
        wide, shore-based test network designed to test 
        interoperability at the battle force level
        <bullet> Battle force interoperability test (BFIT)--testing 
        which is executed on the DEP in an effort to identify and 
        characterize interoperability problems within the deploying 
        battle force
        <bullet> Battle force interoperability requirements (BFIR)--a 
        metric used to measure and predict the total force performance 
        and interoperability
        <bullet> BFIT Analysis Review Panel (BARP)--responsible for 
        analyzing BFIT results, and for the direct reporting of trouble 
        reports, workarounds, capabilities/limitations, and BFIR 
        performance metrics to each deploying battle force staff
        <bullet> Battle force capabilities and limitations (CAPS/LIMS) 
        document--a document which captures the results of BFIT 
        testing, supports the optimizing of system configurations and 
        supports warfighter training, based on realized capabilities of 
        systems and computer programs available within the BG/ARG/MEF
        <bullet> Operational Advisory Group (OAG)--the senior military 
        and civilian stewards of the Force interoperability problem 
        resolution process.

    BFIT certification of deploying battle group configurations is 
accomplished through the utilization of the Navy's distributed 
engineering plant (DEP). The plant provides a shore-based operational 
mock-up of combat systems located at multiple Navy land-based sites 
connects them via asynchronous transfer mode (ATM) networking 
technology. The DEP provides the only opportunity for comprehensive and 
repeatable interoperability testing of combat system and command, 
control, communications, and intelligence (C\4\I) items prior to 
shipboard delivery for operational use in surface combatant platforms 
and battle group units. Since its inception, the DEP, in concert with 
these force systems engineering tools, has proven indispensable for the 
development of interoperable and effective naval forces. 
Interoperability and capability improvements to date have been 
noticeable to the operators as well as quantifiable via the BFIR 
metrics. Translated into operational terms, Navy can quantify, with the 
DEP, battle space ``bought back'' through implementation of 
interoperability fixes. Highly favorable fleet feedback has been 
continuous and documented in many forms.
    Status of Testing in next 18 Months due to Accelerated Deployments: 
The DEP and BFIT testing process was established prior to the 
implementation of CINCLANTFLT/CINCPACFLT Instruction 4720.3A which 
instituted the D-30 process. The BFIT process, established against an 
accelerated pace of deployments, stands ready to handle the dynamics of 
the wartime tempo and has proven its ability to adjust to any level of 
change. The DEP teams have dealt with changing dynamics of battle force 
configurations since the first BFIT. Since the events of September 11, 
2001, the DEP teams have successfully dealt with perturbations in 
operating tempo of the following magnitude:

        <bullet> Major battle force composition changes 2 weeks prior 
        to DEP testing
        <bullet> Multiple battle force platform configuration changes
        <bullet> Three battle groups tested and reported in one BFIT--
        included were the U.S.S. Kitty Hawk (CV-64) forward deployed 
        naval force, and the Lincoln and George Washington battle 
        groups (fall fiscal year 2001)
        <bullet> BFIT Regression test of the U.S.S. John F. Kennedy 
        (CV-67) battle group (December fiscal year 2001)
        <bullet> Two battle groups tested and reported in one BFIT 
        (Spring fiscal year 2002)
        <bullet> Numerous engineering and developmental events 
        conducted/supported
        <bullet> Preparation for U.S.S. Nimitz (CVN-68) BFIT in late 
        summer.

    The upcoming battle force deployment schedules are no more 
stressful than the schedule already encountered. Given the processes, 
efficiencies and capabilities established by the DEP teams and the 
associated force systems engineering teams over the past 4 years, the 
outlook for the next 18 months of battle force deployments is certainly 
achievable given sustained funding of the COMNAVSEA programs. COMNAVSEA 
currently has an unfunded requirement on the fiscal year 2002 
supplemental list for its efforts in response to the increased wartime 
posture and tempo.

               U.S.S. COLE DAMAGE CONTROL LESSON LEARNED

    17. Senator Sessions. Admiral Balisle, the Senate report 
accompanying our bill last year directed the Secretary of the Navy to 
provide: (1) battery powered, long distance emergency communications 
capability to all units before they deploy overseas; and (2) self-
contained emergency breathing apparatus to all vessels during their 
next scheduled selected restricted availability. Also, recent feedback 
from the an officer in the operating fleet indicates there have been no 
U.S.S. Cole damage control lessons learned promulgated to ships. Has 
the Navy complied with the Senate's direction on providing ships the 
communications and emergency breathing equipment?
    Admiral Balisle. Prior to U.S.S. Cole, OPNAV N6 procured 97 
manpack-type UHF SATCOM or line-of-sight (LOS) capable battery powered 
radio units (AN/PSC-5 produced by Raytheon and PRC-117F produced by 
Harris) to augment the fleets communications ability. These units were 
provided to the fleet CINCs for distribution as appropriate. Following 
U.S.S. Cole,  an additional 200 Iridium satellite-based telephones were 
acquired and provided to the fleet CINCs for distribution as 
appropriate.
    Significant funding ($85 million fiscal year 2003 to fiscal year 
2007) was added in PR03 to accelerate installation of SCBAs on USN 
ships. Additionally, $4 million of fiscal year 2002 Defense Emergency 
Response Fund (DERF) funds were provided to further accelerate this 
Cole lessons learned item. This funding will allow all USN ships to be 
outfitted with SCBAs by fiscal year 2008. The current funding profile 
will not support installing SCBAs in every ship during its next SRA.

    18. Senator Sessions. Admiral Balisle, what is the status of 
promulgating damage control lessons learned including equipment to 
ships?
    Admiral Balisle. Cole survivability lessons learned were 
promulgated via secret naval message in July 2001 (DTG 061824Z July 
2001). Additionally, PEO (Theater Surface Combatants) provided a 
detailed briefing to the following: NAVSEA, SURFLANT, SURFPAC, DESRON 
22, CINCLANTFLT N43, SWOS, SPAWAR, selected congressional staffers, 
LANTFLT Type desk DC, and Afloat Training Group (Norfolk, Mayport, San 
Diego). 
    As a result of Cole lessons learned, several items were proposed to 
either increase the ships outfitting or to provide a new capability in 
order to increase crew safety and ship survivability. The Navy was 
provided $6 million of fiscal year 2002 DERF for the procurement and 
distribution of this equipment. The table below lists the items being 
procured and the planned delivery date. These items will be delivered 
to 122 ships in two separate ``kitted'' shipments with all material 
being delivered by the end of fiscal year 2002.


                   Item                      Expected Delivery to Ships

 1. Leather Palm Gloves...................  June 2002
 2. Forcible Entry Tool...................  June 2002
 3. Web Belt (Tool belt)..................  June 2002
 4. P100 Pump Adapter.....................  June 2002
 5. Reflective Marker Tape................  June 2002
 6. Digital Camera........................  June 2002
 7. Non-Skid for Escape Trunk.............  August 2002
 8. Damage Control Light Streamers........  August 2002
 9. Diesel Generator......................  August 2002
10. Additional Emergency Egress Breathing   August 2002
 Devices (EEBD).



 SURFACE SHIP SELF-DEFENSE/ADVANCE INTEGRATED ELECTRONIC WARFARE SYSTEM

    19. Senator Sessions. Admiral Balisle, what is your assessment of 
the present electronic warfare ship self-defense capabilities and 
programs, and have you adjusted any programs recently?
    Admiral Balisle. Although aging, our EW self-defense capability is 
sufficient to counter today's threat, which is becoming smaller, 
faster, lower, and more maneuverable. The continued installation of the 
Nulka active off-board decoy on our CGs/DDGs ensures our deploying 
battle groups have an effective measure of self-defense against today's 
deployed threats. Upgrades to the Nulka decoy payload will ensure we 
remain ahead of the threat. We will additionally begin installations on 
FFG and LPD-17 class ships. With respect to program adjustments, the 
Navy has regretfully decided to cancel the AN/SLY-2 advanced integrated 
electronic warfare system (AIEWS) program because of program 
instability, cost growth, and development delays that were adversely 
impacting the Navy's ability to field urgently needed surface EW 
improvements to the fleet. The AIEWS program provided ``leading edge'' 
technology development, yielding an exceptional array of technologies 
with significant promise to improve surface electronic warfare 
capabilities in legacy and future systems. The Navy is instituting a 
block upgrade improvement approach for surface ship electronic warfare 
(EW) that will provide incremental upgrades to the fleet, using the 
current AN/SLQ-32 (V) system as the starting framework. This strategy 
will facilitate a greater number of ships receiving much needed EW 
improvements in the near-term, while additional improvements will 
continue to be competitively developed and fielded as both 
technological advances and budgetary resources allow. This will consist 
of block capability upgrades pacing the threat and developing an 
advanced EW capability eventually replacing the AN/SLQ-32(V) system. 
Preliminary planning is for five overlapping blocks. Block 1 will 
provide improved human/computer interface (Q-70 consoles) and a new 
computer for better processing. Block 1A will include specific emitter 
identification (SEI) capability. Block 2 will include a new receiver 
package that includes a special signal receiver and new computer 
language. Blocks 3 and 4 will include receiver replacements and an 
advanced RF and IR electronic attack subsystem with advanced offboard 
countermeasures. This approach will feature an open system architecture 
allowing the insertion of new technologies and capabilities without 
major system redesign.

               FIRE SUPPORT WEAPONS REPLENISHMENT AT SEA

    20. Senator Sessions. General Whitlow and Admiral Balisle, the Navy 
and Marine Corps have not previously agreed on the requirement to 
replenish fire support weapons at sea. The 1999 Marine Corps 
Development Center letter from General Rhodes to the Chief of Naval 
Operations described the Marine Corps requirements for naval surface 
fire support as follows: 63 nautical mile range, 2.5 minute response 
time, ``high volume suppressive and neutralizing fire . . . there must 
be a capability to provide inexpensive munitions that satisfy the high 
volume of fire requirement,'' and the ``Marine Corps requires that all 
surface fire support weapons be easily sustainable via underway 
replenishment'' at sea. The Navy's position was never clear regarding 
the replenishment capability for fire support missiles. What is the 
current status of at sea replenishment requirements for fire support 
weapons?
    General Whitlow and Admiral Balisle. The ability to sustain surface 
fire support systems via underway replenishment is an important 
warfighting requirement. The Navy is very capable of at sea 
replenishment of the naval gun ordnance needed to support the naval 
surface fires mission, which includes support of marines ashore.
    There are no research and development investments planned to fund 
improvements to the replenishment systems currently fielded to support 
UNREP of VLS celled missiles. There is, however, an ongoing future 
naval capability (FNC) initiative to develop a heavier underway 
replenishment (UNREP) lift capability from the existing 5,700-pound 
system to 12,000-pound capability. Navy has also identified transition 
funding to bring this capability into the logistics force ships, 
starting with a backfit to the Lewis & Clark (T-AKE)-class combat cargo 
and ammunition ship in the fiscal year 2008 to fiscal year 2009 
timeframe. To optimize NSFS deployment, available near term funding is 
being directed toward increasing ordnance inventory and fielding NSFS 
systems. Development of an UNREP capability for NSFS missiles continues 
to be assessed in terms of warfighting benefit and affordability.
                                 ______
                                 
               Questions Submitted by Senator John McCain

                              T-5 TANKERS

    21. Senator McCain. Admiral Clark and Admiral Balisle, on February 
8, Admiral Church, USN, delivered to Congress the Department of the 
Navy's ``Fiscal Year 2003 Budget Overview.'' On page 18 of the Navy's 
budget brief is a slide called ``Promote Better Business Practices, 
Managing the Department in a Business-like Manner.'' I noticed a bullet 
that states ``T-5 Tanker Buyout.'' Will you please tell why the Navy 
has decided in its fiscal year 2003 budget to buy the T-5 Tankers 
rather than to continue to lease them as was the plan several years 
ago?
    Admiral Clark and Admiral Balisle. The T-5 tankers were leased in 
the early eighties rather than purchased because of the budgetary 
circumstances that existed at the time. When the ships were leased, the 
Navy negotiated for favorable purchase options that, conditions 
permitting, could be exercised at the appropriate time. Those 
conditions exist and that time is now. We have a continuing need for 
these vessels beyond their lease terms, which end in 2005 and 2006. If 
we let our options expire, we will end up chartering (leasing) higher 
cost replacement tankers.

    22. Senator McCain. Admiral Clark and Admiral Balisle, so let me 
understand you--``it is cheaper to buy the tankers and MPS (maritime 
pre-positioning ships) outright than it is to continue to pay the 
lease''--is that correct? I think I agree with the Secretary of the 
Navy and OMB Director Mitch Daniels who blames free-wheeling leases for 
outlandish cost overruns in government programs in the past.
    Admiral Clark and Admiral Balisle. Yes. Exercising our lease 
options to purchase will provide significant cost savings. It is 
cheaper to purchase these ships than to continue leasing. However, 
purchase requires a large expenditure in the year that the ships are 
purchased. Due to the nature of the Navy's T-5 purchase options, we get 
the greatest overall savings if we buy the ships and end their leases 
two years before the conclusion of the present 20 year terms--when that 
is coupled with a continued use of the ships. The same is true for the 
MPS, but their lease terms are 25 years and we estimate that their 
optimum buyout point will be in fiscal year 2007. The key is to 
purchase the ships when they are most affordable during the lease cycle 
in order realize the optimal future stream of savings.

                                 LHD-9

    23. Senator McCain. General Whitlow and Admiral Balisle, in a 
January 28, 2002 article, ``Responding to Lott, DOD Starts Funding LHD-
9 And One More DDG-51,'' by Chris Castelli in the publication Inside 
the Navy, the article states:

        ``At the urging of Senate Minority Leader Trent Lott 
        (Republican--Mississippi), the Pentagon has made last minute 
        adjustments to the Navy's shipbuilding plan in the Bush 
        administration's fiscal year 2003 budget. The Pentagon put $74 
        million more toward a third DDG-51 destroyer and allocated $10 
        million in advance procurement for a ninth amphibious ship LHD 
        9--that was not previously in the Navy's budget.''

    Is this true, yes or no?
    General Whitlow and Admiral Balisle. The OSD Comptroller made two 
late changes to the Navy's fiscal year 2003 shipbuilding budget request 
by adding $74 million in advance procurement funding for a third DDG-51 
destroyer in fiscal year 2004, and shifting $10 million for advance 
procurement funding for an fiscal year 2008 LHD-9. Any specific 
questions on the factors that precipitated the decision for these 
shifts should be referred to the OSD Comptroller.


                            LHA REPLACEMENT

    24. Senator McCain. General Whitlow and Admiral Balisle, can you 
provide the status of the AoA to replace the current LHA with an LHA 
(R)?
    General Whitlow and Admiral Balisle. The LHA Replacement [LHA(R)] 
AoA is scheduled to complete in the summer of 2002. The AoA is 
evaluating several alternatives including a repeat LHD-8, a modified 
LHD-8, and entirely new ship designs.

    25. Senator McCain. General Whitlow and Admiral Balisle, are you 
also aware that the Comptroller in the Office of the Secretary of 
Defense deleted the funding for the study on the AoA cutting $16 
million from the RDT&E effort for the LHA replacement?
    General Whitlow and Admiral Balisle. The Department is aware of 
this situation. During the November 2001 review of the Navy's fiscal 
year 2003 budget request, the OSD Comptroller's Office deleted fiscal 
year 2003 and fiscal year 2004 research, development, test, and 
evaluation (RDT&E) funding for the LHA(R) program.
    LHA(R) R&D funding throughout the FYDP was briefed to and approved 
by OSD (including the OSD Comptroller) at Milestone A as the minimum 
RDT&E funding necessary to support the least expensive LHA(R) AoA 
alternative--a repeat LHD-8. Since the AoA completes in fiscal year 
2002, this fiscal year 2003-2004 RDT&E deletion does not directly 
impact the AoA study, the AoA final report or the Navy's ability to 
decide which LHA(R) alternative to pursue. However, the Department of 
the Navy will select a preferred alternative based on the results of 
the AoA and adjust RDT&E and SCN profiles as required to move forward.

    26. Senator McCain. General Whitlow and Admiral Balisle, does the 
$10 million in advance procurement for LHA-9 that was added by the OSD 
Comptroller according to the Castelli article predetermine the results 
of the AoA?
    General Whitlow and Admiral Balisle. No. The results of the LHA(R) 
AoA are not predetermined. The LHA replacement analysis of alternatives 
is ongoing and will report out in summer 2002. Alternatives being 
considered include: repeat LHD-8 with evolutionary modifications, 
modified LHD-8 upgraded to enhance the ability to operate the larger 
and/or heavier new generation amphibious systems, and new ship designs 
spanning a wide range in size and capability. Based on the analysis 
presented in the AoA, the Navy will determine the optimal alternative 
for the LHA replacement as part of the LHA(R) program. The preferred 
alternative may or may not be based on the LHD-8. The $10 million in 
the fiscal year 2003 budget request allows the Navy to begin refining 
the AoA selected alternative's detailed capabilities/characteristics 
and other developmental work.

    27. Senator McCain. General Whitlow and Admiral Balisle, you know 
that I have traveled to Afghanistan with other members of this 
committee. While there, I heard from several Navy and Marine Corps 
officers that the number one concern for replacing the LHA is safety 
because of a stability problem or high center of gravity issue, 
especially with deployed aircraft. Their concern was that even with 
some minor fixes with fuel compensation systems, the problem will be 
exacerbated when the service deploys larger aircraft, such as the 
Osprey (MV-22) and the Joint Strike Fighter (JSF), which are 
replacements for the CH-46 and AV-8B respectively. I am told that the 
MV-22 is twice the weight of the CH-46 and that the JSF is believed to 
be about twice the weight of the AV-8B. Does the LHD class have similar 
stability problems as the LHA class, and would you agree that the 
problem could be exacerbated with the planned future aircraft and 
vehicles envisioned for the Marine Corps?
    General Whitlow and Admiral Balisle. The seven ships of the LHD 
class have improved stability characteristics over the LHA class and 
therefore do not experience weight and center of gravity issues to the 
same extent as the LHA. For example, LHD-7, commissioned in 2001, has 
greater than the required 1,000 long tons of service life weight growth 
allowance.
    LHDs have the growth allowance to accommodate MV-22 and JSF with 
aggressive weight control measures and the fuel oil compensation ship 
alteration although LHDs have less vehicle storage space (square 
footage) than LHAs.
    The Navy's five LHAs need to be replaced as soon as possible, as 
they are rapidly reaching the end of an already extended service life. 
The LHA(R) AoA was initiated to ensure that both Marine Corps and Navy 
21st century requirements are addressed, including the issues you raise 
regarding the impact of heavier and larger aircraft/vehicles and 
overall amphibious force vehicle storage area. An LHD repeat is just 
one of several alternatives being considered in the LHA(R) AoA to meet 
requirements.

    28. Senator McCain. General Whitlow and Admiral Balisle, what 
growth percentages are currently planned for the LHD class of ships?
    General Whitlow and Admiral Balisle. The CNO-specified minimum 
service life allowance for the LHD class at delivery from the shipyard 
is 1/2 foot for vertical center of gravity reserve and 1,000 long tons 
(about 2.5 percent) of displacement service life reserve. The 
requirement is documented in the LHD Class Top Level Requirements 
document.

    29, 30. Senator McCain. General Whitlow and Admiral Balisle, is the 
LHD a good replacement for the LHA class of ships, considering that the 
ship does not meet the requirement in planned future vehicles and 
aircraft for the Marine Corps or our special operations community and 
considering the amphibious lift requirement of 2.5/3.0 MEB?
    Because of the well deck inside the LHD, isn't the LHD available 
square footage less than the LHA?
    General Whitlow and Admiral Balisle. The ongoing LHA(R) analysis of 
alternatives is addressing whether the LHD is a good replacement for 
the LHA class. Continuing to build LHDs, as well as ship design 
modifications to enhance the capability to operate the larger and 
heavier new generation amphibious systems are currently being examined 
as options. The analysis of alternatives is also investigating the 
optimum way to reach the fiscally constrained amphibious lift 
requirement of 2.5 Marine expeditionary brigades. The analysis of 
alternatives is expected to report out later this year and will present 
its conclusions at that time.

    31. Senator McCain. General Whitlow and Admiral Balisle, it seems 
to me that the LHD is not a very transformational program especially 
considering that it is the exact same hull of the current LHA class 
that is based on a 1950s design. It seems to me that if the LHA (R) 
class ship is built to have a lifespan of 50 years with no further R&D 
invested, then LHD-9 will be a 100-year old design when it is 
decommissioned in the 2050 timeframe. Would the Navy develop an 
aircraft carrier (CVN), destroyer (DD), or submarine (SSN) without a 
robust R&D effort?
    Where is the R&D funding for a major amphibious ship like LHA (R)?
    Are you not relegating the amphibious Navy to non-transformational 
status?
    General Whitlow and Admiral Balisle. The Navy is currently 
conducting an AoA for LHA(R). Numerous alternatives are under 
consideration, including a LHD-8 repeat design. If the results of the 
AoA support a mod repeat LHD or new ship design, additional RDT&E funds 
will be required. At that time, it may be necessary to revisit the 
current plan to use the $10 million in fiscal year 2003 SCN AP for a 
LHD-9. 
    While the LHA(R) hull shape may be close to the original, its 
combat systems suite, communications gear and information technology 
set up will be state of the art.

                             WASP-CLASS LHD

    34. Senator McCain. General Whitlow and Admiral Balisle, last 
month, OSD Comptroller Dov Zakheim testified before the Senate Armed 
Services Subcommittee on Readiness and Management Support that the 
decision to begin funding LHD-9 in the fiscal year 2003 budget was 
``done completely in conjunction with the Navy.'' He also stated that 
he doesn't ``like to blindside people. And [he] didn't blindside the 
Navy.'' General Whitlow, as the resource and requirements sponsor for 
amphibious ships, you no doubt were fully aware and closely involved 
with this decision. Given the fact that a Wasp-class LHD provides less 
lift capacity than the amphibious ship it would replace, would you 
please explain why Congress should support advance procurement for LHD-
9? Admiral Balisle, would you care to comment?
    General Whitlow and Admiral Balisle. As you are aware, the LHA(R) 
AoA is being conducted to determine the most suitable platform to 
replace the aging Tarawa-class LHAs. That study will report out in late 
June of this year. LHD is one of many of the alternatives being 
considered. If the advance procurement funding tied the Navy to a 
repeat, ``straight stick'' LHD design, it would indeed be 
predetermining the outcome of the AoA. However, I believe that the 
advanced procurement funding you are referring to will be utilized to 
conduct required R&D for the design determined to be best suited to 
replace the LHA and meet the requirements of expeditionary assault 
forces well into this century. That determination and decision is 
pending.

                        PURCHASING CRUISE SHIPS

    35. Senator McCain. Admiral Balisle, there are reports that the 
Navy is being approached to purchase a pair of unfinished cruise ships 
at the Northrup Grumman Shipyard in Pascagoula left behind when 
American Classic Voyagers went bankrupt for use as mobile housing or 
hospital ships. Is the Navy in anyway interested in purchasing such 
ships and is there a need for such ships?
    Admiral Balisle. A team of Navy engineers recently visited the 
partially completed passenger ships in Pascagoula, Mississippi, and 
concluded that the ships are not suitable for use as command and 
control ships due to their structural design and lack of military 
survivability features. We also looked at the ships' utility for other 
non-combat ship missions. While the ships are viable with modifications 
for use as hospital, recreational or berthing vessels, the Navy does 
not have a requirement or need for any more of these ship types today. 
Accordingly, the Navy has declined the offer to acquire or use the 
cruise ships under construction.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith

                       NAVAL SURFACE FIRES SYSTEM

    36. Senator Smith. Admiral Balisle, when the Navy in 1992 shifted 
to a ``brown water'' strategy from a ``blue water'' one, two Navy 
missions loomed large: providing our troops in the littoral with 
effective Naval Surface Fire Support (NSFS) and providing a forward 
presence show of force. The Navy has failed on both counts. In the 
meantime, we are in a state of war that could well bring us into a 
littoral conflict. All we would have is air support which often is too 
slow for tactical response and can be wiped out by bad weather (we saw 
both happen in Kosovo, for example). In a September 2001 interview, 
General Jones identified the ``absence of naval gunfire'' as the 
Marines' number one issue. I believe that the solution to both of these 
deficiencies is major caliber guns (12,, and above) and enough ship 
survivability for a visible show of force in high threat situations, 
which is especially important in our war on terrorism. What is the 
status of the NSFS in the mid-term, 3-7 years?
    Admiral Balisle. To address Marine Corps naval surface fire support 
requirements in the next 3-7 years (2005-2009), Navy is developing and 
fielding the following systems in the fiscal years indicated:
    Fiscal Year 2002--The 5,,/62-caliber Mk-45 Mod 4 gun is an improved 
version of the 5,,/54-caliber gun and incorporates structural 
improvements to accommodate higher energies required to fire the ERGM. 
In addition to firing the ERGM, the Mk-45 Mod 4 gun retains the 
capability to fire the current inventory of conventional 5,, ballistic 
ammunition. The Mk-45 Mod 4 gun is presently being fielded in Arleigh 
Burke-class destroyers (DDG-81-112) and is programmed for backfit in 
Ticonderoga-class cruisers as part of the cruiser conversion program.
    Fiscal Year 2002--Naval fires network (NFN) is being deployed to 
provide the network-centric infrastructure and processing capability 
(software and hardware) required to support carrier strike, surface 
strike, expeditionary, and fire support missions in support of joint, 
allied, and coalition forces. Its overarching goal, integrated with the 
distributed common ground station (DCGS) architecture, is to collect, 
process, facilitate fusion, and disseminate data from a variety of 
disparate, geographically separated, dissimilar joint sensors 
(including space-based sensors) and provide it to the warfighting 
community in a timely enough manner to identify, target, engage, and 
destroy enemy targets.
    Fiscal Year 2003--Naval fires control system (NFCS) is being 
deployed to provide naval surface fires mission planning and fire-
support coordination functions to support the extended ranges and 
precision accuracy of the improved Mk-45 Mod 4 (5,,/62-caliber) gun, 
ERGM, and potentially advanced gun system (AGS) and ALAM. This system 
provides the path and coordination functions for bringing naval guns 
and land attack missiles into the realm of network-centric warfare by 
receiving and executing digital fire missions directly from marines and 
soldiers ashore, from the USA/USMC advanced field artillery tactical 
data system (AFATDS) ashore and afloat, and from the Naval Fires 
Network ashore and afloat. NFCS will be fielded in Arleigh Burke-class 
destroyers (DDG-81-112) and backfit in Ticonderoga-class cruisers as 
part of the cruiser conversion program. 
    Fiscal Year 2005--The ERGM is a 5,,, guided, rocket-assisted 
projectile that is shot from a 5,,/62-caliber gun. Using the global 
positioning system (GPS), ERGM receives target location and satellite 
information prior to launch. During flight, the ERGM receives GPS 
information and updates its inertial navigation system. ERGM far 
exceeds the current range of ballistic projectiles (13nm) through the 
use of rocket assisted propulsion, aerodynamic shape, glide and 
increased initial velocity provided by a high energy propulsion charge 
in a 5,,/62-caliber gun. ERGM will be fielded in Arleigh Burke-class 
destroyers (DDG-81-112) and backfit in Ticonderoga-class cruisers as 
part of the cruiser conversion program.
    In the longer term, beyond fiscal year 20O9, DD(X) with the 
advanced gun system/long-range land attack projectile (AGS/LRLAP) will 
bring objective level naval fires capability to the force.

    37. Senator Smith. Admiral Balisle, have you given consideration to 
re-activating the U.S.S. Iowa and U.S.S. Wisconsin to fulfill this 
critical task of national defense?
    Admiral Balisle. The Navy has considered the relative advantages of 
reactivating the two battleships, listed on the Naval Vessel Register. 
However, the battleships do not meet future USMC naval surface fire 
support (NSFS) requirements (attachment 1) for expeditionary maneuver 
warfare. The Navy has undertaken an alternative strategy to better 
address NSFS requirements generated by the new operational concepts of 
operational maneuver from the sea (OMFTS) and ship to objective 
maneuver (STOM). Future weapons and platforms will be expected to 
routinely support operations hundreds of miles inland. The battleships 
provide outstanding support up to 27 miles. The current concept of 
operations for expeditionary warfare requires a much greater range to 
support greater maneuver and lift capabilities of our modern Marine 
forces.
    Two battleships (U.S.S. Iowa and U.S.S. Wisconsin) could not 
provide continuous world-wide, forward-deployed coverage, would not 
meet the emerging needs of warfare in the 21st century, and would be 
prohibitively expensive to operate, maintain, and support. Technology 
insertions required to upgrade battleships for interoperability with 
modern naval forces would be cost prohibitive. Battleships are manpower 
intensive and require more than three to five times the manning of a 
modern surface combatant. If reactivated, they would be unique in the 
fleet (unique weapon systems, engineering plants, training 
requirements, etc), and require an expensive infrastructure for support 
of only two ships. Therefore, reactivated battleships would compete for 
scarce funding with other critical surface Navy programs and reduce the 
total force capabilities available for littoral land attack operations. 
The high costs of operation, combined with limited battleship 
capability versus current USMC NSFS requirements, make battleship 
reactivation a high cost program of little military value.
    The Navy is moving forward from World War II vintage battleship 
capability with the following plan for developing systems to address 
Marine Corps NSFS requirements and fielding those systems in the fiscal 
years indicated:
    Fiscal Year 2002--The 5,,/62-caliber Mk-45 Mod 4 gun is an improved 
version of the 5,,/54-caliber gun and incorporates structural--
improvements to accommodate higher energies required to fire the ERGM. 
In addition to firing the ERGM, the Mk-45 Mod 4 gun retains the 
capability to fire the  current inventory of conventional 5,, ballistic 
ammunition. The Mk-45 Mod 4 gun is presently being fielded in Arleigh 
Burke-class destroyers (DDG-81-112) and is programmed for backfit in 
Ticonderoga-class cruisers as part of the cruiser conversion program.
    Fiscal Year 2002--Naval fires network (NFN) is being deployed to 
provide the network-centric infrastructure and processing capability 
(software and hardware) required to support carrier strike, surface 
strike, expeditionary, and fire support missions in support of joint, 
allied, and coalition forces. Its overarching goal, integrated with the 
distributed common ground station (DCGS) architecture, is to collect, 
process, facilitate fusion, and disseminate data from a variety of 
disparate, geographically separated, dissimilar joint sensors 
(including space-based sensors) and provide it to the warfighting 
community in a timely enough manner to identify, target, engage, and 
destroy enemy targets.
    Fiscal Year 2003--Naval fires control system (NFCS) is being 
deployed to provide naval surface fires mission planning and fire-
support coordination functions to support the extended ranges and 
precision accuracy of the improved Mk-45 Mod 4 (5,,/62-caliber) gun and 
ERGM. This system provides the path and coordination functions for 
bringing naval guns and land attack missiles into the realm of network-
centric warfare by receiving and executing digital fire missions 
directly from Marines and Soldiers ashore, from the USA/USMC advanced 
field artillery tactical data system (AFATDS) ashore and afloat, and 
from the naval fires network ashore and afloat. NFCS will be fielded in 
Arleigh Burke-class destroyers (DDG-81-112) and backfit in Ticonderoga-
class cruisers as part of the cruiser conversion program. 
    Fiscal Year 2004--The tactical Tomahawk (Tactom) weapons system 
provides a precision, all weather, unmanned, deep strike capability, 
and will greatly increase flexibility and responsiveness. The emerging 
requirement to engage targets from 100 to 200 nm will be met with the 
introduction of Tactom, as an interim NSFS missile solution. Tactom's 
loiter and enroute re-targeting capabilities provide support over 
extensive maneuver areas. New capabilities will include a two-way 
satellite communications link. This communications link will enable 
Tactom missiles to be redirected in flight. The data link will also 
enable the missile to report its in-flight status and anticipated 
impact accuracy. In addition, the missile will provide near real-time 
lookdown battle damage imagery enroute to its target.
    Fiscal Year 2005--The ERGM is a 5,, guided, rocket-assisted 
projectile that is shot from a 5,,/62-caliber gun. Using the global 
positioning system (GPS), ERGM receives target location and satellite 
information prior to launch. During flight, the ERGM receives GPS 
information and updates its inertial navigation system. ERGM, which 
will achieve ranges over 50 nm, far exceeds the current range of 
ballistic projectiles (13nm) through the use of rocket assisted 
propulsion, aerodynamic shape, glide and increased initial velocity 
provided by a high energy propulsion charge in a 5,,/62-caliber gun. 
ERGM will be fielded in Arleigh Burke-class destroyers (DDG-81-112) and 
backfit in Ticonderoga-class cruisers as part of the cruiser conversion 
program.
    In the longer term, DD(X) with the advanced gun system/long-range 
land attack projectile (AGS/LRLAP) and an ALAM will bring objective 
level naval fires capability to the force.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                  JOINT STRIKE FIGHTER VARIANT V/STOL

    38. Senator Smith. Admiral McCabe, I would like to get your 
response to a Wall Street Journal report and a Lexington Institute 
report. The reports state that the Navy may be considering a 37 percent 
reduction in the production and procurement of the Joint Strike Fighter 
(JSF) from 1,089 aircraft to 680. Perhaps this cut is driven by a 
desire to generate some sizeable cost savings as full production ramps 
up at the end of the decade. However, the reports raise the specter 
that the Navy may want to cut the Marine Corps V/STOL version of the 
JSF due to some questions about its perceived differences--fuel load, 
payload capacity, and so forth that were modified to get the V/STOL 
abilities. What is the validity of this report, and what is the Navy 
position on the Marine Corps V/STOL JSF variant?
    Admiral McCabe. In response to Defense Planning Guidance, the 
Department of the Navy has been hard at work on a study to analyze 
efficiencies and effectiveness of integration of Navy and Marine Corps 
tactical aviation. This study will provide valuable insight and a 
method to challenge our assumptions of the past in order to formulate a 
strategy for the future. The study's recommendations are under review 
by the Department of the Defense. It would be inappropriate to comment 
further until that review is complete.

                               SPACE USE

    39. Senator Smith. Admiral McCabe, what is the general status and 
intent of the Navy's plan for the use of space as an enabler and the 
defense of these assets that are becoming more and more important as we 
head into the era of netcentric?
    Admiral McCabe. In today's environment, naval forces have to think 
about many things in order to project power ashore: things like battle 
space characterization, target recognition, location and targeting, 
time critical strike, attack asset coordination and deconfliction, 
weapon selection, and then battle damage assessment.
    The Navy information technology for the 21st century (IT21) 
initiative accelerates the transition to an intranet and PC-based 
tactical and support warfighting network, enabling the reengineering of 
Navy mission and support processes. This strategy provides secure and 
unclassified internet protocol (IP) network connectivity for mobile 
Naval forces using satellite communications (SATCOM), direct line of 
sight communication paths, and commercial IT hardware and software. 
This is a major step towards quickly achieving the goals and standards 
of the global information grid, and a quantum leap forward into 
creating the infrastructure necessary to embark on true network-centric 
operations and knowledge management.
    The naval network is the convergence of afloat and ashore networks 
into a single, seamless network. This represents one of the first 
evolutionary steps towards transformation to network-centric 
operations. This network includes elements from the Marine Corps 
networks, Navy-Marine Corps intranet (NMCI) outside of the continental 
United States (OCONUS), and interfaces with the global information 
grid.
    The bottom line, we have to use assets in space to support naval 
forces as well as forces ashore to provide high data rate 
communications, meteorological and oceanographic support, navigation, 
precise time and non-organic intelligence, surveillance, 
reconnaissance, and targeting (ISRT).
    Ensuring the freedom of space and protecting U.S. national security 
interests in the medium are priorities for space use and space related 
activities. U.S. space systems are national property afforded the right 
of passage through and operations in space without interference in 
accordance with applicable U.S. and international law.
    Purposeful interference with U.S. space systems will be viewed as 
an infringement on our sovereign rights. The U.S. may take all 
appropriate measures, including, if directed by the President and 
Secretary of Defense, the use of force, to respond to such an 
infringement on U.S. rights, in accordance with applicable U.S. and 
international law.
    Consistent with applicable U.S. and international law, space 
control capabilities will be developed, operated, and maintained to 
ensure freedom of action in space for the U.S. and its allies and, if 
directed, deny such freedom of action to adversaries. These space 
control capabilities will include capabilities for protection, 
prevention, negation, surveillance of space and the supporting battle 
management, command, control, communications, computers, intelligence 
surveillance, and reconnaissance.

    [Whereupon, at 4:36 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
